<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                        WEDNESDAY, MARCH 2, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senators Landrieu, Lautenberg, Coats, Cochran, 
Murkowski, and Moran.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF HON. JANET NAPOLITANO, SECRETARY


             opening statement of senator mary l. landrieu


    Senator Landrieu. Good morning. I would like to call our 
subcommittee to order for the purpose of considering the 
Department's budget for 2012.
    Let me first welcome our new ranking member, Senator Coats. 
I am pleased to work with Senator Coats in the next 2 years and 
really appreciate his leadership in this area.
    Welcome, Madam Secretary. We are happy to have you present 
your budget this morning. You lead a Department of 221,000 men 
and women who are on the front lines every day protecting our 
Nation and our citizens. And we commend those employees for 
their dedication and their hard work. They are in our airports, 
our ports, along our borders, considering the intelligence 
coming in all over our country, we appreciate their work and we 
appreciate your leadership.
    My goal is to produce a bipartisan, fiscally responsible 
Homeland Security bill for fiscal year 2012 that provides this 
Department with the resources it needs to prepare for, respond 
to, and recover from all threats, manmade and natural. I share 
your commitment to the goals established in the Quadrennial 
Homeland Security Review: preventing terrorism, securing our 
borders, enforcing our immigration laws, safeguarding 
cyberspace, and ensuring resiliency in the face of natural or 
manmade disasters.
    Securing this Nation is not just, as you know, Madam 
Secretary, a Federal Government responsibility. State and local 
governments share that responsibility, and frankly, as well as 
many of our corporations who are doing their part and 
individual citizens as they are trained to recognize threats 
that potentially are occurring in their local communities. This 
Department must--I believe--serve as leaders and educators in 
helping our State and local governments and corporations, 
serving as a model for them, as well as encouraging our private 
citizens to do their part.
    As we approach the 10th anniversary of the 9/11 attacks, 
the 8th anniversary of the creation of the Department, and the 
6th anniversary of the catastrophic levee failures which caused 
horrific destruction in and around the city of New Orleans, the 
hurricanes of Katrina and Rita along the gulf coast, we must 
not let our guard down. We must remember the lessons of those 
horrific events and, even without the imminent threat right 
before us, not fail to remember what we learned on those 
terrible occasions. We must have the fortitude and the 
discipline and the tenacity I think, Senator Coats and others, 
to continue to fund adequately this effort and not become lax 
or distracted.
    In the State of the Union Address, the President said that 
al Qaeda and its affiliates continue to plan attacks against 
us. He said, ``as extremists try to inspire acts of violence 
within our borders, we are responding with the strength of our 
communities and with respect to the rule of law.'' Secretary 
Napolitano, you have stated that the terrorism threat is at the 
highest level since 9/11. That is a statement that we should 
pay attention to.
    We will be mindful of those statements as we consider the 
President's request for this 2012 year. I am supportive of 
reducing spending where we can, obviously eliminating mediocre 
programs or duplicative programs. But I do not believe the 
notion of reducing spending arbitrarily to a 2008 level for 
this Department makes any sense.
    The Coast Guard would have to eliminate 2,400 personnel and 
its recapitalization program would be terminated. We saw what 
the Coast Guard did in responding to the BP oil spill. I do not 
believe a cutback there is smart.
    We would have to eliminate the national security cutter, 
the fast response cutter, and the marine patrol aircraft. The 
number of customs officers at our ports of entry would be 
reduced by more than 1,600. The number of Border Patrol 
agents--Senator McCain has fought very hard, along with others, 
to secure more personnel at our borders, not less, and I will 
not support a budget that reduces that number by 3,500.
    Reducing funding for the Transportation Security 
Administration to levels before the Christmas Day bombing 
attempt would be reckless. We know that there are attempts to 
take down aircraft in America that are ongoing. We have been 
successful in preventing it so far. This budget supports our 
effort to continue to be successful.
    We would have 775 fewer scanners at our airports, 4,000 
fewer screeners, 330 fewer air cargo inspectors, and 235 fewer 
canine teams. Under my leadership, we will not go in that 
direction.
    I believe the President has submitted a fiscally 
responsible budget for this Department. Of course, we will have 
some issues within the Department. I look forward to working 
with my ranking member to find a way forward that provides the 
resources necessary, however, to keep our Nation and our 
citizens safe.


                           prepared statement


    Following Senator Coats's opening statement, we will hear 
from you Madam Secretary, because our schedule has changed. I 
wanted the members to have time for opening statements, but I 
am going to ask them to submit them for the record because a 
vote has been called for 11 o'clock.
    But let me turn to my ranking member and thank Senator 
Cochran for joining us this morning.
    [The prepared statement follows:]

             Prepared Statement of Senator Mary L. Landrieu

    Good morning.
    Secretary Napolitano, you lead a Department of 221,000 men and 
women who are on the front lines every day protecting our citizens. We 
commend those employees for their dedication and their service and we 
welcome you to this subcommittee hearing today. I also welcome Senator 
Dan Coats, our new ranking member. I look forward to working with you 
and hearing from all of our subcommittee members this year.
    My goal is to produce a bipartisan, fiscally responsible Homeland 
Security bill for fiscal year 2012 that provides the Department with 
the resources it needs to prepare for, respond to, and recover from all 
threats, both man-made and natural. I share your commitment to the 
goals established in the Quadrennial Homeland Security Review, 
preventing terrorism, securing the borders, enforcing our immigration 
laws, safeguarding cyberspace, and ensuring resilience to disasters.
    Securing this Nation is not just about the Federal Government. We 
must also serve as leaders and educators in helping State and local 
governments, the private and nonprofit sectors, and our citizens in 
achieving these goals.
    As we approach the 10th anniversary of the 9/11 attacks, the 8th 
anniversary of the creation of this Department, and the 6th anniversary 
of Hurricanes Katrina and Rita, we must all learn from history while 
confronting the evolving threats to this Nation.
    In the State of the Union Address, the President said that al Qaeda 
and its affiliates continue to plan attacks against us. He said, ``as 
extremists try to inspire acts of violence within our borders, we are 
responding with the strength of our communities, and with respect for 
the rule of law''. Secretary Napolitano, you have stated that the 
terrorism threat is at its highest level since 9/11.
    We will be mindful of those statements as we consider the 
President's request for fiscal year 2012. While I am supportive of 
reducing spending, I do not believe the notion of reducing spending to 
2008 levels is either appropriate or responsible for the Department of 
Homeland Security. The Coast Guard would have to eliminate 2,400 
personnel and its recapitalization program would be terminated, 
including the national security cutter, the fast response cutter, and 
the maritime patrol aircraft. The number of Customs officers at our 
ports of entry would be reduced by more than 1,600, reducing security 
and extending wait times. The number of Border Patrol agents would be 
reduced by more than 3,500, reversing the progress we have made in 
securing our borders. Reducing funding for the Transportation Security 
Administration to levels before the Christmas Day bombing attempt would 
be absurd. We would have 775 fewer scanners at our airports, 4,000 
fewer screeners, 330 fewer air cargo inspectors, and 235 fewer canine 
teams. Under my leadership, we will not go down that road.
    I believe the President has submitted a responsible, fiscally 
prudent budget for the Department of Homeland Security. Of course, we 
have some issues with the budget which we will discuss today, and I 
look forward to hearing from the Secretary.
    Following Senator Coats' opening statement, each member will be 
recognized for up to 3 minutes for opening remarks. After the opening 
remarks, we will hear from Secretary Napolitano. After, we hear from 
the Secretary, each member will be recognized, based on order of 
arrival, for up to 5 minutes for questions. I now recognize Senator 
Coats for any opening remarks he may wish to make.

                   STATEMENT OF SENATOR DANIEL COATS

    Senator Coats. Madam Chairman, thank you. I am pleased to 
join you on this subcommittee, my first venture here. So I will 
probably have more questions than answers, but I look forward 
to the testimony.
    Secretary Napolitano, thank you for being here this morning 
and reaching out yesterday with a courtesy call for me and 
being willing to sit down and talk through difficult, 
challenging issues at a difficult, challenging time. So I 
appreciate that very much.
    I never thought I would be sitting in a superior position 
to Senator Cochran on any committee anywhere, including lunch. 
But it is a pleasure to be with you, Thad, and I appreciate 
your leadership over the years of this subcommittee and ranking 
membership is duly noted.
    Madam Secretary, I do not think any of us question that we 
are in difficult fiscal times. Also no one questions whether or 
not we have security threats that we need to address and need 
to protect the American people from incursions and unwanted 
terrorist activity and to do everything we can to provide for 
homeland security. So there comes the challenge for all of us.
    The current budget that the President has announced is an 
increase over previous years. As you know, the Congress is 
looking for ways to try to do more with less. The question I 
think comes in terms of how we can provide effective service 
and fulfill our obligations in providing for the security of 
our country, at the same time trying to do it in a more 
efficient way. We are not asking for no Government here. We are 
asking for more efficient Government, and working together, I 
think, to try to achieve that should be one of our goals.
    As I look at your budget, a couple of things come to mind, 
and I just might mention those and we can discuss them during 
the hearing and afterwards.
    The budget indicates--I think assumes--that there will be 
an increase in aviation passenger security fees and that those 
fees will start rolling in in the third quarter of fiscal year 
2012. Yet, none of that is assured yet, and I am told that that 
is a mark of nearly $590 million in additional collections. And 
so I would like to pursue that question with you.
    Second, the budget continues to request operations for 
disaster relief based on historical obligations for 
noncatastrophic events and assumes that large catastrophic 
events are rare and should be funded strictly by supplemental 
emergency appropriations. As you know, the reality is that 
those large catastrophic events result in year after year after 
year of follow-up funding, and whether that should be done by 
emergency supplemental or budgeted is, I think, a fundamental 
question that we have to address. My understanding is that for 
fiscal year 2011, the amount necessary to provide for 
continuing work post-Katrina, post other catastrophic 
occurrences is $1.6 billion, an amount that is not put into the 
President's budget. And so when you add all this up, I think it 
totals around $3 billion not included in the 2012 request. How 
we are going to reconcile that, I think, is going to be a 
challenge for us all.
    And of course, those assumptions often come in low. We have 
seen occurrences of more and more violent storms and 
catastrophic events, whether it is flooding, wildfires, 
hurricanes, or other disasters.
    There are a couple of other areas that I would like to talk 
about, but we can wait until question time. Again, I thank you 
for being here and look forward to a year of good, solid work 
in terms of trying to do more with less funds, but do it more 
efficiently. Every family in America, every business in 
America, almost every State in the Union has had to face up to 
this challenge, and the Federal Government is going to need to 
do so also.
    Thank you.
    Senator Landrieu. Thank you, Senator, for those remarks.
    I want to acknowledge Senator Lautenberg who has joined us. 
He chaired this subcommittee in the interim after the death of 
Chairman Byrd, and Senator, thank you for your leadership.

                          DISASTER RELIEF FUND

    We are going to go right into questions in the order of 
appearance. Let me begin following up on what Senator Coats 
said about the disaster relief fund, Madam Secretary, which is 
particularly of interest to gulf coast leaders. But frankly, 
with the catastrophes in Rhode Island, the flooding in 
Tennessee, and fires and tornadoes in other parts of the 
country, there are many members that are very concerned.
    For fiscal year 2011, the current year we are in, we are 
facing a $1.6 billion gap in the disaster relief fund. If the 
President does not request and the Congress does not approve 
supplemental funding, that account under our calculations will 
literally run out of money in June, only a few months from now, 
just as we are entering hurricane season.
    For fiscal year 2012, the problem is even worse because we 
are facing a $3 billion gap based on known costs. These are not 
projections or speculations. These are known costs of past 
disasters.
    In fiscal year 2010, there was a similar shortfall. FEMA 
had to stop providing assistance for rebuilding and recovery 
projects. Many of those were in my home State. Some of them 
were in Senator Cochran's home State of Mississippi, but they 
were all over the country. Unfortunately, this problem looks 
like it is repeating itself, and I would like to head it off, 
if we can, at the pass.
    During the last hearing before the authorizing committee, 
you said it is ``really nonnegotiable'' when asked about the 
looming crisis. You said we have to pay for these disasters. It 
is our responsibility.
    Do you believe that the President is going to send up a 
supplemental to request this funding, and if so, when? Because 
if we have to cut $1.6 billion out of the base Homeland 
Security budget, that will cut the Coast Guard, that will cut 
FEMA, that will cut grants to State and local responders, and 
basically we will be cutting current disaster response teams to 
pay for past disasters. To me that does not make any sense. Do 
you think the President will send up a supplemental and would 
you support it?
    Secretary Napolitano. Well, thank you, Senator, and thank 
you for this hearing. I am pleased to be here before you, 
Ranking Member Coats, other members of the subcommittee.
    I do have an opening statement and I will just simply ask 
that that be inserted.
    Senator Landrieu. Please go right ahead with your opening 
statement.
    Secretary Napolitano. Well, I am happy to go right to 
questions, if you want to do that.
    Senator Landrieu. No, no, no. You go right to your opening 
statement. I am very sorry. And then you can take that 
question.
    Secretary Napolitano. All right.
    Senator Coats. Maybe it will be happier.
    Senator Landrieu. Yes. Maybe it will be easier than my 
question.
    Senator Landrieu. Go right ahead.
    Senator Coats. Whatever works best.
    Secretary Napolitano. Well, why don't I answer the question 
and then I will give the opening statement?
    Senator Landrieu. Thank you.
    Secretary Napolitano. You have identified one of the issues 
that we will have to work together on and we look forward to 
working with the subcommittee on.
    One of the things that the numbers do not reflect yet is 
our effort to deobligate funds that have been set aside to pay 
for past disasters that no longer are necessary. In other 
words, we have been able to go backwards and say, well, we set 
aside this amount and in fact we did not need that amount of 
money. So in fiscal year 2010, for example, we restored $2 
billion to the DRF by process of deobligation. That is what it 
is called. And so we look forward to continuing that strategy 
as we move forward to refill the DRF with deobligated funds.
    Now, will that be enough to cover expenses for fiscal year 
2011 and fiscal year 2012? Probably not without a supplemental 
of some sort. So we anticipate that the administration will 
submit a supplemental for the DRF. This has been the historical 
practice under Republican and Democratic administrations. I 
think the reason the practice started was because of the 
difficulty of predicting ultimately what the DRF will be 
required to cover. So the administration has carried forward 
with that historical practice, but nonetheless, I think it is 
fair to say, Madam Chair, that a supplemental will be 
necessary.
    Senator Landrieu. Thank you and please go on with your 
opening statement.

                 SUMMARY STATEMENT OF JANET NAPOLITANO

    Secretary Napolitano. Well, let me begin again by thanking 
you for the opportunity to discuss the President's fiscal year 
2012 budget for the Department of Homeland Security.
    I think it is fair to say that the demands on DHS have 
never been greater. This is especially true as we remember 
those at the Department who have given their lives in service 
of the mission of securing our country, including just in the 
past weeks and months, Border Patrol Agent Brian Terry and ICE 
Special Agent Jaime Zapata.
    Now, Mexico is leading the investigation into the death of 
Agent Zapata. We are supporting them through a joint DOJ/DHS 
task force that the Attorney General and I announced 2 weeks 
ago. Recently, Mexican authorities have apprehended some of the 
alleged killers of Agent Zapata, and we are conducting a number 
of operations in the United States related to the drug cartels 
that plague that country.
    I can speak for the entire administration when I say we are 
not only saddened by the loss of an agent, we are outraged by 
this act of violence against an officer of the United States. 
And make no mistake, justice will be brought to all of those 
involved. We owe nothing less to the memory of our agent, Agent 
Zapata, and to those who are still on the job in Mexico.
    But the loss of these great agents is a stark reminder of 
the sacrifices made by the men and women of DHS every day. It 
also strengthens our resolve to continue to do everything in 
our power to protect against, mitigate, and respond to threats 
and to make our Nation more resilient for years to come.
    Today's threat picture features adversaries who evolve 
quickly and are determined to strike us here at home--from the 
aviation system and the global supply chain to surface 
transportation, critical infrastructure, and our cyber 
networks.
    We are leading the administration's unprecedented effort to 
secure our Southwest Border, coupled with a smart and effective 
approach to enforcing immigration laws in the interior of our 
country. And we continue to prepare for, respond to, and 
recover from disasters of all types.
    President Obama's fiscal year 2012 budget for the 
Department allows us to continue to meet these evolving threats 
and challenges by prioritizing our essential operational 
requirements while reflecting an unprecedented commitment to 
fiscal discipline that maximizes the effectiveness of every 
security dollar that we receive.
    Reflecting the current fiscal environment, in building the 
fiscal year 2012 budget, all DHS components identified savings 
associated with the Department's 33 efficiency review 
initiatives, and we cut administration and overhead, including 
my own office's budget, by more than $800 million. Savings were 
realized through efficiencies in acquisition, asset, and real 
property management, as well as employee vetting and 
credentialing, hiring and on-boarding, and information 
technology. We cut professional services contracts, travel, and 
nonmission-critical training.
    We also delayed construction of FEMA at the new DHS 
headquarters at St. Elizabeths and deferred office 
collocations, as well as building maintenance and enhancements.
    My written statement includes a comprehensive list of the 
operational priorities in the budget request, and today I would 
like to highlight a few of them for you here, even as I request 
that the full statement be admitted in your record.
    First, preventing terrorism and enhancing security was the 
founding mission of DHS. It remains our top priority today. 
This budget safeguards transportation modes through a layered 
detection system, including the deployment of additional 
transportation security officers, behavioral detection 
officers, canine teams, and advanced imaging technology 
machines at domestic airports while expanding watch list 
vetting through the secure flight program and enhancing 
screening and targeting of international travelers before they 
board U.S.-bound flights through the immigration advisory 
program.
    The budget also strengthens surface transportation security 
by supporting 12 new multimodal VIPR teams. The acronym stands 
for ``Visible Intermodal Prevention and Response.'' These teams 
conduct operations throughout the transportation sector to 
prevent potential terrorist activity.
    The request also provides funding for the Securing the 
Cities program to protect our highest risk cities from a 
radiological or a nuclear attack and makes a significant 
investment in the National Bio- and Agro-Defense Facility which 
will provide enhanced diagnostic capabilities to protect our 
country from foreign animal and emerging diseases.
    The request expands support for the national network of 
State and local fusion centers to enhance baseline capabilities 
and local law enforcement with the tools they need to address 
threats in their communities.
    Now, to secure and manage our borders, the request 
continues the administration's historic border security efforts 
by supporting 21,370 Border Patrol agents and 21,186 U.S. 
Customs and Border Protection officers, both all-time highs. 
The budget also includes $242 million for the continued 
deployment of proven, effective surveillance technology along 
the highest trafficked areas of the Southwest Border to better 
meet the operational requirements of our agents on the front 
lines.
    For the Northern Border, this budget request supports 
investments in technology tailored to the maritime and cold 
weather environment, including proven standalone technology to 
provide immediate operational benefits.
    And for our Nation's maritime borders, this budget includes 
funding to continue the essential national security cutter 
program and makes historic investments to recapitalize the 
Coast Guard's aging assets, including 6 fast response cutters, 
40 response boats, as well as a sizable investment in the 
renovation and restoration of aging shore facilities.
    The budget request also continues the Department's focus on 
smart and effective enforcement of our U.S. immigration laws, 
while streamlining and facilitating the legal immigration 
process. Building on our record over the past 2 years, the 
Department will continue to prioritize the identification and 
removal of criminal aliens who pose a threat to public safety, 
and target employers who knowingly and repeatedly break the 
law. This request enables ICE to fund 33,400 detention beds, 
remove more than 200,000 criminal aliens, and deploy Secure 
Communities to 96 percent of all jurisdictions nationally in 
fiscal year 2012, while promoting compliance with worksite-
related laws through criminal prosecution of egregious 
employers. Form I-9 inspections and continued expansion and 
enhancements of E-Verify are included.
    The request funds integration efforts, including programs 
supporting English-language and citizenship education, and 
continues detention reform efforts currently underway.
    Now, to safeguard and secure cyberspace, the budget 
increases resources to identify and reduce vulnerabilities in 
our Nation's key cyber networks. It includes significant 
investments to expedite the deployment of Einstein 3 to prevent 
and detect intrusions on Government computer systems, increase 
Federal network security of large and small agencies, and 
continue to develop a robust cybersecurity workforce to protect 
against and respond to cybersecurity threats. The budget also 
focuses on combating cyber crime and preventing attacks against 
United States critical infrastructure.
    Now, to ensure resilience to disasters, as you mentioned, 
Madam Chair, the budget request focuses on moving resources out 
of Washington, DC, and into the hands of State and local 
responders who are often best positioned to detect and respond 
to terrorism, to natural disasters, and to other threats by 
sustaining Federal funding for State and local preparedness 
grants, providing $3.8 billion in fiscal year 2012. The funding 
also includes $670 million for assistance to firefighter 
grants, including $420 million to rehire an estimated 2,300 
laid-off firefighters and retain veteran first responders.
    Now, to lead and support essential national security and 
economic security efforts, the budget expands the Coast Guard's 
operational capacity by funding 50,682 military and civilian 
positions and establishing the Coast Guard's first incident 
management assistance team, which will be deployed rapidly to 
support incidents of national significance.
    It also continues to support ICE and CBP's enforcement and 
investigative efforts to protect U.S. intellectual property 
rights, as well as the Secret Service's state-of-the-art 
forensic support for the National Center for Missing and 
Exploited Children.
    Madam Chair, this budget is the culmination of a major, 
first-of-its-kind effort by the Department through the 
Quadrennial Homeland Security Review and the associated Bottom-
Up Review to align our resources with a comprehensive strategy 
to ensure a safe, secure, and resilient homeland while making 
an unprecedented commitment to fiscal discipline.

                           PREPARED STATEMENT

    I would be remiss, however, if I did not note all of this 
progress is at risk in the continuing resolution passed by the 
House. This is the full fiscal year 2011 resolution. That 
proposal cuts technology investments and security improvements 
on the Southwest and Northern Borders. It cuts aviation 
security measures. It cuts funding to sustain the progress that 
has been made in enforcing the Nation's immigration laws. It 
cuts critical cybersecurity tools and operations. It cuts 
intelligence personnel. It cuts Coast Guard funding to support 
our war efforts abroad, and it cuts grants that support 
counter-terrorism and disaster response capabilities at the 
local level.
    Chairman Landrieu, Senator Coats, members of the 
subcommittee, thank you for this opportunity to testify. I am 
happy to continue to answer your questions.
    [The prepared statement follows:]

            Prepared Statement of Secretary Janet Napolitano

    Chairman Landrieu, Ranking Member Coats, and members of the 
subcommittee: Let me begin by saying thank you to this subcommittee for 
the strong support you have provided me and the Department over the 
past 2 years. I look forward to continuing to work with you in the 
coming year to protect the homeland and the American people.
    I am pleased to appear before the subcommittee today to present 
President Obama's fiscal year 2012 budget request for the Department of 
Homeland Security (DHS).
    The demands on DHS have never been greater and the threats we face 
pose new challenges that require an innovative and focused response. 
Today's threat picture features an adversary who evolves and adapts 
quickly and who is determined to strike us here at home--from the 
aviation system and the global supply chain to surface transportation 
systems, critical infrastructure, and cyber networks. The Department's 
fiscal year 2012 budget allows us to continue to meet these evolving 
threats and challenges by prioritizing our essential operational 
requirements--while reflecting an unprecedented commitment to fiscal 
discipline that maximizes the effectiveness of every security dollar we 
receive.
    Reflecting the current economic environment, we are preserving 
essential frontline operations and bolstering our operational strength 
by decreasing administration and overhead, including the overall budget 
for the Office of the Secretary and Executive Management. All DHS 
Components identified reductions associated with the Efficiency Review 
initiatives currently underway as well as administrative savings 
totaling nearly $800 million to strengthen mission-critical activities 
across the Department. Savings were accomplished through efficiencies 
in acquisition, asset, and real property management as well as employee 
vetting/credentialing, hiring/on-boarding, and information technology; 
and administrative savings through reductions to professional services 
contracts, printing, supplies and materials, travel, and training. The 
Department also proposes to delay construction of the Federal Emergency 
Management Agency (FEMA) headquarters at St. Elizabeths as well as the 
deferral of other office colocations, and building maintenance and 
enhancements to prioritize frontline security operations.
                    fiscal year 2012 budget request
    The fiscal year 2012 budget request for DHS is $57.0 billion in 
total funding, $47.4 billion in gross discretionary funding, and $43.2 
billion in net discretionary funding.\1\
---------------------------------------------------------------------------
    \1\ For purposes of comparison to prior year funding levels, 
funding for overseas contingency operations and National Science 
Foundation transfers are not included in these figures.
---------------------------------------------------------------------------
    DHS's fiscal year 2012 budget request is the culmination of a 
major, first of its kind effort undertaken by the Department to align 
DHS resources with a comprehensive strategy to meet our Nation's 
homeland security needs. Last year, DHS completed the first ever 
Quadrennial Homeland Security Review (QHSR), which established a 
unified, strategic framework for Homeland Security missions and goals, 
as well as the first ever Bottom-Up Review (BUR), which aligned DHS' 
programmatic activities and organizational structure to better serve 
those missions and goals. The third and final step of this process is 
the fiscal year 2012 budget submission, which begins the next phase in 
strengthening DHS efforts to ensure a safe, secure, and resilient 
homeland.
    This process identified six DHS missions, each of which is 
strengthened by this budget:
    Mission 1: Preventing Terrorism and Enhancing Security.--Protecting 
the United States from terrorism is the cornerstone of Homeland 
Security. DHS's counterterrorism responsibilities focus on three goals: 
preventing terrorist attacks; preventing the unauthorized acquisition, 
importation, movement, or use of chemical, biological, radiological, 
and nuclear materials and capabilities within the United States; and 
reducing the vulnerability of critical infrastructure and key 
resources, essential leadership, and major events to terrorist attacks 
and other hazards.
    Mission 2: Securing and Managing Our Borders.--DHS secures the 
Nation's air, land, and sea borders to prevent illegal activity while 
facilitating lawful travel and trade. The Department's border security 
and management efforts focus on three interrelated goals: effectively 
securing U.S. air, land, and sea borders; safeguarding and streamlining 
lawful trade and travel; and disrupting and dismantling transnational 
criminal and terrorist organizations.
    Mission 3: Enforcing and Administering Our Immigration Laws.--DHS 
is focused on smart and effective enforcement of U.S. immigration laws 
while streamlining and facilitating the legal immigration process. The 
Department has fundamentally reformed immigration enforcement, focusing 
on identifying and removing criminal aliens who pose a threat to public 
safety and targeting employers who knowingly and repeatedly break the 
law.
    Mission 4: Safeguarding and Securing Cyberspace.--By statute and 
presidential directive, DHS has the lead for the Federal Government to 
secure civilian government computer systems and works with industry and 
State, local, tribal, and territorial governments to secure critical 
infrastructure and information systems. DHS analyzes and reduces cyber 
threats and vulnerabilities; distributes threat warnings; and 
coordinates the response to cyber incidents to ensure that our 
computers, networks, and cyber systems remain safe.
    Mission 5: Ensuring Resilience to Disasters.--DHS provides the 
coordinated, comprehensive Federal response in the event of a terrorist 
attack, natural disaster or other large-scale emergency while working 
with Federal, State, local, and private sector partners to ensure a 
swift and effective recovery effort. The Department's efforts to build 
a ready and resilient Nation include fostering a community-oriented 
approach; bolstering information sharing; improving the capability to 
plan; and providing grants and training to our Homeland Security and 
law enforcement partners.
    Mission 6: Providing Essential Support to National and Economic 
Security.--DHS leads and supports many activities that provide 
essential support to national and economic security including, but not 
limited to: maximizing collection of customs revenue; maintaining the 
safety of the marine transportation system; preventing the exploitation 
of children; providing law enforcement training; and coordinating the 
Federal Government's response to global intellectual property theft. 
DHS contributes in many ways to these elements of broader U.S. national 
and economic security while fulfilling its other five Homeland Security 
missions.
    The following are highlights of the fiscal year 2012 budget:
              preventing terrorism and enhancing security
    Advanced Imaging Technology (AIT).--$105.2 million and 535 
positions are included for the Transportation Security Administration 
(TSA) to purchase, install, and operate 275 AITs at airport 
checkpoints. The fiscal year 2012 request, combined with prior 
requests, will result in 1,275 AIT units deployed by the end of 2012. 
The requested funding covers the cost of new Transportation Screening 
officers and managers to operate the new AITs, as well as the 
associated support and airport management costs. Continuing to increase 
AIT deployments while ensuring privacy safeguards are in place is 
critical to address the current threat by safely screening passengers 
for metallic and nonmetallic threats--including weapons, explosives and 
other objects concealed under layers of clothing.
    Explosives Detection Systems (EDS).--$273 million is requested to 
support the recapitalization and deployment of state-of-the-art EDS for 
checked baggage to efficiently screen baggage for explosives, reducing 
the number of rescans and physical bag searches. Beginning in fiscal 
year 2012, more than 800 EDS in our largest airports will exceed their 
planned 10-year service life.
    Assistant Field Security Directors-Law Enforcement (AFSD-LEs).--
Requested funding of $22.5 million supports 82 AFSD-LEs currently 
deployed and provides 22 additional AFSD-LEs for major airports, where 
they serve as the primary liaison to local law enforcement as AIT 
expansion continues.
    Federal Air Marshal Service (FAMS).--The fiscal year 2012 budget 
requests funds to maintain the FAMS surge deployment levels for 
domestic and international flight coverage that began in response to 
the attempted terrorist attack on December 25, 2009. Members of the 
FAMS, TSA's law enforcement entity, are deployed on flights around the 
world and the United States based on risk in order to detect, deter, 
and defeat hostile acts targeting U.S. air carriers, airports, 
passengers, and crews.
    Enhanced Watchlist Vetting.--$12.4 million is proposed for 
maintaining the expanded watchlist vetting initiative, which, through 
the Secure Flight program, enables TSA to identify individuals who may 
present a threat to passenger air travel. Through Secure Flight, TSA 
prescreens passenger name, date of birth, and gender against terrorist 
watchlists before passengers receive their boarding passes. In addition 
to facilitating secure travel for all passengers, the program helps 
prevent the misidentification of passengers who have names similar to 
individuals on government watchlists.
    Immigration Advisory Program (IAP).--A total request of $14.1 
million will permit the IAP to expand in Paris, Abu Dhabi, Dubai, and 
Amman. IAP is a part of Custom and Border Protection's (CBP) layered 
risk-based security approach, which includes working with international 
partners to post CBP officers at foreign airports and use advanced 
targeting and passenger analysis information to identify high-risk 
travelers at foreign airports before they board U.S.-bound flights.
    Behavior Detection Officers (BDOs).--The fiscal year 2012 budget 
request of $236.9 million funds 3,336 BDOs, which includes 350 new 
positions. BDOs serve as an additional layer of security in airports by 
providing a nonintrusive means of identifying individuals who may pose 
a risk of terrorism or criminal activity.
    Canine Teams.--Requested funding of $125.7 million allows TSA to 
sustain the deployment of 900 canine teams supported by reallocations 
made under the continuing resolution, providing an important layer of 
security to complement passenger checkpoint screening at airports, 
assist in air cargo screening and enhance security in the mass transit 
environment.
    Visible Intermodal Prevention and Response (VIPR) Teams.--$109 
million requested supports 37 VIPR teams and includes 12 new multi-
modal VIPR Teams proposed in the fiscal year 2012 request in addition 
to the 10 existing teams in Aviation and the 15 VIPR teams dedicated to 
surface transportation added in the fiscal year 2010 budget. VIPR teams 
are comprised of personnel with expertise in inspection, behavior 
detection, security screening, and law enforcement for random, 
unpredictable deployments throughout the transportation sector to deter 
potential terrorist and criminal acts.
    Passenger Security Fee.--The fiscal year 2012 budget reflects a 
proposal to increase the Aviation Passenger Security Fee by $1.50 per 
enplanement beginning in 2012. The Aviation Passenger Security fee has 
not changed since the TSA was established following the events of 9/11, 
even though the overall cost of aviation security has grown by more 
than 400 percent. The administration's proposal makes progress towards 
fulfilling the intent of the Aviation and Transportation Security Act 
to cover the costs of aviation security through fees and not by the 
general taxpayers.
    BioWatch Gen 1/2.--$90 million is requested to continue operating 
the Gen 1/2 BioWatch detection network, a federally managed, locally 
operated, nationwide bio-surveillance system designed to detect the 
intentional release of aerosolized biological agents in more than 30 
cities.
    BioWatch Gen-3.--The fiscal year 2012 budget provides $25 million 
to continue Gen-3 development, which is expected to significantly 
reduce the time between a release of a biothreat agent and confirmation 
of that release by BioWatch technology. Operational testing and 
evaluation of Gen-3 technology will begin in one of four test cities in 
fiscal year 2012 with full deployment expected in fiscal year 2014.
    Securing the Cities.--$27 million is requested for Securing the 
Cities to continue the build-out of the domestic portion of the global 
nuclear detection architecture, the multi-layered system of detection 
technologies, programs, and guidelines designed to enhance the Nation's 
ability to detect and prevent a radiological or nuclear attack in our 
highest risk cities.
    Radiological/Nuclear Detection Systems.--The fiscal year 2012 
budget requests $57 million for the procurement and deployment of 
radiation portal monitors and human portable radiation detection 
systems, providing vital detection equipment to CBP and the U.S. Coast 
Guard to scan for radiological and nuclear threats.
    Countermeasures and 2012 Presidential Candidate Nominee 
Protection.--The fiscal year 2012 request funds critical Secret Service 
operations and countermeasures to protect the first family and visiting 
dignitaries, including the 2012 presidential campaign and three 
anticipated National Special Security Events (NSSEs). The budget also 
restores the Secret Service's base funding--supporting the replacement 
of protective equipment, vehicles, training of personnel, and other 
infrastructure to allow the Secret Service to improve the execution of 
its protective and investigatory missions.
    National Network of Fusion Centers.--The fiscal year 2012 budget 
expands support for the national network of fusion centers in order to 
provide State and local law enforcement with the tools they need to 
address threats in their communities. The request focuses on 
integrating and coordinating cross-department and cross-government 
interaction with fusion centers focused on enhancing baseline 
capabilities.
    State and Local Law Enforcement Training.--The fiscal year 2012 
budget provides funding to train 64,000 individual Federal, State, and 
local law enforcement personnel through the Federal Law Enforcement 
Training Center and its total budget of $276 million.
    National Bio- and Agro-Defense Facility (NBAF).--$150 million is 
requested to begin construction of the NBAF, which will serve as a new, 
state-of-the-art biosafety level 3 and 4 facility. Work performed at 
NBAF will lead to the development of vaccines and antivirals and 
enhanced diagnostic capabilities for protecting our country from 
numerous foreign animal and emerging diseases.
                   securing and managing our borders
    CBP Law Enforcement.--The fiscal year 2012 budget supports 21,370 
Border Patrol agents and 21,186 CBP officers at our ports of entry who 
work 24/7 with State, local, and Federal law enforcement in targeting 
illicit networks trafficking in people, drugs, illegal weapons, and 
money. This reflects the largest deployment of law enforcement officers 
to the front line in the agency's history. The request annualizes 
positions supported by the fiscal year 2010 Emergency Border Security 
Supplemental for the Southwest Border, including 1,000 Border Patrol 
agents and 250 CBP officers. Funding is provided to support 300 new CBP 
officers above the fiscal year 2011 budget and additional canine assets 
to support Port of Entry operations. The request supports the mobile 
response surge teams created with the supplemental funding to respond 
rapidly to emergent situations without depleting Border Patrol staffing 
from other locations.
    New Southwest Border Technology.--$242 million is requested to 
support the continued deployment of proven, effective surveillance 
technology along the highest trafficked areas of the Southwest Border. 
Funds will be used to procure and deploy commercially available 
technology tailored to the operational requirements of the Border 
Patrol, distinct terrain, and population density of each border region. 
These funds will allow CBP to fully deploy a mix of integrated fixed 
towers and other mobile equipment in three of the five Border Patrol 
stations' areas of responsibility in Arizona.
    Northern Border Technology.--The request includes $55 million to 
support investments in technology systems which address security needs 
for the Northern Border maritime and cold weather environment, as well 
as innovative technology pilots. It will also deploy proven, standalone 
technology that provides immediate operational benefits. These 
demonstrations and deployments explore how best to integrate various 
sensors, border security organizations, and mission operations in order 
to optimize border security in this challenging environment.
    CBP Journeyman.--The request includes $229 million to fully fund 
the increase in journeyman grade level for frontline CBP officers, 
Border Patrol agents, and CBP agricultural specialists from GS-11 to 
GS-12.
    Tactical Communications (TACCOM).--The fiscal year 2012 budget 
includes $40 million to continue the transition of the TACCOM program 
to a robust, open architecture system that will increase 
interoperability with other law enforcement, expand coverage, and 
improve agent safety in the Houlton, El Paso, Laredo, and Rio Grande 
Valley sectors.
    National Targeting Center-Passenger (NTC-P).--A total of $47 
million is requested to enhance CBP's ability to interdict dangerous 
individuals or terrorists traveling from foreign locations before 
boarding flights destined for the United States. The funds will be used 
to hire additional staff and implement enhancements in targeting 
priorities.
    U.S. Coast Guard Recapitalization.--The fiscal year 2012 request 
fully funds the fifth national security cutter (NSC), supports 40 
response boats and 6 fast response cutters, as well as a sizable 
investment in the renovation and restoration of shore facilities. The 
budget also provides resources to ensure that the Coast Guard's 
aviation fleet is mission-ready through the acquisition of two maritime 
patrol aircraft, one HH-60 helicopter, and conversion and sustainment 
projects of multiple aircraft. Funding for the NSC underscores the 
Department's support of this program which is important to the Coast 
Guard's long-term recapitalization effort and, most importantly, to 
allow the Coast Guard to replace its aged, obsolete high endurance 
cutter fleet as quickly as possible. The total request for U.S. Coast 
Guard acquisition, construction, and improvements is $1.4 billion.
    Maritime Safety and Response.--$115.5 million remains in Coast 
Guard's base resources for 11 maritime safety and security teams and 
their associated 921 personnel, who conduct port security activities 
and provide support to NSSEs.
            enforcing and administering our immigration laws
    Detention Beds.--The fiscal year 2012 budget increases U.S. 
Immigration and Customs Enforcement (ICE) Custody Operations funding by 
$157.7 million to support 33,400 detention beds and remove more than 
200,000 criminal aliens in fiscal year 2012.
    Detention Reform.--ICE plans to continue building on its detention 
reform efforts in fiscal year 2012 by improving detainee access to 
quality healthcare, reducing the average length of stay, and 
facilitating access to family members and legal representation by 
adding functionality to the recently released online detainee locator 
system.
    Worksite Enforcement.--Requested funds continue the Department's 
focus on worksite enforcement, promoting compliance with worksite-
related laws through criminal prosecutions of egregious employers, Form 
I-9 inspections, civil fines, and debarment, as well as education and 
compliance tools.
    E-Verify.--The fiscal year 2012 request continues support for E-
Verify operations and enhancements, including continued funding for new 
monitoring, compliance, and outreach positions necessitated by program 
expansion. The continued success of E-Verify demonstrated by recent 
independent reports reflect the administration's commitment to smart, 
tough, and effective strategies that build a strong foundation upon 
which immigrants can exercise their rights and responsibilities as 
Americans.
    Secure Communities.--A total of $184 million is requested for 
Secure Communities--which uses biometric information and services to 
identify and remove criminal aliens in State prisons and local jails. 
The $64 million program increase will expand deployment to 96 percent 
of all jurisdictions nationally in fiscal year 2012 and provide 
resources to confirm the identification of an estimated 199,000 more 
criminal aliens through interoperability in fiscal year 2012 than 
fiscal year 2010 and transport more than 44,000 criminal aliens from 
State and local jails into the custody of ICE following the completion 
of their sentences. ICE will work with DHS's Office of Civil Rights and 
Civil Liberties and the Department of Justice to develop a robust 
oversight and evaluation process of Secure Communities and to provide 
training to State and local law enforcement. Secure Communities is on 
track for nationwide deployment by 2013.
    Visa Security Program.--The budget requests $29 million to continue 
the Visa Security Program at current locations. This program enhances 
national security by preventing terrorists, criminals, and other 
ineligible applicants from receiving visas.
    Immigrant Integration.--The fiscal year 2012 request expands U.S. 
Citizenship and Immigration Services' (USCIS) effort to support 
immigrant integration efforts, including funding for new programs 
supporting English language acquisition and citizenship education.
    SAVE.--The fiscal year 2012 request continues support for USCIS 
SAVE operations and enhancements to assist State, local, and Federal 
agencies in determining individuals' eligibility for public benefits 
based on their immigration status.
    USCIS Business Transformation.--The fiscal year 2012 request 
continues the multi-year effort to transform USCIS from a paper-based 
filing system to a customer-focused electronic filing system.
                  safeguarding and securing cyberspace
    Federal Network Protection.--$233.6 million is requested to 
expedite the deployment of Einstein 3 to prevent and detect intrusions 
on computer systems and to upgrade the National Cyber Security 
Protection System, building an intrusion detection capability and 
analysis capabilities to protect Federal networks.
    Federal IT Security Assessments.--A total of $40.9 million in 
requested funds will support the Department's efforts to strengthen 
Federal network security of large and small agencies by conducting an 
estimated 66 network assessments to improve security across the Federal 
executive branch.
    Cybersecurity Workforce Needs.--$24.5 million is proposed to 
provide high-quality, cost-effective virtual cybersecurity education 
and training to develop and grow a robust cybersecurity workforce that 
is able to protect against and respond to national cybersecurity 
threats and hazards.
    Cyber Investigations.--The fiscal year 2012 budget continues to 
support cyber investigations conducted through the Secret Service and 
ICE, targeting large-scale producers and distributors of child 
pornography and preventing attacks against U.S. critical infrastructure 
through financial crimes task forces.
    Cyber Mission Integration.--The fiscal year 2012 request includes 
$1.3 million to enable DHS to coordinate national cybersecurity 
operations and interface with the U.S. Department of Defense's (DoD) 
National Security Agency (NSA) at Fort Meade, Maryland. This funding 
will support a landmark memorandum of agreement signed by Secretary 
Napolitano and Secretary of Defense Robert Gates that aligns and 
enhances America's capabilities to protect against threats to critical 
civilian and military computer systems and networks.
    Cybersecurity Research.--The fiscal year 2012 request includes an 
increase of $18 million for the Comprehensive National Cybersecurity 
Initiative to support research and development projects focused on 
strengthening the Nation's cybersecurity.
                    ensuring resilience to disasters
    State and Local Grants.--The fiscal year 2012 request sustains 
Federal funding for State and local preparedness grants totaling more 
than $3.8 billion, highlighting the Department's commitment to moving 
resources out of Washington, DC and into the hands of State and local 
first responders who are often best positioned to detect and respond to 
terrorism, other threats, and natural disasters.
    Assistance to Firefighters Grants.--The fiscal year 2012 request 
includes $670 million. Included in this amount are $420 million for 
Staffing for Adequate Fire and Emergency Response (SAFER) grants to 
rehire laid off firefighters and retain veteran first responders--
totaling 2,300 firefighter positions--and $250 million for equipment, 
training, vehicles, and related materials.
    Disaster Relief Fund (DRF).--$1.8 billion is requested for the DRF 
to allow FEMA to continue to address the impacts of a disaster on 
individuals and communities across the Nation. The DRF provides a 
significant portion of the total Federal response to victims in 
presidentially declared disasters or emergencies.
    Regional Catastrophic Event Planning.--$8.5 million is requested to 
continue development of catastrophic plans, with a focus on plans for 
response to biological events and earthquakes.
    National Exercises.--FEMA's participation in National Level 
Exercise-12, an exercise to test FEMA's ability to respond to a 
catastrophic cyber attack, is funded with $3 million through the 
request.
    Emergency Management Oversight.--The fiscal year 2012 request 
includes $20 million for the Office of the Inspector General to 
continue its Emergency Management Oversight operations.
     providing essential support to national and economic security
    Patrolling the Exclusive Economic Zone.--The Coast Guard patrols 
the U.S. Exclusive Economic Zone boundary areas to reduce the threat of 
foreign poaching of U.S. fish stocks and ensure compliance with 
international living marine resource agreements. The budget includes 
$47 million to extend the service life of five Medium Endurance Cutters 
critical in support of this mission.
    U.S. Coast Guard Staffing.--The request strengthens the Coast 
Guard's operational capacity by funding a total of 50,682 civilian and 
military personnel in fiscal year 2012.
    Enhancing Maritime Safety.--The fiscal year 2012 budget requests 
$686.3 million and 4,717 FTEs for the Coast Guard's maritime safety 
activities. The fiscal year 2012 budget provides 105 new Marine Safety 
Inspectors and Investigators to staff ship inspections and post-
incident investigations.
    Enhancing Marine Environmental Protection and Response.--The fiscal 
year 2012 budget requests $225.2 million and 1,362 FTE to enable the 
Coast Guard to conduct Marine Environmental Response. This includes 87 
new environmental response personnel and creates the Coast Guard's 
first incident management assistance team, a highly trained team that 
will be deployed rapidly to augment the Coast Guard command structure 
when an incident of national significance occurs.
    Investigate Cultural Antiquity Trafficking and Coordinate 
Repatriation.--The fiscal year 2012 budget continues to support ICE 
seizures and repatriation of cultural property, art and antiquities 
illegally imported into the United States and the investigation of 
illegal trafficking of artwork, especially works that have been 
reported lost or stolen.
    Forensic Support for Missing and Exploited Children.--Funding is 
requested for the Secret Service to provide forensic support to the 
National Center for Missing and Exploited Children, which provides 
state-of-the-art forensics support for investigations involving missing 
and exploited children and grant funds for activities related to the 
investigations of missing and exploited children.
    Collect Customs Revenue.--Funds are requested to support CBP's role 
as a revenue collector for the U.S. Treasury--customs revenue remains 
the second-largest source of revenue for the U.S. Government. Customs 
and Border Protection has set revenue collection as a priority trade 
issue to ensure effective internal controls that protect the duties and 
taxes (more than $29 billion in 2009) collected for the U.S. 
Government.
    Protect U.S. Intellectual Property Rights.--The fiscal year 2012 
budget request funds to support CBP's enforcement program to prevent 
trade in counterfeit and pirated goods, and enforce exclusion orders on 
patent-infringing and other intellectual property rights violative 
goods. The ICE HSI Intellectual Property Rights (IPR) Center 
investigates the smuggling and distribution of counterfeit goods and 
products that pose risks to public safety and security. Counterfeit 
pharmaceuticals and critical technology components, such as computer 
chips for defense systems and airplane equipment, were among the top 
seized commodities in IPR investigations.
      maturing and strengthening the homeland security enterprise
    Maturing and strengthening the Homeland Security enterprise--the 
collective efforts and shared responsibilities of Federal, State, 
local, tribal, territorial, nongovernmental, and private-sector 
partners, as well as individuals, families, and communities--is 
critical to the Department's success in carrying out its core missions 
and operational objectives. This includes enhancing shared awareness of 
risks and threats, building capable communities, and fostering 
innovative approaches and solutions through cutting-edge science and 
technology, while continuing to foster a culture of efficiency, 
sustainability in accordance with Executive Order 13514 and fiscal 
responsibility and streamline management across the Department.
    While the Department proposes significant cuts to administrative 
support across all components in order to maintain frontline 
operations, the following activities are supported through the fiscal 
year 2012 budget:
    St. Elizabeths.--$159.7 million is requested for the St. Elizabeths 
project. This funding enables DHS to complete the Coast Guard 
headquarters facility and to continue work on the National Operations 
Center. The request, however, will defer the FEMA headquarters 
consolidation.
    Transformation and Systems Consolidation (TASC).--The fiscal year 
2012 budget proposes $11 million to fund the TASC program, which 
supports the modernization of the Department's financial, asset, and 
acquisition management systems--a key priority for the Department and a 
step towards addressing recommendations on the GAO high-risk list.
    Acquisition Workforce.--$24.2 million in requested funds will 
increase the Department's acquisition workforce capacity by 150 
positions, including additional systems engineers, program managers, 
logisticians and business cost estimators, to ensure operational 
requirements are properly developed and included in DHS contracts and 
to provide greater oversight and accountability. This too, is 
consistent with previous recommendations from the Government 
Accountability Office and Inspector General.
    Information Security and Infrastructure.--$32.3 million is 
requested to establish a unified email network for DHS-wide use, and 
provide Single Sign-On and other capabilities. These activities will 
leverage technologies to strengthen DHS operations and enhance 
communications with Federal, State, local, and private sector partners.
    Coast Guard Housing and Child Care.--The health and welfare of 
military families is the heart of Coast Guard operational readiness. 
The fiscal year 2012 budget includes $29 million to address critical 
housing shortfalls and improve access to affordable, quality childcare. 
These initiatives will ensure Coast Guard members can maintain both 
strong families and a high state of readiness.
                               conclusion
    The fiscal year 2012 budget proposal reflects this administration's 
strong commitment to protecting the homeland and the American people 
through the effective and efficient use of DHS resources. As outlined 
in my testimony today, the Department will continue to build upon past 
successes in several areas including securing U.S. air, land, and sea 
borders; safeguarding lawful trade and travel; securing Federal 
networks; and disrupting and dismantling transnational criminal and 
terrorist organizations that engage in cross-border criminal activity 
while maximizing every taxpayer dollar we receive.
    Thank you for inviting me to appear before you today. I look 
forward to answering your questions and to working with you on the 
Department's fiscal year 2012 budget request and other Homeland 
Security issues.

    Senator Landrieu. Thank you, Madam Secretary.
    And since I have asked one question, I am just going to ask 
two additional ones and then turn it over to my co-chair, to 
the ranking member.

                         CONTINUING RESOLUTION

    I want to follow up on just your last statement--the House 
recently passed a continuing resolution that cut funding by 
$2.5 billion in this Department, which is 6 percent below the 
2010 budget. As you stated, it cuts port security grants, deep 
cuts to the Coast Guard, which are particularly troubling to 
myself and I think Senator Cochran as well. And there are other 
aspects.
    Could you give a little bit more detail, if we are not able 
to modify some of these cuts, what consequences it will 
actually have in your Department?
    Secretary Napolitano. Madam Chair, here are a few of the 
details. It cuts the number of AIT machines we can deploy to 
our Nation's airports. And these are necessary because our 
adversaries, al Qaeda/al Qaeda-related, continue to seek 
aviation as a target and continue to target it by means other 
than something that would be picked only by a magnetometer. So 
we need to move to the next generation, and that is the AIT 
machine. It cuts those by 250 and the 500 requested, cuts the 
number of portable ETD machines, explosive trace detection 
machines, by half. It cuts the number of canine teams by two-
thirds. It cuts the personnel responsible for background 
investigations, intelligence redress, and air cargo and surface 
inspections. It will probably result in an increase in wait 
times for passengers in the air environment, and those could be 
significant.
    It cuts the deployment of intelligence personnel to State 
and local fusion centers. This is a network of 72 centers that 
we have installed as really the portals of entry through which 
intelligence can be shared at the Secret and above level out to 
our States and localities, and intelligence can be received 
back so that we really have a Homeland Security intelligence 
capability. It cuts that very, very deeply.
    In addition, it cuts funding for at least 250 ICE agents 
along the border. Agent Zapata, by the way, the agent who was 
just murdered in Mexico, was an ICE special agent. It 
eliminates or if the cuts are annualized in the 2012--and that 
is a concern I have that the House continuing resolution for 
2011 then becomes the budget for 2012. If it does that, it will 
not annualize the additional Border Patrol agents this Congress 
approved of in a supplemental not too long ago. So those will 
go away.
    I could go into more detail, Madam Chair, but you get a 
sense of what this would do to us.
    Senator Landrieu. It gives us a sense of what the challenge 
is. And as I was with you just yesterday at Georgetown for that 
really remarkable gathering of the past two Homeland Security 
Secretarys, as we saw, Secretary Ridge, Secretary Chertoff, and 
yourself there, it reminded me that this was the largest 
reorganization of the Federal Government since Harry Truman 
organized the aspects of the military, the branches of the 
military, into the Department of Defense. And so this is the 
youngest of all the Federal Departments.
    So as we are looking, Senator Coats, for efficiencies, 
which we all want to look for in streamlining, we have to be 
mindful that we are building, not streamlining this Department. 
We are building and potentially streamlining, but we are not 
taking down. We are building this agency, and that takes 
investments and resources.

                              AIRLINE FEES

    My final question, if you could answer this very shortly. I 
have been becoming very concerned with the airlines and the 
charges that they are charging to passengers. And particularly, 
I know this is under the Department of Commerce, but under our 
jurisdiction is the way it affects TSA. And I have asked the 
staff to get some information.
    Checked baggage fees are increasing. It looks like, the 
cost to TSA is also increasing because people do not want to 
pay the fees. So they are not checking bags, putting more on 
the planes, slowing down actually the seating, of course. But I 
understand that it is a $250 million annual cost to TSA because 
of those extra bags.
    My question is, do the taxpayers have to pick up this cost 
or should we be looking to the airlines to give us some of the 
profits that they are making from these fees to offset the cost 
to the taxpayer?
    Secretary Napolitano. Madam Chair, the answer is that when 
you have to pay to check a bag, it increases carry-on luggage, 
and that means that there is more to inspect at the gate and so 
forth for passengers getting on the planes. We do have an 
estimate. That is roughly $260 million.
    One of the reasons we requested the ability to charge a 
security fee for travelers--I think, Senator Coats, you 
referenced that in your statement--was because we need to be 
able to pay for this additional security that TSA must have. 
And if we do not have the ability to have a security fee, which 
by the way has not been adjusted since 2002, that is at least a 
$600 million bite that we have to eat somewhere. And as you can 
tell from my opening statement, everywhere you hit in this 
Department, it is going to have an operational impact.
    Senator Landrieu. Thank you, Madam Secretary.
    Senator Coats.
    Senator Coats. Thank you.

                         CONTINUING RESOLUTION

    I have got some specific questions here, but really in 
looking at the larger picture, the reality is that we do have 
this significant deficit problem and it is going to be 
addressed one way or another. The Congress can address it as it 
has done through current efforts on the continuing resolution 
for the remainder of the current fiscal year, but also 
structuring how next year's functions of Government will be 
funded.
    The reality is, I think, that no one is going to get 
everything that they would like to get. And the question I have 
for you is--and I know you have scrubbed your budget--but if 
you start with the assumption that you may not get in your 
budget all the requests that have been made, have you scrubbed 
the system to, in a sense, categorize those requests? If you 
have to come back to us and say, okay, this is all we are going 
to get--have you scrubbed your budget in a way that you could 
say we deem these to be absolutely essential? We have the next 
category that are very important but not absolutely essential; 
another category that says these potentially can be deferred 
until revenues increase or we are able to do better with the 
budget; and these are ones that we think could be nice to have 
but not really necessary to have and could potentially be 
terminated to gain those savings. It might be accompanied with, 
say, a provision which you just discussed, an increase in fees 
on the enplaning.
    But I guess my question is, have you done this? Do you 
contemplate having to move to a plan B should the Congress not 
be able to fund the budget as presented? And if you have, can 
you share that with us? And if you have not, is that something 
in the plans?
    Secretary Napolitano. Well, Senator Coats, we went through 
that analysis in working with OMB on what the President's 
budget request would be and finding places or things that could 
be put off or delayed.
    For example, postponing the move to a real Department 
headquarters at St. Elizabeths was something that we 
recommended, going through kind of the analysis you just 
suggested. Now, if you saw where our headquarters are now and 
the office that I have and others have, you would know that we 
made a tough choice there. That means that we cannot have all 
our components collocated. It means that from a managerial 
standpoint, we still are spread out. We postponed all 
collocations in other cities across the country because of the 
associated costs of moving people, and that has a managerial 
impact to it as well.
    So I believe the President's budget reflects the analysis 
that you have just suggested and that real choices have been 
made in it already.

                                 BUDGET

    Senator Coats. Well, I am sure that is what the President's 
budget projects and thinks, but I mean, obviously, we are going 
to have a congressional budget I hope. And we are certainly 
going to have congressional appropriations, and they may not 
match what the President has proposed. Every agency is going to 
come here and say exactly what you have said. We are cut to the 
bone. The President's budget is as low as we can go. The 
reality in this Congress is that we are going to appropriate--I 
believe, going to end up appropriating less than what that 
budget asks for.
    And so it seems to me that it would be prudent for every 
agency to simply kind of red team your current budget and 
basically say if what happens probably happens, then where do 
we go? Will we have something that we can bring back to the 
Congress and present and say we do not like it, but these are 
the consequences, but this is what we will have to do if we 
come in at this number?
    Secretary Napolitano. We look forward to, Senator, to 
working with you on the budget. I just would respectfully 
suggest that this Department is somewhat unique. It is new. It 
is virtually all operations. And so when you look at this 
budget, it really is tied to the five priorities I identified 
for you in my opening statement.
    Senator Coats. Well, I agree with that. I mean, along with 
national defense, homeland security, a couple of others are 
essential functions of the U.S. Government. I could not agree 
more. But there just are fiscal realities that we have to deal 
with, and I think right now the method going forward is to take 
a look at every area to see if we can find efficiencies.
    Doing as much or more with less is something, again, that 
all of America has had to do in these last 2 years, and it is 
easier for some than others. But everyone has been forced to 
make those hard decisions, and I think in this case the reality 
is that there will probably be some hard decisions that will 
have to be made.
    I do not look forward to working on this together; it is 
not something either of us relish, but I think it is something 
that we are going to have to do.
    Secretary Napolitano. Senator, I think, first of all, we 
are always willing to supply information. As you go through the 
budget request and have questions about things, we are more 
than happy to work with you on that.
    Senator Coats. My time is about to expire. Given the fact 
that we have a vote coming up and some other members may want 
to talk, I will wait.
    Senator Landrieu. Thank you, Senator Coats.
    Senator Cochran.
    Senator Cochran. Madam Chairman, thank you. Congratulations 
on your leadership of this subcommittee.
    Madam Secretary, welcome. We look forward to working 
closely with you to identify our budget needs and to try to 
respond to them in a thoughtful and expeditious manner.
    One of the difficulties I know that you face is the lack of 
predictability about when funds are available for this program 
or that. I wonder if you could share with us some specific 
examples of what problems you might encounter if we do not move 
quickly to provide you certainty with respect to your budget 
needs.
    Secretary Napolitano. Well, I think from a management 
perspective, managing by small continuing resolutions is very 
difficult. It affects your ability to undertake key 
acquisitions. It affects your ability to hire personnel. It 
affects your ability to make investments in things that you 
kind of think will be ultimately in the budget, but those funds 
are not yet available. So from a management perspective, it 
makes a difficult management job even more difficult.

                        COAST GUARD SHIPBUILDING

    Senator Cochran. One of the things we are proud of in our 
State is the fact we have a shipbuilding capability on the 
Mississippi gulf coast at Pascagoula, and part of the mission 
there is to fulfill contracts that are made with the Department 
that you lead for Coast Guard cutters. What is the status of 
our shipbuilding progress in meeting those needs, and what can 
we do to work more effectively with you predicting what the 
future is going to hold?
    Secretary Napolitano. Here is what we are requesting for 
the Coast Guard, that ultimately we have eight large national 
security cutters. The budget between 2011 and 2012 fully funds 
cutter number 5. We do not provide in the 2012 budget what is 
called long lead funding for number 6. We have instead a 
commitment--I think it is actually in writing--by OMB that we 
will fund number 6, but those funds will not be spent until 
fiscal year 2013. So we did not park them in fiscal year 2012. 
We did not think that was an efficient use of them.
    So we fully expect to build out the eight cutters. In 
exchange for not funding lead time for number 6 in 2012, we buy 
a combination of 46 smaller vessels, fast response cutters and 
so forth, that could be used in other missions for the Coast 
Guard and for their lay-down. And then there is some funding in 
there for aircraft, but those are not made in Mississippi.

                          DISASTER RELIEF FUND

    Senator Cochran. Are you satisfied with the request being 
submitted to the Congress for funding that the FEMA disaster 
relief fund will have money to respond to emergencies that 
occur? We think of the hurricanes that hit the Gulf of Mexico, 
the oil spill that occurred down there. We have had some really 
serious challenges in that part of the country. What about that 
disaster fund? Do we have enough money requested in here to 
meet your needs?
    Secretary Napolitano. The disaster fund request for 2012 is 
based on the historical practice which is to take a 5-year 
average of noncatastrophic disasters and roll that forward as 
the number and then rely on a supplemental for catastrophic 
disasters. So the fiscal year 2012 budget would cover that 
practice.
    As the chair noted earlier this morning, we do have some 
costs that will necessitate a supplemental. We have been 
deobligating money. We have been repaying money into the DRF. 
So what the amount of that supplemental ultimately will need to 
be I cannot tell you right now.
    Senator Cochran. Madam Chairman, I think I will reserve the 
balance of my time.
    Senator Landrieu. Thank you, Senator.
    Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    Madam Secretary, I talk to you now as the vice chairman of 
this subcommittee, and I am happy to serve in that capacity.
    You have unique experience. You have been on the front 
lines in terms of your past service as Governor and know how 
important security, law enforcement is.

                              FUNDING CUTS

    We face urgent threats to our homeland security. It comes 
from our friends in the House who want to cut funding for 
programs at the Department of Homeland Security to keep us 
safe. While the Republicans want to make unreasonable cuts to 
Government, the fact of the matter is when it hits people's 
lives, it makes a huge difference, and their plan would slash 
funding for valuable Homeland Security grant programs like port 
security, public transportation security by 66 percent. These 
funds go to our States, cities, and towns. They are the front 
lines of protecting our homeland. Cuts to these two programs 
alone would mean approximately $60 million in Homeland Security 
support would vanish in my State of New Jersey.
    And New Jersey is home to what law enforcement has 
identified as the country's most at-risk 2-mile area for 
terrorists, the stretch between the Port of Newark and the 
National Liberty Airport. It is a region that has contact with 
12 million persons, and it is irresponsible to take vital 
resources away from our most threatened area.
    Now, President Obama and you, Madam Secretary, recognize 
this, and the administration's request takes a more thoughtful 
approach to funding the Department of Homeland Security. The 
budget recommends slight increases for urban area security 
initiatives, State Homeland Security grant programs. These 
provide vital support to keep our residents safe. But the 
budget request level for funding port security and a slight 
decrease for rail transit and bus security accompanies the fact 
that the Coast Guard, one of our most valuable resources in our 
need to protect ourselves, also continues to be asked to do 
more with less. And we have got to provide the Coast Guard with 
the resources it needs to effectively handle its many missions.
    Although I have some concerns about the request I am going 
to address in my questions, it will go to you in writing. We 
are very much out of time. We will go as far as we can right 
now, however.
    This is not a time to cut back on our homeland security. We 
have seen an increased risk of homegrown terrorism, the Fort 
Hood massacre, the Time Square bombing attempt, and the New 
York City subway plot, which was uncovered by our law 
enforcement people. Incidents like this remind us that the 
threat of terrorism is as real as ever and we are doing more 
than skimping on public safety. Are we simply cutting resources 
or are we cutting the throats of the people in our society?
    So, Madam Secretary, I ask how we can continue our work to 
make vital investments in homeland security.
    We talked about the bag charges and what burdens that 
imposes on the screening process. I look at Newark Airport, one 
of the largest in the country, and there have been six security 
breaches at Newark Airport in the last couple of months. Now, I 
understand that TSA is almost 70 employees short of its 
allocated number for Newark Airport. What is DHS doing to fully 
staff Newark Airport and give transportation security officers 
and managers the training they need?
    Secretary Napolitano. Well, I will respond in writing to 
the specific question on Newark Airport.
    [The information follows:]

    In close coordination with the Federal Security Director and staff 
at Newark Airport (EWR), the Transportation Security Administration 
(TSA) has initiated a robust and multi-layered effort to address EWR 
staffing vacancies. EWR is currently scheduled to reach near-100 
percent staffing by May 1, and, in the interim, TSA has been providing 
additional resources as needed. For example, TSA deployed additional 
supervisory training instructors to train new hires, additional AIT-
certified Transportation Security officers (TSOs) to conduct daily 
operations while EWR TSOs are being trained, and additional staff 
resources to assist in Human Resources and Training operations.
    Following a breach, a complete review of the incident is conducted 
and each action is broken down in detail to ascertain the reasons 
behind the breach. Every TSA individual involved in the activity and 
their response is included in this review. TSA employees identified as 
not having followed standard operating procedures or whose actions are 
the result of inattention to duty are immediately removed from their 
position, and can only return to their positions if retraining and 
recertification for their positions is determined sufficient and is 
satisfactorily accomplished.

    Secretary Napolitano. But, Senator Lautenberg, I think that 
the President's budget request was designed to meet the threats 
as we see the threats. One of the things we ask for in there to 
achieve an efficiency is combining or consolidating grant 
programs. We have 17 grant programs. We would like to 
consolidate that significantly to reduce overhead to the 
grantees, as well as to the grantor. That was something we 
asked for last year. We did not achieve it, but it is a 
suggestion that we make to the subcommittee as one area where 
we could possibly achieve some savings and yet operationally 
make sure that we are getting money to where it is needed.
    Senator Lautenberg. Well, that is a big stretch. Having to 
do more with less is something we have gotten accustomed to 
here in these years of difficulty. But we also have to 
recognize that there are some minimum resources that we have to 
have to assure the public that we are taking care of their 
safety.
    The House Republicans have proposed cutting port security 
by two-thirds--the grants. The Port of New York/New Jersey, the 
largest port on the east coast, the second-largest port in the 
country, directly linked to what the FBI deemed the most 
dangerous area in America for terrorist attack, and yet we lose 
$33 million in security funding under the House bill. What 
would be the impact on the New Jersey and New York region on 
our Nation's economy if there was to be a terrorist attack on 
one of our largest ports? It is almost unimaginable. The 
financial center of the world is included in that 
circumference, as I mentioned before, 12 million people, a 
large presence of chemical manufacturing in this area, very, 
very dangerous to the surrounding population. And what are we 
doing about that? How can we assure the public that they are 
being well protected, Madam Secretary?
    Because time is precious and fleeting here, I will take an 
answer in writing, and I will have a couple of other questions 
that I will submit to you and ask for a prompt response, 
please.
    Secretary Napolitano. Senator, all I can say about the 
House budget for fiscal year 2011 is that it is not a good 
budget for security. It will have impacts on things like 
protecting the critical infrastructure along that mile in New 
Jersey through reductions in grants, through reductions in our 
personnel. And if that budget becomes the basis for the fiscal 
year 2012 budget, then I think the Congress needs to 
understand--and I think my job is to help it understand--that 
that in all likelihood will have a security impact.
    Senator Lautenberg. Thank you.
    Senator Landrieu. Thank you, Madam Secretary.
    Senator Moran.
    Senator Moran. Chairperson Landrieu, thank you very much 
for the opportunity to join you and Mr. Coats and other members 
of the subcommittee.
    Secretary Napolitano, thank you for your testimony. I look 
forward to being a responsible and diligent member of this 
subcommittee and the Appropriations Committee, and I am honored 
to be here today.

             NATIONAL BIO- AND AGRO-DEFENSE FACILITY (NBAF)

    In the short time that I have, I wanted to highlight one of 
the things that is included in your budget that I am very 
supportive of and want to give you the chance to comment on. 
You mentioned in your written, as well as your verbal testimony 
about the National Bio- and Agro-Defense Facility. It is my 
understanding that the request was initially for $200 million, 
now in your budget, having been scrubbed by OMB, at $150 
million. And I would like to express my support and willingness 
to work with you to see that that is accomplished.
    I represent a State in which we are often thought of as the 
Wheat State, and we are clearly that. But we are very much a 
livestock, particularly a cattle, State, and we have genuine 
concern recognized by the Department of Homeland Security about 
the possibility of animal diseases. Whether they are naturally 
occurring, accidental, or intentional, they have a dramatic 
impact upon the economy of Kansas and certainly the country.
    We have a very aging facility located on Plum Island that 
your Department, through a selection process, has concluded a 
site. In fact, I was there at the announcement in December 2008 
about the site for this new facility. And I want to make 
certain that this Congress and this administration finally 
fulfill the next step toward building that facility for the 
safety and security of the American consumer and citizen in 
light of the risk that we face in this country.
    So I just would like to have you reiterate the Department's 
position, your position, express to the Congress the value of 
this facility, and how important the timing is for its 
completion.
    Secretary Napolitano. Well, Senator Moran, first of all, 
the NBAF is something that we are very supportive of. In fact, 
I saw Governor Brownback Sunday evening and we talked about it 
and our support for this again.
    I would note, however, for you that the House continuing 
resolution for fiscal year 2011--the part of our Department 
that is hit the hardest in that resolution is the Science and 
Technology Directorate. That is where NBAF is located in our 
budget. It is reduced by half in that House continuing 
resolution. That is also where we are doing research on new 
breathing apparatuses for firefighters and research with our 
national labs on an airport checkpoint of the future, you know, 
trying to design something so that people do not have to take 
off their shoes and limit the amount of liquid they can carry 
on, that sort of thing. But the NBAF is in there as well.
    We are very supportive. Plum Island does not meet the 
Nation's needs in this area. Kansas was the winner of a very 
highly contested peer-reviewed competition, and we look forward 
to its continued construction in Kansas. But I must share with 
you that things are at risk based on the House budget.
    Senator Moran. I would respond, Madam Secretary, that a 
piece of good news in the debate on the House floor in 
discussing H.R. 1, the amendment was made to provide that no 
funding be authorized for this project, and that amendment was 
defeated. So I was pleased to see the support by a majority of 
House Members for this project.
    I also would add that the State of Kansas has already 
committed dollars, has already expended resources, and I would 
guess that there is a bit of reluctance on our part to continue 
the funding. We have committed $140 million toward the 
completion of this project, and we would have--I cannot speak 
for Senator Brownback, but I know that there would be reticence 
on the part of many in Kansas in continuing to fund this 
project in the absence of the Federal commitment. We are 
anxious for the day in which the first shovelful of dirt--we 
would love to have you there and join us with the shovels that 
begin the Federal commitment on that day.
    Secretary Napolitano. And, Senator, I think we share that 
commitment. We believe in the NBAF, and it should be in Kansas, 
and we need to get on with it.
    Senator Moran. I appreciate those sentiments and I thank 
the chairperson for allowing me to have this conversation.

                            COAST GUARD CUTS

    Senator Landrieu. Thank you, Senator.
    Madam Secretary, the Department of Defense budget this year 
is being increased by $23 billion, a 4-percent increase, and 
that is excluding the cost of the wars in Iraq and Afghanistan.
    The Coast Guard's discretionary budget has increased less 
than 1 percent. The Coast Guard is one of the five armed forces 
of the United States. Some of us are having difficulty 
understanding how it can be treated almost as a stepchild given 
the work that it is asked to do in direct protection of our 
Nation, whether it is intercepting drugs, responding to 
disasters, responding to catastrophic oil pollution incidents, 
which just occurred.
    Can you shed any light as to why the sixth security cutter 
was deferred? I mean, I understand we have budget constraints 
but could you comment just about the importance of maintaining 
the Coast Guard operations for the security of our Nation?
    Secretary Napolitano. Well, Senator, the sixth security 
cutter was not deferred in the sense of unnecessarily delayed, 
but the plain fact of the matter is that by the time we 
actually need to expend money for six, given the time it will 
take to finish four and five, we will be into fiscal year 2013. 
And our plan is rather than set aside unusable money for six in 
fiscal year 2012, that we would request the amount in the year 
we needed to expend it, which would be fiscal year 2013.
    Senator Landrieu. Okay. Well, let us continue to focus on 
that.

                           GULF COAST DUMPING

    Another issue that is of particular interest--and I hate to 
be so parochial because I do have my eyes on the whole country. 
But right now along the gulf coast, we are having such serious 
issues, you know, with the moratorium, the gulf coast spill, 
still recovering from Katrina and Rita, and this is the whole 
gulf coast from Florida to Texas.
    But another issue--and it may be affecting some of the 
other coastal States as well--is the illegal dumping of seafood 
wrecking our domestic markets. We are having a terrible time in 
this area. Customs in my view is simply not doing enough to 
collect the dumping duties that importers owe to the Federal 
Government. Since 2005, for example, importers of shrimp from 
China have failed to pay more than $58 million in dumping 
duties.
    So, Senator Coats, when we are looking for some additional 
funding, we could be more efficiently collecting some of the 
money that China or Vietnam or others owe us, using that money 
to invest or support or give, if not rebates--according to WTO, 
that may be inappropriate--but in some way capturing those 
funds.
    So could you comment on what is in your budget to enforce 
these antidumping rules and regulations on that subject?
    Secretary Napolitano. Well, I think it would be better if 
we addressed those in writing for you. I know there was some 
concern. I believe there is a rule on crawfish, if I am not 
mistaken, among other types of seafood. I would like to discuss 
with my component heads what the problem is, if there is a 
problem, and come back to you with a detailed answer.
    [The information follows:]

    Antidumping/Countervailing Duty (AD/CVD) Enforcement is a priority 
trade issue (PTI) for Customs and Border Protection (CBP). CBP takes a 
concerted, systematic approach to detect and deter circumvention of the 
AD/CVD law, administer entries of AD/CVD merchandise, and to issue and 
collect bills for AD/CVD duties owed to the United States Government. 
CBP coordinates its AD/CVD enforcement activities through an intra-
office AD/CVD PTI Working Group. CBP works closely with the U.S. 
Department of Commerce (Commerce), the administering authority for AD/
CVD determinations under U.S. law, and U.S. Immigration and Customs 
Enforcement to enforce AD/CVD laws and regulations.
    When CBP issues a bill for final AD/CVD duties, CBP makes every 
effort to collect all duties, taxes and fees legally due to the 
Government. However, some importers, or their agents, are unable to pay 
the final duties. In addition, at least two sureties issuing bonds 
covering substantial amounts of AD/CVD duties are currently in 
receivership, further complicating collection. Other importers are 
simply unwilling to pay, or no longer exist by the time CBP issues a 
bill. CBP pursues collection action against importers and sureties who 
are simply unwilling to pay. CBP's Revenue Division in the Office of 
Administration initiates an administrative collections process in order 
to recover past-due amounts from the importers and sureties. This 
process may include dunning letters and the suspension of the immediate 
delivery process, among other steps. Ultimately, those debts for which 
the Revenue Division's collections process is ineffective are referred 
to CBP's Office of Chief Counsel.
    The Office of Chief Counsel pursues collection from both the 
importers and sureties, after completing a legal review of the 
underlying debt. Further, a review is done to determine if there is a 
viable importer (or available surety coverage) from which the debt may 
be recovered. In part, this is done through dunning letters, searches 
of electronic databases and internal systems, and pursuing available 
leads. In addition, CBP can assess civil penalties pursuant to 19 
U.S.C. Sec. 1592 against any party who, by fraud, gross negligence, or 
negligence submits a material false statement or omission on 
importation into the United States, including those cases in which a 
false statement or omission is made concerning the applicability of an 
antidumping duty order to a particular entry. If administrative 
attempts to collect the debt are unsuccessful and a viable importer 
and/or surety can be found, the Office of Chief Counsel drafts a 
complaint and refers the matter to the Department of Justice for 
possible litigation in the Court of International Trade. If the Office 
of Chief Counsel is not successful in locating a viable entity to be 
pursued, the matter will be referred back to the Revenue Division for 
appropriate action. This may include referral to Immigration and 
Customs Enforcement for further investigation. If the debt is without 
legal merit or no viable entity can be located to pursue further 
collection action, CBP may ultimately be forced to write off the debt.
    CBP has taken steps to specifically improve the collection of AD/
CVD duties on shrimp imports and continues to explore statutory and 
nonstatutory changes to enhance bonding requirements. CBP is also 
actively pursuing collection of the balance of the open bills against 
delinquent importers and sureties.

    Senator Landrieu. Thank you.
    And I want to submit for the record--then I will turn it 
over to Senator Coats. I think he may have another question or 
two. Senator Murkowski has joined us--but for the record about 
the DRF. I asked the staff to provide--and I am going to submit 
for the record--a 20-year history of emergency supplemental 
funding. Out of the $128 billion that has been allocated by the 
Federal Government for emergency response to all sorts of 
disasters, $110 billion has been appropriated through the 
supplemental process. So $110 billion out of $128 billion.
    And when you look at this list, you can understand why that 
occurs because these sums range from a low of $143 million 
budgeted one year to $50 billion another year. So there are 
wild fluctuations and very difficult to predict what is going 
to happen. And as Senator Coats and I were saying, these storms 
seem to be getting more frequent, flooding more frequent, 
levels of flooding higher, more aggressive kind of storms and 
weather patterns.
    So I submit this for the record because I actually think 
this subcommittee is going to have to push hard to get this 
emergency funding in a supplemental and use the base funding of 
Homeland Security to manage the operations of this important 
function of Government. So if I can have unanimous consent to 
submit that to the record.
    [The information follows:]

                                 DISASTER RELIEF NONEMERGENCY/EMERGENCY HISTORY
----------------------------------------------------------------------------------------------------------------
                                                                                          Amount
          Fiscal year                Public Law        Annual or supp   ----------------------------------------
                                                                            Nonemergency          Emergency
----------------------------------------------------------------------------------------------------------------
1992...........................  102-139...........  Annual............        $185,000,000  ...................
1992...........................  102-229...........  Supp..............         800,000,000        $143,000,000
1992...........................  102-302...........  Supp..............  ..................         300,000,000
1992...........................  102-368...........  Supp..............  ..................       2,893,000,000
1993...........................  102-389...........  Annual............         292,095,000  ...................
1993...........................  103-75............  Supp..............  ..................       2,000,000,000
1994...........................  103-124...........  Annual............         292,000,000  ...................
1994...........................  103-211...........  Supp..............  ..................       4,709,000,000
1995...........................  103-327...........  Annual............         320,000,000  ...................
1995...........................  104-19............  Supp..............  ..................       3,275,000,000
1996...........................  104-134...........  Annual............         222,000,000  ...................
1996...........................  104-19............  Supp..............  ..................       3,275,000,000
1996...........................  104-134...........  Annual              ..................      (1,000,000,000)
                                                      (rescission).
1997...........................  104-204...........  Annual............       1,320,000,000  ...................
1997...........................  105-18............  Supp..............  ..................       3,300,000,000
1998...........................  105-65............  Annual............         320,000,000  ...................
1998...........................  105-174...........  Supp..............  ..................       1,600,000,000
1999...........................  105-276...........  Annual............         307,745,000  ...................
1999...........................  105-277...........  Supp..............  ..................         906,000,000
1999...........................  106-31............  Supp..............  ..................         900,000,000
2000...........................  106-74............  Annual............         300,000,000  ...................
2000...........................  106-74............  Supp..............  ..................       2,480,425,000
2001...........................  106-377 (H.R.       Annual............         300,000,000       1,300,000,000
                                  5482).
2001...........................  107-38 \1\........  Supp..............  ..................       1,791,000,000
2002...........................  107-73............  Annual............         664,000,000       1,500,000,000
2002...........................  107-117 \2\.......  Supp..............  ..................       4,356,871,000
2002...........................  107-206...........  Supp..............  ..................       2,650,700,000
2002...........................  107-206...........  Supp..............  ..................          23,200,000
2003...........................  108-7.............  Annual............         800,000,000  ...................
2003...........................  108-69............  Supp..............  ..................         983,600,000
2004...........................  108-90............  Annual............       1,800,000,000  ...................
2004...........................  108-83............  Supp..............  ..................         441,700,000
2004...........................  108-106...........  Supp..............  ..................         500,000,000
2004...........................  108-303...........  Supp..............  ..................       2,000,000,000
2005...........................  108-334...........  Annual............       2,042,380,000  ...................
2005...........................  108-324...........  Supp..............  ..................       6,500,000,000
2005...........................  109-61............  Supp..............  ..................      10,000,000,000
2005...........................  109-62............  Supp..............  ..................      50,000,000,000
2005...........................  109-148...........  Supp (rescission).  ..................     (23,409,300,000)
2006...........................  109-90............  Annual............       1,770,000,000  ...................
2006...........................  109-234...........  Supp..............  ..................       6,000,000,000
2007...........................  109-295...........  Annual............       1,500,000,000  ...................
2007...........................  110-28............  Supp..............  ..................       3,400,000,000
2007...........................  110-28............  Supp..............  ..................         710,000,000
2008...........................  110-161...........  Annual............       1,400,000,000  ...................
2008...........................  110-116...........  Supp..............  ..................       2,900,000,000
2008...........................  110-252...........  Supp..............  ..................         897,000,000
2008...........................  110-329...........  Supp..............  ..................       7,960,000,000
2009...........................  110-329...........  Annual............       1,400,000,000  ...................
2010...........................  111-83............  Annual............       1,600,000,000  ...................
2010...........................  111-212...........  Supp..............  ..................       5,100,000,000
                                --------------------------------------------------------------------------------
      Total....................  ..................  ..................      17,635,220,000     110,386,196,000
----------------------------------------------------------------------------------------------------------------
\1\ Amount provided by FEMA law is not specific by Agency.
\2\ From amounts appropriated but not originally specified in Public Law 107-38.

    Senator Landrieu. Let me recognize Senator Coats for a 
second round, then Senator Murkowski, and then Senator Moran.
    Senator Coats. Madam Chairman, thank you. Just one question 
and then I will submit some questions also for you to respond 
back.
    Senator Landrieu. And then we are going to have a break in 
about 5 minutes to----
    Secretary Napolitano. I will try to keep my answers short.
    Senator Coats. I will try to keep my question short.

                  STATE AND LOCAL COMMUNITIES, GRANTS

    Looking at the grants to States and local communities, I 
think the total in the budget request is $3.8 billion, which is 
about 9 percent of the Department's total discretionary 
request. That will be in addition to $28 billion, as I 
understand it, that has been appropriated since fiscal year 
2004.
    The question is, it is my understanding that we have not 
really been able to fully assess--although FEMA is undertaking 
something to this effect--how effective these are and 
particularly whether the distribution of these funds is 
appropriate. The problem usually arises on grants and 
distributions as the political animal raises its head and 
basically says I got to get my share.
    So I am sympathetic to what Senator Lautenberg was saying 
relative to representing an area that is a significantly high-
threat area with the consequences being very, very significant. 
That obviously is going to be a more significant and higher 
priority area than several of my rural towns or Jersey's rural 
towns.
    But if we keep insisting on a revenue-sharing program in 
which everybody gets a slice, it may be that given this fairly 
extraordinary amount of money that has been spent to upgrade 
and prepare local responders and so forth needs to be triaged 
in a more effective way.
    Now, I say that meaning that there may be some communities 
in Indiana that might not get what they otherwise would have 
gotten in deference to the fact that we have identified some 
more-highly targeted, more-significant consequences if we have 
an attack here or in a particular area and so forth.
    Could you comment on that in terms of, one, how we best 
assess the impact and the effectiveness of that $28 billion 
that has already been spent and whether or not we need to make 
an effort at looking at prioritizing or triaging areas which 
ought to get more funds and others that should get less?
    Senator Landrieu. Let me interrupt just 1 minute. In the 
spirit of bipartisanship, I am actually going to pass the gavel 
to Senator Coats so he can continue. I am going to go vote and 
in 5 minutes you all could take a recess, and then I will be 
right back. But you all continue.
    Senator Coats [presiding]. All right.
    Secretary Napolitano. I am glad because this requires a 
longer answer I think than perhaps the buzzer would permit.
    In the area of grants, one of the things we need to do as a 
country is--I call it a homeland security architecture that 
begins with small towns, cities, States, et cetera. The Federal 
Government cannot do it by itself. And I think the theory 
underlying a lot of the grants is that being the case, we need 
to make sure that there is a certain baseline capability 
throughout the country.
    And then second, in the area of focusing Federal grants on 
the areas of highest risk, there I think there needs to be and 
can be and should be a dialogue with the executive branch and 
the legislative branch. I will share with you, Senator, that 
one person's rural community is another person's--subject to an 
ag or a bio-attack and the need to have things like the NBAF 
located there.
    So on the issue of interoperability of emergency response 
equipment, rural America is the toughest problem. In urban 
areas, interoperability can be achieved and is being achieved 
because the lines are there, the towers are there, and so 
forth. In rural America or the area along the Southwest Border 
or along the Northern Border, it is some of our most difficult 
areas to cover just because of the lack of capital and 
infrastructure. So these are kind of the nuts and bolts things 
we are going through when we talk about awarding grants for 
interoperability or for this or for that.
    But I think you are right to suggest that there can be a 
useful dialogue on how grants are done. That is why we have 
recommended that some of these programs be consolidated because 
we think that that would be a better way to manage them and so 
forth. So we look forward to working with the subcommittee on 
that.
    Senator Coats. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Senator Coats.
    Secretary, welcome. I apologize I was not here for the full 
hearing. I will make my comments quick, hopefully, and will get 
out of here to the vote. And I do not know whether you have to 
stay until we get back or not. But let me go very, very 
quickly.

                             TSA PAT-DOWNS

    I was up in Alaska this past weekend, and all of the news 
was centered around one of our State House Representatives, 
Representative Sharon Cissna, a woman that I have served with, 
a woman who has undergone breast cancer and had a mastectomy. 
And you do not need to know her personal history, but her 
personal history is now part of the discussion in Alaska 
because she was subjected to what she felt was a very intrusive 
pat-down coming back from Seattle to go to work in Juneau after 
her medical appointments. And apparently the full-body scanners 
detected some scars, and apparently Representative Cissna is 
not the only individual where scars from medical procedures are 
picked up and the individual is subjected to what is described 
as a very intrusive pat-down.
    She had made the determination that she was not going to 
put herself through this again. She had done it once. And as a 
consequence, this individual, in order to get back to work, 
drove a car, took a small airplane, went through Canada, and 
eventually got onto the ferry. It took her 4 days to get from 
Seattle to Juneau. Our State's capital is on an island in 
Alaska. We cannot get anywhere without flying.
    I have sent a letter to the Administrator of the TSA asking 
him for clarification as to what the process will be for those 
that have had medical procedures, those that have prosthetics 
that go through this screening process where they are subjected 
to enhanced pat-downs and the intrusion on their dignity is 
such that they are making choices like Representative Cissna 
did to not fly. In my State, as you know, that is a pretty 
difficult decision to make.
    I have not heard anything back from the Administrator about 
this yet, but it is an issue that as we work to protect the 
safety of all Americans and the safety of our skies, the safety 
of our Nation, there is that balancing between how we ensure 
for that and how we ensure for an individual's privacy and 
dignity.
    I wanted to make sure that you were fully aware of this 
because this is an issue that has taken on a life beyond its 
own. And I do not know whether you have an answer for me today 
in terms of what those protocols may be, but it is something 
that I believe the issue will not die down until there is a 
better resolve than what we saw happen, at least with one 
particular constituent in the Seattle airport.
    Senator Coats. Madam Secretary, if I could, just in the 
interest of time here, I am going to pass the gavel to my 
colleague and let you answer her. I think by the time Senator 
Murkowski is done, the chairman will be back. I just got a note 
she is returning. So if there is a little break, we will just 
take a temporary recess.
    Secretary Napolitano. Fair enough.
    Senator Murkowski [presiding]. Thank you.
    Secretary Napolitano. I can chair the subcommittee if you 
want.
    Just kidding.
    All right. First of all, Senator, we will look into this 
particular matter. It strikes me as a highly unique one, but we 
will----
    Senator Murkowski. I am told it is not and that is why----
    Secretary Napolitano. Well, we will find out.
    Senator Murkowski [continuing]. So I think it is important.
    Secretary Napolitano. We will find out----
    Senator Murkowski. Good.
    Secretary Napolitano [continuing]. Because I will share 
with you that this is not designed to be invasive in the sense 
of unnecessary or a harassment of any sort. And we want to make 
sure we work through this particular issue. So we will do that.
    I will also share with you, however, that overall we are 
finding that the AIT process, which is the new technology we 
are using--99.9 percent of the passengers who have been through 
it since Thanksgiving have gone through it, no opt-outs, no 
anything. People with artificial joints, artificial hips, for 
example, love it because it can clearly distinguish that versus 
the magnetometer where they always were getting pulled aside.
    The particular issue you raised--this is something that I 
am more than prepared to look into. We will provide you with a 
response. No one with a medical condition should feel like 
every time they have to go through the screener, they are going 
to get pulled aside because of their medical condition. What we 
want to pull aside are individuals for whom we cannot resolve 
an anomaly on the screen. This is our last line of protection 
for an aircraft. There are a lot of things that go on before 
you get to that point, but that is our last line. So we will 
get back to you on that.
    [The information follows:]

   TSA Screening Process for Persons Who Have Had Medical Procedures

    TSA spoke with Senator Murkowski's staff and discussed TSA's 
working relationships with groups like Susan G. Komen foundation to 
address issues raised by Alaska Representative Cissna for women who've 
undergone mastectomies and how TSA integrates their suggestions into 
training. Also shared were TSA's conference calls and other outreach 
with Representative Cissna about her experience. The following 
summarizes this information:
    Does scarring from a mastectomy regularly cause an AIT alarm?
    There are many possible factors that may generate anomalies during 
Advanced Imaging Technology (AIT) screening, including breast 
prosthetics or surgical scarring.
    When an anomaly is discovered during AIT screening, the 
Transportation Security Officer (TSO) must resolve the alarm using 
additional screening procedures. TSA's procedures do not require that 
passengers remove their breast prosthesis as part of the security 
screening process. If a pat-down is required to resolve the anomaly, it 
may be done in a private screening area and will be performed by an 
officer of the same gender. A TSA witness will be present if the pat-
down is conducted in the private screening area. The passenger may have 
a witness of their choosing accompany them throughout the screening 
process regardless of whether the screening occurs in the public or a 
private screening area.
    What training do TSO's receive related to this issue?
    TSOs are instructed, as part of their training and standard 
operating procedures, to use extreme care and sensitivity when 
screening or performing pat-downs of sensitive or painful areas. We 
also urge travelers to tell TSOs about any specific issues TSOs should 
be aware of before such screening measures begin, including painful or 
sore areas, or past and current medical conditions. To ensure the 
greatest level of privacy possible while conveying sensitive 
information, TSA has also made a notification template available for 
passengers to discreetly provide information about their medical 
condition or disability to TSOs at airports. The template is available 
at TSA.gov and TSA has proactively shared it with a coalition of 70 
advocacy groups representing a variety of segments of the population 
with whom TSA maintains an ongoing dialogue. A number of cancer-related 
groups have been a part of the coalition, including Susan G. Komen and 
Cancer Treatment Centers of America. Based on input we received from 
groups such as these over the last year, we have augmented the training 
provided to our TSOs to make them better attuned to the needs of cancer 
survivors and those who have recently undergone cancer treatment.

    Senator Murkowski. And I appreciate you looking into that. 
The Alaska State legislature--excuse me--the House of 
Representatives has passed a resolution in support of 
Representative Cissna's effort to get some clarification to the 
process. I will forward all of this to you and look forward to 
working with you, sharing some of the information that I have 
raised.

                        COAST GUARD ICEBREAKERS

    Very quickly then a second question, and then I will submit 
a third for the record. This is as it relates to our Coast 
Guard to our ability to respond in an ever-growing Arctic. I 
was pleased to see that the fiscal year 2012 budget restored 
the funding for the operational control for our icebreaker 
fleet to the Coast Guard. I think that that makes sense. That 
is important.
    But contained within that budget is the decommissioning of 
the Polar Sea in fiscal year 2011. It provides for completion 
for the maintenance of the Polar Star, but that will not be 
complete until 2013. So we have got a situation here where at 
least for the next couple years we have the Healy out there in 
the waters, but we do not have any polar class icebreakers, and 
it leaves us without the capacity to do any heavy icebreaking 
capability until then.
    So the question to you is with the fact that the Coast 
Guard will only have one heavy icebreaker once the Polar Sea is 
down and the Polar Star is up, what are the Department's plans? 
What are the Coast Guard's plans for the future of this 
country's heavy icebreaking fleet? If you can give me the 
status of the Coast Guard's high-latitude study and when you 
might expect that that might be available for release to us 
here in the Congress.
    Secretary Napolitano. Indeed. First of all, my 
understanding is the Healy, which is a medium-sized cutter, 
will remain operational in 2011-2012. The problem is you have 
the Polar Star and the Polar Sea, both of which are old vessels 
and need to have heavy maintenance. And so you have this--it 
looks like a bare period in fiscal year 2012.
    Our plan is during that period for the National Science 
Foundation to lease a heavy icebreaker to take the place----
    Senator Murkowski. Who do we lease from?
    Secretary Napolitano. There are at least two countries that 
we can lease from. I would prefer to give that to you in 
writing--or not in writing, but not in an open session. But we 
have identified at least two countries that we could lease from 
during that fiscal year 2012 period.
    [The information follows:]

    The National Science Foundation (NSF) has leased polar icebreakers 
from both Russia and Sweden in the past. NSF is continuing to negotiate 
their specific polar icebreaking requirements lease plans for 2012 and 
the details of that lease should be directed to NSF.

    Secretary Napolitano. Now, as you said in your question, 
you got the funding for operational control up there, $39 
million moved over to the Coast Guard. That is where it should 
go.
    We also have in the fiscal year 2012 budget a sum set aside 
for an Arctic study. One of the things this country really 
needs is to really look at the Arctic and what is necessary to 
protect U.S. interests there. So that is in the Coast Guard 
budget as well.
    With respect to the work--you wanted to know when the other 
study would be finished. Let me check with the Commandant and 
we will get you the date.
    Senator Murkowski. I appreciate that.
    And I appreciate the information on what we do to fill the 
gap here with the heavy icebreaker. I do hope that we are not 
moving in a direction where we view that as our option to lease 
basically commercially. I think we need to remember that we are 
an Arctic nation. The United States is an Arctic nation, and 
the fact that we have just barely one-and-a-half icebreakers, 
if you will, when you think about the medium and the heavy, it 
is a situation where we look to our ability to respond as an 
Arctic nation whether it is the level of shipping traffic that 
we are seeing going on up north, the level of exploration 
activity that may be at hand. We have got cruise ships going 
back and forth up in the Arctic right now. We are woefully 
unprepared, I believe, at this point in time. So I would love 
to discuss kind of the future of where we go and how we build 
this out so that we are able to respond as necessary. But 
again, we are behaving as an Arctic nation and assuming that 
international role that I think that we should as a Nation.
    Secretary Napolitano. I could not agree more.
    Senator Murkowski. Thank you, Madam Secretary.
    And I guess we are at ease until Senator Landrieu comes 
back.
    Secretary Napolitano. Thank you, Senator.
    Senator Landrieu [presiding]. Our meeting will come back to 
order after a brief recess, Homeland Security Subcommittee 
Appropriations meeting.

                          GOVERNMENT SHUTDOWN

    Let me begin with just another question about the 
potential--and I hope we can avoid this, Madam Secretary, but 
the potential shutdown of the Government and what that might 
mean for the Department of Homeland Security. The Government 
was shut down for 27 days in 1995 and 1996. The front-line 
personnel for Customs Service, Border Patrol, and Secret 
Service continued to work, but their workers were not 
immediately paid. I understand their support operations or 
administrative operations did not continue to work. So you have 
to question how effective their work can be without any back-
office support.
    But if the Government were to shut down again--and again, 
we are all working hard to see that that does not happen and 
coming to some compromise with the House on this--what would be 
the impacts to the Department? I am sure you have given some 
thought to this.
    Secretary Napolitano. Thank you, Madam Chair. Yes, I have 
in part because this Department did not exist in 1995 during 
the prior shut-downs, and so we have had to be looking at this 
afresh, anew because the Department is only 8 years old.
    Thank you again, by the way, for coming to the program 
yesterday. It was really great to see you there.
    I think you put your finger on one of the important points. 
The front-line personnel who are related to security would fall 
within the exception of the shutdown and they would stay on 
duty, but the back-room personnel that are necessary to fully 
utilize the front-line personnel would not in all likelihood. 
And our TSOs, our transportation security officers, our front-
line personnel, tend to be at the lower end of the pay scale 
and tend to be ones that I would be very concerned about having 
to live paycheck-to-paycheck. And so you would have your front-
line personnel who were working but not getting paid and being 
under some financial duress because of that. So we have parts 
of the Department that would probably have to shut down 
virtually 100 percent, but the security-related part would 
operate, but as you say, they would not have the full backing 
of the Department that they would otherwise have.
    Senator Landrieu. Thank you. I do think that is something 
that we need to keep in mind as we press forward on these 
negotiations.

                           OFFICER CORRUPTION

    My next question--I only have three additional questions, 
and I think we can get through them in the next few minutes--is 
about the officer integrity, the issue of integrity in our 
operations. I think not only in trying to streamline where we 
can is important without undercutting our defense and homeland 
security, but also we want to have an honest and open and 
transparent Government, which is always so important. And of 
course, America is really a model in the world. We are proud of 
that. We are not perfect, but we are a model in that regard.
    But there have been some concerns that this subcommittee 
has expressed, and I want to just state that with the support 
of this subcommittee, U.S. Customs and Border Protection has 
hired 16,000 new employees, a 37-percent increase in the last 5 
years. U.S. Immigration and Customs has hired more than 8,200 
new personnel. This has been required to stand up this 
Department and meet the goals and objectives of securing our 
borders and enforcing our immigration laws.
    This subcommittee has been concerned, however, due to the 
rapid hiring, that there is a potential increase for officer 
corruption. So towards this end, the subcommittee has provided 
additional resources for integrity training, investigations, 
conducting hearings about misconduct, background 
investigations. I am pleased to see your budget requests an 
additional $26 million for this. This is the right thing to do. 
I support the funding.
    But it is our understanding that some of the people in 
charge of this from CBP to ICE and the Inspector General are 
experiencing some difficulty working together. Could you 
comment about if you are aware of this situation? Do you agree 
that it is somewhat of a problem? And if so, what are you doing 
to correct it? Will you and the Deputy Secretary work with me 
on establishing clear lines of authority for these important 
internal investigations?
    Secretary Napolitano. Madam Chair, I think that it is fair 
to say that with that rapid increase, we need to have 
appropriate oversight and supervision for a number of reasons, 
one of which is related to officer integrity. And so we have 
ramped up efforts there.
    I think it is also accurate to say that we have been 
working both with the OIG's Office and with CBP on the 
implementation of appropriate oversight, what does that mean, 
who does what when. How do we make sure that cases are resolved 
swiftly so that agents are not unduly impugned or taken off the 
line and that if and when we find an agent who has become 
corrupt, that we deal with that immediately and very firmly? We 
will not stand for corruption among our troops and we do not 
want that bad seed to take root in this staffing increase. So 
we are all very committed to that goal.
    The issue is how do you operationalize that between the OIG 
and what the CBP does and what ICE does, and that is an issue 
of which I am very aware, have been personally involved in, and 
we continue to work on.
    Senator Landrieu. And do you have the money and resources 
you need for the polygraph and the initial checks before hiring 
people? Are you able to process your hirees pretty quickly, do 
you believe?
    Secretary Napolitano. The President's budget contains 
adequate resources for that, yes.

                                 MEXICO

    Senator Landrieu. My next question--and this is a growing 
concern among, I think, people in our country, and that is the 
escalating violence in Mexico. You alluded to, of course, we 
lost one of our special agents, Zapata, just recently and 
another was wounded. This really brought to light the fact that 
our agents are prohibited from carrying service weapons in 
their defense, which is a side issue.
    But the more important issue--and that is important as 
well--is that 33,000 Mexican citizens have died during the 
Mexican Government's admirable, but very difficult campaign 
against drug trafficking. But what are the top one, two, or 
three directives that you are taking to try to contain this 
violence? And when we are sending agents, is it appropriate to 
send agents into Mexico without being able to defend 
themselves?
    Secretary Napolitano. Well, first of all, I would suggest, 
Madam Chair, that some of this be discussed in a classified 
setting and that includes how the agents are armed and under 
what circumstances.
    I will say that the violence in Mexico is something we are 
very concerned about. It is one of the things that we work on 
very closely with Mexico. President Calderon is scheduled for a 
visit to the United States this week. I believe that will be 
something that he and President Obama discuss. And it is 
something that we are working with Mexico on.
    Some of our priorities are to assist Mexico in any way that 
we can and as requested to defeat the cartels.
    Number two, to make sure that we have adequate resources 
along our Southwest Border to prevent the cartels from bringing 
their violence over and trying to take over areas along the 
Southwest Border, so preventing spillover violence.
    And then number three, making sure that we have adequate 
manpower, technology, and infrastructure along the Southwest 
Border as a whole so that it can be a safe and secure zone for 
the trade and travel that has to occur between Mexico and the 
United States. This is something that often gets overlooked in 
the discussion, but Mexico is the number one or two trading 
partner of something like 23 States in the United States. There 
are a lot of jobs associated with that commerce with Mexico. So 
both countries need to work to make sure that the travel and 
trade that occurs can go smoothly and efficiently through the 
ports of entry.
    Senator Landrieu. Thank you.

                              CYBER THREAT

    I think my last question will be about the cyber threat, 
which is something that I am not sure that the public really 
sees. I think they see and read about the violence in Mexico. I 
think they understand some of the border issues. I think they 
understand the challenges of immigration. I think they most 
certainly can understand the airline attacks and the New York 
incident. But cyber is something that I am not sure the public 
really can understand the consequences, really, of such an 
attack, should it occur in a more successful way because we are 
actually being attacked through this new method.
    So my question is, President Obama said that cyber threat 
is one of the most serious economic and national security 
challenges that we face. I actually agree with that. You 
included safeguarding and securing cyberspace as one of the 
five missions. This budget request appears to respond to this 
alarm by requesting a robust level of funding for U.S. 
operations, Federal network, security network, and security 
deployment. These are important areas. I was pleased to see 
some of the upticks that you have.
    As you know, there are several locations around the country 
that are really leaning toward actually working in conjunction 
with non-Federal partners. Corporations have really stepped up. 
The National Guard has shown an inclination to put some 
resources towards this.
    We have created in Louisiana--in Shreveport, in Bossier 
Parish to be exact, in the northwest corner of Louisiana--the 
Cyber Innovation Center. The center has built a strong regional 
network among universities and colleges to leverage 
cybersecurity systems.
    I would like to ask you for a general comment about the 
cyber threat and then ask you if you would join me for a trip 
there and to perhaps a few other locations around the country 
to see what some of the new initiatives are to actually stand 
up the technology and personnel necessary to respond to this 
very serious and I think underestimated threat to our country.
    Secretary Napolitano. Madam Chair, yes, we have increased 
our cyber budget. Between DHS and the Department of Defense, 
you really have between those two Departments 95 percent of the 
cybersecurity responsibilities identified by the President's 
cyber review. So you have seen that area of DHS expand fairly 
dramatically over the last 2 years. This is another area where 
we believe that the United States has real security interests 
involved. We are working with the private sector on this. We 
also are working with the universities on this, and we are 
increasing our outreach trying to identify persons who have a 
cyber background to come work at DHS. That is one of our key 
challenges is to get enough personnel who are cyber-experienced 
to work in the public service as opposed to the private sector. 
So that is underway as well.
    With respect to your invitation to come to Shreveport and 
to do some other cyber site visits, I would be happy to do so, 
particularly if there is a good Louisiana meal involved.
    Senator Landrieu. Thank you, Madam Secretary. I think we 
can rustle one up for you.
    Secretary Napolitano. There you go.

                                CLOSING

    Senator Landrieu. I am going to end the meeting, but I do 
want to comment that there are a few other issues that our 
subcommittee is going to be focused on.
    The TSA screener cap provision at 46,000. I do not know if 
that is going to be effective.
    International adoptions is an important issue to me to make 
sure that we are doing the very best we can in customs to 
support the great work that our nonprofits and individual 
citizens are doing in that humanitarian area.
    Improving the entry process for visitors to the United 
States I think is important, whether they are just tourists or 
whether they are business people traveling because of just the 
economy of the world, and we have just got to be a very 
forward-leaning service agency to support that work.
    The flood maps are of great concern to myself, Senator 
Cochran, and other Senators up along the Mississippi River 
which comes under this subcommittee's jurisdiction.
    So those are some questions that I will defer and submit to 
you in writing.
    And I believe that will end our session for today. I thank 
you for your testimony and for your patience during the floor 
vote.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Landrieu. Other questions for the record should be 
submitted to the subcommittee staff by close of business on 
Thursday.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing.]
            Questions Submitted by Senator Mary L. Landrieu
                       departmental acquisitions
    Question. For each of fiscal year's 2010-2012, how much funding is 
dedicated to major acquisitions? For each year, provide details on the 
classification level of each acquisition, i.e. how many are designated 
as level 1, level 2, or level 3 as defined by the Department's 
acquisition management directive? Provide a DHS major acquisition 
status tracking chart listing each program and milestone necessary to 
achieve approval for full-scale procurement.
    Answer.

----------------------------------------------------------------------------------------------------------------
                                           Fiscal year 2010         Fiscal year 2011         Fiscal year 2012
----------------------------------------------------------------------------------------------------------------
Funding dedicated to major             $11,671,000,000........  $11,068,000,000........  $10,457,000,000
 acquisitions.
Level 1..............................  46 programs............  45 programs............  Information not yet
                                                                                          available.
Level 2..............................  40 programs............  37 programs............  Information not yet
                                                                                          available.
Level 3..............................  Not reported \1\.......  Not reported \1\.......  Information not yet
                                                                                          available.
----------------------------------------------------------------------------------------------------------------
\1\ In accordance with Directive 102-01 (D 102-01), non-IT level 3 programs are not reported; however, guidance
  will be changed April 30, 2011, to require inclusion of all level 1, 2, and 3 acquisition programs in the Next
  Generation Periodic Reporting System (nPRS).

    The following chart lists the 82 DHS level 1 and 2 programs along 
with their current phase in the acquisition life cycle. Programs in 
phase 4 should be considered approved for ``full-scale production''.
    The phases as defined in the D 102-01 are:
  --Phase 1. Need.
  --Phase 2. Analyze/Select.
  --Phase 3. Obtain.
  --Phase 4. Produce/Deploy/Support.
    Please note that the list identifies many programs as being in 
multiple stages. Typically, these programs are comprised of smaller 
projects and these projects are in various stages. Accordingly the list 
identifies such programs as being ``mixed'' and the lists identifies 
each stage the program is in.

------------------------------------------------------------------------
                                                       Phase
         Program-Project-Service         -------------------------------
                                             1       2       3       4
------------------------------------------------------------------------
CBP--Advance Passenger Information        ......  ......  ......      x
 (APIS) (P) \1\.........................
CBP--Automated Commercial Environment     ......  ......      x       x
 (ACE)/International Trade Data System
 (ITDS)  (P)............................
CBP--Automated Targeting System (ATS)     ......  ......  ......      x
 Maintenance (P)........................
CBP--Border Patrol Facilities (P).......  ......  ......      x       x
CBP--Facilities Management and            ......  ......      x       x
 Engineering Tactical Infrastructure
 (FM&E TI) (P)..........................
CBP--Fleet Management (FMP) (P).........  ......  ......  ......      x
CBP--Land Ports of Entry Modernization    ......  ......      x       x
 (P)....................................
CBP--Non-Intrusive Inspection (NII)       ......  ......      x       x
 Systems Program (P)....................
CBP--SAP (P)............................  ......  ......  ......      x
CBP--Strategic Air and Marine Plan (P)..  ......  ......      x       x
CBP--Tactical Communication (TAC-COM)         x   ......  ......      x
 (P)....................................
CBP--TECS Modernization (P).............  ......  ......      x       x
CBP--Transportation (P).................  ......  ......  ......      x
CBP--Western Hemisphere Travel            ......  ......  ......      x
 Initiative (WHTI) (P)..................
DHS--A&O--Common Operational Picture      ......  ......      x       x
 (COP) (P)..............................
DHS--A&O--Homeland Security Information   ......  ......      x       x
 Network (HSIN) (P).....................
DHS--CAO--Electronic Records Management       x   ......  ......  ......
 System (ERMS) (P)......................
DHS--CAO--St. Elizabeths (P)............  ......  ......      x   ......
DHS--CFO--Transformation and Systems      ......      x   ......  ......
 Consolidation (TASC) (P)...............
DHS--CHCO--HR-IT (P)....................  ......  ......      x       x
DHS--CIO--Infrastructure Transformation   ......  ......      x       x
 Program (ITP) (P)......................
DNDO--Advanced Spectroscopic Portal       ......  ......      x   ......
 (ASP) Program (P)......................
FEMA--Grants Management Integrated        ......      x   ......  ......
 Environment (GMIE) (P).................
FEMA--Housing Inspection Services (HIS)   ......  ......      x       x
 (P)....................................
FEMA--Integrated Public Alert and             x   ......  ......  ......
 Warning System (IPAWS) (P).............
FEMA--Logistics Supply Chain Management   ......      x   ......  ......
 System (LSCMS) (previously TAV) (P)....
FEMA--Risk Mapping, Analysis and          ......  ......  ......      x
 Planning (Risk Map) (P)................
A&O--National Security System Program     ......      x   ......  ......
 (NSSP) (P).............................
A&O--Online Tracking Information System   ......  ......      x       x
 (OTIS) \2\ (S) \3\.....................
ICE--Atlas (P)..........................  ......  ......      x   ......
ICE--Detention and Removal Operations     ......      x   ......  ......
 (DRO) (S)..............................
ICE--Detention and Removal Operations     ......  ......      x       x
 Modernization (DROM) (P)...............
ICE--DRO Electronic Health Record (EHR)       x   ......  ......  ......
 System (P).............................
ICE--Enforcement Information Sharing          x   ......  ......  ......
 (EIS) (P)..............................
ICE--Student and Exchange Visitor         ......      x   ......      x
 Information System (SEVIS I and II) (P)
 (SEVIS I=4, SEVIS II=2)................
ICE--Tactical Communication (TAC-COM)     ......  ......      x   ......
 (P)....................................
ICE--TECS Modernization (P).............  ......      x   ......  ......
NPPD--Federal Protective Services (S)...  ......  ......  ......      x
NPPD--IICV (Infrastructure Information    ......  ......      x       x
 Collection Program and Visualization)--
 IICP (P)...............................
NPPD--National Cybersecurity and          ......  ......      x       x
 Protection System (NCPS) (P)...........
NPPD--Next Generation Network (NGN) (P).  ......      x       x   ......
NPPD--United States Visitor and               x   ......      x       x
 Immigrant Status Indicator Technology
 (US-VISIT) (P).........................
OHA--Bio Watch Gen-3 (P)................  ......      x   ......  ......
S&T--National Bio and Agro-Defense        ......      x   ......  ......
 Facility (NBAF) (P)....................
S&T--National Biodefense Analysis and     ......  ......      x   ......
 Countermeasures Center (NBACC) Facility
 (P)....................................
TSA--Electronic Baggage Screening         ......  ......      x       x
 Program (EBSP) (P).....................
TSA--Field Real Estate Management (FREM)  ......  ......  ......      x
 (P)....................................
TSA--HR Access (P)......................  ......  ......  ......      x
TSA--Information Technology               ......  ......  ......      x
 Infrastructure Program (ITIP) (P)......
TSA--National Explosives Detection        ......  ......  ......      x
 Canine Team Program (K9) System (P)....
TSA--Passenger Screening Program (PSP)    ......  ......      x       x
 (P)....................................
TSA--Screening Partnership Program (P)..  ......  ......  ......      x
TSA--Secure Flight (P)..................  ......  ......      x   ......
TSA--Security Technology Integrated       ......  ......      x       x
 Program (STIP) (P).....................
TSA--Specialized Training (P)...........  ......  ......  ......      x
TSA--Transportation Worker                ......  ......  ......      x
 Identification Credentialing (TWIC) (P)
TSA--TTAC Infrastructure Modernization    ......      x   ......  ......
 Program (TIM) (P)......................
USCG--C4ISR (P).........................  ......  ......  ......      x
USCG--CG Logistics Information            ......      x   ......  ......
 Management System (CG-LIMS) (P)........
USCG--Coastal Patrol Boat (P)...........  ......  ......  ......      x
USCG--Core Accounting System (CAS) (P)..  ......  ......  ......      x
USCG--Fast Response Cutter (FRC) (P)....  ......  ......      x   ......
USCG--HC-130H Conversion/Sustainment      ......  ......      x   ......
 Projects (P)...........................
USCG--HC-130J Fleet Introduction (P)....  ......  ......  ......      x
USCG--HC-144A Maritime Patrol Aircraft    ......  ......      x   ......
 (MPA) (P)..............................
USCG--HH-60 Conversion Projects (P).....  ......  ......      x   ......
USCG--HH-65 Conversion/Sustainment        ......  ......      x   ......
 Projects (P)...........................
USCG--Interagency Operations Centers      ......      x   ......  ......
 (IOC) (P)..............................
USCG--Medium Endurance Cutter             ......  ......  ......      x
 Sustainment (P)........................
USCG--National Security Cutter (NSC) (P)  ......  ......      x   ......
USCG--Nationwide Automatic                ......  ......      x       x
 Identification System (NAIS) (P).......
USCG--Offshore Patrol Cutter (OPC) (P)..  ......      x   ......  ......
USCG--Patrol Boats Sustainment (P)......  ......  ......  ......      x
USCG--Rescue 21 (P).....................  ......  ......  ......      x
USCG--Response Boat--Medium (RB-M) (P)..  ......  ......  ......      x
USCG--Unmanned Aircraft Systems (UAS)         x   ......  ......  ......
 (P)....................................
USCIS--Application Support Centers (ASC)  ......      x   ......  ......
 (P)....................................
USCIS--Benefits Provision--Verification   ......  ......      x       x
 Information System (VIS) (P)...........
USCIS--Integration Document Production    ......  ......  ......      x
 (IDP) (P)..............................
USCIS--Transformation (P)...............  ......      x   ......  ......
USSS--IT Modernization (ITM) (P)........      x   ......  ......  ......
------------------------------------------------------------------------
\1\ (P) indicates Program.
\2\ (S) indicates Services.
\3\ Per I&A, OTIS Program has been canceled.

    Question. The request includes $24.2 million and 150 positions to 
strengthen the Department's acquisition workforce. Based on the 
Department's assessment of its acquisition workforce, does the request 
completely fill the gap in acquisition workforce needs? What is the 
long-term plan to address known gaps?
    Answer. The 150 positions are based on a survey conducted in fiscal 
year 2010 of the major acquisition programs and acquisition oversight 
offices to identify gaps in the acquisition workforce and represent the 
number of positions required to fill gaps to ensure successful program 
execution, including risk mitigation.
    DHS continues our concerted recruitment efforts with the use of 
direct hire authority and centralized vacancy announcements. As of 
December 31, 2010, these efforts have resulted in a 136 percent 
increase in our contracting specialists. We are also graduating the 
first 30 Acquisition Professional Career Program participants in fiscal 
year 2011 who will be trained, certified contracting specialists and 
placed within the Department's nine contracting activities throughout 
fiscal year 2011. Additionally, we have expanded the Acquisition 
Professional Career Program to include additional fields in program 
management, business cost estimating, systems engineering, life-cycle 
logistics, and information technology. DHS has also established new 
certification programs for the test and evaluation, logistics, business 
cost estimating, and acquisition financial management career fields, 
and will have new programs in place in fiscal year 2012 for systems 
engineers and information technology specialists.
    Question. What is the status of the Department's plans to develop a 
formal Technology Readiness Level (TRL) process? The purpose of the 
process is to require TRL assessments of chemical, biological, 
radiological, nuclear detection, and other technologies prior to 
appropriate acquisition decision points. Has a management directive on 
this initiative been finalized? If so, provide a copy to the 
subcommittee.
    Answer. The Science and Technology Directorate (S&T) Office of 
Acquisition Support and Operations Analysis is dedicated to assisting 
the DHS components with their acquisition programs, including test and 
evaluation master plans, systems integration and technology maturity 
assessments. This office is charged with engaging the components and 
executing S&T's portions of Acquisition Directive 102-01 and 
facilitating the deployment of technology. There is no current plan to 
create a separate TRL Management Directive.
  --DHS TSD/DOT&E has been closely involved with SBInet throughout the 
        acquisition process:
    --Assisted with developing an integrated T&E strategy for SBInet as 
            codified in the DHS Director, Operational Test and 
            Evaluation's (DOT&E) approved test and evaluation master 
            plan.
    --Assisted with selection of, and ultimately approved the Army Test 
            and Evaluation Command (ATEC) as the Operational Test Agent 
            (OTA), an agency with demonstrated capabilities in the test 
            and evaluation of command and control and surveillance 
            systems.
    --Observed SBInet user assessment testing at Playas, New Mexico. 
            Reviewed developmental testing documentation related to 
            test and evaluation at the system and subsystem levels, to 
            help ensure both the credibility of T&E results and the 
            confidence in the understanding of system performance and 
            overall system maturity.
    --Participated in SBInet monthly program reviews.
    --Member of the SBInet AoA Executive Leadership Team and Working 
            Group.
    --Participated in SBInet's operational test readiness review and 
            Acquisition Review Board providing risk information to 
            program executives and decisionmakers.
    --Approved ATECs operational test plan for SBInet Tucson One 
            sector.
    --Observed and monitored SBInet TUS1 Operational Testing (OT) and 
            OT dry run (mid-October 2010 through mid-November 2010.
    --Participated in ATEC's OT emerging results briefing on March 2, 
            2011. The final OT evaluation report is due early April 
            2011.
    --Drafting DOT&E's Letter of Assessment (LOA) that assesses the 
            adequacy of the Army's independent operational test and 
            evaluation results. This LOA will be submitted to the Under 
            Secretary for Management and used to support future 
            decisions on border technologies.
  --Currently working with Customs and Border Patrol on the Land Border 
        Integrated Fixed Tower program to ensure adequate test and 
        evaluation is planned, executed and reported as required by DHS 
        directive.
                          workforce balancing
    Question. What is the total number of contractor full time 
equivalents (FTE) providing services in support of DHS programs? Across 
departmental components, the request proposes to move resources from 
contract service providers to in-house staff. Provide a departmentwide 
chart for this effort by component for fiscal year 2011 and fiscal year 
2012, including the shift in personnel from contractor to Federal FTE 
and associated cost savings. Since the Balanced Workforce Strategy 
began, how many contractor conversions has the Department realized? How 
will you measure the success of the Balanced Workforce Strategy?
    Answer. After the Balanced Workforce Strategy (BWS) Departmental 
Working Group was formed, it reviewed information provided by the firm 
(LMI) that developed the algorithm and identified a math error that 
caused the number of contractors to be significantly overstated. The 
Department worked with the firm to reexamine the algorithm and 
assumptions. The firm informed the Department that the initial 210,000 
contractor work-year equivalent estimate was overstated by 100,000 or 
more.
    The BWS Tool, an automated survey that leads a component official 
through the analysis process of the Department's contracts and mission 
needs, is a key element of our strategy to reduce expenditures on 
professional services contracts in order to more effectively and 
efficiently achieve our mission.
    Some of the results of our efforts thus far include reducing 
spending on professional services contracts by 11 percent, or $420 
million, from fiscal year 2009 to fiscal year 2010. The Department's 
fiscal year 2012 budget request includes an additional $106 million in 
cuts to professional services contracts across the Department, 
demonstrating our commitment to better managing contracts and ensuring 
the appropriate mix of personnel.
    Ultimately, the BWS will be considered successful if it:
  --Ensures compliance with current statutes, regulations, and 
        Government and DHS policies by documenting components' reviews 
        of current contracts; and
  --Objectively assesses the proper sourcing decisions for performing 
        work that advances the mission of the Department of Homeland 
        Security.
                          small boat strategy
    Question. The Department released its small vessel security 
strategy on April 28, 2008. Nearly 3 years later, an implementation 
plan to carry out the strategy has not been released. In response to a 
question for the record from the Secretary's 2010 budget hearing, the 
subcommittee was informed that the Department of Homeland Security 
Small Vessel Security Implementation Plan was to be released in 2010. 
When will the implementation plan be provided to the Congress?
    Answer. The Small Vessel Security Strategy Implementation Plan was 
released on March 11, 2011. The public report is available on the DHS 
Web site at: http://www.dhs.gov/files/programs/gc_1299623119339.shtm.
                  air domain awareness--c2 gap filler
    Question. The request includes $11 million for an air domain 
awareness initiative called C2 Gap Filler. Does this program replicate 
existing DHS capabilities? If not, what additional benefits to DHS 
would this program provide if successful? The total DHS contribution to 
this multi-agency effort is $16 million, but only $11 million has been 
identified. The Operations Coordination budget request indicates that 
the $11 million is a ``one-time'' cost. How will the Department pay for 
the remaining $5 million? If approved, what are the additional costs in 
fiscal years 2013-2016?
    Answer. [Follows:]
State and Local Efforts
    The Department of Homeland Security's (DHS) National Cyber Security 
Division (NCSD) collaborates with State, local, tribal, and territorial 
governments to share and implement sound cybersecurity policies, 
practices, and strategies to improve preparedness against cyber threats 
and attacks.
    Due to the increasingly important role of State, local, tribal, and 
territorial governments in cybersecurity, NCSD has resources committed 
solely to interacting with officials at these levels. The mission of 
NCSD's State, Local, Tribal, and Territorial (SLTT) Engagement program 
is to build partnerships with non-Federal public stakeholders, 
including each State's Homeland Security Advisor, Chief Information 
Officer (CIO) and Chief Information Security Officer (CISO). The 
following provides an overview of NCSD interactions with States.
            United States Computer Emergency Readiness Team
    The United States Computer Emergency Readiness Team (US-CERT) 
maintains a formal relationship and works closely with mission 
partners, including State and local governments, on a daily basis to 
resolve threats, vulnerabilities, and incidents. US-CERT provides a 
variety of daily, weekly, monthly, and quarterly communication 
exchanges to maintain situational awareness and share critical 
information with collective cybersecurity partners. Federal and SLTT 
incident response personnel have access to the Government Forum of 
Incident Response and Security Teams (GFIRST) portal for information 
sharing and discussion.
    US-CERT also sponsors the GFIRST National Conference, a forum that 
promotes cooperation among Federal agencies, State, local, tribal, and 
territorial governments, the private sector, and international partners 
across the cybersecurity spectrum, from preparedness and prevention to 
incident response. The conference supports the dissemination and 
promulgation of proactive and preventive security practices. US-CERT 
funding is executed toward planning, preparation, communication, and 
coordination of this conference and other conference expos. 
Specifically, $1.55 million is directed to support requirements such as 
administration, logistics, and security. Additional funding 
(approximately $3 million) provides support to the interactive 
demonstration system at the GFIRST National Conference.
    US-CERT also provides support ($1 million annually) to the 
Department of Commerce's National Institute of Standards and 
Technology, which provides system integration and product development 
support for enhancement of the National Vulnerability Database and 
search engine. This database enables US-CERT partners, including State, 
local, tribal, and territorial governments, to secure government 
systems.
            Multi-State Information Sharing and Analysis Center
    Created in 2003, the Multi-State Information Sharing and Analysis 
Center (MS-ISAC) is an invaluable tool when dealing with SLTT 
governments. The MS-ISAC supports NCSD's efforts to secure cyberspace 
by disseminating early warnings of cyber threats to SLTT governments. 
In addition, the MS-ISAC shares security incident information, 
identifies trends, and conducts other analysis for security planning. 
NCSD provides programmatic support ($3.55 million for the 12-month 
period from August 1, 2010, to July 31, 2011) to the MS-ISAC. The 
fiscal year 2010 DHS appropriations act provided an additional $3 
million for DHS to fund and work with the MS-ISAC to provide managed 
security services (e.g., intrusion detection systems, intrusion 
prevention systems firewalls) for 18 State and local governments. The 
MS-ISAC has selected State, county, and local governments for 
participation. The MS-ISAC, consistent with the objectives of NCSD, 
provides a common mechanism for raising the level of SLTT government 
cybersecurity readiness and response. It is a central resource for 
gathering information regarding cyber threats to critical 
infrastructure facilities. Other MS-ISAC programs/activities include:
  --Operation of a 24/7 Cyber Security and Analysis Center.--The MS-
        ISAC runs a 24-hour watch and warning Security Operations 
        Center (SOC) that provides real-time network monitoring, 
        dissemination of early cyber threat warnings, and vulnerability 
        identification and mitigation, along with education and 
        outreach aimed at reducing risk to the Nation's SLTT government 
        cyber domain. The SOC shares and coordinates real-time risk 
        information to support national cybersecurity situational 
        awareness with DHS (NCSD and US-CERT).
      The SOC performs 24/7 monitoring of the Internet and other 
        sources, including incident reports received from members and 
        others regarding cybersecurity threats and vulnerabilities. The 
        SOC staff evaluates and correlates information and distributes 
        advisories and bulletins as appropriate, including mitigation 
        strategies and steps that can be taken to protect critical 
        infrastructure.
  --Managed and Monitored Security Services.--The MS-ISAC contracts 
        with the States of Alaska, Montana, and New York, along with 
        the Los Angeles World Airports, to provide cybersecurity 
        monitoring and managed services. This collective view across 
        multiple entities helps enhance situational awareness regarding 
        cyber threats.
      During 2010, the MS-ISAC reviewed more than 78 billion logs 
        through the 24/7 operations center. Approximately 138 MS-ISAC 
        advisories were issued.
      Additionally, through funding in the fiscal year 2010 DHS 
        appropriations act, the MS-ISAC is expanding its monitoring 
        services with an additional 10 State governments, 7 local 
        governments, and 1 territorial government. This expanded 
        infrastructure will provide a representative sample of system 
        and network activity for enhancing situational awareness of 
        SLTT government networks across the country. It will also 
        improve cyber incident identification and response while 
        providing more resources for developing and implementing 
        appropriate mitigation strategies tailored specifically to SLTT 
        government cyber resources.
  --Participation in Cyber Security Exercises--Cyber Storm I, II, and 
        III.--The MS-ISAC has participated in each of the three Cyber 
        Storm exercises, most recently Cyber Storm III in September 
        2010. The MS-ISAC was a full player during the Cyber Storm III 
        exercise; its SOC was active, and it coordinated with 11 States 
        that participated in the exercise. The MS-ISAC hosted 19 
        visitors from five States, the Federal Bureau of Investigation, 
        New York State law enforcement, Homeland Security and military 
        personnel, and observers from the University of Texas at San 
        Antonio.
            National Cyber Incident Response Plan
    The President's Cybersecurity Policy Review called for ``a 
comprehensive framework to facilitate coordinated responses by 
Government, the private sector, and allies to a significant cyber 
incident.'' DHS coordinated the interagency, State and local 
government, and private-sector working group that developed the 
National Cyber Incident Response Plan (NCIRP). The plan provides a 
framework for effective incident response capabilities and coordination 
among Federal agencies, State and local governments, the private 
sector, and international partners during significant cyber incidents. 
It is designed to be flexible and adaptable to allow synchronization of 
response activities across jurisdictional lines.
    The NCIRP is undergoing final DHS review to incorporate lessons 
learned during the Cyber Storm III exercise. Upon conclusion of this 
review, DHS will send the NCIRP out to State, local, and private-sector 
partners (including the National Governors Association and the MS-ISAC) 
for review. DHS will work with State and local partners (and partners 
in the private sector) to align their incident response plans and 
procedures with the NCIRP. The MS-ISAC and National Governors 
Association will be key partners in this effort.
    DHS has designated the MS-ISAC as the ISAC for SLTT governments and 
has identified the MS-ISAC as a key stakeholder in the development and 
implementation of the NCIRP.
            NCSD Cyber Security Evaluation Program
    Under the 2009 Appropriations Act, NCSD's Cyber Security Evaluation 
Program (CSEP) was tasked with completing a Nationwide Cyber Security 
Review (NCSR). The NCSR is a voluntary self-assessment of State and 
major urban area government Information Technology (IT) services and is 
designed to measure cybersecurity preparedness and resilience. Through 
the NCSR, CSEP examines relationships, interactions, and processes 
governing IT management and the ability to manage operational risk 
effectively. CSEP also conducts voluntary cybersecurity assessments to 
evaluate and enhance the implementation of key cybersecurity capacities 
and capabilities of Critical Infrastructure and Key Resources (CIKR) 
Sector members. This assessment is the Cyber Resilience Review, which 
is designed for each of the 18 CIKR Sectors and for use within SLTT 
governments. Since fiscal year 2009, CSEP has completed 45 cyber 
resilience reviews with SLTT partners.
            NCSD Cyber Exercise Program
    NCSD's Cyber Exercise Program (CEP) works with Federal, State, 
local, international, and private sector partners to conduct regional 
and sector-specific exercises designed to develop and improve the 
capabilities of DHS and its infrastructure partners. Such exercises aid 
participants in preparing for, preventing, mitigating, responding to, 
and recovering from cyber incidents. NCSD plans, coordinates, and 
conducts cyber exercises to develop, evaluate, improve, and refine the 
capabilities of State and local partners. CEP assists State and local 
partners by facilitating the design of tabletop and functional 
exercises at the State and local levels.
    DHS hosted Cyber Storm III from September 26, 2010 through October 
1, 2010. The Cyber Storm exercise series is a key element of ongoing 
efforts to assess cyber preparedness; examine incident response 
processes, procedures, and information sharing mechanisms; and identify 
areas for improvement absent the consequences of an actual incident. 
Cyber Storm III included participation from 11 States.
    In 2009 and 2010, NCSD, the MS-ISAC, and the Microsoft Corporation 
jointly sponsored the Defend the Flag Exercises to provide State 
government network security professionals greater technical security 
skills and practical experience with implementing the principles of 
defense-in-depth while securing Windows-based operating systems. 
Thirteen States participated from 2009-2010.
            Grants
    DHS provides grants for cybersecurity through the Federal Emergency 
Management Agency (FEMA), such as the Homeland Security Grant Program 
(HSGP), which provides States the opportunity to work with DHS to 
acquire cybersecurity capabilities. During the last 2 years, NCSD has 
worked with FEMA to modify the language in the HSGP to better clarify 
how funds can be used to improve cybersecurity.
            National Initiative for Cybersecurity Education
    DHS is engaged in the National Initiative for Cybersecurity 
Education (NICE), leading Track 1 (Cybersecurity Awareness), leading 
Track 3 (Cybersecurity Workforce Structure), and coleading Track 4 
(Cybersecurity Workforce Training and Professional Development). 
Through NICE, DHS is reaching out across the cybersecurity community--
including academia, the private sector, and Federal, State, local, 
tribal, and territorial partners--to integrate current efforts into a 
foundation of information that creates mutual understanding and 
partnerships across all aspects of national cybersecurity.
    In fiscal year 2010, DHS facilitated the efforts of six State 
government CIOs to develop a State government workforce development 
model, based on the existing DHS-issued Essential Body of Knowledge. 
This State government model was presented to the MS-ISAC, which 
included the model in its membership-based portal and on its public Web 
site.
            Other NCSD SLTT Programs/Activities
  --National Cyber Security Awareness Month.--To recognize the 
        importance of cybersecurity awareness, October is designated as 
        National Cyber Security Awareness Month. NCSD, with the help of 
        the MS-ISAC, works with funded partners and other parties to 
        sponsor events and activities throughout the country and 
        disseminate Awareness Month key messages and event information 
        to State and local partners. Due to the efforts of NCSD and MS-
        ISAC, in 2009 and 2010, all of the Nation's Governors signed 
        letters officially proclaiming October as National Cyber 
        Security Awareness Month.
  --Stop. Think. Connect. Campaign.--DHS bears primary responsibility 
        for raising public awareness about threats to the Nation's 
        cyber systems and networks. To that end, in October 2010, DHS 
        launched the National Cybersecurity Awareness Campaign, Stop. 
        Think. Connect. It is a national public-education effort to 
        engage and empower Americans to take charge of their online 
        safety and security. By providing Americans with easy-to-
        understand online safety tips and resources, the campaign is 
        helping them establish smart habits that will lead to increased 
        protection online. Stop. Think. Connect. fulfills a key element 
        of President Obama's 2009 Cyberspace Policy Review, which 
        tasked DHS to develop a public-awareness campaign to inform 
        Americans about ways to use technology safely.
  --Security Clearances for State Information Security Officers.--NCSD, 
        in partnership with colleagues from DHS Office of Security, 
        initiated a plan to clear, starting at the secret level, each 
        State CIO and CISO, and the MS-ISAC executive committee. NCSD 
        is confident this is an important step in sharing valuable 
        sensitive information with State partners.
  --Cyber Partner Local Access Plan.--NCSD, in cooperation with the 
        Office of Intelligence and Analysis, developed the 
        Cybersecurity Partner Local Access Plan (CPLAP) to share 
        classified cybersecurity threat information with cleared State 
        cybersecurity officials and private-sector partners at State 
        and major urban area fusion centers nationwide. The CPLAP 
        enables more effective and efficient classified cybersecurity 
        information sharing among Federal, SLTT, and private-sector 
        partners, and supports an information-sharing model that 
        eliminates partners' air travel to and from the Washington, DC, 
        area to receive classified cybersecurity briefings. The CPLAP 
        will be piloted at five fusion centers by mid-2011, with plans 
        to expand the program to a broader audience and additional 
        fusion centers on a regional basis by the end of 2011.
  --Cyber Summits.--In an effort to educate SLTT leaders and the 
        public, NCSD coordinates and plans Cyber Summits. These 
        summits, which are held regularly throughout the year and 
        hosted across the country, focus on opportunities and 
        vulnerabilities to promote discussion on how public and 
        private-sector officials can best leverage technology to reduce 
        risk. Frequent attendance and contribution by nongovernmental 
        cyber associations, such as the MS-ISAC and National 
        Association of State Chief Information Officers, significantly 
        contributes to the information sharing, capacity building, and 
        coordination efforts necessary to develop robust and effective 
        cybersecurity capabilities on all levels. DHS identified 
        cybersecurity as a top departmental priority, and Federal, 
        State, and local government officials share a responsibility to 
        promote a healthy cyber ecosystem and to encourage individuals 
        to protect themselves and their families at home, work, and 
        school.
  --Virginia Operational Integration Cybersecurity Center of 
        Excellence.--NCSD is helping the Virginia Operational 
        Integration Cyber Center of Excellence (VOICCE) create a 
        Municipal Cyber Lab that will be used to support and train SLTT 
        government officials to better understand cybersecurity issues. 
        VOICCE focuses on incorporating cyber attacks into the 
        mainstream of emergency operations at the local level and 
        creating a virtual municipality of randomly generated Internet 
        protocol addresses. The concept will allow for development of 
        vital cybersecurity capabilities, processes, and procedures. 
        The VOICCE node or laboratory will allow local governments and 
        first responders to plug into State and Federal entities and 
        participate in simulated cyber attacks. The lab will be both 
        physical and virtual in structure, allowing many types of 
        simulation and providing an effective environment to share 
        ideas among stakeholders across the Nation. Participants will 
        brainstorm, identify, and respond to diverse cyber attack 
        scenarios.
    This activity was required by the fiscal year 2010 Department of 
Homeland Security Appropriations Act.
    NCSD will continue many of the programs listed above. In addition, 
in fiscal year 2012, NCSD will commit funding to expand the MS-ISAC's 
managed and monitor security services.
Curricula
    The Software Assurance (SwA) curriculum project, which produced the 
Masters of Software Assurance (MSwA) curriculum and associated 
undergraduate course outlines, is a recent NCSD effort to cosponsor 
public-private collaboration for government, industry, and academia 
through its SwA forum. To facilitate implementation, the MSwA project 
team is offering assistance, free of charge, to educational 
institutions looking to launch an MSwA degree program.
    Through the Software Assurance (SwA) forum, the SwA program has 
encouraged Federal, State, and local involvement in public-private 
collaboration efforts associated with the advancement of SwA resources. 
As part of that collaboration, the SwA curriculum project released the 
Masters of Software Assurance (MSwA) reference curriculum and nine-
course syllabi for public use. The MSwA curriculum is recognized by the 
Institute of Electrical and Electronics Engineers (IEEE) Computer 
Society and the Association of Computing Machinery (ACM) as the first 
curriculum of its kind to focus on assuring the functionality, 
dependability, and security of software and systems. The materials are 
available at http://www.cert.org/mswa/.
    More information on the SwA Curriculum Project and the MSwA is 
available at https://buildsecurityin.us-cert.gov/bsi/1165-BSI.html.
Virtual Education
    The SwA forum, sponsored by NCSD's SwA program, posts Web casts of 
SwA tutorials and pocket guides that are publicly available for free 
online use, including links via virtual training environments.
    One aspect under NICE track 4 is functional area 4, which concerns 
specialized cybersecurity operations. The scope of this effort includes 
those Federal civilian employees, members of the uniformed services, 
and contractor personnel employed by departments and agencies who are 
engaged in highly specialized and largely classified cybersecurity 
operations. Work associated with this functional area is classified, 
but a classified briefing to discuss the work associated with this 
topic can be arranged upon request.
                 homeland security information network
    Question. Please describe the Department's efforts to consolidate 
DHS information portals into the Homeland Security Information Network. 
How many portals will migrate to HSIN in fiscal year 2011 and how many 
are anticipated to migrate in fiscal year 2012? What are the cost 
savings associated with the migrations in fiscal year 2011 and fiscal 
year 2012 as well as the long-term cost savings for other portals?
    Answer. The Department plans to migrate three portals in fiscal 
year 2011, and seven portals in fiscal year 2012. Details on the 
portals to be consolidated, as well as 1-year savings and the 5-year 
savings by portal are provided below. We continue to evaluate other 
portals for migration to HSIN.

                              HSIN PORTAL CONSOLIDATION AND PROJECTED COST-SAVINGS
----------------------------------------------------------------------------------------------------------------
                                                                  Total 5-year
                 Portal name                    Year 1 savings      savings                Target year
----------------------------------------------------------------------------------------------------------------

                                                FISCAL YEAR 2011

Fire Services Portal.........................        $200,000       $1,000,000   Fiscal year 2011 (completed)
TSA--Exercise Information System (EXIS)......         132,760        1,075,092   Fiscal year 2011
NPPD--Federal Protective Service (FPS) Secure        (350,284)       2,310,491   Fiscal year 2011
 Portal.

                                                FISCAL YEAR 2012

I&A--Homeland Security--State and Local Intel         673,368        6,428,728   Fiscal year 2012
 Community  (HS-SLIC).
NPPD--National Cybersecurity Protection             1,410,103       10,941,546   Fiscal year 2012
 System (NCPS).
FLETC--FLETC Partners and FLETC Registration       (1,563,498)        (659,896)  Fiscal year 2012
 \1\.
DNDO--Joint Analysis Center Collaborative             500,000        1,300,000   Fiscal year 2012
 Information System (JACCIS)--Partial
 Consolidation.
FEMA--Homeland Security Exercise Evaluation         2,148,402        5,713,724   Fiscal year 2012
 Program--Corrective Action Planning System
 (HSEEP--CAPS).
NPPD--Technical Resource for Incident              (1,575,548)       2,125,952   Fiscal year 2012
 Prevention (TRIPwire).
USCG--HomePort Portal........................        (680,232)      12,412,802   Fiscal year 2012
                                              -----------------------------------
      Totals.................................         895,072       42,648,440   ...............................
----------------------------------------------------------------------------------------------------------------
\1\ Pending verification of FLETC portals budget figures.

                    financial systems consolidation
    Question. Please provide an update on the Department's efforts to 
implement the recommendations made in the July 2010 Inspector General's 
report on the transformation and systems consolidation effort.
    Answer. Through extensive efforts with the CFO, CPO, CIO, CAO and 
DHS components over the past year, we have made significant progress in 
DHS's integrated financial acquisition strategy.
    The Department has clearly defined and documented its strategy, 
plan, and concept of operations in the TASC program management 
documentation. To help ensure the success of the program, the 
Department formulated a number of cross-functional oversight and 
management mechanisms for TASC, including the TASC Executive Steering 
Committee (ESC) which is chaired by the USM, that serves as the 
governing board regarding strategy, policy, funding, and risks for the 
TASC program.
    The TASC procurement strategy was a single-award IDIQ contract 
allowing multiple contract types for task orders (firm fixed price, 
time and materials, cost plus award fee, and cost plus fixed fee).
    On November 19, 2010, DHS issued a contract for the TASC program. 
However, on March 9, 2011, DHS received the decision from the GAO that 
while two protests to the TASC contract had been dismissed, one had 
been upheld. In light of the GAO ruling a stop work order was issued 
for the TASC IDIQ contract and for the first task order on that 
contract. We are currently assessing GAO's findings and recommendations 
to determine the appropriate way forward.
                   icebreaking acquisitions analysis
    Question. The funding request for the icebreaking acquisition 
analysis will not be considered until the Polar High Latitude Study is 
submitted to the subcommittee. Please provide a summary of the 
``numerous existing and ongoing studies'' referenced in the budget 
request. How will this study be different than those studies? What is 
the $5 million request based on? How will the funding be used? Why has 
the High Latitude Study, which was funded in the fiscal year 2009 
budget request, been delayed? When will it be submitted to the 
subcommittee?
    Answer. The most recent of the studies referenced in the budget 
justification was completed in 2007 at the request of the Coast Guard 
by the National Academy of Sciences sponsored by the National Research 
Council. This study's objective was to assess Coast Guard's polar 
icebreaker roles and future needs. Additionally, the Department of 
Homeland Security's Office of Inspector General recently completed an 
analysis to assess Coast Guard's polar icebreaking missions.
    This polar icebreaking analysis will differ from those studies by 
taking a broader look at polar icebreaking requirements across all 
Federal agencies, and by taking a deeper look at operational 
alternatives to determine the best method to deliver the required 
capability. The closest model for this effort is the Polar Icebreaker 
Requirements Report prepared for the President in 1990. Fiscal year 
2012 funding will support an interagency working group to define Terms 
of Reference and the approach to be used for the preacquisition 
analysis of 21st century icebreaking capabilities. The working group 
will be under the direction of the Under Secretary for Management.
    The $5 million request for the Icebreaker Acquisition Analysis is 
based on historical costs of analyses with similar size and scope.
    The results of the High Latitude Study have been compiled by Coast 
Guard and their summary report is currently in the final stages of 
review and will be provided to the subcommittee in the near future.
    Question. Included in the amount appropriated in fiscal year 2010 
for Polar Icebreaker Sustainment was funding for the Coast Guard to 
begin a business case analysis for either a new heavy polar icebreaker 
class or a major service life extension project for exiting polar 
icebreakers. What is the status of this effort?
    Answer. The Coast Guard-specific business case analysis directed in 
the fiscal year 2010 appropriation is in final review. The President's 
fiscal year 2012 budget request includes funding for the completion of 
a Government-wide analysis for future icebreaking requirements in the 
polar regions. Acquisition of 21st century icebreaking capabilities 
will be based on these final requirements.
                           officer integrity
    Question. Since fiscal year 2006, with the support of this 
subcommittee, U.S. Customs and Border Protection (CBP) has hired 16,000 
new employees--a 37 percent increase. U.S. Immigration and Customs 
Enforcement (ICE) has hired more than 8,200 new personnel--a 31 percent 
increase. This subcommittee has been concerned that due to the rapid 
hiring at CBP and ICE, there is a potential for increased opportunities 
for officer corruption. Toward that end, for the past 3 years, this 
subcommittee has provided additional resources for integrity training, 
investigations of misconduct allegations, and background 
investigations. I am pleased to see that your budget requests an 
additional $26 million for CBP to address these efforts and meet the 
legislative mandate of the Anti-Border Corruption Act of 2010.
    This is the right thing to do and I support this funding. However, 
I understand that CBP, ICE, and the Inspector General are experiencing 
difficulties working together on workforce integrity because of an 
apparent lack of clear lines of authority regarding which departmental 
entity is to conduct differing types of investigations and when. There 
have been reports that a Border Patrol agent was charged with harboring 
illegal aliens but because the DHS Inspector General chose not to 
participate in a specific Border Corruption Task Force, the 
investigation into the alleged activity was impeded.
    The American taxpayer's trust in the integrity of Federal law 
enforcement officers is too important to be subject to stovepipes and 
petty bureaucratic behavior in Washington. In your response to my 
question during the hearing, you indicated that this was a priority for 
your Department and that you and the Deputy Secretary would commit to 
work with me on establishing clear lines of authority for integrity 
investigations.
    What specific steps have been taken in this regard to date and what 
further actions can your Department take to improve this process? 
Please provide a schedule for this review and a date by which you or 
the Deputy Secretary will report back to the subcommittee on the 
recommendations to improve the process. What additional funds beyond 
the $26 million requested in the fiscal year 2012 request are required 
for full implementation of the Anti-Border Corruption Act?
    Answer. We are fully committed to fighting corruption and 
maintaining the integrity of our workforce across the Department. The 
President's fiscal year 2012 budget request provides sufficient funding 
for workforce integrity in support of the Anti-Border Corruption Act 
(Public Law 111-376). The request includes a $26 million enhancement 
for CBP to enhance its polygraph program and ensure timely background 
and periodic reinvestigations as mandated by the Anti-Border Corruption 
Act of 2010 while maintaining all other aspects of CBP's integrity 
programs, including oversight of CBP operations, personnel, and 
facilities. Resources will also be used to improve the Office of 
Internal Affairs' ability to detect and deter insider and cyber 
threats, including the growing threats posed by Foreign Intelligence 
Services, terrorists, and foreign criminal organizations. Additionally, 
the base budget requests for CBP and ICE include $142 million and $94 
million, respectively, to support anticorruption activities.
    DHS and our components have taken several actions to ensure that 
all parts of the Department are working together effectively to fight 
corruption.
    First, in 2004, CBP and ICE created the Joint Intake Center (JIC), 
which was designed to serve as the central clearinghouse for receiving, 
documenting, and processing all allegations of misconduct involving ICE 
and CBP employees and to ensure that the Office of the Inspector 
General (OIG) receives appropriate and timely notification through the 
Joint Integrity Case Management System (JICMS).
    Second, I have directed CBP and ICE to adhere to the DHS Management 
directive, which requires CBP and ICE to promptly advise the OIG 
regarding allegations of employee misconduct. CBP leadership has taken 
prompt action to ensure strong cooperation between CBP's Office of 
Internal Affairs (CBP IA) and OIG. In October 2009 and July 2010, CBP 
IA issued guidance to all CBP IA special agents-in-charge requiring 
that detailed information regarding any allegation of wrongdoing on the 
part of a CBP employee be entered into JICMS on the same day or the day 
after receiving the information. The guidance extends specifically to 
CBP IA agents serving on Border Corruption Task Forces (BCTFs).
    Third, this past January, CBP and ICE entered into a Memorandum of 
Understanding (MOU) establishing a program whereby CBP would augment 
ICE investigations of criminal misconduct by CBP employees through the 
detail of CBP IA agents to ICE's Office of Professional Responsibility. 
Since the MOU became effective on January 1, 2011, CBP has detailed 24 
special agents to ICE OPR. Pursuant to the MOU, CBP IA has begun 
working collaboratively with ICE OPR on 160 potential criminal cases 
targeting CBP personnel.
    The Department will continue to work closely with its components 
and OIG to ensure allegations of fraud, waste, and abuse, as well as 
allegations of corruption within the DHS workforce, are addressed in an 
effective and timely manner. We will continually review our processes 
for ensuring officer integrity, and make any adjustments to those 
processes as necessary.
                         real id act compliance
    Question. This subcommittee has committed significant resources to 
make driver's licenses and identification cards more secure. This 
security measure was recommended by the 9/11 Commission and is required 
through the REAL ID Act. Of the $190 million appropriated to FEMA for 
REAL ID-related grants to date, approximately $161.2 million has been 
obligated to individual States for security improvements to individual 
State credentials and licensing processes and $28.8 million to 
information sharing and verification capability improvements. Of the 
$60 million appropriated to USCIS, approximately $6.3 million has been 
obligated by USCIS to immigration status verification projects and 
$28.5 million has been obligated to FEMA to supplement existing FEMA 
grants for information sharing and verification capability 
improvements. On March 7, 2011, the date for final compliance with the 
REAL ID Act was changed from May 11, 2011 to January 15, 2013 through a 
Federal Register notice. The change was made citing the difficulty 
States are still having meeting all of the statutory requirements. The 
notice also recognizes significant progress has been made by States in 
some areas.
    Please provide a copy of the notice for the record.
    How many States are currently in compliance with the act, how many 
are expected to be in compliance this fiscal year, and how many are 
estimated to be in compliance in fiscal year 2012?
    Please outline why the Nation is safer because of the investments 
and progress made to date and detail how the fiscal year 2012 budget 
request continues the progress of this effort. Will the Department 
resubmit PASS ID?
    Answer. [The final rule is available at http://www.gpo.gov/fdsys/
pkg/FR-2011-03-07/pdf/2011-5002.pdf (Federal Register/Monday, March 7, 
2011/Vol. 76/No. 44/pgs 12269-12271/Rules and Regulations).]
    To address concerns raised by the States over various aspects of 
REAL ID, DHS supported PASS ID legislation introduced in the last 
Congress. PASS ID would have made a number of changes to the REAL ID 
Act to facilitate State compliance. Since this bill was not approved by 
the Congress we have made considerable progress in implementing REAL 
ID.
    To date, five States have submitted for DHS review, full-compliance 
certification packages. Additionally, a number of States are making 
progress in meeting the requirements of the REAL ID Act. A majority of 
States have self-certified that they either already or plan to: verify 
lawful status using the Systematic Alien Verification for Entitlements 
(SAVE) system; conduct background checks and fraudulent document 
training for employees; incorporate safeguards to improve the physical 
security of driver's license production facilities; and implement 
technology linking DMV employees to the credentials they issue. 
Moreover, by the end of 2011, nearly all of the reporting States will 
have implemented additional security enhancements related to DMV 
employees, physical security, technology, and card security. By 
implementing these security enhancements, States can more effectively 
mitigate fraud associated with State-issued credentials, and make it 
more difficult for individuals to obtain identity documents they are 
not entitled to.

            REAL ID STATUS OF STATES AS OF MARCH 29, 2011 \1\
------------------------------------------------------------------------

------------------------------------------------------------------------
States that have submitted full          Maryland, Tennessee,
 compliance certification packages to     Connecticut, South Dakota,
 DHS (5).                                 Delaware.
States issuing materially compliant      Alabama, Florida, Indiana,
 documents with gold star (4) (Self-      Utah.
 certified).
States that are materially compliant     Arkansas, District of Columbia,
 but not issuing compliant gold star      Iowa, Kansas, Kentucky,
 documents (7) (Self-certified).          Mississippi, New Jersey.
States committed to meet material        Colorado, Hawaii, Illinois,
 compliance but need additional time      Nebraska, Ohio, Puerto Rico,
 (12).                                    Rhode Island, Texas, Virginia,
                                          West Virginia, Wisconsin,
                                          Wyoming.
States with comparable EDL programs (4)  New York (issues EDL), Michigan
                                          (issues EDL), Vermont (issues
                                          EDL), Washington (issues EDL).
States committed to meet 15 of 18        Arizona, California, Georgia,
 benchmarks (12).                         Minnesota, Missouri, Nevada,
                                          New Hampshire, North Carolina,
                                          North Dakota, Pennsylvania,
                                          South Carolina, Virgin
                                          Islands.
States that have indicated they will     Alaska, American Samoa, Guam,
 not meet four or more benchmarks         Idaho, Louisiana, Maine,
 within the next 12 months (12).          Massachusetts, Montana, New
                                          Mexico, Oklahoma, Oregon,
                                          Northern Marianas.
------------------------------------------------------------------------
\1\ This information was compiled from documentation submitted by the
  States in response to DHS requirement to submit Material Compliance
  benchmark data or Full Compliance Certification information. All of
  the information is self-reported by the States so all conclusions
  based on this information may not accurately reflect a State's actual
  progress in complying with the requirements of the REAL ID regulation.

Note: Italic text denotes States with legislation preventing REAL ID
  compliance.

    States may use funds provided through the State Homeland Security 
Grants Program to continue to improve the security of their driver's 
license program.
           coordination of federal chemical security efforts
    Question. The Senate Report (111-31) accompanying the fiscal year 
2010 Department of Homeland Security Appropriations Act (Public Law 
111-83) directed the Department to report quarterly on its efforts to 
coordinate chemical security across departments. The fourth quarter 
report received on March 4, 2011 outlines several memorandums of 
agreements, regulatory reviews, and regulatory amendments that are 
under development. Please provide a specific timeline for each of these 
efforts and identify any obstacles to meeting the timelines 
expeditiously. In particular, please update the subcommittee on efforts 
to establish standardized risk assessments for facilities under the 
Maritime Transportation Security Act and the Chemical Facilities Anti-
Terrorism Standards.
    Answer. [Follows:]
Infrastructure Protection/United States Coast Guard Coordination
    The National Protection and Programs Directorate's (NPPD's) Office 
of Infrastructure Protection (IP) and the United States Coast Guard 
(USCG) continue to work toward harmonization of the Chemical Facility 
Anti-Terrorism Standards (CFATS) and Maritime Transportation Security 
Act (MTSA) regulatory programs under the auspices of the chartered 
CFATS-MTSA Harmonization Working Group. In November 2010, senior 
leadership from NPPD and USCG signed the charter. As stated in the 
activities detailed in the Fourth Quarter Report to Congress, the 
CFATS-MTSA Working Group continued ``the development of a full 
regulatory review of the security regimes established under MTSA and 
CFATS.''
    In November 2010, the Working Group presented a comprehensive 
regulatory review to NPPD Under Secretary Rand Beers and Rear Admiral 
(RADM) Brian Salerno, the USCG Deputy Commandant for Operations. This 
review was designed to inform leadership regarding options for seeking 
consistency of security across all high-risk chemical facilities. The 
findings of this review have been approved by NPPD/IP and USCG 
leadership; NPPD/IP's Infrastructure Security Compliance Division 
(ISCD) and USCG are currently working to further a number of 
initiatives both independently and through the Working Group and 
designated subgroups. Also noted in the Fourth Quarter Report to 
Congress, NPPD and USCG are working toward the ``Refinement of a 
[Memorandum of Agreement (MOA)] to enable data sharing and sharing of 
risk methodologies between ISCD's Chemical Security Assessment Tool and 
USCG's Maritime Security Risk Analysis Model . . . '' Consistent with 
the findings and recommendations of the Working Group, NPPD and USCG 
are establishing a Risk and Information Sharing Sub-Group designed to 
complete development of the referenced MOA, which will relate to the 
exchange of specific risk information and an assessment of the 
approaches to risk management currently employed by ISCD and USCG for 
their respective programs. Execution of the MOA is expected by summer 
2011.
    In order to help DHS develop a more comprehensive picture of 
security issues at the Nation's chemical facilities, and to help DHS 
evaluate whether any regulatory gaps exist that may pose an 
unacceptable security risk, the Department has begun the process, with 
close cooperation between NPPD and USCG, for determining whether and 
how to require MTSA-covered facilities that possess CFATS chemicals of 
interest to complete and submit CFATS Top-Screens.
    DHS/Federal Bureau of Investigation Coordination.--With regard to 
the Department's efforts to coordinate with the Federal Bureau of 
Investigation (FBI), NPPD is developing an operational-level MOA with 
the FBI specific to chemical security and related national security 
issues. As noted in the Fourth Quarterly Report to Congress, ``This MOA 
will establish proactive guidelines that build upon our current working 
relationships and allow for additional interagency activities (such as 
information sharing on high-risk chemical facilities and field 
component interaction) and will resolve any potential jurisdictional 
issues proactively.'' As the MOA is developed, NPPD/IP and the FBI are 
also leveraging a formal agreement, entered into between the 
Department's Office of Intelligence and Analysis and the FBI in 
September 2010, regarding the development of joint intelligence 
products (such as intelligence bulletins). NPPD/IP and the FBI are 
currently leveraging this agreement in relation to products jointly 
developed for chemical security-related issues.
DHS/Nuclear Regulatory Commission Coordination
    As stated in the Fourth Quarterly Report to Congress, ``At the 
staff level, DHS and the [Nuclear Regulatory Commission (NRC)] 
finalized and submitted to DHS and NRC leadership for review and 
execution a jointly developed draft Memorandum of Understanding (MOU) 
designed to help define the types of facilities that are wholly or 
partially exempt from CFATS due to NRC-regulatory authority, as well as 
processes for identifying those facilities.'' NPPD Under Secretary Rand 
Beers formally endorsed the DHS-NRC MOU in August 2010, and the MOU is 
currently with NRC senior leadership for final review and execution.
                 office of the inspector general (oig)
    Question. In January 2011, a San Diego-area Border Patrol agent, 
Marcos Manzano was arrested for harboring illegal immigrants. One of 
the OIG's missions is to investigate allegations of criminal, civil, 
and administrative misconduct involving DHS employees, and to work with 
the U.S. Attorneys, other law enforcement agencies, and investigate 
activities of DHS Internal Affairs offices to ensure violators are 
prosecuted, fined, and/or civil action is taken. In this particular 
case, the FBI Border Corruption Task Force (BCTF) had the lead on the 
investigation, but reports show that the DHS OIG was not involved due 
to the fact that the OIG has not signed on to the BCTF Memorandum of 
Understanding (MOU).
    Why isn't the DHS OIG part of the BCTF?
    Answer. Despite the lack of any formal written agreement, DHS OIG 
has always tried to participate fully with the BCTF. Since its 
beginning in 2003, DHS OIG has worked cooperatively with the FBI and 
other law enforcement agencies on border corruption matters involving 
DHS employees without any formal written agreement. In March 2010, DHS 
OIG assigned a Deputy Assistant Inspector General for Investigations to 
act as a liaison to the FBI's National BCTF in an effort to achieve 
full participation in all of the FBI BCTF's investigations. In 
addition, this Deputy Assistant Inspector General was tasked with 
negotiating an MOU that reflects the OIG's statutory responsibilities 
with respect to:
  --Investigating allegations of criminal misconduct against DHS 
        employees and
  --Providing oversight of the internal affairs offices within DHS, 
        while ensuring the representation of departmental interests in 
        the course of these investigations.
    In May 2010, the FBI in San Diego presented the OIG with an MOU 
that contained provisions that place significant restrictions on the 
OIG's independence, and were therefore unacceptable. We worked locally 
and at FBI headquarters to resolve differences and craft language to 
which all parties could agree. In November 2010, we proposed 
alternative language for the local BCTF MOU that both recognized the 
significance of border corruption offenses committed by DHS employees 
and respected the legislated authorities that define and govern roles 
and responsibilities of the member agencies that include the FBI, CBP 
Internal Affairs (IA), CBP Office of Field Operations (OPO), Border 
Patrol, and TSA Office of Investigations.
    Our proposal was rejected by the FBI because the FBI failed to 
recognize that DHS has a system of tiered authority with respect to the 
investigation of allegations of criminal misconduct against DHS 
employees and that, within that system of tiered authority, OIG has 
primacy. Moreover, we were asked to remove the agent we had assigned to 
the San Diego task force because we had not signed the version of the 
MOU that was unilaterally drafted by the FBI. We honored the FBI's 
request and removed our agent on November 12, 2010. Since that time, 
several significant border corruption cases that DHS OIG has presented 
to the U.S. Attorney's Office in San Diego have been declined because 
the investigations were not conducted by the local BCTF.
    The OIG has been prevented from participating in the FBI BCTF in 
San Diego because of the insistence that we sign an agreement we 
consider to be fundamentally flawed, and in conflict with our 
legislated mandate as the primary authority within DHS for 
investigating allegations that DHS employees have committed criminal 
misconduct. This authority is clearly specified in the Inspector 
General Act of 1978, as amended, and further articulated in the 
Secretary of Homeland Security's Management Directive (MD) 0810.1.
    We have continued to negotiate with the USAO in San Diego to reach 
accord on an MOU that will preserve the OIG's independence and 
authority, but otherwise satisfies the general terms of the BCTF MOU. 
OIG continues to open and aggressively investigate all allegations 
relating to the corruption of DHS employees or the compromise of 
systems related to the security of our borders and transportation 
networks.
    Question.Why hasn't the OIG signed the MOU? Is there something in 
the MOU that is counter to the Inspector General Act or DHS Management 
Directive?
    Answer. The BCTF MOU places serious limitations on the independence 
of the OIG. First it requires that all allegations of DHS employee 
corruption, without exception, be referred to the BCTF. Second, it 
fails to address the authority within DHS to investigate allegations of 
criminal misconduct by DHS employees and the role of the OIG in 
oversight of DHS component internal affairs offices.
    Inspectors General play a critical role in assuring transparent, 
honest, effective, and accountable government. Both the personal and 
organizational independence of OIG investigators is essential to 
maintaining the public trust in not only the work of the OIG, but also 
in the DHS workforce as a whole. The American public wants to know that 
Government employees are held accountable for their misconduct by an 
independent fact finder, such as the OIG.
    The Inspector General Act of 1978, as amended, and the Homeland 
Security Act of 2002, as amended, establish a clear line of authority 
for investigating allegations of criminal misconduct by DHS employees. 
The statutes vest primary criminal investigative authority for employee 
misconduct with DHS OIG. Within DHS, Management Directive 0810.1 
outlines the roles of the various offices of internal affairs with 
respect to support for the OIG, including investigation of noncriminal 
misconduct allegations.
    In contrast, the BCtF MOU specifies that each participating DHS 
agency is an equal partner that shares overall responsibility for 
policy, operation, and direction of the BCTF; coordination of 
investigations; and for providing management and oversight of the BCTF. 
The San Diego BCTF includes the field operational elements of CBP and 
Border Patrol, in addition to CBP internal affairs and TSA's internal 
affairs. In fact, in the investigation of Border Patrol Agent Manzano, 
the FBI assigned a Border Patrol agent member of the BCTF to work as 
the co-case agent along with the FBI.
    This shared management responsibility between DHS OIG and internal 
affairs units (and operational units) of other DHS components usurps 
the OIG's statutory responsibility for supervising, leading, and 
coordinating criminal investigations of DHS employees and interferes 
with our oversight responsibility with respect to component internal 
affairs units. Many aspects of the MOU interfere with the OIG's ability 
to investigate cases independently of the DHS component members of the 
BCTFs.
    With respect to information sharing, the OIG and FBI have a mutual 
responsibility under the Attorney General's Guidelines for Offices of 
Inspector General with Statutory Law Enforcement Authority to promptly 
notify one another upon initiation of any criminal investigation, a 
responsibility the OIG meets in a timely way. Within DHS, all 
allegations of criminal misconduct by employees must be referred to 
OIG. The MOU would require DHS participating agencies to provide the 
same information directly to the FBI. This duplication in reporting is 
not an efficient use of DHS or FBI resources, and opens the door for 
dual parallel investigations.
    The MOU contains a provision under which the Executive Board, which 
is comprised of representatives of all participating agencies (in this 
case DHS components), who vote on whether or not the OIG could 
investigate an allegation unilaterally. Allowing DHS components to vote 
on whether and how the OIG pursues an investigation is contrary to the 
concept of statutory independence, and would result in the erosion of 
public confidence in any outcome.
    Question. Describe the OIG's leadership role as it relates to the 
internal affairs division of each of the Department's agencies.
    Answer. DHS OIG has strong working relationships with most offices 
of internal affairs within DHS. We communicate daily on allegations and 
ongoing cases, and routinely work collaboratively. DHS OIG has an 
established inspection process for reviewing the work of the internal 
affairs units at least once every 3 years. The inspections review 
compliance with investigative standards, personnel training and 
qualifications, and investigative case files in order to ensure that 
the work of the internal affairs units reflects the quality expected by 
DHS senior leadership, the Congress, and the public. Each inspection 
results in a written report and if recommendations are made for 
corrective actions or improvements, OIG follows up to confirm that the 
recommendations in fact have been implemented.
    An OIG agent is assigned as a desk officer to each component 
internal affairs office and reviews allegations referred to OIG by that 
internal affairs office. OIG refers allegations that are purely 
administrative in nature back to the component, who then takes lead on 
the investigation. In certain instances of sensitive or significant 
matters, we exercise active oversight of a case referred back to the 
component and review the findings. DHS OIG also recently initiated a 
program to review case management statistics from each of the internal 
affairs units in order to reconcile OIG's case management records with 
those of the components, to track trends and patterns in allegations, 
and to ensure that components take appropriate action when misconduct 
is found.
    Question. Should all internal affairs personnel work for the DHS 
OIG?
    Answer. When the DHS was initially organized, it was done so on the 
basis of realignment of existing governmental resources. The premise 
was that the DHS would streamline operations by eliminating 
redundancies while increasing communication, information sharing, 
transparency, and accountability. Since that time, the component 
elements have inappropriately stratified operations by devoting 
personnel and resources that compete with, rather than compliment, the 
OIG. Although the internal affairs offices have an important mission to 
conduct noncriminal misconduct inquiries, pre-employment screening of 
applicants, and background investigations of employees and provide 
integrity and security briefings that help employees recognize 
corruption signs and dangers, transferring some number of experienced 
criminal investigators from the internal affairs offices to DHS OIG 
would allow OIG to more effectively address its workload growth 
resulting from increases in DHS component workforces. It is our belief 
that a realignment of these resources by transfer of the positions to 
the OIG would be responsible stewardship. Alternatively, funding for 
increased OIG staffing that reflects the growth within the DHS 
workforce is needed.
    The Department was also founded with intent to forsake 
jurisdictional rivalries in favor of operational efficiency. Just as 
DHS presents one face at the border, the Homeland Security Act mandates 
one face when dealing with criminal allegations against departmental 
employees. The OIG, which has primary authority to investigative those 
criminal misconduct allegations, should be the single point of contact 
with regard to those allegations.
    One of the most important factors in detecting, deterring, and 
discouraging corruption is employee awareness of where and how to 
report and their comfort in doing so. Centralizing complaint intake in 
the OIG, as a separate office from a complainant's agency of 
employment, would (1) provide DHS employees with increased assurance 
that their information will be treated confidentially and acted upon 
professionally; (2) eliminate redundancies in the reporting of 
allegations; and (3) ensure the timely reporting of employee complaints 
to the OIG hotline would more effectively direct resources to combat 
corruption and would promote better intelligence, trend analysis, and 
prioritization of investigative leads.
    The OIG continues to work the vast majority of allegations of the 
most serious criminal misconduct and corruption, and has accounted for 
an overwhelming majority of all arrests and convictions of DHS 
employees since 2003. We believe that DHS's criminal investigative 
resources should be deployed accordingly.
         u.s. customs and border protection--container security
    Question. The 9/11 Act requires 100 percent of U.S.-bound maritime 
cargo to be scanned before departing to our ports. In testimony before 
the Congress last year, CBP Commissioner Bersin stated that only 4 
percent to 5 percent of cargo is currently scanned. The act allows the 
Secretary to waive this 2012 requirement in a 2-year increment if 
conditions indicate this requirement cannot be met, and you have 
indicated that you will do so. However, even before you have officially 
waived these requirements, the budget request for fiscal year 2012--and 
the realities in this fiscal year--show significant reductions to the 
international cargo screening programs. Funds have been eliminated for 
Secure Freight pilots in all places except Pakistan and CBP has closed 
or is ceasing operations at many of the 58 Container Security 
Initiative (CSI) ports. In fiscal year 2009, there were 167 CBP 
officials located overseas at CSI ports. By the end of fiscal year 
2010--and continuing today--the number of individuals has dropped to 
86.
    With overseas personnel for this effort essentially cut in one-
half, how does this increase cargo security at the same time it appears 
that no real steps are being taken to meet a legislative mandate that 
the Department has known has been coming since September 2006--more 
than 4 years ago?
    Much of this scanning will be handled domestically by the targeting 
center. However, the 2012 budget includes $7.5 million to fund the 
implementation of two pilots to test the 100 percent scanning mandate. 
In fact, one of the proposed pilots appears to replicate the SFI model 
used in Pakistan in a different, high threat corridor--likely on the 
Arabian Peninsula.
    What new information does the Department believe it can obtain by 
repeating the same project in a different location? How will this 
information be used to determine the best steps to meet the scanning 
requirement? What developments in scanning technology might lead DHS to 
decide to implement the overseas scanning requirement called for in the 
9/11 Act?
    Answer. Presently, and as required by the SAFE Port Act, DHS and 
other Federal partners are working collaboratively with the National 
Security Staff to develop a national-level strategy that will provide a 
unified vision that the U.S. Government sees for global supply chain 
security across air, land, and sea modes of transportation, which will 
also address the necessary level of cargo scanned to provide effective 
detection and deterrence. The administration anticipates completing 
this strategy development effort in 2011 and DHS remains confident that 
it will include guidance and additional details on how DHS, other 
Departments, and agencies will address the 100 percent cargo scanning 
provision.
    Throughout this process, we will remain mindful of our need to 
properly balance security concerns with facilitating the flow of 
commerce. The President's fiscal year 2012 budget requests funding for 
CBP to conduct a cargo screening pilot to assess alternatives to the 
100 percent maritime cargo scanning, enabling CBP to test alternatives 
to extend the zone of security beyond our physical borders, strengthen 
global supply chain security, and enhance CBP's multi-layered security 
strategy. CBP is in a unique position to work toward deterring 
malicious actors from exploiting the system, protecting infrastructure 
and embedding resilience in the system to aid in recovering from 
disruptions by virtue of having access to vast amounts of historical 
and transactional data from all modes of cargo shipments. This data 
includes the parties involved, trade routes and other information which 
can be used in assessing risk. Coupled with this is CBP's expertise in 
risk targeting that has been developed over the past decade. The 
proposed Supply Chain Security Pilot would include next generation 
targeting to employ predictive models to assess threats and detect 
anomalies in the supply chain; and the utilization of tools and 
technologies that are currently not in use at the National Targeting 
Center. For example, analysts will be provided analytic tools that 
allow them to perform link analysis, commodity analysis, and entity 
resolution, along with visualization tools to represent vessel 
movements, geo-location of addresses, and social network diagrams.
    CBP's multi-layered security strategy seeks to identify high-risk 
cargo as early as possible in the supply chain. The Trade Act of 2002 
and its implementing regulations require industry to submit electronic 
manifest data to CBP 24 hours prior to the cargo being laden on a 
vessel destined for the United States. CBP's predeparture manifest data 
was enhanced further with the implementation of the Importer Security 
Filing and Additional Carrier requirements, commonly known as ``10+2,'' 
which requires importers to provide specific information on their cargo 
prior to arrival in the United States. CBP also utilizes the Automated 
Targeting System (ATS) to screen advanced manifest data and assist CBP 
officers in identifying high-risk cargo. Upon screening, CBP can issue 
``Do Not Load'' messages for shipments deemed high-risk until the risk 
can be mitigated or resolved.
    Through the CSI, CBP works to identify and inspect high-risk cargo 
before it is laden on a vessel destined for the United States. As a 
result of new and improved technology and increased international 
partnerships, CBP is now able to conduct a greater portion of the CSI 
targeting from the National Targeting Center-Cargo (NTC-C)--increasing 
efficiency and reducing cost. As a result, in early fiscal year 2009, 
CSI began reducing the number of CBP officers deployed to foreign 
seaports. While there has been decrease in the staffing of CSI officers 
abroad, CSI has increased the staffing level at the NTC-C to support 
targeting functions in overseas ports. The decrease in the CSI staffing 
at foreign locations has not compromised the CSI mission because CBP 
has been able to accomplish the CSI mission more efficiently and in a 
more cost-effective manner through the increased staffing and resources 
at the NTC-C. The fiscal year 2012 budget continues to fund CSI at the 
same level.
    CBP and DHS are committed to ensuring the security of the 
international supply chain and will work to support the global supply 
chain security strategy utilizing a risk-based, multi-layered approach 
across all modes of transit.
                          air cargo screening
    Question. What specific steps is the Department taking to improve 
the screening of articles entering the United States via air? Is the 
Department taking steps to have shipping manifest requirements for air 
cargo more closely match the current ones for seaborne cargo? Can CBP 
ensure that all cargo information requiring a shippers' export 
declaration is provided to CBP within a reasonable security timeframe? 
If so, what is that timeframe? Does CBP currently have the ability to 
enforce a no-load decision or require additional screening for any U.S. 
bound air cargo?
    Answer. Today, 100 percent of high-risk cargo on international 
flights bound for the United States is prohibited from being 
transported on passenger aircraft and goes through enhanced security 
procedures before being shipped on all cargo aircraft. DHS and the 
Transportation Security Administration (TSA) recently announced a 
proposed deadline of December 31, 2011 for industry to screen 100 
percent of air cargo on international inbound passenger aircraft--2 
years earlier than previously anticipated.
    DHS is also working closely with industry and international 
partners to expedite the receipt of advanced cargo data for 
international flights to the United States prior to departure in order 
to identify and screen items based on risk and current intelligence 
before they are airborne. In December 2010, Customs and Border 
Protection (CBP), TSA, and the air cargo industry launched a new joint 
technology pilot project to enhance the sharing of electronic shipping 
information to improve the identification of high-risk shipments.
    Further, in January, I announced a new partnership with the World 
Customs Organization to enlist other nations, international bodies, and 
the private sector in increasing the security of the global supply 
chain--outlining a series of new initiatives to make the system 
stronger, smarter and more resilient.
    CBP exercises the same border authority over exports and imports 
and has the authority to inspect and detain goods and order their 
redelivery from any person, such as the carrier, in possession of the 
goods. CBP is currently collaborating with TSA to utilize their 
regulatory authority to have high-risk shipments screened prior to 
being laden at last port of departure.
    Question. The Department has been working with industry to develop 
a process for receiving air cargo manifest information prior to 
departure. What is the status of this effort? When will the system be 
operational? What resources are required by CBP and TSA to develop and 
operate this system? Are funds requested in the fiscal year 2012 budget 
for this effort?
    Answer. DHS is working closely with industry and international 
partners to expedite the receipt of advanced cargo data for 
international flights to the United States prior to departure in order 
to identify and screen items based on risk and current intelligence 
before they are airborne. In December 2010, CBP, TSA, and the air cargo 
industry launched a new joint technology pilot project (the Air Cargo 
Advance Screening Pilot) to enhance the sharing of electronic shipping 
information to improve the identification of high-risk shipments.
    CBP and TSA have made significant progress on this pilot and expect 
to have the first phase--which focuses on the express consignment 
environment--fully operational in the late spring 2011. The passenger 
phase of the pilot is tentatively scheduled for implementation in early 
summer 2011.
    CBP and TSA estimate that the total costs for the development and 
maintenance of the Air Cargo Advance Screening system and staffing 
through fiscal year 2012 will be approximately $20 million. Funding is 
included within the CBP salaries and expenses appropriation, 
specifically in the Inspections, Trade and Travel, and Trusted Traveler 
Program PPAs, in the fiscal year 2012 budget request.
         impact of customs enforcement on the seafood industry
    Question. When foreign producers send dumped or unfairly subsidized 
goods into our country, vigorous enforcement of our trade laws is the 
only way that American businesses can compete on a level playing field.
    In Louisiana and the gulf region, the domestic shrimp industry is 
fighting a tough battle against unfairly dumped shrimp imports, and 
they won antidumping orders against shrimp from six countries in 2005.
    Unfortunately, Customs is simply not doing enough to collect the 
dumping duties that importers owe to the Federal Government. Since 
2005, for example, importers of shrimp from China have failed to pay 
more than $58 million in dumping duties, some of which is supposed to 
be redistributed to injured shrimp producers here in the United States. 
Continued failure to collect these duties is fiscally irresponsible, 
and it further threatens a vulnerable gulf seafood industry that is 
struggling to recover from the impact of four major hurricanes and a 
devastating oil spill.
    How can Customs improve its performance to ensure that our laws are 
fully enforced and that importers are held accountable for all of the 
duties they owe? Could we enforce duty payment requirements on 
individuals, rather than companies that often go bankrupt? Will you 
work with me to increase transparency so that domestic producers can 
track the enforcement actions Customs is undertaking against importers 
and the results of those actions?
    Answer. Antidumping/Countervailing Duty (AD/CVD) Enforcement is a 
Priority Trade Issue (PTI) for Customs and Border Protection (CBP). CBP 
takes a concerted, systematic approach to detect and deter 
circumvention of the AD/CVD law, administer entries of AD/CVD 
merchandise, and to issue and collect bills for AD/CVD duties owed to 
the United States Government. CBP coordinates its AD/CVD enforcement 
activities through an intra-office AD/CVD PTI Working Group. CBP works 
closely with the U.S. Department of Commerce (Commerce), the 
administering authority for AD/CVD determinations under U.S. law, and 
U.S. Immigration and Customs Enforcement to enforce AD/CVD laws and 
regulations.
    When CBP issues a bill for final AD/CVD duties, CBP makes every 
effort to collect all duties, taxes and fees legally due to the 
Government. However, some importers, or their agents, are unable to pay 
the final duties. In addition, at least two sureties issuing bonds 
covering substantial amounts of AD/CVD duties are currently in 
receivership, further complicating collection. Other importers are 
simply unwilling to pay, or no longer exist by the time CBP issues a 
bill. CBP pursues collection action against importers and sureties who 
are simply unwilling to pay. CBP's Revenue Division in the Office of 
Administration initiates an administrative collections process in order 
to recover past-due amounts from the importers and sureties. This 
process may include dunning letters and the suspension of the immediate 
delivery process, among other steps. Ultimately, those debts for which 
the Revenue Division's collections process is ineffective are referred 
to CBP's Office of Chief Counsel.
    The Office of Chief Counsel pursues collection from both the 
importers and sureties, after completing a legal review of the 
underlying debt. Further, a review is done to determine if there is a 
viable importer (or available surety coverage) from which the debt may 
be recovered. In part, this is done through dunning letters, searches 
of electronic databases and internal systems, and pursuing available 
leads. In addition, CBP can assess civil penalties pursuant to 19 
U.S.C. Sec. 1592 against any party who, by fraud, gross negligence, or 
negligence submits a material false statement or omission on 
importation into the United States, including those cases in which a 
false statement or omission is made concerning the applicability of an 
antidumping duty order to a particular entry. If administrative 
attempts to collect the debt are unsuccessful and a viable importer 
and/or surety can be found, the Office of Chief Counsel drafts a 
complaint and refers the matter to the Department of Justice for 
possible litigation in the Court of International Trade. If the Office 
of Chief Counsel is not successful in locating a viable entity to be 
pursued, the matter will be referred back to the Revenue Division for 
appropriate action. This may include referral to Immigration and 
Customs Enforcement for further investigation. If the debt is without 
legal merit or no viable entity can be located to pursue further 
collection action, CBP may ultimately be forced to write off the debt.
    CBP has taken steps to specifically improve the collection of AD/
CVD duties on shrimp imports and continues to explore statutory and 
nonstatutory changes to enhance bonding requirements. CBP is also 
actively pursuing collection of the balance of the open bills against 
delinquent importers and sureties.
                        antidumping authorities
    Question. Please detail the legal process for antidumping 
activities (claims, investigations, collections, etc.) under the 
specific jurisdiction of U.S. Customs and Border Protection (CBP) from 
beginning of the process to final resolution.
    What parts of this process are not under the control or 
jurisdiction of CBP? What roles do other U.S. agencies or departments 
play in this process and at what intervals? How long can the duty 
collection process take once a determination is made that a shipper has 
``dumped'' goods adversely affecting a U.S. producer? What legal 
impediments, if any, prevent CBP from being able to use a portion of 
the fines it collects to cover the costs of increased investigations? 
Are all antidumping fines collected distributed to dumped-upon U.S. 
producers and/or companies?
    Under current law, the U.S. Government assesses antidumping fines 
against a particular company or corporation. What prevents our 
Government from going after the individual owner(s) of the company or 
corporation? If there is a legal prohibition in doing so, what specific 
law prohibits it?
    Answer. [Follows:]
Legal Process for Antidumping Activities
    Once the Department of Commerce makes an affirmative determination 
in an Antidumping or Countervailing Duty (AD/CVD) investigation, it 
issues instructions to CBP specifically identifying the covered product 
and requiring the applicable AD/CVD duty rates for each foreign 
producer. An importer must indicate that its entry is covered by an 
antidumping duty or countervailing duty order on its entry forms and 
deposit the applicable cash deposit. Because the United States has a 
retrospective system for determining antidumping and countervailing 
duties, the liquidation of these entries is suspended until the 
Department of Commerce reaches a final decision of the rate of 
antidumping or countervailing duty. Thus, the amount deposited at the 
time of entry is only an estimate of what duties may ultimately be 
owed.
    Once the Department of Commerce sends CBP liquidation instructions 
indicating the final rate of duty that is owed on these entries, CBP 
liquidates them in accordance with those instructions. If additional 
duties are owed, the importer must pay them at that time, with 
interest. Conversely, if the rate of duty decreased, the importer would 
receive a refund with any applicable interest. CBP's role in this 
process is purely ministerial as CBP implements the instructions 
received from the Department of Commerce.
    An importer who disagrees with the imposition of antidumping or 
countervailing duties may file a protest with CBP that concerns a 
decision that was made by CBP at the time of entry (not the underlying 
determination by the Department of Commerce). Such a protest must be 
filed with the port within 180 days of liquidation.
    If the protest includes a request for further review that satisfies 
19 CFR 174.24, CBP headquarters reviews the protest and issues a 
binding decision. If the port improperly denied the request for further 
review, the protestant may seek to have the denial set aside. 
Alternatively, if a protest is denied, the protestant may file suit in 
the Court of International Trade, which is the U.S. Court with subject 
matter jurisdiction over these matters.
    If the protestant does not seek judicial review of a denied protest 
(or if no protest was filed), CBP's Revenue Division in the Office of 
Administration initiates an administrative collections process in order 
to recover past-due amounts from the importers and sureties. This 
process may include dunning letters and the suspension of immediate 
delivery process, among other steps. Ultimately, those debts for which 
the Revenue Division's collections process is ineffective are referred 
to CBP's Office of Chief Counsel.
    The Office of Chief Counsel pursues collection from both the 
importers and sureties, after completing a legal review of the 
underlying debt. Further, a review is done to determine if there is a 
viable importer (or available surety coverage) from which the debt may 
be recovered. In part, this is done through dunning letters, searches 
of electronic databases and internal systems, and pursuing available 
leads. If administrative attempts to collect the debt are unsuccessful 
and a viable importer and/or surety can be found, the Office of Chief 
Counsel drafts a complaint and refers the matter to the Department of 
Justice for possible litigation in the Court of International Trade. If 
the Office of Chief Counsel is not successful in locating a viable 
entity to be pursued, the matter will be referred back to the Revenue 
Division for appropriate action. This may include referral to 
Immigration and Customs Enforcement for further investigation.
Parts of the Process Not Under the Control or Jurisdiction of CBP
    CBP's role in administering the antidumping duty and countervailing 
duty orders is purely ministerial. The Department of Commerce 
establishes which products are covered by the orders and what the 
applicable duty rates are for foreign producers and U.S. importers. CBP 
is in charge of the collection of the cash deposits, reviewing entries 
to ensure that importers are properly reporting their goods as subject 
to an order and paying the correct rate of duty, and liquidating those 
entries and assessing the final duty rate that is owed for those 
entries. CBP does not, however, liquidate any entry subject to an 
antidumping duty or countervailing duty order until it receives 
specific instructions from Commerce indicating that it is appropriate 
to do so.
Roles Other U.S. Agencies Play
    The U.S. Department of Commerce, the AD/CVD administering authority 
under U.S. law, and the U.S. International Trade Commission are 
responsible for investigating petitions alleging that goods being 
imported into the United States are dumped or subsidized. The 
Department of Commerce determines at what rate the goods are being 
dumped or subsidized and the International Trade Commission determines 
whether the U.S. industry has been injured or whether there is threat 
of injury resulting from the importation of these dumped or subsidized 
goods. If both agencies make affirmative preliminary determinations, 
the Department of Commerce issues instructions to CBP specifically 
identifying the covered product and the applicable required duty rates 
for each foreign producer. After both agencies make affirmative final 
determinations, the Department of Commerce publishes an antidumping 
duty order and/or countervailing duty order in the Federal Register. 
Thereafter, the Department of Commerce may conduct annual 
administrative reviews to determine the actual rate of dumping or 
subsidization of the previous year's entries.
    Every 5 years, the Department of Commerce and the International 
Trade Commission conduct sunset reviews of AD/CVD orders to determine 
if a case should be continued or revoked, and the Department of 
Commerce instructs CBP accordingly if a case is revoked. The Department 
of Commerce also has other ad hoc proceedings that may result in 
instructions to CBP to begin or stop collecting AD/CVD duties on 
specified subcategories of merchandise or specific companies.
    U.S. Immigration and Customs Enforcement (ICE) investigates 
criminal violations of AD/CVD laws. CBP works closely with ICE and 
regularly refers suspected criminal violations involving AD/CVD 
circumvention and fraud to ICE for investigation. In addition, CBP can 
assess civil penalties pursuant to 19 U.S.C. Sec. 1592 against any 
party who, by fraud, gross negligence, or negligence, submits or aids 
and abets another in submitting a material false statement or omission 
on importation into the United States, including those cases in which a 
false statement or omission is made concerning the applicability of an 
antidumping duty order to a particular entry.
Steps in the Process Once a Determination Is Made
    As soon as the Department of Commerce instructs CBP to collect 
estimated AD/CVD duties for a commodity from a specified country, CBP 
will collect these estimated duties upon entries of the merchandise 
into the United States. CBP will then hold these entries in suspension 
until the Department of Commerce instructs CBP to collect the final 
amount of duties due on these entries. CBP often does not receive these 
final liquidation instructions from the Department of Commerce for 
several years after the original entry of merchandise. CBP then works 
to take timely action to apply the liquidation instructions and bill 
the importers for the final AD/CVD duties due. Importers may legally 
protest the liquidation of an entry and delay paying a bill until the 
protest is decided. If a protest is denied, the protestant may file 
suit in the Court of International Trade.
Fines as a Funding Source
    Generally speaking, fines must be deposited in the Treasury as 
miscellaneous receipts pursuant to 31 U.S.C. Sec. 3302(b). Absent 
statutory authority, CBP's use of these funds to cover the costs of 
investigations would constitute an improper augmentation of CBP's 
appropriations. Where goods are seized and forfeited for AD related 
violations, those proceeds from the sale of forfeited goods are 
deposited in the Treasury Forfeiture Fund and available for reimbursing 
costs of the investigations, among other uses.
Distribution of Fines
    The ``Continued Dumping and Subsidy Offset Act of 2000'' was 
enacted on October 28, 2000, as part of the ``Agriculture, Rural 
Development, Food and Drug Administration, and Related Agencies 
Appropriations Act''. The act was repealed by section 7601(a) of the 
``Deficit Reduction Act of 2005'', but remains in place for AD/CVD 
duties collected on entries made before October 1, 2007.
    Money collected on an entry filed before October 1, 2007, will 
continue to be subject to the distribution procedures under former 
Sec. 1675c. The duty on an entry is not available for distribution 
until the entry is liquidated pursuant to the direction of the 
Department of Commerce and the duty is collected and deposited into the 
special account; therefore, the distribution process will continue 
until all entries made before October 1, 2007 are liquidated and the 
duties are collected. As a result of the statutory constraints in the 
assessment of antidumping and countervailing duties, the distribution 
process will continue for an undetermined period; however, the amount 
of money available for distribution can be expected to diminish over 
time.
Enforcement on Individuals Rather Than Companies
    The law makes it difficult to impose personal liability. While 
there is no express legal prohibition against taking collection action 
against individuals involved with corporate importers that incur 
dumping duty debts, most individuals involved with such debtor 
corporations are in other countries outside the jurisdiction of the 
United States, as is their valuable real and personal property.
    However, CBP does have the authority to assess civil penalties 
against individual owners of particular companies or corporations. 
Pursuant to 19 U.S.C. Sec. 1592, CBP is authorized to assess penalties 
and recover lost duties (including antidumping duties) against any 
party who, by fraud, gross negligence, or negligence, enters or 
introduces, or attempts to enter or introduce, any merchandise into the 
commerce of the United States by means of a false statement or 
omission, or aids or abets another person to do so. See 19 U.S.C. 
Sec. 1592(a)-(d). CBP may exercise this authority in cases in which a 
false statement or omission is made on an entry involving merchandise 
subject to an antidumping duty order.
                improved antidumping revenue collections
    Question. In March 2008, the Government Accountability Office (GAO) 
reported that, as of September 2007, CBP has been unable to collect 
more than $600 million owed in antidumping and countervailing duties 
imposed to remedy injurious unfair foreign trade practices. These 
include duties imposed on products exported to the United States at 
unfairly low prices (i.e., dumped) and duties on products exported to 
the United States that were subsidized by foreign governments. In 
addition to the substantial amount of lost revenue, the uncollected 
duties cause concern that the U.S. Government has not fully remedied 
the unfair trade practices.
    Since 2005, the GAO has reported several times on the U.S. 
Government's inability to collect substantial amounts of antidumping 
and countervailing duties and, in 2008, proposed a variety of options 
for improving the system for collecting these duties. Two key 
components of the antidumping and countervailing duty system have 
received particular attention. One is its retrospective nature, which 
means that-- though importers pay estimated duties at the time of 
importation--final duties are not assessed until after products enter 
the country. Another component is the ``new shipper'' review process 
that allows new manufacturers or exporters to petition for their own 
separate antidumping and countervailing duty rate. Despite other 
efforts by the Congress and CBP, these components of the system have 
not been addressed and the collection of antidumping and countervailing 
duties remains a problem.
    The March 2008, GAO report identified several options for the 
Congress to consider for improving the collection of antidumping and 
countervailing duties. And by adjusting features of the antidumping or 
countervailing duty system that create the risk that companies can 
evade paying duties, the Congress could further protect Government 
revenue, while also minimizing incentives for companies to pursue 
unfair trade practices. These options included eliminating the 
retrospective component of the U.S. antidumping and countervailing duty 
system and adjusting requirements for new shipper reviews.
    What specific laws does CBP recommend should be changed or amended 
to enhance CBP's antidumping investigations and increase antidumping 
collections? Can CBP take administrative actions to improve antidumping 
collections in the absence of legislation? In the absence of changes in 
legislative authorities to existing laws and practices, can CBP do more 
to collect and distribute antidumping receipts to injured U.S. 
businesses if it was provided with additional resources? If so, what 
resources would be required and what more could be achieved?
    Answer. CBP has a longstanding administrative collection process 
that employs all of the authority available to CBP. CBP makes every 
effort to collect all duties, taxes and fees legally due to the 
Government.
    In appendix V of the March 2008 GAO Report, DHS commented that of 
the options identified by the GAO to improve the collection of AD/CVD 
duties, the first option CBP preferred for addressing uncollected AD/
CVD duties would be for the U.S. Congress to change U.S. law to 
eliminate the retrospective component of the U.S. AD/CVD system and 
make the U.S. AD/CVD system prospective. DHS noted that a prospective 
AD/CVD system would alleviate the collection issues faced by CBP since 
the amount of duty assessed at entry would be the final amount owed. 
This would also substantially alleviate the administrative burden on 
CBP resources associated with a retrospective system, and allow CBP 
resources to more fully focus on AD/CVD enforcement issues, such as 
circumvention of the AD/CVD law. In this appendix to the March 2008 GAO 
Report, DHS also commented that the majority of the other options 
identified by the GAO to improve the collection of AD/CVD duties would 
perpetuate and exacerbate the shortcomings of the U.S. retrospective 
system.
                         jones act enforcement
    Question. CBP is charged with enforcing our Nation's cabotage laws, 
including the Jones Act, which requires that any goods transported by 
water between two coastwise points in the United States must be carried 
on ships that are built in America and crewed by Americans. This law 
promotes our economic and national security by ensuring the existence 
of a robust merchant marine fleet.
    The Outer Continental Shelf Lands Act of 1974 extended Jones Act 
requirements to offshore points within the Exclusive Economic Zone of 
the United States. It is therefore imperative that CBP have both the 
resources and the authorities it needs to enforce the Jones Act 
offshore, particularly in the Gulf of Mexico, where more than 25 
percent of America's domestic energy production occurs.
    Does CBP have the resources, authorities, and information it needs 
to investigate alleged Jones Act violations offshore? How is CBP 
partnering with the Offshore Supply Vessel (OSV) industry, which 
supports offshore energy facilities and operations, to carry out its 
enforcement mission?
    Answer. Yes, CBP has the resources, authorities, and information 
needed to take appropriate action for alleged Jones Act violations 
committed offshore.
                             air and marine
    Question. What are the operational impacts on performing CBP's 
mission of the CBP plan to retire 18 single-engine, fixed wing aircraft 
in fiscal year 2011?
    Answer. CBP is scheduled to retire 16 single-engine, fixed wing 
aircraft, 15 PA-18s and 1 C-172 in fiscal year-2011. The decision to 
retire these aircraft was based on their advanced age and the desire to 
operate more efficient, effective, and capably equipped aircraft. The 
PA-18 and C-172 have limited capability to fly low-level missions over 
hazardous terrain during the day and virtually no capability for 
operational missions at night. Recently purchased light enforcement 
helicopters (AS-350) are equipped with sophisticated sensors and are 
considerably better suited to perform the variety of required law 
enforcement missions supported by OAM.
                when will we know the border is secure?
    Question. Debates have raged in the Congress and around the country 
over how secure our border is--especially our border with Mexico. Many 
people assert that they will not support immigration reform until they 
are confident the borders are ``secure''. I look forward to visiting 
the border this spring to see what has been accomplished and to listen 
to the men and women who work to secure the border about what more 
needs to be done.
    But there appears to be no consensus on what constitutes a secure 
border. As I understand it, the Border Patrol for years has used 
metrics such as ``effective control'' or ``less monitored'' in defining 
border security. Approximately 657 miles of fencing and vehicle 
barriers have been constructed along the Southwest Border to date. And 
as of June 30, 2010, the Border Patrol determined that 774 miles of 
that border were under ``effective control''.
    In testimony earlier this year, you stated ``the term `operational 
control' is a very narrow term of art, and it does not reflect the 
infrastructure and technology and all the other things that happen at 
the border''. I would assume that 657 miles of fencing would certainly 
contribute to control of the border.
    Are you modifying the metrics used to define ``border control''? Do 
you believe our borders are secure? Which agency or entity determines 
where, how much, and what kind of tactical infrastructure is required 
to obtain control of our borders? What is the required number of miles 
of fencing to be constructed mandated by the Secure Fence Act, as 
amended?
    Answer. The ``Operational Control'' measure did not accurately 
represent the Border Patrol's significant investments in personnel, 
technology, and resources or the efforts of other DHS Components who 
are engaged in border security such as U.S. Immigration and Customs 
Enforcement and the U.S. Coast Guard. The Border Patrol is currently 
taking steps to replace this outdated measure with performance metrics 
that more accurately depict the state of border security.
    This administration has made unprecedented investments in border 
security and on every metric that measures progress, we're heading in 
the right direction. Apprehensions are down and seizures--across the 
board--are up.
    The types, amount and location of tactical infrastructure are 
determined through a combination of the operational assessment made by 
Border Patrol agents conducting daily operations in the field, 
available funding, and an overall determination of current operational 
priorities.
    To date, DHS/CBP has constructed a total of 649 miles out of nearly 
652 miles required by the Congress. The fence mileage language of the 
Secure Fence Act, as amended, is currently the subject of pending 
litigation (United States v. The State of Arizona; United States 
District Court, District of Arizona; Case No. 10-cv-01413).
                          border patrol agents
    Question. Your budget request supports funding to sustain the 
21,370 Border Patrol agents which CBP intends to hire by the end of 
this fiscal year. This number reflects the additional 1,000 agents the 
Congress funded as part of the Fiscal Year 2010 Emergency Border 
Security Supplemental Appropriations Act enacted last August. No new 
agents, however, are requested in the President's budget.
    Are 21,370 Border Patrol agents the right number of agents needed 
to protect our borders? What happens when the 1,200 National Guardsmen 
and women currently assisting our border agencies along the Southwest 
Border leave as planned this summer?
    Answer. The fiscal year 2012 budget request supports 21,370 Border 
Patrol agents and 21,186 CBP officers--the largest deployment of law 
enforcement officers to the front line in the agency's history. The 
request annualizes positions supported by the fiscal year 2010 SWB 
Supplemental, including 1,000 new Border Patrol agents and 250 new CBP 
officers. Additional funding is provided to support 300 more CBP 
officers and canine assets at ports of entry. The request also supports 
the mobile response surge teams created with the Supplemental funding 
to respond rapidly to emergent situations without depleting Border 
Patrol staffing from other locations. The 1,200 National Guard deployed 
to the Southwest Border have been contributing additional capabilities 
and capacity to assist law enforcement agencies including providing 
intelligence, surveillance, reconnaissance, and counternarcotics 
enforcement support as CBP hires and deploys the 1,000 BP agents 
included in the Southwest Border supplemental.
     improving the entry process for visitors to the united states
    Question. In your statement, you say the second Homeland Security 
mission is to secure the Nation's borders ``to prevent illegal activity 
while facilitating lawful travel and trade.'' We want to welcome 
visitors to the United States, but I frequently hear from constituents 
who travel internationally that the entry process coming into this 
country is lengthy and daunting. It often takes hours for passengers to 
be processed once arriving at an airport. There are long lines, not all 
lanes are open and staffed, and the information provided to arriving 
passengers is often confusing. I understand that your Department has 
initiated a few programs to try and address some of these symptoms, 
such as the Model Ports of Entry program and the Global Entry Program.
    Your budget proposes funding to add more than 300 new Customs and 
Border Protection officers to staff newly opened or expanded land 
border ports. What is being done to make the entry process for visitors 
and U.S. citizens more welcoming without degrading security? Please 
explain how these existing programs, and others, have reduced wait 
times and made the process more welcoming for travelers. How much money 
has been directed to these improved entry programs for each of fiscal 
years 2008-2011, and how much is requested for these and other programs 
for 2012?
    The Department has implemented a number of the recommendations 
proposed by the Secure Borders and Open Doors Advisory Committee 
(SBODAC)--such as the International Registered Traveler program and 
those programs listed above. In an October, 28, 2008, letter to now 
former Secretaries of State and Homeland Security, Rice and Chertoff, 
respectively, the SBODAC urged that additional actions recommended in 
the Committee's January 2008 report also be implemented.
    Has the Department implemented any additional recommendations of 
that Committee since 2008? If so, please describe them. If not, please 
explain why it has not?
    One of the frequent complaints made by visitors to the United 
States, especially in the air environment, concerns the way they are 
treated by CBP officers upon arrival at the airport. The visitors are 
often tired and there may be language barriers, but unfortunately what 
makes the media reports is that the CBP officers are brusque and treat 
the visitor as if he or she is guilty while performing the entry 
inspection. Understanding that the CBP officers' primary duty is 
security and ensuring that the individual before them is eligible for 
entry into the country, the officer is also the first impression the 
traveler has of America and Americans.
    Please describe the training CBPOs are provided regarding 
``welcoming'' visitors as they are being processed. Are aspects of 
courtesy and customer service, in addition to security, stressed as 
part of their training? Are they instructed to greet the visitor with a 
statement such as ``Welcome to the United States'' as the traveler 
approaches the inspection kiosk? If not, are there reasons why the 
officer should not be provided such instruction?
    Answer. [Follows:]
Programs To Welcome Travelers
    CBP developed the Model Ports Initiative in partnership with 
industry stakeholders, launching the pilot program in 2007 at 
Washington/Dulles and Houston International Airports. The program 
expanded to 18 additional model ports in 2008, including Atlanta, 
Boston, Dallas/Fort Worth, Chicago, Detroit, Fort Lauderdale, Honolulu, 
Las Vegas, Los Angeles, Miami, Newark, New York (JFK), Orlando, 
Philadelphia, Sanford (FL), San Juan, San Francisco, and Seattle 
airports.
    The Model Ports Initiative is the key component of efforts to 
strengthen border security through advanced technologies and procedures 
while providing a more welcoming experience, reduced wait times and 
better customer service. CBP has increased staffing and professional 
training at ports of entry, installed new bilingual signage, updated 
the travel section of its public Web site and introduced a variety of 
trusted traveler programs, such as Global Entry, to expedite entry into 
the country.
    The Passenger Service Manager (PSM) program continues to be an 
important focus of the Model Ports Initiative to welcome travelers, 
provide appropriate assistance, and explain CBP procedures in order to 
minimize wait times.
    All Model Ports signage have been completed and delivered. These 
signs inform travelers of the CBP mission, pledge to treat people with 
respect and provide clear directions to travelers to minimize delays.
    The audio and video displays which run the updated ``Welcome to the 
United States'' video, and a 1-minute Global Entry promotional video, 
have been installed at all locations. These videos provide a welcome 
experience to arriving travelers, inform them of CBP procedures to 
reduce delays and burdens for legitimate travelers, and promote the 
Global Entry program to reduce wait times. Global Entry, one of CBP's 
trusted traveler programs designed to expedite clearance of 
preapproved, low-risk, recurrently vetted air travelers entering the 
United States, is available at all 20 model ports. This program 
utilizes automated kiosks that scan members' fingerprints to bypass the 
regular passport control queues (unless chosen for a selective or 
random secondary referral).
    In order to make meaningful and responsive changes to the arrivals 
processes where practical, and apply resources where needed, CBP is 
conducting a traveler satisfaction survey in the spring of 2011 to 
benchmark passenger satisfaction at the 20 model ports of entry.
    Working with the Department of State, CBP improved the diplomatic 
arrival processes and has ensured that every model airport and terminal 
has dedicated diplomatic processing lanes to welcome and expedite the 
entry of foreign dignitaries and diplomats. This represents at least 36 
dedicated passport primary lanes at the Nation's airports.
    As part of the emergency border security appropriations in fiscal 
year 2008 CBP received $40 million for the Model Ports of Entry 
program, which included 235 additional CBP officers, and funding for 
overtime, video equipment, and services at the model ports. CBP spent 
$22,900,000 to hire the additional staff, $2.1 million for training, 
$8.5 million for equipment and $6.5 million for overtime at the model 
ports. Excluding the continuing resources used to maintain the 
additional CBP officers, CBP spent approximately $692,000 for Model 
Ports program in fiscal year 2009 and an additional $250,000 in fiscal 
year 2010. For fiscal year 2011 and fiscal year 2012 there is an 
annualization in the base for the position costs as well as $1.3 
million for nonpersonnel costs for Model Ports.
    For Global Entry, CBP spent approximately $800,000 in fiscal year 
2009 and $1.7 million in fiscal year 2010, including for kiosks, IT, 
and video. In addition, CBP spent $2.1 million for fiscal year 2008-
2009 for fingerprinting applicants for all Trusted Traveler programs. 
The cost for fingerprinting for Trusted Traveler programs was $4.1 
million in fiscal year 2010, and CBP anticipates it will cost 
approximately $5 million in fiscal year 2011 and fiscal year 2012. 
Although CBP recovers a portion of the costs in the fees for this 
program, it does not recover the full amount.
    In November 2009, CBP issued a Notice of Proposed Rulemaking that 
established an application fee for participants in the Global Entry 
program. This fee was authorized to recover the full cost of processing 
an application. The chart below shows the collections from Global Entry 
applicants in fiscal year 2009 and fiscal year 2010 and projected 
revenues in fiscal year 2011 and fiscal year 2012.
  --Fiscal year 2009 actual: $1,993,546.
  --Fiscal year 2010 actual: $4,989,847.
  --Fiscal year 2011 (estimate): $5,099,624.
  --Fiscal year 2012 (estimate): $5,201,616.
Secure Border and Open Doors Advisory Committee (SBODAC)
    The Secure Border and Open Doors Advisory Committee (SBODAC) was an 
ad hoc subcommittee of the Homeland Security Advisory Council (HSAC), 
an advisory body to the Secretary of Homeland Security that was 
established under the provisions of the Federal Advisory Committee Act 
(5 U.S.C. Appendix). The SBODAC prepared and provided reports to the 
HSAC on important issues that affect our country's ability to attract 
and treat visitors in a secure and welcoming manner, completing its 
work on December 1, 2008. The HSAC recommended, and DHS is continuing 
to implement, recommendations from the HSAC's final report, including:
            Visa Policy and Processing
  --The Departments of Homeland Security and State should fix a 
        longstanding obstacle to reliable business traveler entry from 
        Canada by increasing visa training for CBP officers and 
        establishing an optional pretravel approval process for 
        qualified Canadian business visa applicants.
      Status.--The NEXUS program allows prescreened travelers expedited 
        processing by United States (Customs and Border Protection) and 
        Canadian (Canada Border Services Agency) officials at dedicated 
        processing lanes at designated Northern Border ports of entry, 
        at NEXUS kiosks at Canadian Preclearance airports, and at 
        marine reporting locations. Individuals approved to participate 
        in NEXUS receive an identification card.
  --The Departments of Homeland Security and State should continue to 
        improve the reliability, responsiveness, and integration of 
        processes to ensure that visa-related errors in the consular 
        and port-of-entry systems are corrected in a timely and 
        effective manner.
      Status.--DHS has a strong relationship with the Department of 
        State and the two agencies continue to work together to improve 
        the systems that transmit and receive visa data. Errors in 
        transmission are quickly detected and resolved through 
        interagency technical working groups.
            Ports of Entry
  --Airports.--The Department of Homeland Security should establish a 
        pilot program for International Registered Travelers as soon as 
        possible and promptly expand the program to the top 20 
        international airports.
      Status.--CBP has established and currently operates such an 
        international trusted traveler pilot program: Global Entry. 
        Global Entry began operations on June 6, 2008 at 3 airports, 
        and has since been expanded by CBP to the top 20 U.S. airports. 
        Additionally, CBP has implemented arrangements with the 
        Governments of the Netherlands and Mexico to expand eligibility 
        for Global Entry to qualified citizens of those countries who 
        meet program requirements, as well provided access to Global 
        Entry benefits to Canadians who are members of the NEXUS 
        trusted traveler program.
      CBP has enrolled more than 120,000 participants, as well as 
        390,000 persons able to use Global Entry as members of NEXUS 
        and 89,000 as members of Secure Electronic Network for 
        Travelers Rapid Inspection (SENTRI).
      DHS conducted a statistical analysis of wait times for Global 
        Entry pilot participants, which indicated that Global Entry 
        reduces a passenger's wait time by up to 70 percent--or an 
        estimated 7 minutes on average. Wait time is defined as the 
        time interval between the arrival of the aircraft (the block 
        time) and the processing of the passenger by a CBP officer at 
        the primary booth, less the walk time.
  --Airports.--The Departments of Homeland Security and State should 
        accelerate and expand the Model Ports program and fully include 
        TSA to eliminate redundant rescreening of baggage and 
        passengers.
      Status.--CBP continues to expand the Model Ports program, which 
        provides a more welcoming arrival experience at the 20 top U.S. 
        airports for international arrival. Since the SBODAC report was 
        issued, the Model Ports program has launched and expanded 
        several initiatives. Improved signage communicates clear, 
        accessible instructions to incoming passengers as they enter 
        the CBP area. A new, improved airport wait-time monitoring 
        system gives the traveling public better information on 
        expected wait times upon arriving at the airport. CBP has 
        deployed additional officers at the Model Ports, as well as 
        provided enhanced professionalism training as part of the 
        officer academy and field refresher training curricula. CBP has 
        deployed Passenger Service Managers to greet travelers and 
        serve as a point of contact at the airport to deal with 
        passenger complaints and concerns. CBP has completed deployment 
        of audio and video equipment that displays a welcome video 
        donated by Walt Disney Parks and Resorts called ``Welcome: 
        Portraits of America'' and a CBP instructional video called 
        ``Welcome to the United States: Simple as 1, 2, 3.'' CBP 
        continues to collaborate with its partners in the private 
        sector, municipalities, and the Federal Government to improve 
        the entire arrivals process, including making the queuing area 
        more welcoming, improving wait-times and baggage delivery and 
        being available to address travelers' questions and concerns.
  --Airports.--The Department of Homeland Security should continue to 
        improve security performance while reducing the average amount 
        of time U.S. Customs and Border Protection officers spend with 
        each traveler to less than pre-September 11 levels and staff 
        ports of entry sufficiently to complete primary inspection of 
        foreign passengers in less than 30 minutes by December 2009.
      Status.--CBP is committed to processing incoming travelers as 
        efficiently as possible consistent with meeting the Nation's 
        security needs. In the first quarter of fiscal year 2011, the 
        vast majority of air passengers admitted into the United States 
        experienced wait times of less than 30 minutes at the CBP 
        inspection area.
  --Land Borders.--CBP should increase the effectiveness of NEXUS, 
        SENTRI, and FAST trusted traveler programs.
      Status.--Our NEXUS, Secure Electronic Network for Travelers Rapid 
        Inspection (SENTRI), and Fast and Secure Trade (FAST) trusted 
        traveler programs are very effective, and enrollment has been 
        growing. CBP has increased effectiveness by harmonizing 
        enrollment infrastructure, as well as expanding membership 
        benefits. All programs use the Global Enrollment System, as 
        well as harmonized requirements for enrollment data, vetting, 
        and disqualifying offenses. TSA now recognizes trusted traveler 
        identity documents at domestic airport checkpoints. NEXUS and 
        SENTRI members can automatically use Global Entry kiosks, where 
        available, when entering the United States by air.
  --Land Borders.--The Departments should implement the Western 
        Hemisphere Travel Initiative (WHTI) and US-VISIT on the land 
        border without degrading the travel experience.
      Status.--DHS implemented WHTI at the land ports of entry in June 
        2009. Compliance with document requirements is high, and many 
        individuals (almost 9 million so far) are obtaining documents 
        enhanced by radio frequency identification (RFID) technology 
        that increases the efficiency of the inspection process. This 
        technology allows law enforcement queries 60 percent faster 
        than relying on manual entry and 20 percent faster than 
        ``swiping'' the document's machine readable zone. New license 
        plate readers have been installed, reducing erroneous reads and 
        saving 10 million manual corrections per year. WHTI also 
        supports lane flow optimization that can adapt to traffic 
        patterns and port needs, is installing new signage to help 
        travelers advance more smoothly, and is instituting ``ready 
        lanes'' used by travelers with RFID-enabled documents to 
        further facilitate border crossing.
      Implementation of WHTI has made travel more secure by limiting 
        the number of documents that can be presented at the port of 
        entry and allowing CBP to conduct law enforcement queries on an 
        increased number of higher risk travelers.
  --The Department of Homeland Security should assess its traveler 
        screening programs within 9 months to share and harmonize best 
        practices and technology among agencies.
      Status.--DHS continually reviews its traveler screening programs 
        to ensure that the business processes and underlying systems 
        support the mission needs and to pursue harmonization. In July 
        2006, DHS established the Screening Coordination Office (SCO) 
        in the Office of Policy to identify and promote best practices 
        and ensure a coordinated approach to investments in screening 
        programs.
Training
    CBP officers receive extensive training on professionalism and 
cultural diversity awareness, including appropriately greeting 
travelers, to ensure they interact with the traveling public with 
courtesy and respect. This begins as soon as new hires enter on duty 
and continues throughout their career. Incumbent officers and 
supervisory officers are reminded of these core values through Web-
based training, classroom training, and musters to ensure personnel 
treat travelers with dignity and respect. Professionalism is also a 
performance evaluation measure for the officer position. Officers are 
instructed through training and musters to be courteous to the 
traveler, emphasizing establishment of rapport as a key interview and 
observation techniques tools for the detection of admissibility, 
counter-terrorism, and/or smuggling issues.
                          overtime pay reform
    Question. The budget includes a placeholder for a legislative 
proposal to reform overtime pay for CBP. This is an authorization issue 
which must first be addressed by the appropriate authorizing 
committees.
    Please provide a copy of the legislative proposal. Please provide 
copies of any formal requests to the authorizing committees to take 
action on this proposal. What is the long-term impact on agents of 
implementing this proposal? Will implementation of this proposal have 
cascading effects on future pay costs for agents or other CBP or DHS 
personnel in the out-years and have any impacts been considering in 
formulating this proposal? What cuts to the budget, if any, would you 
propose be made if overtime pay reform is not enacted?
    Answer. The administration continues to work to develop the 
legislative proposal referenced in the President's budget request for 
fiscal year 2012 regarding CBP's personnel system. The reforms being 
proposed eliminate redundancies and other inefficiencies that resulted 
from merging three different workforces from three different legacy 
agencies and make it easier for CBP employees to take positions across 
the agency, ensuring that CBP makes the most efficient use of taxpayer 
dollars. DHS will provide the legislative proposal as soon as it is 
finalized.
                       border patrol construction
    Question. Are any funds requested in the budget for construction of 
new Border Patrol facilities, including checkpoints?
    Answer. Fiscal year 2012 budget does not include resources for the 
construction of new facilities.
                        advanced training center
    Question. How much is requested in the President's budget for 
training activities and training operations at the Advanced Training 
Center (ATC) in fiscal year 2012? Also, what is the staffing target for 
the ATC?
    Answer. The fiscal year 2012 projected programmatic expenses for 
the ATC total $47,663,341, which includes salaries and benefits and 
other programmatic expenses. The fiscal year 2012 staffing target is 
157 positions.
                             air and marine
    Question. What specific types of aircraft and in what quantities 
are proposed to be procured by this budget request? Will all of the 
previously funded Unmanned Aircraft Systems (UASs) be fully outfitted 
with prior year funds and the funds requested in this budget? If not, 
what additional funds are required to make these systems fully 
operational?
    Answer. The fiscal year 2012 proposed budget provides funding for 
two P-3 replacement wing sets in continuation of the P-3 Service Life 
Extension Program, six AS-350 light enforcement helicopters, and to 
induct two UH60 Black Hawk helicopters in the A to L model conversion 
program. The two replacement wing sets funded in the fiscal year 2012 
budget will complete the acquisition objective for 14 new sets for the 
16 P-3 aircraft in the OAM fleet.
    In addition, funds provided in the fiscal year 2010 Southwest 
Border supplemental are being used to acquire two additional UASs. The 
fiscal year 2012 budget request includes $4 million to complete this 
acquisition. The first of the two Predator B UASs purchased with the 
supplemental funding should be delivered in October 2011.
 united states immigration and customs enforcement--violence in mexico
    Question. The tragic and senseless murder of Immigration and 
Customs Enforcement Special Agent Zapata and the wounding of his 
partner Special Agent Avila on February 15, brought to light the fact 
that our agents are prohibited from carrying service weapons for their 
own defense. More than 33,400 Mexican citizens have died during the 
Mexican Government's admirable campaign against the drug trafficking 
organizations. It is our Government's policy to assist the Mexicans in 
this effort. But as we put United States personnel in Mexico to help 
that government, our people can become targets.
    Why are our special agents and other personnel not allowed to carry 
weapons to protect themselves? Is this prohibition limited to ICE 
personnel, all Homeland Security personnel, or does it apply to all 
American Government law enforcement working with Mexican authorities in 
that country? I want to ensure that the same rules apply to all U.S. 
law enforcement. Do ICE special agents receive hazardous duty pay 
during their assignment in Mexico, the way that other United States law 
enforcement do when working in war zones such as Iraq and Afghanistan? 
Are special agents permitted to turn down overseas assignments such as 
these if they fear for their personal safety? What has been the special 
agent force reaction to serving in Mexico since the Zapata killing? 
Media reports claim that the Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF) estimates that 90 percent of the guns seized by the 
Mexican Government are eventually found to have been purchased in the 
United States. Is this a valid statistic? Does this represent all guns 
seized by the Mexican Government, or only the portion of seized guns 
United States officials are given access to? Are guns used by the drug 
cartels found to come from countries other than the United States? If 
so, from which countries are these guns coming?
    Answer. Sadly, the tragedy you mention involving two special agents 
assigned to ICE's attache office in Mexico City is a stark reminder of 
the dangers confronted and the sacrifices made every day by our 
Nation's law enforcement officers. Special Agent Jaime J. Zapata lost 
his life and Special Agent Victor Avila, Jr. was critically injured in 
service of our country. While these remain ongoing investigations, 
Mexican authorities have apprehended some of the individuals involved 
in the murder of ICE Agent Jaime Zapata. We will continue to assist the 
ongoing Mexican investigation with every resource at our disposal and 
to ensure that all those responsible for these murders face justice. In 
coordination with the Departments of State and Justice, we have 
announced a reward of up to $5 million for information leading to the 
arrest and/or conviction of additional individuals responsible for the 
murder of Special Agent Jaime Zapata and the attempted murder of 
Special Agent Victor Avila. In addition, the FBI, in conjunction with 
ICE, has established a 24-hour tip line based in the United States to 
process the information.
    It is our understanding that, in general, the Department of State 
(DOS), through the Chief of Mission (Ambassador), determines whether 
U.S. law enforcement officers may carry firearms overseas and under 
what conditions, in accordance with 22 U.S.C. Sec. 3927 and host 
country laws and agreements, and that the Chief of Mission's authority 
would apply to all American law enforcement personnel.
    While DOS is the authority on specific questions regarding their 
policy for hazardous duty pay in war zones, ICE personnel do receive 
the same hardship pay as other United States civilian personnel in 
Mexico. However, ICE personnel only receive danger pay in certain 
locations in Mexico (Tijuana, Ciudad Juarez, and Monterrey). Location 
based danger pay varies among the United States law enforcement 
agencies with personnel in Mexico due to the statutory authority for 
danger pay allowance, which is set forth in 5 U.S.C. Sec. 5928. 
Currently, there are locations in Mexico, specifically Mexico City and 
Hermosillo, where Drug Enforcement Administration (DEA) and the Federal 
Bureau of Investigation (FBI) personnel receive danger pay and ICE 
personnel do not. The following table shows the current rates 
established by DOS of hardship pay and danger pay received by personnel 
assigned to Mexico:

------------------------------------------------------------------------
                                               Post
                                            (hardship)      Danger pay
                                           differential     percent of
                Location                    percent of         basic
                                               basic       compensation
                                           compensation
------------------------------------------------------------------------
Ciudad Juarez, Chihuahua, Mexico........              10              20
Mexico City, D.F., Mexico...............              15  ..............
Tijuana, Mexico.........................               5              15
Hermosillo, Mexico......................              15  ..............
Monterrey, Mexico.......................               5              20
------------------------------------------------------------------------

    All ICE overseas positions are considered voluntary. ICE posts 
announcements to advertise overseas positions and interested personnel 
respond to the announcements and undergo the necessary application 
procedures. Applicants may withdraw from the selection process at any 
time.
    In response to Special Agent Zapata's murder, ICE has sent 29 
special agents, 1 criminal research specialist, 2 victim/witness 
counselors, and 2 technical enforcement officers on temporary duty 
assignments to Mexico City and Monterrey to directly assist the FBI and 
the Government of Mexico in the investigation. ICE personnel in Mexico 
also implemented rigorous security measures designed to protect ICE 
employees and their families. Additionally, ICE met with other Federal, 
State, and local law enforcement agencies in the United States to 
coordinate a domestic investigative and law enforcement response 
against the organization believed to be responsible for the attack, and 
its criminal associates.
    In regard to the ATF statistic, we respectfully defer to the ATF.
                           removal statistics
    Question. Some have called the administration's claim of achieving 
a ``record'' number of deportations for fiscal year 2010 inflated, 
citing findings from the Center for Investigative Reporting. Those 
findings allege that ICE included 19,000 immigrants who departed the 
previous year, and 6,500 from a Mexican repatriation program that ran 5 
weeks longer than it had previously. They also claim that nearly 65,000 
of the deportations were voluntary and that the agency pushed the 
voluntary-departure option in deportation figures just long enough to 
make its annual goal for removals.
    Are these allegations accurate? Please provide the statistics for 
each of these categories for fiscal years 2008-2010. Also, please 
provide the metrics used by the administration to measure increased 
rates of removal for the same 3 fiscal years.
    Answer. In fiscal year 2010, ICE set a record for overall removals 
of illegal aliens, with more than 392,000 removals nationwide. One-half 
of those removed--more than 195,000--were convicted criminals. The 
fiscal year 2010 statistics represent increases of more than 23,000 
removals overall and 81,000 criminal removals compared to fiscal year 
2008--a more than 70 percent increase in removal of criminal aliens 
from the previous administration.
    When compared to fiscal year 2009, ICE returned 6,527 more aliens 
through fiscal year 2010's Mexican Interior Repatriation Program 
(MIRP). Since 2008, MIRP statistics have been included in ICE's overall 
removal numbers. MIRP is a seasonal program designed to run during the 
summer months; however, the actual dates of the program fluctuate each 
year dependent upon completion of annual negotiations between the 
Department of Homeland Security and the Government of Mexico, and the 
identification of requisite funding.
    Please see the charts below which address statistics for removal 
categories in fiscal year 2008 through fiscal year 2010 and metrics 
used by the administration to measure increased rates of removal for 
fiscal year 2008 through fiscal year 2010.

----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                                                                       2008            2009            2010
----------------------------------------------------------------------------------------------------------------
             BREAKDOWN OF TOTAL ICE REMOVALS/RETURNSActual Fiscal Year Removals/Returns.............................        $369,221        $387,790        $373,440
Case Closure Lag \1\............................................           (\2\)           2,044          19,422
                                                                 -----------------------------------------------
Total ICE Removals/Returns......................................         369,221         389,834         392,862
                                                                 ===============================================
            HISTORICAL STATISTICS FOR VOLUNTARY RETURNS AND THE MEXICAN INTERIOR REPATRIATION PROGRAM
   (Voluntary returns and Mexican repatriation program removals/returns are a subset of the actual fiscal year
                                removals/returns included in the previous chart.)Voluntary Returns...............................................          84,466          70,211          64,876
Mexican Interior Repatriation Program Removals/Returns..........          18,464          10,560         23,384
----------------------------------------------------------------------------------------------------------------
Fiscal years 2008-2010 data is historical and remains static. Fiscal year 2010 data is as of 10/05/10.
\1\ Fiscal year data lag/case closure lag is defined as the physical removal of an alien that occurs in a given
  fiscal year but the information is not recorded in EARM nor is the case closed in EARM during that fiscal
  year. Because the data in EARM is locked at the end of each fiscal year, the removal is recorded for the month
  the case was closed but reported in the following fiscal year removals.
\2\ Not available.

                           secure communities
    Question. There is confusion as to whether ICE considers local 
participation in Secure Communities mandatory. What is your policy? If 
it is not mandatory, on what basis do you assert that all communities 
will be enrolled by 2013?
    Answer. There has been confusion as to what is meant by ``opting 
out'' in the context of Secure Communities and whether ``opting out'' 
is possible. Once a State signs an agreement with ICE to implement 
Secure Communities, it is mandatory that all fingerprints collected by 
law enforcement agencies in that State and submitted to the FBI be 
shared with ICE. Once Secure Communities is activated in a 
jurisdiction, the fingerprints that jurisdiction submits to the 
Department of Justice's biometric system to check for criminal history 
records are automatically sent to DHS's biometric system to check 
against its immigration and law enforcement records. The United States 
Government has determined that a jurisdiction cannot choose to have the 
fingerprints it submits to the Federal Government processed only for 
criminal history checks. Nor can a jurisdiction demand that the 
identifications that result from DHS's processing of the fingerprints 
be withheld from local ICE field offices in that jurisdiction. The ICE 
local field office, and not the State or local law enforcement agency, 
determines what immigration enforcement action, if any, is appropriate.
    A jurisdiction may, however, choose not to receive the 
identifications that result from processing the fingerprints through 
DHS's biometric system. A jurisdiction's decision not to receive this 
information does not affect whether the local ICE field office in that 
jurisdiction will or will not take enforcement action based on those 
identifications. In that sense, jurisdictions may ``opt out'' of 
receiving the results of Secure Communities biometrics checks.
                            detention reform
    Question. The Department has made impressive gains in detaining and 
removing criminal aliens who pose a danger to people lawfully present 
in the United States. I understand your budget request provides 
sufficient funds to maintain the mandated level of 33,400 detention 
beds. And the request also includes an increase of $6.5 million for the 
alternatives to detention program to expand the number of individuals 
who need to be monitored but not necessarily held in custody prior to 
resolution of their immigration status. But while the administration 
has claimed it is pursuing detention reform, your budget for this 
activity is essentially flat.
    How can you achieve improvements in meeting your third mission 
goal--enforcing and administering our immigration laws--if your budget 
request remains flat for a third year in a row? How does the 
administration define ``detention reform'' and what specific programs, 
changes, and other activities does the administration are directed to 
implement detention reform? What specific increases in the ICE budget 
does the administration count as meeting the planned detention reforms?
    Answer. The fiscal year 2012 budget request includes the resources 
necessary to meet U.S. Immigration and Customs Enforcement's (ICE) 
detention and removal goals, including detention reform. In order to 
make the most efficient use of taxpayer resources, ICE is seeking 
efficiencies in detention and removal through targeted efforts that 
allow ICE to use its resources as efficiently and effectively as 
possible. These efficiencies include the suspension of detention 
operations at costly facilities, converting contractors to Federal 
staff where this will improve service and cut costs, and reducing the 
average length of stay to allow more detainees to be removed using the 
same number of beds.
    Detention reforms facilitate the detention of individual aliens in 
settings commensurate with factors such as threat to the community, 
criminal history, risk of flight, immigration status, stage in the 
removal process, and medical and mental health. ICE has made 
substantial progress in a number of critical areas, including access to 
family and legal visitation, consolidation of facilities, aligning bed 
space with apprehensions, reducing transfers, improving medical 
delivery, reducing costs, and developing safe and secure civil 
detention principles. The following reflect accomplishments and 
continuing work on detention reform:
  --Established an Office of Detention Policy and Planning (ODPP) to 
        plan and design a detention system better tailored to ICE's 
        needs and reforms.
  --Consolidated the number of facilities at which ICE detains 
        individuals from 341 to 270 based on state-of-the-art 
        forecasting tools.
  --Developed a procurement plan to ensure that future bed space is 
        aligned with apprehensions, thus limiting the need for 
        transfers and ensuring detainees remain closer to their 
        families and attorneys.
  --Launched the online detainee locator system, a public, easy to use 
        Internet-based tool designed to assist family members, 
        attorneys and other interested parties in locating detained 
        aliens in ICE custody.
  --Hired and trained 42 full-time equivalent detention service 
        managers to monitor conditions at detention facilities, which 
        house 85 percent of the detained population.
  --Improved medical services by simplifying the process for the 
        delivery and auditing of authorized healthcare treatments.
  --Initiated the creation of a new civil detention facility in Karnes 
        County, Texas, through an intergovernmental service agreement, 
        incorporating new civil detention principles.
  --Opened two new facilities in Orange County, California, to reduce 
        the number, costs, and deportation delays associated with 
        detainee transfers.
  --Formed two advisory groups of local and national organizations that 
        are stakeholders in the immigration detention system to provide 
        feedback and input to the ICE Director.
  --Established an ICE Office of Detention Oversight (ODO) within the 
        Office of Professional Responsibility (OPR). ODO has regional 
        offices to ensure agents and personnel have more ready access 
        to facilities to conduct routine and random inspections more 
        frequently.
  --Evaluated and initiated procurements for securing new detention bed 
        space where it is needed most.
  --Designed and tested a new detainee intake risk assessment process 
        to provide transparency and uniformity in the detention and 
        classification processes to ensure the prioritization of 
        detention resources.
  --Drafted a policy to reduce out-of-region transfers of detainees who 
        have community ties or attorneys of record.
  --Drafted revised performance-based national detention standards, in 
        collaboration with members of the Assistant Secretary's 
        Detention Advisory Group, which detail guidelines for the 
        custody and care of ICE detainees.
    ICE is committed to instituting detention reform in a fiscally 
responsible manner that represents the most efficient use of taxpayer 
resources.
                          worksite enforcement
    Question. The administration claims that significant strides have 
been taken in the past 2 years to increase worksite enforcement 
efforts. These have focused almost exclusively on the so-called I-9 
(employment form) document inspections. While it is important to target 
and take punitive legal action against unscrupulous employers who 
knowingly hire illegal aliens, this is largely a paper-based 
enforcement process. In many cases, the employers claim innocence and 
fire the undocumented workers. But as one employer commented to the 
media during the recent investigations of a national fast food 
company's hiring practices, ``The illegal workers just go down the 
street and get a job at the next food place.'' In order to ensure that 
enforcement serves as a deterrent, the administration must also take 
action against the illegal workers as well as those who seek to 
knowingly employ them.
    Please describe the I-9 process. For the record, please describe 
the difference between a criminal and administrative arrest in the 
context of worksite enforcement. How many of each occurred in fiscal 
years 20062010, and how many are estimated to occur in fiscal years 
2011 and 2012? How many employers received jail time/sentences as a 
result of these actions in each of these fiscal years? How many workers 
were removed or otherwise left the country as a result of these actions 
in each of these fiscal years (estimates, if necessary). How much in 
fines was collected as a result of these actions in each of these 
fiscal years? For fiscal year 2010, the Congress directed ICE to 
achieve a level of worksite enforcement effort of $134 million. Is it 
ICE's intention to meet this goal in fiscal year 2011 as well? Please 
describe how the agents achieve this level of effort?
    Answer. [Follows:]
Form I-9 Inspection Overview
    Section 274A(b) of the Immigration and Nationality Act (INA), 
codified in 8 U.S.C. Sec. 1324a (b), requires employers to verify the 
identity and employment eligibility of all individuals hired in the 
United States after November 6, 1986. 8 C.F.R. Sec. 274a.2 designates 
the Employment Eligibility Verification Form I-9 (Form I-9) as the 
means of documenting this verification. Employers are required by law 
to maintain for inspection original Forms I-9 for all current 
employees. In the case of former employees, retention of Forms I-9 are 
required for a period of at least 3 years from the date of hire or 1 
year after the employee is no longer employed, whichever is longer.
    The administrative inspection process is initiated by the service 
of a Notice of Inspection (NOI) upon an employer resulting in the 
facilitation of Forms I-9 to ICE officials. ICE typically will allow 
the employer 3 business days to present the Forms I-9. Often, ICE will 
request the employer provide supporting documentation, which may 
include a copy of the payroll, list of current employees, Articles of 
Incorporation, and business licenses.
    ICE agents or auditors then conduct an inspection of the Forms I-9 
for compliance. When technical or procedural violations are found, an 
employer is given 10 business days to make corrections. An employer may 
receive a monetary fine for all substantive and uncorrected technical 
violations.
    Employers determined to have knowingly hired or continued to employ 
unauthorized workers will be required to cease the unlawful activity, 
may be fined, and may be prosecuted criminally. Additionally, an 
employer found to have knowingly hired or continued to employ 
unauthorized workers may be subject to debarment by ICE, meaning that 
the employer will be prevented from participating in future Federal 
contracts and from receiving other Government benefits. Monetary 
penalties for knowingly hire and continuing to employ violations range 
from $375 to $16,000 per violation, with repeat offenders receiving 
penalties at the higher end. Penalties for substantive violations, 
including the failure to produce a Form I-9, range from $110 to $1,100 
per violation. In determining penalty amounts, ICE considers five 
factors: the size of the business, good faith effort to comply, 
seriousness of violation, whether the violation involved unauthorized 
workers, and history of previous violations. ICE will notify the 
audited party, in writing, of the results of the inspection once 
completed.
    In instances where a Notice of Intent to Fine (NIF) is served, 
charging documents will be provided specifying the violations committed 
by the employer. The employer has the opportunity to either negotiate a 
settlement with ICE or request a hearing before the Office of the Chief 
Administrative Hearing Officer (OCAHO) within 30 days of receipt of the 
NIF. If the employer takes no action after receiving a NIF, ICE will 
issue a Final Order. If a hearing is requested, OCAHO assigns the case 
to an Administrative Law Judge (ALJ), and sends all parties a copy of a 
Notice of Hearing and Government's complaint, thus setting the 
adjudicative process in motion.
    The Notice of Hearing spells out the procedural requirements for 
answering the complaint and the potential consequences of failure to 
file a timely response. Many OCAHO cases never reach the evidentiary 
hearing stage because the parties either reach a settlement, subject to 
the approval of the ALJ, or the ALJ reaches a decision on the merits 
through dispositive prehearing rulings. Employers determined to have 
knowingly hire or continuing to employ violations shall be required to 
cease the unlawful activity and may be fined.
Employer Arrests
    ICE tracks criminal arrests of employers (inclusive of managers, 
supervisors, and owners) for worksite enforcement related crimes:
  --Fiscal year 2010 = 196 criminally arrested.
  --Fiscal year 2009 = 114 criminally arrested.
  --Fiscal year 2008 = 135 criminally arrested.
  --Fiscal year 2007 = 92 criminally arrested.
  --Fiscal year 2006 = 110 criminally arrested.
    In fiscal year 2010, ICE's Office of Homeland Security 
Investigations (HSI) arrested 196 employers for worksite related 
crimes. As of February 8, 2011:
  --42 were sentenced to prison. Sentences ranged from time served to 
        42 months.
  --Note: 125 cases are still pending a disposition.
    DHS defers to the Department of Justice to answer jail time/
sentences prior to fiscal year 2010, as criminal sentencing falls under 
the auspices of the U.S. Attorneys' Offices and ICE did not track 
sentencing of worksite enforcement violators prior to fiscal year 2010.
Removals
    ICE does not track the specific number of illegal aliens removed as 
a result of being identified during a worksite enforcement operations. 
Due to the complexity of analyzing the data--hand tabulation and 
manually crosschecking against several unique law enforcement 
databases--identifying the removals that resulted from worksite 
enforcement actions is not available to be included in this response.
Fines Collected
    Civil fines resulting from Form I-9 inspections (the final judgment 
is referred to as a Final Order).
  --Fiscal year 2010 = 237 Final Orders $6,956,026.
  --Fiscal year 2009 = 52 Final Orders $1,033,291.
  --Fiscal year 2008 = 18 Final Orders $675,209.
  --Fiscal year 2007 = 2 Final Orders $26,560.
  --Fiscal year 2006 = 0.
    Criminal investigations worked in coordination with the Department 
of Justice, (worksite judicial fines, forfeitures, or restitutions).
  --Fiscal year 2010 = $36,611,320.
  --Fiscal year 2009 = $32,578,945.
  --Fiscal year 2008 = $21,978,917.
  --Fiscal year 2007 = $31,426,443.
  --Fiscal year 2006 = $233,044.
Worksite Enforcement
    Since January 2009, ICE has audited more than 4,600 employers 
suspected of hiring illegal labor, debarred more than 315 companies and 
individuals, and imposed approximately $59 million in financial 
sanctions--more than the total amount of audits and debarments than 
during the entire previous administration.
    ICE expended $127,436,000 for worksite enforcement related 
investigations in fiscal year 2010. ICE is projecting for fiscal year 
2011 it will expend approximately $135.2 million. ICE has communicated 
to the field that worksite enforcement is a high investigative priority 
for fiscal year 2011.
          transportation security administration--screener cap
    Question. The House passed a continuing resolution for fiscal year 
2011 includes a provision that would limit the number of TSA screeners 
at 46,000 full-time equivalent screeners. The budget request for fiscal 
year 2012 includes 48,537 full-time equivalent screeners, not including 
managers. How would this cap limit TSA's ability to provide security at 
airports? Explain how advances in technology have allowed screener 
resources to be used more efficiently. Please quantify how screeners 
have been reassigned to other security duties as a result of these 
efficiency gains.
    Answer. The continuing resolution for fiscal year 2011 contains a 
provision limiting the number of full-time equivalents and does not 
include part-time personnel. Since TSA employs a substantial number of 
part-time personnel, its fiscal year 2012 budget request for additional 
Transportation Security Officers (TSOs) to staff advanced imaging 
technology machines will not be affected. Future growth of full-time 
personnel may be limited because of the cap, thus restricting TSA's 
options to reduce attrition and improve the workforce.
    Advances in technology most often result in improved effectiveness 
of the TSOs more so than improved efficiency. One area that TSA has 
seen improvements in effectiveness and efficiency is the installation 
of inline baggage screening systems. Inline explosive detection systems 
are the main technology used in the checked baggage screening process. 
This equipment automates what was previously a manually intensive 
baggage inspection, allowing faster bag throughput (up to 300 percent) 
and improved threat detection capabilities. These savings have been 
used to fund other security initiatives and have been considered in the 
budget request.
    The below reflects examples of other security initiatives that 
efficiency savings have been applied as of fiscal year 2010:

------------------------------------------------------------------------
                                                                Percent
                                           Total      Self-      of FTE
                                          budgeted    funded     self-
                                            FTE        FTE       funded
------------------------------------------------------------------------
Travel Document Checker................      2,001      1,086         54
Target Random Security Plays...........      1,654        904         55
Behavior Detection Officers............      2,986      2,326         78
Bomb Appraisal Officers................        352        297         84
                                        --------------------------------
      Total............................      6,993      4,613         66
------------------------------------------------------------------------

                      automated target recognition
    Question. TSA has a delicate balance to maintain when it comes to 
security and maintaining the privacy of passengers. According to TSA, 
the Advanced Imaging Technology (AIT) units being deployed to airports 
across the country are the most effective passenger screening 
technology currently available because they can detect metallic and 
nonmetallic threats. However, the images these machines produce of the 
human body are revealing. TSA is testing a software upgrade to the AIT 
machines, called Automated Target Recognition, that would do away with 
the more revealing image and replace it with a generic outline of a 
person. How is this testing progressing and when do you expect this 
software to be deployed to airports? TSA's budget request includes 
funding for 275 additional AIT units in fiscal year 2012 for a total of 
1,275. What percentage of passengers will be screened by AIT if the 
request is funded?
    Answer. Automatic Target Recognition (ATR) is currently being 
tested at Las Vegas McCarran International Airport (LAS), Ronald Reagan 
National Airport (DCA), and Hartsfield-Jackson Atlanta International 
Airport (ATL). This testing allows TSA to ensure the new software 
continues to provide a high level of security, while further enhancing 
privacy protections. By the end of fiscal year 2012, TSA estimates that 
1,275 AITs will be deployed.
                              baggage fees
    Question. In recent years, airlines began to charge fees for 
services that did not previously exist, such as charges for checked 
baggage. As a result of the new checked baggage fees, more passengers 
are opting to carry their bags onboard the aircraft causing a strain on 
security operations at airport checkpoints.
    When you testified before the subcommittee, you mentioned that the 
cost of additional staffing and equipment required to handle the 
increase in carry-on bags is approximately $260 million annually. I 
asked if you thought the airlines should help defray the additional 
security costs associated with their baggage fees. You responded by 
saying passenger security fees needed to be adjusted upward. What is 
your position on whether the airlines should help defray the additional 
security costs associated with their baggage fees? Without adding more 
staff and equipment to handle the increase in carry-on bags, will wait 
times increase because of the baggage fees?
    Answer. TSA agrees that increased aviation security costs should 
not be paid solely by air travelers. When TSA was created, the Congress 
authorized the establishment of two separate security fees to fund the 
Federal aviation security costs. One fee was to be paid by air 
passengers and the other paid by air carriers.
    The September 11th Security Fee (Passenger Fee), to be paid by air 
passengers, was authorized by the Congress to not exceed $2.50 per 
enplanement. The revenue generated from this security fee was intended 
to offset the Federal cost for passenger and property screening. To the 
extent that revenue derived from the Passenger Fee was not sufficient 
to cover the Federal cost of passenger and property screening, the 
Congress authorized the collection of a second security fee to be paid 
by air carriers.
    The Aviation Security Infrastructure Fee (Carrier Fee) was 
authorized in an amount not to exceed the costs air carriers incurred 
for passenger and property screening in calendar year 2000. That exact 
cost total, which TSA originally estimated at $750 million, has been 
the subject of much debate and multiple legal proceedings. After an 
April 2005 Government Accountability Office review of the costs in 
question, TSA established the overall cap of the Carrier Fee at $448 
million. The Congress then made this TSA determination subject to 
judicial review. TSA is still working through the United States Court 
of Appeals for the District of Columbia Circuit to achieve a final 
resolution of the overall Air Carrier Fee industry cap that currently 
stands at $420 million.
    With respect to adjusting the Air Carrier Fee, it is clear that the 
aviation security enhancements implemented by the TSA since 2001 have 
made commercial air travel safer for passengers, air carriers and the 
United States in general. Further, TSA has seen a notable change in 
carryon baggage volume--increasing checkpoint requirements and 
processing times--since baggage fees were introduced by air carriers. 
Under TSA's current staffing model, wait times will likely increase and 
remain above historical levels that were achieved prior to airline 
baggage fees. This air carrier action could result in growing passenger 
wait times and larger concentrations of passengers waiting at 
checkpoint. To sustain passenger throughput, TSA would need to divert 
resources from other important security layers or add new personnel to 
open lanes faster and keep them open longer. TSA has taken some steps 
to assist in managing wait times. TSA estimates it would cost 
approximately $260 million in additional resources to support passenger 
throughput rates and not detract from other security programs.
                           dhs fee proposals
    Question. The President's budget proposes that the Appropriations 
Committee increase aviation security fees on airline passengers by $590 
million and border inspection fees by $110 million. Both of these are 
legislative matters under the jurisdiction of other committees.
    Your entire $459 million proposed increase for TSA and $55 million 
of your Customs and Border Protection budget are predicated on our 
approving these requests.
    If the House fails to include these fee increases in their bill, 
our entire bill would be out of order on the Senate floor if we 
approved them. The border inspection fee could result in our bill being 
blue-slipped in the House.
    This is a high-risk strategy to support needed security 
improvements, such as additional Advanced Imaging Technology machines 
at our airports and improved passenger and cargo inspections on our 
borders.
    What specific steps are you taking to get the House and Senate 
authorizing committees to request that the House and Senate 
appropriations subcommittees to approve these legislative proposals?
    If the authorizing committees object to our approving these changes 
in law, will you modify your budget requests to either provide more 
funding or identify proposed cuts?
    Please submit for the record the letters written to the committees 
of jurisdiction requesting the legislative changes for these requests.
    Answer. The President's budget request includes closely related 
fiscal and policy matters for the Congress's consideration, and the 
Department looks forward to working with the Congress to provide 
funding to meet these important security needs.
    I fully appreciate the constraints of the current fiscal 
environment, and it is precisely because of the current economic 
situation that nothing should be left off the table to fund the 
Department's critical frontline operations. While airlines have 
increased fees across the board--from checked baggage and extra leg 
room to refreshments, we have never adjusted how we fund security 
measures to protect the traveling public.
    Despite the Congress's original intent that the Security Fee covers 
nearly all costs related to passenger and property screening, the fee 
currently offsets less than one-third of the total cost of aviation 
security. At the same time, costs of security have continued to 
increase. In 2000, it cost less than $1 to screen each passenger. In 
fiscal year 2010, the average cost for TSA to screen a passenger and 
baggage has increased to nearly $9, in part to airline imposed checked 
baggage fees that have resulted in TSA screening 56 million additional 
carry-on bags at airport checkpoints annually.
    As such, I have personally discussed with members of congressional 
authorizing committees the request to permit DHS to increase the 
Security Fee, and the Department will continue this outreach. The 
Department will also continue to engage members of the authorizing 
committees on all legislative provisions necessary to support the 
budget request to ensure passage of stand alone legislation or to help 
secure support for provisions which may be carried in appropriations 
measures, whichever occurs first.
    With regard to the proposed CBP fee change, the country exemptions 
currently in place for Mexico, Canada, and the Caribbean cost the 
Government $110 million annually in user fees that would otherwise be 
collected for customs inspections at the border. While travelers from 
other countries are subject to this fee, the costs of processing the 
travelers coming from Mexico, Canada, and the Caribbean are subsidized 
by United States taxpayers. CBP's budget assumes elimination of these 
exemptions by the third quarter of fiscal year 2012, equating to $55 
million in fiscal year 2012 (half-year cost).
                     aviation security capital fund
    Question. The request includes a legislative proposal to alter the 
manner in which offsetting collections from the Aviation Security 
Capital Fund are allocated. Has the Department made a request to the 
subcommittee with jurisdiction over this matter? If so, please submit 
the request for the record. The language states that the funds ``may be 
distributed in any manner deemed necessary to ensure aviation 
security.'' Would any of these funds be used for purposes other than 
checked baggage security? Please be more specific on how the funds 
would be distributed to support aviation security in fiscal year 2012. 
What is the impact of not receiving this language adjustment in fiscal 
year 2012?
    Answer. The Department's request for this legislative proposal to 
provide the Department with the required flexibility to sustain current 
security measures and adapt to emerging threats was transmitted to each 
committee with oversight of DHS along with the fiscal year 2012 
President's budget request. Due to the importance of this proposal, I 
have had discussions with members of the authorizing committees and 
representatives of the Department's Office of the Chief Financial 
Officer have briefed committee staff on the request to permit the 
Department to increase the Security Fee. We will continue to engage 
members of the authorizing committees on all legislative provisions 
necessary to support the budget request as long as necessary to ensure 
passage of stand alone legislation or to help secure support for 
provisions which may be carried in appropriations measures, whichever 
occurs first.
    The current law requires that the first $250 million derived from 
passenger and air carrier security fees in each of the fiscal years 
2004 through 2028 be deposited in an Aviation Security Capital Fund 
(ASCF) to be available for grants to airport sponsors for airport 
security improvement projects such as facility modifications. The 
language currently does not allow for the procurement and installation 
of EDS equipment for the security improvement projects. The legislative 
proposal included in the fiscal year 2012 budget request would permit 
approximately $125 million of the ASCF to support the recapitalization 
and deployment of state-of-the-art EDS for checked baggage to 
efficiently screen baggage for explosives, reducing the number of 
rescans and physical bag searches. The remaining $125 million would be 
used for airport facility modification projects. The current notional 
plan is summarized in the following table:

                BREAKDOWN OF PLANNED ACSF OBLIGATIONS \1\
                          [Dollars in millions]
------------------------------------------------------------------------
                      Projects/equipment                         Amount
------------------------------------------------------------------------
Medium Speed EDS Purchase....................................         94
Medium Speed EDS Installation................................         31
Facility Modifications.......................................        125
                                                              ----------
      Total..................................................        250
------------------------------------------------------------------------
\1\ Numbers based on notional plans as of 2/9/11 and are subject to
  change.

    By 2013, nearly one-half of the 2,000 EDS units deployed nationwide 
will have exceeded their planned 10-year service life. Limiting TSA's 
ability to purchase and install equipment as needed could increase the 
risk of equipment failure and lead to increased delays at airports due 
to the need to rescan baggage and conduct physical bag searches.
                      explosives detection systems
    Question. The request states that of the 2,000 explosives detection 
system units currently deployed nationwide, almost one-half will have 
reached the end of their useful life of 10 years by 2013. How much of 
the $273 million discretionary request for explosives detection systems 
would be used for this purpose in fiscal year 2012. How many machines 
would be replaced? If the legislative proposal to adjust the manner in 
which offsetting collections from the Aviation Security Capital Fund 
are allocated is approved, how much of the $250 million would be used 
for this purpose in fiscal year 2012. How many machines would be 
replaced?
    Answer. Of the $273 million in discretionary funding requested in 
fiscal year 2012, TSA would use $14 million to replace 26 reduced size 
explosives detection system (EDS) units that have reached the end of 
their useful life. With approval of the Aviation Security Capital Fund 
(ASCF) legislative proposal, TSA would use $125 million of the $250 
million fund to replace the 63 medium speed EDS units that have reached 
the end of their useful life.
    The remaining $259 million of the EDS discretionary funds would be 
used for the following manner:
  --$130 million for the purchase and installation equipment for 
        facility modifications that have already been executed or plan 
        to be executed in fiscal year 2012.
  --$129 million for technology and engineering (T&E) initiatives and 
        program operations and management (PO&M) support, which 
        includes $40 million for testing and engineering support; $24 
        million for program support to include warehouse leasing and 
        TSIF operations; $18 million to support cargo and surface; and 
        $19 million for Federal personnel compensation and benefits.
    If the legislative proposal is not adopted TSA's recapitalization 
of equipment would be delayed.
    Question. The budget request indicates that 55 of the top 85 
airports had optimal checked baggage screening systems throughout the 
entire airport and another 22 have optimal screening systems in some 
part of the airport. With the $523 million in discretionary and 
mandatory funds requested in 2012, how will these figures change? When 
does TSA estimate having optimal systems at all 85 airports? What are 
the main drivers preventing completion of systems at the remaining 
airports?
    Answer. Given that more than two-thirds of the explosives detection 
systems (EDS) in the field will reach the end of their useful life in 
the next 5 years, TSA has shifted its priorities from completing 
optimal systems to the recapitalization of the aging EDS fleet. The 
$523 million in fiscal year 2012 funding and prior year carryover funds 
will primarily be used to accommodate airport growth, recapitalization 
and/or optimization of existing equipment at multiple airports. Optimal 
systems are expected to be completed at two additional category X and I 
airports with fiscal year 2012 and prior year funds.
                      behavior detection officers
    Question. The request includes funding for an additional 350 
Behavior Detection Officers (BDOs). The Government Accountability 
Office (GAO) released a critical report on this program in 2010. Please 
explain the steps TSA has taken to address the concerns raised by GAO.
    Answer. TSA's BDOs are an important layer of aviation security. 
Screening Passengers by Observation Techniques (SPOT) builds on and is 
based on other established, successful behavioral analysis programs 
that have been employed by law enforcement and security personnel both 
in the United States and around the world. The Department of Homeland 
Security's (DHS) Science and Technology Directorate (S&T) led a 
comprehensive study to validate the validity of TSA's SPOT Referral 
Report. Data collection was completed by TSA in late 2010 and provided 
to the American Institutes for Research for analysis and reporting. The 
validation study report is undergoing final review and S&T testified 
before the House Science, Space, and Technology Committee, Subcommittee 
on Investigations and Oversight on this topic on April 6. Preliminary 
briefings on the validation study data indicated that SPOT identifies 
high-risk travelers at a significantly higher rate than random 
selection.
    Additionally, TSA's risk analysis of SPOT indicates that the 
program can be effective in multiple threat scenarios and expanding the 
SPOT program increases TSA's ability to adapt to evolving threats. S&T 
completed a preliminary study on suicide bomber indicators in July 2009 
that illustrates overlap between some operationally reported suicide 
bomber indicators and certain TSA SPOT behaviors. As such, SPOT 
represents the best practices from defense, intelligence, and law 
enforcement organizations.
    TSA also began piloting SPOT refresher training for BDOs in March 
2011 and plans to deploy this training to all BDOs during fiscal year 
2011 and fiscal year 2012.
                          screening procedures
    Question. The Administrator has said publicly that he intends to 
introduce new screening measures this year that would be different than 
the ``one size fits all'' approach. Does the fiscal year 2012 budget 
request account for these changes? Please explain in more detail how 
this new screening process will work and the schedule to implement it.
    Answer. TSA will introduce new risk-based screening procedures and 
enhance current technology for passenger screening as it continually 
evolves its layered approach to transportation security. TSA is 
exploring the possibility of piloting these concepts later this year. 
The fiscal year 2012 budget request will not require adjustment to 
incorporate additional risk-based screening principles.
                          checkpoint security
    Question. TSA is in the process of updated its checkpoint security 
strategic plan. What is the timeline for its completion?
    Answer. TSA anticipates completing the updated Passenger Screening 
Program Strategic Plan by summer 2011.
                    civil rights and civil liberties
    Question. What is the funding level and associated staffing for 
TSA's Office for Civil Rights and Civil Liberties? Describe TSA's 
coordination with the Department's Office for Civil Rights and Civil 
Liberties? How many civil rights and civil liberties investigations did 
TSA conduct in 2010? How many of those investigations were conducted 
jointly with the Department Office for Civil Rights and Civil 
Liberties? What training standards must a TSO meet with regard to civil 
rights and civil liberties?
    Answer. The fiscal year 2011 budget includes $8.7 million total 
funding for TSA's Office of Civil Rights and Civil Liberties (OCRL) 
which demonstrates our commitment to ensuring the traveling public's 
civil rights and civil liberties are protected throughout the screening 
process. The TSA OCRL coordinates closely with DHS CRCL to address 
concerns and complaints of the traveling public through meetings with 
community groups, employee training, policy reviews, and investigations 
into traveler complaints. In fiscal year 2010, TSA conducted 217 
internal investigations and 42 external investigations. There were no 
investigations conducted jointly in fiscal year 2010 by the Department 
and TSA. To date in fiscal year 2011, there are four joint 
investigations open. TSOs must complete training annually focusing on 
cultural awareness, civil rights and civil liberties. Additionally, No 
FEAR Act Training must be completed within 90 days of entering service. 
This training is required pursuant to the Notification and Federal 
Employee Antidiscrimination and Retaliation Act of 2002 and provides an 
overview of Federal antidiscrimination and whistleblower protection 
laws. This training regimen is repeated every 2 years.
                          tsa internal affairs
    Question. How many people are in TSA's internal affairs office? Is 
TSA adding new positions in fiscal year 2011? Are any new positions 
requested in the President's budget for fiscal year 2012? Is TSA 
creating an Office of Professional Responsibility? What role will this 
office serve? How is TSA funding this effort and how many people will 
staff the office?
    Answer. TSA currently has 130 personnel that conduct internal 
investigations in the Office of Inspection (OOI). Under the proposed 
fiscal year 2011 continuing resolution, no new positions will be funded 
and there are no new positions requested for the OOI in the fiscal year 
2012 President's budget.
    TSA established the Office of Professional Responsibility (OPR) in 
the fall of 2010 to provide greater consistency in misconduct penalty 
determinations and a more expeditious and standardized adjudication 
process. Through a combination of adjudication and oversight, OPR 
ensures that discipline is appropriate and fair for all TSA employees, 
regardless of the assignment or seniority of the employee involved.
    In addition, to promote consistency, TSA is transferring to OPR 
from the Disciplinary Review Board (DRB) the responsibility for 
resolving TSO's appeals of adverse actions, including suspensions of 15 
days or greater, removal, or reduction in pay band or basic rate of 
pay. This will preserve the rights of TSOs to appeal actions taken by 
management while enabling OPR to ensure that discipline is consistent 
across the board, from senior-level officials to TSOs.
    TSA is funding OPR from within existing sources. OPR has 15 
positions that are being filled through a combination of vacancy 
announcements and internal detail opportunities. OPR is also absorbing 
four positions from the Disciplinary Review Board, for a total of 19 
OPR positions.
                         surface transportation
    Question. How much of TSA's surface transportation appropriation is 
dedicated to each surface transportation mode for fiscal year 2011 
compared to the fiscal year 2012 estimate?
    Answer. Under the funding that is currently available, the TSA 
surface transportation appropriation is dedicated to each surface mode 
in the following ways: 28 percent to Surface Inspectors and Program 
Oversight; 25 percent to Visible Intermodal Prevention and Response 
Teams; 13 percent to Freight Rail and Pipeline; 12 percent to Ports 
(Maritime) and Intermodal Security; 11 percent to Highway and Motor 
Carrier; 8 percent to Mass Transit; and 3 percent to other services. 
The fiscal year 2012 President's budget request includes $134.7 million 
to support TSA's surface transportation efforts and also includes $300 
million for the Transit Security Grant Program (TSGP) to support State 
and local surface transportation efforts. TSA will allocate the funding 
to each surface transportation mode based on current security efforts 
to reduce risk once the funds have been appropriated.
    Question. How much of TSA's budget in fiscal year 2010 and fiscal 
year 2011 was dedicated to mass transit enhanced screening? Where the 
pilots successful? Does TSA have plans to continue the pilots? Does the 
fiscal year 2012 budget include funding for this purpose?
    Answer. In fiscal year 2010, the Congress provided TSA $25 million 
for partial year funding to stand-up an additional 15 visible 
intermodal prevention and response (VIPR) teams for dedicated surface 
transportation operations. This was in addition to TSA's 10 multimodal 
VIPR teams already operational. During fiscal year 2010, approximately 
51 percent of TSA's VIPR resources were spent conducting operations in 
the surface modes of transportation, which equates to approximately $22 
million. The primary objective of VIPR operations is to prevent acts of 
terrorism through the exercise of random, unpredictable security asset 
deployments in all modes of transportation and this may include mass 
transit enhanced screening.
    In fiscal year 2010, TSA entered into an agreement with New York 
City to conduct pilot or proof of concept operations with New York City 
law enforcement for mass transit screening. This effort involved 
approximately 35 TSA TSOs teamed with New York City law enforcement 
officers operating in shifts with approximately 3 TSOs. This proof of 
concept was successful in terms of demonstrating the ability to work 
together in teams and build expertise in the environment to allow for 
improved security in response to specific threats requiring surge 
operations or in response operations. TSA has no plans to continue or 
expand this proof of concept.
    Such efforts will continue to be supported by other TSA surface 
transportation initiatives, including the additional VIPR teams and 
funding available through the TSGP, which supports local efforts to 
conduct enhanced screening. Such physical screening can be conducted as 
necessary by applicable State, local, or private personnel with 
equipment available through the TSGP (e.g., explosives trace detection 
equipment).
    The fiscal year 2012 budget request seeks funding for 12 new multi-
modal VIPR teams. With these additional teams, the VIPR program 
anticipates an increase in tempo for a total number of 11,500 
operations to be conducted annually beginning with fiscal year 2013. 
These operations would be conducted throughout the transportation 
sector to deter potential terrorist acts.
                          federal air marshals
    Question. Please provide the most recent definitions of high-risk 
flight categories for flights covered by Federal Air Marshals (FAMs). 
Are these definitions being revised, and if so, how will the changes 
impact the deployment of FAMs.
    On March 8, 2011, the Department submitted a report on Federal Air 
Marshals (FAMS) long-term staffing levels in response to a fiscal year 
2010 congressional requirement in the joint explanatory statement 
accompanying the fiscal year 2010 DHS Appropriations Act. The report 
failed to address the congressional requirements for a long-term 
staffing plan and pointed to an assessment TSA will undertake to review 
FAMS risk-level definitions in order to inform an assessment of the 
long-term staffing needs of the FAMS. When will this assessment be 
completed? The results of this assessment and associated staffing 
impacts are to be supplied to the subcommittee expeditiously.
    Answer. The TSA has commenced a review of FAMS risk-level 
definitions, which will be provided to the subcommittee upon its 
completion. The review will inform any decisions pertaining to the 
long-term staffing levels needed in the future.
                  coast guard--administrative savings
    Question. The fiscal year 2012 request for the Coast Guard's 
operating budget includes a reduction of $83.5 million as part of the 
Department's Administrative Savings Initiative. When you read the fine 
print, the Coast Guard's budget states that these cuts ``do not come 
without impact to readiness and operations.'' The Coast Guard is 
already facing readiness challenges and operational shortfalls. How are 
these cuts prudent? Can you provide more specifics on how these cuts 
will impact readiness and operations?
    Answer. The Coast Guard's fiscal year 2012 budget leverages savings 
generated through management efficiencies and offsets to prioritize 
front-line operations and investments in vital recapitalization 
projects. The Coast Guard will not reduce front-line operations to 
achieve these savings. The fiscal year 2012 budget request addresses 
the long-term recapitalization needs of the Coast Guard and expands its 
operational capacity by funding 50,682 military and civilian positions, 
including additional personnel focused on strengthening Marine Safety 
inspections and investigations as well as a new Incident Management 
Assistance Team, which will be deployed rapidly to support large-scale 
emergencies.
              impact of 2010 coast guard surge operations
    Question. In 2010, the Coast Guard's operational budget was 
stretched with two significant surge operations, the Haiti earthquake 
and Deepwater Horizon Oil Spill. Given the size of these surge 
operations, what was the impact on spending for other priorities? What 
was deferred or eliminated to pay for these response efforts?
    Answer. The Coast Guard allocates its multi-mission assets to the 
Nation's highest order needs. In the cases of the operational responses 
to the Haiti earthquake and Deepwater Horizon Oil Spill, assets were 
diverted from other lower priority mission assignments at the time to 
provide the initial search and rescue response and long-term mission 
support for the disasters.
    The Supplemental Appropriations Act, 2010 (Public Law 111-212) 
provided $50 million in operating expenses for the Coast Guard related 
to expenses for disaster response activities for the Haiti earthquake. 
The funding provided relief to the Coast Guard for operating and 
personnel costs expended for the response.
    For the BP Deepwater Horizon Oil Spill, the Coast Guard's direct 
costs, including supplies purchased for the spill, contractors hired, 
travel orders, and reservist pay and benefits were reimbursed from the 
Oil Spill Liability Trust Fund (OSLTF) Emergency Fund and the Fund 
recovered those costs from the Responsible Party. Consistent with Coast 
Guard's multi-mission responsibilities, costs to operate assets 
diverted from regular operations to the oil spill response were funded 
by regular appropriations. Due to the unusually long engagement period 
for response, regular maintenance for some assets was deferred, which 
could result in higher maintenance costs.
                   coast guard asset decommissionings
    Question. Provide a chart of all assets proposed to be 
decommissioned in the fiscal year 2012 budget, including the name and 
location of each asset and timeline for decommissioning.
    Answer. The chart below depicts U.S. Coast Guard assets proposed 
for decommissioning in fiscal year 2012 President's budget.

----------------------------------------------------------------------------------------------------------------
              Asset type                     Vessel name                Homeport           Decommissioning date
----------------------------------------------------------------------------------------------------------------
179-ft Patrol Coastal (WPC) \1\......  USCGC Shamal...........  Pascagoula, Mississippi  WPCs will be returned
                                       USCGC Tornado                                      to the United States
                                       USGCG Zephyr                                       Navy no later than
                                                                                          October 1, 2011.
378-ft high endurance cutter (WHEC)    To be determined.......  To be determined.......  To be determined.
 \2\.
----------------------------------------------------------------------------------------------------------------
\1\ Three vessels are being decommissioned per a signed Memorandum of Agreement with the U.S. Navy in January
  2007.
\2\ The Coast Guard is conducting and updated engineering assessment on the 10 remaining WHECs (2 decommissioned
  in fiscal year 2011) to determine which WHEC will be decommissioned in fiscal year 2012. Factors being
  considered include operational capabilities and effectiveness of the current fleet and existing structural and
  engineering conditions of the ships.

                           polar icebreakers
    Question. The budget request includes $39 million for operations 
and maintenance of the Coast Guard's polar icebreaking fleet. The 
Commandant of the Coast Guard has expressed concern that he doesn't 
have the resources to respond to a major emergency in the Arctic. He 
has publicly stated that funding is needed to repair or replace its two 
heavy icebreakers that are currently out of service. But the Coast 
Guard's budget indicates that one of the Coast Guard's two heavy polar 
icebreakers, the Polar Sea, will be decommissioned in fiscal year 2011. 
The other heavy polar icebreaker, the Polar Star, is not scheduled to 
be reactivated until 2013. Why is the Department planning to 
decommission the Polar Sea when long-term requirements for the polar 
regions have not been determined? If an emergency occurs in the Arctic, 
is the Coast Guard prepared to respond? What other response 
capabilities exist? Has the Coast Guard considered leasing polar 
icebreakers to meet mission requirements?
    Answer. Based on current Federal requirements, maintaining and 
operating one icebreaker (CGC Healy) will allow the Coast Guard to meet 
current operational requirements in the Arctic. Based on the rising 
costs to maintain the polar icebreakers, which have exceeded their life 
expectancy, the current condition of CGC Polar Sea and her limited 
remaining service life, leveraging resources to reactivate CGC Polar 
Star as a backup is the proper course of action until long-term 
requirements decisions are made and capabilities are acquired. The 
fiscal year 2012 budget includes $5 million for an analysis of 
Government-wide icebreaking requirements in the polar regions.
                       deployable security teams
    Question. Section 804 of the fiscal year 2010 Coast Guard 
Authorization Act requires no less than two enhanced deployable 
security teams. The Coast Guard currently has one Maritime Security 
Response Team located in Portsmouth, Virginia. What are the Coast 
Guard's plans to comply with section 804? Has a second location been 
determined?
    Answer. Coast Guard has not determined a location for a second 
enhanced team.
                              canine teams
    Question. What is the Coast Guard doing to comply with section 805 
of the 2010 Coast Guard Authorization Act regarding canine teams? How 
many certified canine teams does the Coast Guard currently have and 
where are they located? Does the Coast Guard have plans to increase 
capacity in fiscal year 2012? If so, what locations will receive 
additional canine teams?
    Answer. There are currently 12 canine teams certified for duty in 
the Coast Guard. The Coast Guard has programmed for 14 canine teams 
that are located in pairs at 7 locations:
  --MSST Seattle, Washington.
  --MSST San Francisco, California.
  --MSST Los Angeles, California.
  --MSST Galveston, Texas.
  --MSST King's Bay, Georgia.
  --MSRT Chesapeake, Virginia.
  --MSST New York, New York.
    MSST's San Francisco and King's Bay currently have one of their two 
teams certified. Expected completion of training and certification for 
the remaining two teams is early calendar year 2012. The Coast Guard 
does not have plans to increase canine capacity beyond these levels in 
fiscal year 2012.
                    marine environmental protection
    Question. Please provide more details on the Coast Guard's 
investment in the National Center of Expertise. How much of the $11.5 
million increase for Marine Environmental Protection is dedicated for 
this purpose? How is the funding for the National Center of Expertise 
allocated in the request, to what organization, and where?
    Answer. The fiscal year 2012 budget request includes funding to 
establish the National Incident Management Assist Team (IMAT). Although 
the National IMAT could be a core component of a future MER National 
Center of Expertise (NCOE), as a stand-alone unit, the National IMAT 
will also significantly enhance the Coast Guard's ability to respond to 
complex, large-scale events in the maritime domain. Specifically, the 
IMAT investment provides dedicated, trained, and experienced personnel 
to directly respond to oil and hazardous substance spill incidents, and 
to support Coast Guard Federal On Scene Coordinators during such 
incidents. They will also provide planning, training, and exercise 
support across the Coast Guard. Through establishment of the IMAT, the 
Coast Guard will improve standardization and proficiency in MER across 
the Coast Guard and its partners.
    The fiscal year 2012 cost of the IMAT enhancement is approximately 
$5.5 million. Of that, approximately $3 million will be budgeted to 
cover personnel expenses associated with 33 full-time positions, and 
$2.5 million will be budgeted for operations and maintenance.
                         port security training
    Question. Describe the process for complying with section 821 of 
the Coast Guard Authorization Act regarding port security training and 
certification.
    Answer. The Coast Guard plans to implement the training provisions 
discussed in section 821 via the rulemaking process, pending the 
Department of Homeland Security's review and approval to the Updates to 
Title 33 Code of Federal Regulations Subchapter H--Maritime Security 
Notice of Proposed Rulemaking (NPRM). The NPRM is scheduled for 
publication in calendar year 2011. Once published, the Final Rule, 
along with clarifying guidance from the Coast Guard, will be the basis 
for third party providers' course development and Quality Standards 
System review and acceptance on behalf of the Coast Guard.
                        coast guard acquisitions
    Question. The budget request includes a significant increase for 
shore facilities improvements when compared to previous requests. The 
Coast Guard estimates that the current backlog of shore facility 
infrastructure improvements is $600 million. Is the entire request 
associated with this backlog?
    Answer. $94.5 million of this request is to support shore facility 
infrastructure modifications and construction associated with the 
delivery of new cutters, boats, and aircraft. The remaining $99,200,000 
of the $193.7 million request for shore facilities, plus the $20 
million requested for military family housing, help address the backlog 
in the prioritized Shore Facility Requirements List.
    Question. The budget proposes to eliminate the Integrated Deepwater 
Construct. Is there a plan for tracking the Coast Guard's ongoing 
acquisition costs in relation to the original Deepwater baseline? If 
so, what assets will be included in the baseline?
    Answer. The fiscal year 2012 President's budget proposes the 
elimination and disaggregation of the Integrated Deepwater System (IDS) 
subappropriation from the Coast Guard's Acquisition, Construction and 
Improvement (AC&I) appropriation. The restructuring of this 
appropriation better enables the service to justify and meet a 
sustainable, stable, and continuous recapitalization program while 
effectively managing cost, schedule, and performance of individual 
asset-based acquisitions. Enacting this proposal will further enhance 
acquisition management and accountability by aligning the 
appropriations structure with how the projects are managed. This 
initiative improves transparency and accountability by establishing a 
stronger linkage between appropriations and specific asset acquisition 
projects, and will better enable the Coast Guard, DHS headquarters, and 
the Congress to monitor cost, schedule and performance of individual 
projects. Finally, disaggregation of the IDS subappropriation will 
improve the efficiency and effectiveness of cross-cutting functions, 
such as systems integration, testing, and performance monitoring, 
enabling uniformity across all acquisition projects. The Coast Guard 
will retain its ability to track to the Deepwater baseline in 
aggregate.
    Question. What is the rationale for changing funding availability 
for all Acquisition, Construction and Improvements appropriations to 5 
years?
    Answer. The Integrated Deepwater System (IDS) appropriation (which 
included ``deepwater'' vessels, aircraft and other equipment), was 
available for 5 years. The proposal to disaggregate the IDS 
subappropriation in fiscal year 2012 is intended to standardize funds 
availability for each of the individual vessel, aircraft, other and 
shore subappropriations, which will ensure consistency in funds 
availability across the entire portfolio of projects, and enhance the 
Coast Guard's ability to maintain project cost, schedule and 
performance goals.
    Specifically, the Coast Guard has increased its use of fixed-price 
contracts for major acquisitions, moving away from cost-reimbursement 
contracts. This change in strategy decreases overall risk to the 
Government, but requires the Coast Guard to set-aside funds for 
antecedent liability (a requirement that does not exist for cost-
reimbursement contracts). The Government Accountability Office's 
Redbook cites that fixed-price contract antecedent liabilities shall be 
funded by the appropriation that funded the original transaction, to 
cover within-scope changes associated with the original contract. The 
amount of unobligated funding (set aside for antecedent liability) can 
be adjusted and reallocated over time as the contract nears completion, 
provided that the funds are used within the scope of the project and 
Congressional intent. The net effect is to avoid the need for 
additional future appropriations by minimizing expired, unused funds. 
Moreover, given the complexity of many of the Coast Guard's vessel, 
shore, aircraft and electronics systems acquisitions, 5-year 
availability is particularly beneficial considering the time it takes 
to design, contract, and deliver these assets.
    Question. Has the Coast Guard spent any of the $45 million 
anticipated for the offshore patrol cutter (OPC) in fiscal year 2011? 
Is it premature to fund another $25 million in fiscal year 2012 if none 
of the fiscal year 2011 money has been obligated? Is the Coast Guard on 
track to release the request for proposal for the preliminary contract 
and design in fiscal year 2011?
    Answer. The offshore patrol cutter (OPC) is a critical aspect of 
the Coast Guard's long-term recapitalization plan. Of the funding made 
available to the OPC project to date under the current series of 
continuing resolutions, $1 million has been obligated. The majority of 
the fiscal year 2011 funding, approximately $36 million, will support 
preliminary and contract designs; the remaining funding will support 
project management activities, acquisition studies and life-cycle cost 
analysis still planned in fiscal year 2011. The fiscal year 2012 budget 
request of $25 million will support the award of Preliminary and 
Contract Design contracts to three industry teams in fiscal year 2012. 
The Coast Guard plans to release a draft Request for Proposal in fiscal 
year 2011.
    Question. Will DHS' requirement for the Coast Guard to conduct a 
verification study of the OPC requirements affect the timeframe for the 
request for proposal?
    Answer. No, the project has proceeded in parallel with the 
verification study of OPC requirements.
    Question. Based on the fiscal year 2012 Capital Improvement Plan 
(CIP), the cost of the OPC is $640 million in fiscal year 2015 and $760 
million in fiscal year 2016. Provide a breakdown of the OPC costs in 
those budget estimates? Why is the second OPC planned to cost $120 
million more than the lead ship?
    Answer. The program amounts shown in the fiscal year 2012-2016 
Capital Investment Plan for the OPC are planning estimates. These 
planning estimates may change as DHS completes the fiscal year HSP.
    Question. In the fiscal year 2011 CIP, the Coast Guard estimated 
the national security cutter's (NSC) completion date as 2016. In this 
year's CIP, the Coast Guard is estimating a completion date of 2018. 
What are the main drivers behind this 2-year delay? To what extent is 
the decision to not request long lead time materials for NSC #6 in 
fiscal year 2012 contributing to this delay? Would there be cost 
savings if long lead time materials were funded in fiscal year 2012? If 
so, provide the estimated savings.
    Answer. The project completion dates shown in the fiscal year 2012-
2016 CIP are estimated for planning purposes, based on best available 
data at the time of budget preparation. The NSC schedule is derived 
from the Deepwater Implementation Plan Review Report to Congress, dated 
May 13, 2010, which contains a more recent assessment of NSC delivery 
schedules, considering actual appropriations and acquisition status to 
the date of the report. One factor in the delay in the NSC acquisition 
was the transition from a cost-plus contract to a fixed-price 
construct. The Coast Guard spent nearly a year negotiating the 
production contract for NSC #4, which was awarded in November 2010. As 
a result of this negotiation and successful transition to a fixed-price 
construct, the Coast Guard believes it is now in a position in which 
future costs are more predictable than they have ever been, which is in 
the best interests of the program and of taxpayers.
    The funding associated with NSC #6 is not required until fiscal 
year 2013.
    Question. At the hearing, you made reference to a letter from the 
Office of Management and Budget that committed funding for NSC #6. 
Please provide the letter for the record.
    Answer. In accordance with the requirements of Public Law 111-83, 
the Coast Guard submits a future-years capital investment plan at the 
time that the President's budget is submitted. This plan, the fiscal 
year 2012-2016 Capital Investment Plan (CIP), was included in the 
fiscal year 2012 Coast Guard Congressional Justification within the 
Acquisition, Construction and Improvements (AC&I) appropriation 
request. The CIP projects planned AC&I funding levels from fiscal year 
2012 through fiscal year 2016 for the program of record for each AC&I 
program, including the NSC program. These estimates are in accordance 
with the latest Department of Homeland Security-approved Acquisition 
Program Baseline. As noted in the CIP footnotes, fiscal year 2013-2016 
funding levels are subject to change based upon adjustment to out-year 
fiscal guidance and finalization of the fiscal year 2012-2016 Future 
Year Homeland Security Program.
    Question. Based on the fiscal year 2012-2016 CIP, the Coast Guard 
is planning the budget for NSC to be $775 million in fiscal year 2013, 
$795 million in fiscal year 2014, and $853 million in fiscal year 2015. 
Provide a breakdown of the NSC costs in those budget estimates? Why are 
NSC costs becoming more expensive for each cutter in the outyears?
    Answer. The program amounts shown in the fiscal year 2012-2016 
Capital Investment Plan are planning estimates and subject to change as 
DHS completes the fiscal year HSP. The following table shows the 
estimated costs used as the basis for NSC projections:

                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                    Fiscal year     Fiscal year          Fiscal year 2015
                                                       2013            2014      -------------------------------
               NSC Cost Categories               --------------------------------
                                                      NSC #6          NSC #7          NSC #8         NSC #1/#2
----------------------------------------------------------------------------------------------------------------
Long Lead Time Materials (LLTM).................             114             119             124  ..............
Production Contract.............................             578             587             598  ..............
Production (Noncontract) and Post Delivery                    83              89              93  ..............
 Activi-  ties..................................
Structural Enhancement (NSC #1 and #2 only).....  ..............  ..............  ..............              38
                                                 ---------------------------------------------------------------
      Total.....................................             775             795             815              38
----------------------------------------------------------------------------------------------------------------

    Assuming the new fixed-price construct, the budget estimates for 
NSCs #6-8 are estimated as the production cost for NSC #4 adjusted for 
inflation. NSC #7 and #8 costs are projected to continue to increase 
due to labor and material inflation and increases in projected overhead 
rates.
    Question. The budget proposes to fund production of both the NSC 
and OPC in fiscal year 2015. Is this a realistic request given the 
current fiscal environment?
    Answer. The Department of Homeland Security is committed to 
recapitalizing the Coast Guard's cutter fleet as quickly as possible 
through the acquisition of NSC and OPC and fast response cutters (FRC).
    Question. The original plan for the NSC included ship-based UAS to 
expand the NSC's coverage capabilities. The Coast Guard's Capital 
Investment Plan for fiscal years 2012-2016 includes no UAS funding. Has 
the Coast Guard abandoned this effort? What over the horizon search 
capabilities does the NSC provide over that of a WHEC without UAS? The 
Coast Guard expected to complete the UAS ``Need Phase'' (Acquisition 
Decision Event-1) in fiscal year 2011. What is the status of this 
effort and, if completed, what were the conclusions from this event?
    Answer. The Department of Homeland Security and the Coast Guard 
remain committed to employing both land and cutter-based UAS to meet 
mission requirements. The Coast Guard is in the preacquisition Need 
Phase of the UAS acquisition, which works to define the problem through 
a mission needs statement and the development of a Concept of 
Operations. In addition, the Coast Guard is currently leveraging prior-
year Research and Development Test and Evaluation funding to continue 
UAS technology demonstration. Further, within the Federal Government, 
the Coast Guard has established formal partnerships with Customs and 
Border Protection to collaborate with their maritime Predator UAS 
(Guardian) program and the Navy's UAS program offices to collaborate on 
the Fire Scout program.
    An NSC without a UAS, relying solely on its organic detection 
equipment and manned aircraft patrols, has a far greater surveillance 
area than that of a high endurance cutter (WHEC). The NSC has the 
following organic surveillance capabilities that exceed those of the 
WHEC:
  --Ability to operate with a HH-60 enabling greater cutter-based 
        surveillance range and on scene time.
  --Ability to deploy and operate with two HH-65 aircraft instead of 
        one from a WHEC.
  --Two over-the-horizon (OTH) small boats instead of one from a WHEC.
  --Three-dimensional capable air search radar instead of WHEC's two 
        dimensional air search radar.
  --Sensitive Compartmentalized Intelligence Facility (SCIF) to improve 
        sensor and intelligence analysis and fusion.
  --Enhanced Electronics Surveillance Measures (ESM).
    Question. Compare the availability of the national security cutters 
(Bertholf/Waesche) to the 12 WHECs in terms of days away from homeport 
(DAHP).
    Answer. The operational target for the WHEC fleet is 185 DAFHP 
annually per cutter. In fiscal year 2010, the WHEC fleet achieved 137 
days away from homeport (DAFHP) primarily as a result of casualties to 
hull and mechanical systems.
    There is not yet substantive DAFHP data for CGC Bertholf and CGC 
Waesche. In fiscal year 2010, both assets spent time in planned inport 
availabilities for Secure Compartmentalized Intelligence Facility 
installations and Ready for Operations preparations. The Coast Guard 
will have operational availability data for CGC Bertholf after it 
completes its first full year of operations in fiscal year 2011 for 
which it is programmed to achieve 185 DAFHP.
    Question. In fiscal year 2010, because of delays in the planned 
delivery of national security cutters, the Congress provided $4 million 
for the Coast Guard to conduct a preacquisition survey and design to 
determine the requirements for a maintenance effectiveness project for 
the Coast Guard's legacy high endurance cutters. What is the status of 
this effort and has any of the $4 million been obligated? What is the 
timeline for completing this effort?
    Answer. A total of $468,819 has been obligated through March 10, 
2011. This funding will be used to adequately assess current WHEC 
material condition, assess requirements of a potential future 
sustainment project and inform decisions pertaining to the WHEC 
decommissioning sequence, and evaluate cutter safety conditions. The 
Coast Guard anticipates it will take approximately 2 years to complete 
this effort.
    Question. The fiscal year 2012 budget includes $129.5 million for 
two Maritime Patrol Aircraft (MPA) airframes and five mission system 
pallets and spares. Does the Coast Guard plan to buys these pallets 
through the ICGS contract, use another contracting source, or build 
them in-house? What is the cost difference for each option?
    Answer. The Coast Guard contract with Integrated Coast Guard 
Systems expired in January 2011 and no additional Mission System 
Pallets (MSPs) will be procured using that contract vehicle. The Coast 
Guard does not currently possess sufficient in-house processes and 
capabilities to be able to produce MSPs ``in-house'' by 2012. 
Therefore, acquiring MSPs through a commercial source is the preferred 
option.
    Question. The fiscal year 2012 CIP indicates a 5-year delay in 
completing procurement of the MPAs when compared to the fiscal year 
2011 CIP. What is the cause of this delay?
    Answer. The project completion dates for the Marine Patrol Aircraft 
(MPA) shown in the fiscal year 2012-2016 CIP are estimated for planning 
purposes, based on best available data at the time of budget 
preparation. The MPA schedule is derived from the Deepwater 
Implementation Plan Review Report to Congress, dated May 13, 2010, 
which contains a more recent assessment of MPA delivery schedules.
    Question. The request includes funding for five MPA mission 
pallets. What is the cost savings from purchasing multiple mission 
pallets in fiscal year 2012?
    Answer. Ordering five MSPs instead of two is estimated to reduce 
the MSP unit price by as much as 30-35 percent based upon previous 
negotiations.
    Question. Does purchasing six FRCs in fiscal year 2012 maximize the 
contract? What is the cost savings by maximizing the contract in fiscal 
year 2012?
    Answer. Yes, procuring six FRCs in fiscal year 2012 maximizes the 
contract. The average cost savings per hull is approximately $5 million 
including production costs, economic price adjustments associated with 
spare parts, antecedent liabilities and other scalable program costs 
(e.g., project management, testing, certification, etc.).
          united states secret service--presidential campaigns
    Question. Provide the number of candidates and number of protection 
days for Presidential campaigns going back to 1996, including costs.
    Answer. [Follows:]

----------------------------------------------------------------------------------------------------------------
                                                    Protection      Candidates/    Spouses/adult
             Campaign (fiscal year)                    days          nominees        children        Cost \1\
----------------------------------------------------------------------------------------------------------------
2008............................................           1,115               5               6     $70,304,000
2004............................................             454               3               2      38,686,000
2000............................................             452               4               3      27,787,000
1996............................................             364               4               2     16,459,000
----------------------------------------------------------------------------------------------------------------
\1\ Presidential campaign costs do not reflect the ``labor shift'' of existing base resources from investigative
  programs to support the protection demands of the campaign.

             asia-pacific economic cooperation summit costs
    Question. Provide detail on how much funding is needed in fiscal 
year 2011 for the Asia-Pacific Economic Cooperation (APEC) Summit in 
Honolulu, Hawaii.
    Answer. Total estimated cost that the U.S. Secret Service will 
incur in fiscal year 2011 for the Asia-Pacific Economic Cooperation 
(APEC) Summit is $5.4 million. These cost include airfare, vehicle 
rental, housing, and per diem cost of personnel who have been 
temporarily reassigned (TDY) to Honolulu, Hawaii since October 2010 to 
prepare for this National Special Security Event (NSSE). Additionally, 
these costs include the rental/build-out cost of the Multi-Agency 
Communications Center (MACC), the Coordinating Center and Credentialing 
Center.
    The Secret Service will not be able to utilize the Presidential 
Assistance Act and therefore will not have access to military aircraft 
to transport vehicles, critical protective equipment and IT assets to 
this location. We will have to contract with a commercial vendor to 
transport these critical assets and ensure that they are available.
           information integration and transformation program
    Question. Provide a detailed crosswalk of the original 
modernization plan (schedule and budget) for the Information 
Integration and Transformation Program versus where we are with the 
program at current funding levels. Please detail any modernization 
funds that have been redirected for other purposes, including the 
amount and why they were redirected.
    Answer. [The response is FOUO and Procurement Sensitive--See FAR 
3.104 and the answer will be submitted under a separate cover.]
                      operational mission support
    Question. Please prioritize your Operational Mission Support 
requests ($65 million).
    Answer. Here is a list of the highest-priority operational mission 
support requirements. Each of these protective counter measures 
addresses a specific vulnerability or known threat that requires 
mitigation in order to provide a safe environment for the President and 
other national leaders. The protective counter measures are used 
individually and in combination to address specific types of threats, 
creating a high level of interdependence between the proposed systems. 
The counter measures provide enhanced security surveillance 
capabilities and defenses to known threats for the President at the 
White House and while traveling throughout the world. These assets will 
provide not only enhanced situational awareness capabilities, but also 
will enable notification systems to share critical information and 
activate emergency response protocols. They are listed below:
  --Enhanced explosive detection systems, $8,683,000 (51 positions).
  --Enhanced chemical, biological, and radiological detection systems, 
        $4,626,000 (3 positions).
  --White House physical protection upgrades, $12,826,000 (3 
        positions).
  --Enhanced White House camera system, $6,375,000 (1 position).
  --Development of next generation Presidential limousine, $10,226,000 
        (3 positions).
  --Presidential audio countermeasures, $2,451,000 (2 positions).
  --Cyber protection activities, $12,775,000 (1 position).
  --National master plan studies, $1,375,000 (1 position).
  --Protective systems and weapons testing program, $6,477,000 (5 
        positions).
            anticounterfeit operations in colombia and peru
    Question. Please describe current anticounterfeit operations in 
Colombia and Peru. Has counterfeiting in Colombia decreased since the 
inception of the United States Secret Service cooperative presence with 
the Colombian Government? Is opening an overseas office in Peru under 
consideration?
    Answer. [Follows:]
    Colombia.--The U.S. Secret Service (USSS) Bogota Resident Office 
currently oversees the Vetted Anti-Counterfeit Force (VACF) composed of 
approximately 50 Colombian law enforcement officers divided among 8 
offices in Bogota, Pereira, Cali, and Medellin. In addition, two 
Colombian district attorneys are exclusively working United States 
currency counterfeiting cases in conjunction with the VACF and USSS.
    While overall statistics indicate steady attempts at counterfeit 
production within Colombia, the combined efforts of the USSS and 
Colombian VACF have been able to greatly reduce or interdict the export 
to, and subsequent passing of counterfeit within, the United States. 
Passing activity has decreased 81 percent since the inception of the 
USSS/Colombian cooperative anticounterfeiting effort.
    Peru.--The Peru Counterfeit Task Force (PCTF) was formed in March 
2009 and is currently working directly with the Peru National Police 
(PNP). The task force is composed of two agents on 2-week TDY 
assignment rotations. The USSS also started the process of selecting 
Peru National Police (PNP) officers with the goal of making a vetted 
anticounterfeit unit that closely mirrors the Colombian model. To date, 
PCTF efforts have led to the arrests of 50 suspects, the suppression of 
22 counterfeit plant operations, and the seizure of more than $36 
million in counterfeit currency.
    On February 15, 2011, DHS approved the National Security Decision 
Directive (NSDD) 38 related to the opening of the Lima, Peru office. On 
March 7, 2011, the NSDD 38 was officially submitted to the U.S. State 
Department. At this time, the USSS is awaiting review and approval from 
the U.S. State Department.
                     state and local cyber activity
    Question. President Obama has said, ``the cyber threat is one of 
the most serious economic and national security challenges we face''. 
Secretary Napolitano, you included safeguarding and securing cyberspace 
as one of the five missions defined in the Quadrennial Homeland 
Security Review.
    The fiscal year 2012 budget request appears to respond to this 
alarm by requesting a robust level of funding for US-CERT operations; 
Federal network security; and network security deployment. These are 
important areas to invest in and I take this request seriously. I was 
especially pleased to see that there is a $9 million increase for 
outreach, education, and training activities. Many State, local, and 
private sector entities are struggling with and finding solutions to 
the same issues the Federal Government faces. Sharing solutions and 
expertise is imperative to our defense.
    Please describe each cyber program underway that includes State and 
local efforts in fiscal year 2010, fiscal year 2011, and proposed 
programs for fiscal year 2012.
    Further, what is the current status of cybersecurity and systems 
assurance curricula; and what capacity does DHS currently have to 
provide virtual education for specialized and classified education 
requirements?
    Answer. The Department of Homeland Security's (DHS) National Cyber 
Security Division (NCSD) collaborates with State, local, tribal, and 
territorial governments to share and implement sound cybersecurity 
policies, practices, and strategies to improve preparedness against 
cyber threats and attacks.
    Due to the increasingly important role of State, local, tribal, and 
territorial governments in cybersecurity, NCSD has resources committed 
solely to interacting with officials at these levels. The mission of 
NCSD's State, Local, Tribal, and Territorial (SLTT) Engagement program 
is to build partnerships with non-Federal public stakeholders, 
including each State's Homeland Security Advisor, Chief Information 
Officer (CIO) and Chief Information Security Officer (CISO). The 
following provides an overview of NCSD interactions with States.
United States Computer Emergency Readiness Team
    The United States Computer Emergency Readiness Team (US-CERT) 
maintains a formal relationship and works closely with mission 
partners, including State and local governments, on a daily basis to 
resolve threats, vulnerabilities, and incidents. US-CERT provides a 
variety of daily, weekly, monthly, and quarterly communication 
exchanges to maintain situational awareness and share critical 
information with collective cybersecurity partners. Federal and SLTT 
incident response personnel have access to the Government Forum of 
Incident Response and Security Teams (GFIRST) portal for information 
sharing and discussion.
    US-CERT also sponsors the GFIRST National Conference, a forum that 
promotes cooperation among Federal agencies, State, local, tribal, and 
territorial governments, the private sector, and international partners 
across the cybersecurity spectrum, from preparedness and prevention to 
incident response. The conference supports the dissemination and 
promulgation of proactive and preventive security practices. US-CERT 
funding is executed toward planning, preparation, communication, and 
coordination of this conference and other conference expos. 
Specifically, $1.55 million is directed to support requirements such as 
administration, logistics, and security. Additional funding 
(approximately $3 million) provides support to the interactive 
demonstration system at the GFIRST National Conference.
    US-CERT also provides support ($1 million annually) to the 
Department of Commerce's National Institute of Standards and 
Technology, which provides system integration and product development 
support for enhancement of the National Vulnerability Database and 
search engine. This database enables US-CERT partners, including State, 
local, tribal, and territorial governments, to secure government 
systems.
Multi-State Information Sharing and Analysis Center
    Created in 2003, the Multi-State Information Sharing and Analysis 
Center (MS-ISAC) is an invaluable tool when dealing with SLTT 
governments. The MS-ISAC supports NCSD's efforts to secure cyberspace 
by disseminating early warnings of cyber threats to SLTT governments. 
In addition, the MS-ISAC shares security incident information, 
identifies trends, and conducts other analysis for security planning. 
NCSD provides programmatic support ($3.55 million for the 12-month 
period from August 1, 2010, to July 31, 2011) to the MS-ISAC. The 
fiscal year 2010 DHS Appropriations Act provided an additional $3 
million for DHS to fund and work with the MS-ISAC to provide managed 
security services (e.g., intrusion detection systems, intrusion 
prevention systems firewalls) for 18 State and local governments. The 
MS-ISAC has selected State, county, and local governments for 
participation. The MS-ISAC, consistent with the objectives of NCSD, 
provides a common mechanism for raising the level of SLTT government 
cybersecurity readiness and response. It is a central resource for 
gathering information regarding cyber threats to critical 
infrastructure facilities. Other MS-ISAC programs/activities include:
            Operation of a 24/7 Cyber Security and Analysis Center
    The MS-ISAC runs a 24-hour watch and warning Security Operations 
Center (SOC) that provides real-time network monitoring, dissemination 
of early cyber threat warnings, and vulnerability identification and 
mitigation, along with education and outreach aimed at reducing risk to 
the Nation's SLTT government cyber domain. The SOC shares and 
coordinates real-time risk information to support national 
cybersecurity situational awareness with DHS (NCSD and US-CERT).
    The SOC performs 24/7 monitoring of the Internet and other sources, 
including incident reports received from members and others regarding 
cybersecurity threats and vulnerabilities. The SOC staff evaluates and 
correlates information and distributes advisories and bulletins as 
appropriate, including mitigation strategies and steps that can be 
taken to protect critical infrastructure.
            Managed and Monitored Security Services
    The MS-ISAC contracts with the States of Alaska, Montana, and New 
York, along with the Los Angeles World Airports, to provide 
cybersecurity monitoring and managed services. This collective view 
across multiple entities helps enhance situational awareness regarding 
cyber threats.
    During 2010, the MS-ISAC reviewed more than 78 billion logs through 
the 24/7 operations center. Approximately 138 MS-ISAC advisories were 
issued.
    Additionally, through funding in the fiscal year 2010 DHS 
Appropriations Act, the MS-ISAC is expanding its monitoring services 
with an additional 10 State governments, 7 local governments, and 1 
territorial government. This expanded infrastructure will provide a 
representative sample of system and network activity for enhancing 
situational awareness of SLTT government networks across the country. 
It will also improve cyber incident identification and response while 
providing more resources for developing and implementing appropriate 
mitigation strategies tailored specifically to SLTT government cyber 
resources.
            Participation in Cyber Security Exercises--Cyber Storm I, 
                    II, and III
    The MS-ISAC has participated in each of the three Cyber Storm 
exercises, most recently Cyber Storm III in September 2010. The MS-ISAC 
was a full player during the Cyber Storm III exercise; its SOC was 
active, and it coordinated with 11 States that participated in the 
exercise. The MS-ISAC hosted 19 visitors from five States, the Federal 
Bureau of Investigation, New York State law enforcement, Homeland 
Security and military personnel, and observers from the University of 
Texas at San Antonio.
National Cyber Incident Response Plan
    The President's Cybersecurity Policy Review called for ``a 
comprehensive framework to facilitate coordinated responses by 
Government, the private sector, and allies to a significant cyber 
incident.'' DHS coordinated the interagency, State and local 
government, and private-sector working group that developed the 
National Cyber Incident Response Plan (NCIRP). The Plan provides a 
framework for effective incident response capabilities and coordination 
among Federal agencies, State and local governments, the private 
sector, and international partners during significant cyber incidents. 
It is designed to be flexible and adaptable to allow synchronization of 
response activities across jurisdictional lines.
    The NCIRP is undergoing final DHS review to incorporate lessons 
learned during the Cyber Storm III exercise. Upon conclusion of this 
review, DHS will send the NCIRP out to State, local and private-sector 
partners (including the National Governors Association and the MS-ISAC) 
for review. DHS will work with State and local partners (and partners 
in the private sector) to align their incident response plans and 
procedures with the NCIRP. The MS-ISAC and National Governors 
Association will be key partners in this effort.
    DHS has designated the MS-ISAC as the ISAC for SLTT governments and 
has identified the MS-ISAC as a key stakeholder in the development and 
implementation of the NCIRP.
NCSD Cyber Security Evaluation Program
    Under the 2009 appropriations act, NCSD's Cyber Security Evaluation 
Program (CSEP) was tasked with completing a Nationwide Cyber Security 
Review (NCSR). The NCSR is a voluntary self-assessment of State and 
major urban area government information technology (IT) services and is 
designed to measure cybersecurity preparedness and resilience. Through 
the NCSR, CSEP examines relationships, interactions, and processes 
governing IT management and the ability to manage operational risk 
effectively. CSEP also conducts voluntary cybersecurity assessments to 
evaluate and enhance the implementation of key cybersecurity capacities 
and capabilities of critical infrastructure and key resources (CIKR) 
sector members. This assessment is the Cyber Resilience Review, which 
is designed for each of the 18 CIKR Sectors and for use within SLTT 
governments. Since fiscal year 2009, CSEP has completed 45 cyber 
resilience reviews with SLTT partners.
NCSD Cyber Exercise Program
    NCSD's Cyber Exercise Program (CEP) works with Federal, State, 
local, international, and private sector partners to conduct regional 
and sector-specific exercises designed to develop and improve the 
capabilities of DHS and its infrastructure partners. Such exercises aid 
participants in preparing for, preventing, mitigating, responding to, 
and recovering from cyber incidents. NCSD plans, coordinates, and 
conducts cyber exercises to develop, evaluate, improve, and refine the 
capabilities of State and local partners. CEP assists State and local 
partners by facilitating the design of tabletop and functional 
exercises at the State and local levels.
    DHS hosted Cyber Storm III from September 26 through October 1, 
2010. The Cyber Storm exercise series is a key element of ongoing 
efforts to assess cyber preparedness; examine incident response 
processes, procedures, and information sharing mechanisms; and identify 
areas for improvement absent the consequences of an actual incident. 
Cyber Storm III included participation from 11 States.
    In 2009 and 2010, NCSD, the MS-ISAC, and the Microsoft Corporation 
jointly sponsored the Defend the Flag Exercises to provide State 
government network security professionals greater technical security 
skills and practical experience with implementing the principles of 
defense-in-depth while securing Windows-based operating systems. 
Thirteen States participated from 2009-2010.
Grants
    DHS provides grants for cybersecurity through the Federal Emergency 
Management Agency (FEMA), such as the Homeland Security Grant Program 
(HSGP), which provides States the opportunity to work with DHS to 
acquire cybersecurity capabilities. During the last 2 years, NCSD has 
worked with FEMA to modify the language in the HSGP to better clarify 
how funds can be used to improve cybersecurity.
National Initiative for Cybersecurity Education
    DHS is engaged in the National Initiative for Cybersecurity 
Education (NICE), leading Track 1 (Cybersecurity Awareness), leading 
Track 3 (Cybersecurity Workforce Structure), and coleading Track 4 
(Cybersecurity Workforce Training and Professional Development). 
Through NICE, DHS is reaching out across the cybersecurity community--
including academia, the private sector, and Federal, State, local, 
tribal, and territorial partners--to integrate current efforts into a 
foundation of information that creates mutual understanding and 
partnerships across all aspects of national cybersecurity.
    In fiscal year 2010, DHS facilitated the efforts of six State 
government CIOs to develop a State government workforce development 
model, based on the existing DHS-issued Essential Body of Knowledge. 
This State government model was presented to the MS-ISAC, which 
included the model in its membership-based portal and on its public Web 
site.
Other NCSD SLTT Programs/Activities
            National Cyber Security Awareness Month
    To recognize the importance of cybersecurity awareness, October is 
designated as National Cyber Security Awareness Month. NCSD, with the 
help of the MS-ISAC, works with funded partners and other parties to 
sponsor events and activities throughout the country and disseminate 
Awareness Month key messages and event information to State and local 
partners. Due to the efforts of NCSD and MS ISAC, in 2009 and 2010, all 
of the Nation's governors signed letters officially proclaiming October 
as National Cyber Security Awareness Month.
            Stop. Think. Connect. Campaign
    DHS bears primary responsibility for raising public awareness about 
threats to the Nation's cyber systems and networks. To that end, in 
October 2010, DHS launched the National Cybersecurity Awareness 
Campaign, Stop. Think. Connect. It is a national public-education 
effort to engage and empower Americans to take charge of their online 
safety and security. By providing Americans with easy-to-understand 
online safety tips and resources, the campaign is helping them 
establish smart habits that will lead to increased protection online. 
Stop. Think. Connect. fulfills a key element of President Obama's 2009 
Cyberspace Policy Review, which tasked DHS to develop a public-
awareness campaign to inform Americans about ways to use technology 
safely.
            Security Clearances for State Information Security Officers
    NCSD, in partnership with colleagues from DHS Office of Security, 
initiated a plan to clear, starting at the secret level, each State CIO 
and CISO, and the MS-ISAC executive committee. NCSD is confident this 
is an important step in sharing valuable sensitive information with 
State partners.
            Cyber Partner Local Access Plan
    NCSD, in cooperation with the Office of Intelligence and Analysis, 
developed the Cybersecurity Partner Local Access Plan (CPLAP) to share 
classified cybersecurity threat information with cleared State 
cybersecurity officials and private-sector partners at State and major 
urban area fusion centers nationwide. The CPLAP enables more effective 
and efficient classified cybersecurity information sharing among 
Federal, SLTT, and private-sector partners, and supports an 
information-sharing model that eliminates partners' air travel to and 
from the Washington, DC, area to receive classified cybersecurity 
briefings. The CPLAP will be piloted at five fusion centers by mid-
2011, with plans to expand the program to a broader audience and 
additional fusion centers on a regional basis by the end of 2011.
            Cyber Summits
    In an effort to educate SLTT leaders and the public, NCSD 
coordinates and plans Cyber Summits. These summits, which are held 
regularly throughout the year and hosted across the country, focus on 
opportunities and vulnerabilities to promote discussion on how public 
and private-sector officials can best leverage technology to reduce 
risk. Frequent attendance and contribution by nongovernmental cyber 
associations, such as the MS-ISAC and National Association of State 
Chief Information Officers, significantly contributes to the 
information sharing, capacity building, and coordination efforts 
necessary to develop robust and effective cybersecurity capabilities on 
all levels. DHS identified cybersecurity as a top departmental 
priority, and Federal, State, and local government officials share a 
responsibility to promote a healthy cyber ecosystem and to encourage 
individuals to protect themselves and their families at home, work, and 
school.
            Virginia Operational Integration Cybersecurity Center of 
                    Excellence
    NCSD is helping the Virginia Operational Integration Cyber Center 
of Excellence (VOICCE) create a Municipal Cyber Lab that will be used 
to support and train SLTT government officials to better understand 
cybersecurity issues. VOICCE focuses on incorporating cyber attacks 
into the mainstream of emergency operations at the local level and 
creating a virtual municipality of randomly generated Internet protocol 
addresses. The concept will allow for development of vital 
cybersecurity capabilities, processes, and procedures. The VOICCE node 
or laboratory will allow local governments and first responders to plug 
into State and Federal entities and participate in simulated cyber 
attacks. The lab will be both physical and virtual in structure, 
allowing many types of simulation and providing an effective 
environment to share ideas among stakeholders across the Nation. 
Participants will brainstorm, identify, and respond to diverse cyber 
attack scenarios.
    This activity was required by the fiscal year 2010 DHS 
Appropriations Act.
    NCSD will continue many of the programs listed above. In addition, 
in fiscal year 2012, NCSD will commit funding to expand the MS-ISAC's 
managed and monitor security services.
Curricula
    The Software Assurance (SwA) curriculum project, which produced the 
Masters of Software Assurance (MSwA) curriculum and associated 
undergraduate course outlines, is a recent NCSD effort to cosponsor 
public-private collaboration for government, industry, and academia 
through its SwA Forum. To facilitate implementation, the MSwA project 
team is offering assistance, free of charge, to educational 
institutions looking to launch an MSwA degree program.
    Through the Software Assurance (SwA) forum, the SwA program has 
encouraged Federal, State, and local involvement in public-private 
collaboration efforts associated with the advancement of SwA resources. 
As part of that collaboration, the SwA curriculum project released the 
Masters of Software Assurance (MSwA) reference curriculum and nine-
course syllabi for public use. The MSwA curriculum is recognized by the 
Institute of Electrical and Electronics Engineers (IEEE) Computer 
Society and the Association of Computing Machinery (ACM) as the first 
curriculum of its kind to focus on assuring the functionality, 
dependability, and security of software and systems. The materials are 
available at http://www.cert.org/mswa/.
    More information on the SwA curriculum project and the MSwA is 
available at https://buildsecurityin.us-cert.gov/bsi/1165-BSI.html.
Virtual Education
    The SwA Forum, sponsored by NCSD's SwA Program, posts Web casts of 
SwA tutorials and pocket guides that are publicly available for free 
online use, including links via virtual training environments.
    One aspect under NICE Track 4 is Functional Area 4, which concerns 
Specialized Cybersecurity Operations. The scope of this effort includes 
those Federal civilian employees, members of the uniformed services, 
and contractor personnel employed by departments and agencies who are 
engaged in highly specialized and largely classified cybersecurity 
operations. Work associated with this functional area is classified, 
but a classified briefing to discuss the work associated with this 
topic can be arranged upon request.
      risk assessment process for informed decision making (rapid)
    Question. NPPD began development of the Risk Assessment Process for 
Informed Decision Making (RAPID) to aid the Department in making policy 
and budgetary decisions based on risk. Which DHS components (or other 
entities) have used RAPID to date? What impact did it have on 
operations? What proposals in the fiscal year 2012 budget used RAPID as 
the foundation for the request? What is the next phase for RAPID and 
when will it be used departmentwide?
    Answer. [Follows:]
Components That Have Used RAPID to Date
    The Risk Assessment Process for Informed Decision Making (RAPID) is 
the Federal Government's first quantitative, multi-mission, multi-
hazards assessment of homeland security risk. RAPID assesses the risk 
of various types of terrorism, natural disasters, and transnational 
crimes in terms of annualized expected fatalities and economic losses. 
The goal of RAPID is to provide information about these homeland 
security risks and the extent to which Department of Homeland Security 
(DHS) programs and activities contribute to the reduction of these 
risks to support DHS leadership decisionmaking during the annual 
planning, programming, budgeting and execution (PPBE) process cycle and 
supporting processes.
    To date, RAPID analysis has supported the planning phase of the 
annual DHS PPBE cycle through the development of the Office of Policy's 
Integrated Planning Guidance by highlighting key risks and providing 
qualitative analysis of possible risk-mitigation strategies. In 
addition, RAPID analysis has proven helpful in facilitating more robust 
evaluation of alternatives within the Program Review Board issue teams.
    In addition to supporting the departmentwide PPBE process, RAPID 
has supported a number of DHS components in prioritizing their 
activities, as described below.
            United States Coast Guard Ports, Waterways, and Coastal 
                    Security Program
    The United States Coast Guard's (USCG's) Ports, Waterways, and 
Coastal Security (PWCS) Risk-Based Performance Module has been 
developed to:
  --Assess risk in the PWCS mission;
  --Evaluate USCG performance within the mission; and
  --Evaluate the effectiveness of USCG planning, programming, and 
        budgeting recommendations in terms of risk reduction.
    To achieve those objectives, the model considers a wide array of 
maritime terrorism scenarios. The risk data for the vast majority of 
scenarios comes directly from the USCG's Maritime Security Risk 
Analysis Model; however, the risk of transferring terrorists and 
Weapons of Mass Destruction (WMDs) through the maritime domain is 
currently outside of the model's scope.
    To establish the risk associated with these scenarios, the USCG/
PWCS team requested RAPID data from the National Protection and 
Programs Directorate's (NPPD's) Office of Risk Management and Analysis 
(RMA) related to the following:
  --Frequency estimates from RAPID's structured elicitation of the 
        intelligence community in the following areas:
    --Maritime-related WMD transfers, both through ports of entry and 
            between ports of entry;
    --Maritime-related terrorist transfers, both through ports of entry 
            and between ports of entry;
    --Maritime-related direct attacks; and
    --Maritime-related direct exploitation attacks.
  --Casualty and economic consequence estimates for a variety of WMD 
        attacks.
            DHS Office of Policy's Office of Strategic Plans
    The Office of Strategic Plans within the Department's Office of 
Policy requested information and analysis related to:
  --The overall flows of four types of drugs that malefactors are 
        attempting to introduce into the United States;
  --Estimates of drugs seized based on the reported sources; and
  --How these reported estimates compare with RAPID estimates.
In response to this request, RMA provided overall drug-flow estimates, 
as well as drug-seizure estimates from both RAPID and other reported 
sources.
            Immigration and Customs Enforcement Homeland Security 
                    Investigations
    In response to the Government Accountability Office report, 
``Better Management Practices Could Enhance DHS's Ability to Allocate 
Investigative Resources'' (GAO-06-462T), the Immigration and Customs 
Enforcement (ICE) Homeland Security Investigations has been seeking a 
way to use risk management to inform its resource allocation decisions 
(i.e., analyze its primary enforcement areas and allocate its resources 
according to the likelihood of potential consequences to the United 
States). As a result, ICE developed a strategic risk assessment whose 
methodology was peer-reviewed at multiple stages by RMA, and RMA 
provided RAPID analysis for use in this assessment. Specifically, RMA 
provided RAPID analysis of residual drug-flow estimates, consequences 
as a result of foreign-produced drugs, and consequences due to illegal 
migration. ICE used the RAPID data to augment and validate its own 
estimates.
            Customs and Border Protection Agro/Bio-Terror 
                    Countermeasures
    RMA has been asked by Customs and Border Protection's (CBP's) Agro/
Bio-Terror Countermeasures (ABTC) to provide bioterrorism/agroterrorism 
risk information to inform its targeting processes. Specifically, ABTC 
is interested in using RAPID in the following areas:
  --Assist in improved use of targeting resources by either:
    --Using existing RAPID risk results tailored to provide information 
            regarding risk by ``mode and point of entry'' for 
            biological material to inform ABTC's decisions regarding 
            the allocation of its resources among air, land, and sea 
            border crossings; or
    --Building a new ``risk factor'' category into ABTC's existing 
            targeting rulesets that includes RAPID ``mode and point of 
            entry'' risk data; and
  --Help design probabilistic red-team scenarios to test targeting and 
        response procedures.
Impact on Operations
    As noted in the Secretary's policy statement on Integrated Risk 
Management signed in May 2010, DHS uses risk information and analysis:

`` . . .  to inform decisionmaking, striving to better understand risks 
and capabilities to manage them, while remaining flexible to changing 
risks. Homeland security risks are inherently uncertain, and risk 
analysis will not always yield precise answers. The Department uses 
risk information and analysis to make its assumptions more transparent, 
encourage creative thinking, and provide defensible decisions, made 
with the best available tools and information, for the best achievable 
outcomes.''

    Using risk analysis to inform decisions, particularly operational 
ones, is a complicated process that involves making difficult tradeoffs 
among often highly uncertain risk reduction benefits, costs, the unique 
risk tolerance of the decisionmaker, logistical constraints, and policy 
priorities. Terrorism risk analysis in particular involves a great deal 
of uncertainty that affects our ability to estimate the range of 
potential benefits of different alternatives.
Fiscal Year 2012 Proposals That Used RAPID as the Foundation for the 
        Request
    During the fiscal year 2012 budget build, RAPID was not completed 
in time to serve as the foundation for any specific budget requests. It 
is expected in the future, however, that RAPID will reach a sufficient 
level of maturity to be leveraged more broadly and will increasingly 
provide greater input into the budgeting process.
Next Phase for RAPID
    Following the execution of RAPID 2010, NPPD/RMA conducted a formal 
lessons-learned process to prioritize enhancements to future iterations 
of the assessment. This process led to a formal confirmation of 
strategic requirements and reinforced the focus for RAPID in 2011-2012 
to better understand customer needs and the decision environment. 
Initial RAPID 2010 analysis provides a baseline view of homeland 
security risk and risk reduction across the Department's mission-
oriented programs, portfolios, and activities. In 2011, RMA plans to 
invest most of its effort in improving model and data quality, bringing 
all RAPID analysis in house so that it can be conducted by Federal 
staff on Federal computing equipment, and conducting tailored analysis 
to support the fiscal year 2013-2017 budget build, including support to 
NPPD's budget request, study of the effectiveness of chemical, 
biological, radiological, and nuclear countermeasures, and more 
effective allocation of aviation security and air domain awareness 
resources.
                      progress in interoperability
    Question. The 10th anniversary of the terrorist attacks on 
September 11, 2001, is only 6 months away. The failure of 
communications during that incident has been cited in the 9/11 
Commission report and has been the subject of many recommendations for 
improvement. During Hurricane Katrina, we once again witnessed a 
failure in communications during a catastrophe. The Federal Government 
and the Department of Homeland Security have devoted significant 
resources to solving the interoperable communications problem; more 
than $4.5 billion in Federal homeland security grants alone. State and 
local governments have contributed an untold amount. Progress has been 
made; however, interoperable emergency communications remain 
inadequate.
    The emergence of broadband services provides emergency responders 
with new opportunities to improve communications. Despite this 
potential, public safety officials face several challenges in 
integrating new technologies and proving their reliability. What 
progress has been made since September 11, 2001, to improve emergency 
communications and what challenges lie ahead? Does the National 
Emergency Communications Plan need to be updated for emerging 
technologies and services? What is the plan to develop and disseminate 
training and best practices on governance, standard operating 
procedures, equipment purchases, and related issues for emerging 
technologies and services and to deliver technical assistance to public 
safety agencies on broadband technologies?
    Answer. [Follows:]
Progress Made Since September 11, 2001
    Improving communications for the Nation's emergency responders has 
been a top priority for the Department of Homeland Security (DHS). 
Since its establishment, DHS has worked with its partners at the 
Federal, State, local, tribal, and territorial levels to build and 
sustain the communications capabilities that public safety personnel 
require at all times to coordinate response and recovery operations 
effectively. Creation of the Office of Emergency Communications (OEC) 
within the National Protection and Programs Directorate in 2007 and its 
subsequent release of the National Emergency Communications Plan (NECP) 
have been key drivers of progress in this mission. To date, the 
Department has achieved 78 of the 92 milestones in the NECP, or 85 
percent.
    The Office for Interoperability and Compatibility (OIC) within the 
Science and Technology Directorate (S&T) was created in 2004 to 
strengthen and integrate interoperable communications. Working closely 
with the emergency response community, OIC developed foundational 
tools, methodologies, and standards to strengthen interoperability. For 
example, OIC improved command-level interoperability capabilities in 10 
high-threat urban areas through the RapidCom initiative. OIC also 
supported RapidCom 2 which accelerated the completion of Tactical 
Interoperability Communications Plans in the largest 75 urban/
metropolitan areas across the Nation. A scorecard was developed to help 
all levels of government measure their current state of 
interoperability and lay the foundation for establishing accountability 
for future progress. Additionally, OIC launched two regional 
communications interoperability pilots in Nevada and Kentucky which 
resulted in guidance documents on governance, funding, and procurement 
that now serve as tools for States and territories in support of their 
statewide planning efforts.
    Prior to the creation of OEC and release of the NECP, emergency 
response agencies often pursued disparate emergency communications 
activities and lacked coordinated solutions and protocols. Few plans 
existed at the State level to guide activities within or across States 
and with Federal efforts, and inter-agency coordination at the Federal 
level was not as effective as it needed to be. In addition, Federal 
grant programs supported the acquisition of communications equipment--
but without common governance and statewide plans in place, individual 
communities often made equipment investments without coordinating with 
their neighboring communities or regions.
    To address these and other interoperability challenges, OEC 
developed the NECP in coordination with more than 150 representatives 
from all major emergency response organizations across the country, 
including the SAFECOM Executive Committee/Emergency Response Council, 
Federal departments and agencies through the Emergency Communications 
Preparedness Center (ECPC), and private-sector and nongovernmental 
organizations. The NECP set out a clear strategy for building 
capabilities in key areas identified by public safety as needed for 
improving emergency communications and has since greatly influenced 
planning, governance, operating procedures, and training for responders 
nationwide.
Indicators of Emergency Communications Progress
    NPPD/OEC's efforts to coordinate with stakeholders from the 
Federal, State, local, tribal, and territorial responder communities 
and the private sector to improve interoperable emergency 
communications capabilities have resulted in:
  --Enhanced Statewide Coordination.--The creation of 56 statewide 
        Communication Interoperability Plans (SCIPs) and 44 Statewide 
        Interoperability Coordinators (SWICs) is improving coordination 
        of emergency communications activities and investments 
        throughout all 56 States and territories. All 56 States and 
        territories have identified a point of contact for statewide 
        interoperability coordination, and 44 States and territories 
        have full-time SWIC or equivalent positions. These important 
        leadership roles and planning mechanisms are critical for the 
        continued funding, accountability, and execution of emergency 
        communications activities at the State, local, tribal, and 
        territorial levels.
  --Common Plans and Procedures.--The creation and increased use of 
        standardized plans, protocols, and procedures is driving 
        improved command, control, and communications among emergency 
        response agencies in the field. NPPD/OEC and the Federal 
        Emergency Management Agency (FEMA) have worked with more than 
        140 jurisdictions to develop Tactical Interoperable 
        Communications Plans (TICPs) that document formalized 
        interoperability governance groups, standardized policies and 
        procedures, and emergency communications equipment inventories. 
        DHS continues to work with stakeholders to update, implement, 
        and develop new TICPs as part of the NECP. In addition, more 
        than 30 States are implementing plain-language protocols to 
        simplify and standardize the language used to share information 
        and communicate during an emergency.
  --Targeted Technical Assistance.--As part of the NECP, NPPD/OEC has 
        implemented a technical assistance strategy to ensure that all 
        States and territories can request and receive emergency 
        communications assistance while also focusing support on the 
        States and urban areas most in need. This technical support 
        provides improvements in all areas of emergency communications, 
        including the development of governance structures, tactical 
        and strategic planning, and a variety of engineering services. 
        Since 2008, the 56 States and territories have requested more 
        than 750 individual technical assistance services from NPPD/
        OEC. These services support the priorities in each State or 
        territory's SCIP and the objectives of the NECP.
      The 2011 Technical Assistance Catalog has 13 new or updated 
        offerings to provide support to States across the entire 
        Interoperability Continuum, one of which is focused on the 
        planning for and incorporation of 700MHz Wireless Broadband 
        technologies into the Public Safety community. In addition, 
        NPPD/OEC is conducting at least five focused Technical 
        Assistance engagements with jurisdictions granted waivers by 
        the Federal Communications Commission for conditional use of 
        currently allocated 700 MHz spectrum to help them migrate to 
        the new 700MHz Long-Term Evolution network and share best 
        practices with the Nation. Last, NPPD/OEC facilitates a weekly 
        call with the Public Safety Spectrum Trust Operator Advisory 
        Committee, a group comprising all the jurisdictions receiving 
        such FCC waivers, to encourage information sharing and 
        collaboration.
  --Increased Training Opportunities.--To improve emergency responders' 
        capabilities in this area, OEC's Communications Unit Leader 
        (COML) training program has resulted in the training of more 
        than 3,500 responders, technicians, and planners to lead 
        communications during incidents across the Nation, including 
        local floods, blizzards, and wildfires. Effective training and 
        exercise programs can increase emergency responders' 
        proficiency with equipment and help them coordinate roles and 
        responsibilities more effectively during an event. Trained 
        COMLs also contributed to recovery efforts outside of the 
        United States, such as the response to the 2010 earthquake in 
        Haiti.
  --Improved Governance and Coordination.--Building on the success of 
        governance and coordination mechanisms such as the SAFECOM 
        Executive Committee/Emergency Response Council, NPPD/OEC has 
        worked with Federal, State, local, tribal, and territorial 
        agencies to stand up formal decisionmaking structures that 
        increase coordination, information sharing, and oversight of 
        interoperability:
    --Statewide Interoperability Governing Bodies now exist in every 
            State and territory and include representatives from all 
            levels of government to coordinate and support statewide 
            interoperability. In addition, many States have created 
            regional interoperability committees to provide insight 
            into the statewide strategy from an operational 
            perspective.
    --NPPD/OEC established the National Council of Statewide 
            Interoperability Coordinators to serve as a governing body 
            for SWICs. The council meets twice a year to share best 
            practices, lessons learned, successes, and challenges 
            related to SCIP implementation.
    --DHS established Regional Emergency Communications Coordination 
            Working Groups and placed individual regional coordinators 
            from FEMA, NPPD/OEC, and the National Communications System 
            in each of the 10 FEMA regions to coordinate interstate 
            emergency communications efforts.
    --The Emergency Communications Preparedness Center represents the 
            Federal Government's broad role in emergency 
            communications, including regulation, policy, operations, 
            and grants. The ECPC, which comprises members from 14 
            Federal departments and agencies, is driving more effective 
            coordination of grants, technical assistance, and planning 
            activities for emergency communications.
    NECP Goals Performance Measurement.--The NECP goals serve as 
performance benchmarks for assessing public safety agencies' progress 
toward achieving a baseline-level of interoperable emergency 
communications. OEC is measuring them through a process that engages 
Federal, State, local, tribal, and territorial emergency responders. 
The three NECP goals are as follows:
    Goal 1.--By the end of 2010, 90 percent of all high-risk urban 
areas designated within the Urban Areas Security Initiative (UASI) can 
demonstrate response-level emergency communications within 1 hour for 
routine events involving multiple jurisdictions and agencies.
    Goal 2.--By the end of 2011, 75 percent of non-UASI jurisdictions 
can demonstrate response-level emergency communications within 1 hour 
for routine events involving multiple jurisdictions and agencies.
    Goal 3.--By the end of 2013, 75 percent of all jurisdictions can 
demonstrate response-level emergency communications within 3 hours of a 
significant event, as outlined in the department's national planning 
scenarios.
  --To evaluate NECP goal 1, NPPD/OEC conducted an assessment of 
        response-level emergency communications among public safety 
        agencies during a planned event held in each UASI region. Based 
        on the interoperable communications capabilities documented at 
        each event, all 60 UASI regions were able to demonstrate 
        response level communications, achieving NECP goal 1. The goal 
        1 assessments also identified areas for continued improvement. 
        NPPD/OEC will use the results of the goal assessments--
        including goal 2, scheduled for completion in 2011 and goal 3, 
        scheduled for completion in 2013--to better target resources, 
        such as training and planning, for improving interoperable 
        emergency communications nationwide.
Updating the National Emergency Communications Plan
    NPPD/OEC is leading efforts to update the NECP to address the 
integration of broadband with traditional Land Mobile Radio (LMR) 
technologies. OEC is coordinating with Federal, State, local, tribal, 
and territorial agencies, major public-safety organizations, and the 
private sector to develop a strategy for incorporating new technology, 
such as broadband, while maintaining the mission-critical voice-over 
LMR that responders use every day to save lives. The NECP update will 
focus on key issues that must be addressed, such as partnerships, 
planning, user requirements, standards, research and development, and 
funding.
Acceleration of Standards and Technology Developments
    OIC has worked to provide stakeholders (local, State, and Federal), 
with the optimal mix of standards, tools, technologies, methodologies, 
and guidance to enable improved communications interoperability at all 
levels. For example, OIC facilitates the development of Emergency Data 
Exchange Language (EDXL) standards through a practitioner-driven 
approach. These standards enable the emergency response community to 
share data seamlessly and securely during an incident. Once 
standardized, any technology vendor or organization can easily develop 
EDXL-based applications and products to facilitate information exchange 
across disparate public safety systems across local, tribal, State, 
Federal, and nongovernmental emergency response and management 
disciplines. The EDXL family of standards is developed through input 
from the OIC-Sponsored Practitioner Steering Group (PSG) and Standards 
Working Group (SWG). The PSG and SWG represent multiple disciplines, 
ensuring that the requirements reflect an all-hazards perspective. The 
standards are then vetted by an international standards development 
organization. The EDXL project is a public-private partnership 
established to create an information sharing capability between 
disparate emergency response software applications, systems, and 
devices.
    An example of the Department's promotion of voice standards is 
OIC's Project 25 Compliance Assessment Program (P25 CAP), which 
established a process for ensuring that emergency communications 
equipment complies with P25 standards and is capable of interoperating 
across manufacturers. P25 standards make it possible for radios to 
interoperate regardless of manufacturer, enabling emergency responders 
to communicate. Currently, P25 CAP has 12 participating manufacturers, 
representing more than 80 percent of the land mobile radio market. The 
program, a partnership between DHS S&T and the National Institute of 
Standards and Technology, provides local, State, and Federal emergency 
responders with an independent and transparent process to formally 
assess communications equipment against a select group of requirements 
within the suite of P25 standards. The results from this testing are 
published on FEMA's Responder Knowledge Base Web site. The P25 CAP will 
allow emergency responders to purchase and use P25-compliant products.
    Recognizing the emergency response community's need for standards-
based, Internet protocol-enabled backbones that improve mission-
critical information sharing and allows for the interconnection of 
Voice over Internet Protocol (VoIP) based networks with neighboring 
agencies, OIC established a Public Safety VoIP Working Group. This 
Working Group, consisting of public safety practitioners, industry 
representatives, and Federal partners, created the Bridging System 
Interface (BSI) core profile. The BSI allows emergency response 
agencies to seamlessly connect radio systems over an IP network--
regardless of the manufacturer. Thirteen manufacturers voluntarily 
adopted the BSI platform and others have committed to doing so in their 
next product cycle. Ultimately, the BSI core profile provides emergency 
response agencies with a reduction in cost for system design and 
installation.
    The introduction of Multi-Band Radio (MBR) technology to the 
emergency response community offers an opportunity to improve 
interoperability across agencies, disciplines, and jurisdictions by 
providing the capability to communicate on all public safety radio 
bands. OIC's MBR technology project evaluates, tests, demonstrates, and 
pilots MBR technology to ensure that equipment meets the mission 
requirements identified by the emergency response community. Finally, 
compiling the data and user feedback from the test and evaluation 
phases, OIC will produce a detailed procurement guide that will assist 
emergency response agencies in the identification of equipment 
functionality offered by various manufacturers that meets their radio 
communication interoperability requirements. DHS believes that their 
efforts with this project will continue to stimulate the marketplace 
and encourage additional manufacturers to research, develop, design, 
and manufacture similar technology.
    OIC also developed a Technology Roadmap for Interoperable 
Communications to provide stakeholders with a strategy to incorporate 
new and emerging technologies into existing communications 
capabilities.
Broadband
    DHS is deeply involved in coordinating public-safety broadband 
efforts at the Federal, State, local, tribal, and territorial levels. 
NPPD/OEC is helping to set the broad policy framework for public-safety 
broadband networks and ensuring that it aligns with existing emergency 
communications policy. NPPD/OEC is offering technical assistance to the 
jurisdictions that received FCC waivers to allow early deployment of 
broadband public safety facilities and other early adopters of 
broadband solutions to ensure that their activities remain aligned with 
the vision of a nationally interoperable network. NPPD/OEC is also 
developing guidance documents geared toward elected officials, SWICs, 
and UASI/regional coordinators within a State to provide an overview of 
broadband technology, guidance on interoperability planning for 
broadband, best practices from the waiver jurisdictions, and regional 
governance considerations. NPPD/OEC is also coordinating Federal 
broadband efforts to develop requirements and influence standards 
associated with potential Federal user participation in the National 
Public Safety Broadband Network.
          private sector coordination and information sharing
    Question. NPPD has various methods for coordinating and sharing 
information with the private sector related to critical infrastructure. 
The fiscal year 2012 budget proposal indicates that NPPD will 
streamline the process. Please provide a list of each coordination 
group (i.e. national infrastructure protection plan management, 
critical infrastructure key resources coordination, sector-specific 
agency management); their authority or reason for creation (law, 
regulation, Presidential directive, department initiative); how often 
each group meets; and what each produces or accomplishes. Please 
describe in detail how the fiscal year 2012 budget will streamline the 
current process and how it will be coordinated with the private sector 
coordination office in FEMA.
    Answer. The following chart lists each coordination group, 
authority, engagement frequency, products/accomplishments, and 
membership. In addition, the Partnerships project has tracked the 
following growth in the use of the National Infrastructure Protection 
Plan (NIPP) partnership structures:

------------------------------------------------------------------------
                                           Fiscal     Fiscal     Fiscal
                                         year 2008  year 2009  year 2010
------------------------------------------------------------------------
Partnership member institutions........        492        643        861
Partnership councils and working groups         57         78         79
Individual meeting participants........      1,530      1,723      2,197
Council and working group meetings.....        258        475        628
------------------------------------------------------------------------


                                   CRITICAL INFRASTRUCTURE COORDINATION GROUPS
----------------------------------------------------------------------------------------------------------------
                                                          Engagement         Products and
          Organization                 Authority           frequency        accomplishments       Membership
----------------------------------------------------------------------------------------------------------------
Education, training and outreach  National            Meets three times   Information         DHS and SSAs
 awareness working group.          Infrastructure      per year.           sharing with
                                   Protection Plan                         sector-specific
                                   (NIPP).                                 agencies (SSAs)
                                                                           on education,
                                                                           training and
                                                                           outreach
                                                                           activities.
IP-SSA biweekly coordination      Department          Occurs every other  Regular             SSA
 call.                             initiative          Thursday.           communication and   representatives
                                   supporting HSPD-                        coordination
                                   7, NIPP.                                mechanism between
                                                                           IP and the SSAs
                                                                           to discuss
                                                                           ongoing
                                                                           initiatives and
                                                                           issues.
Risk Management Enhancement       Department          Monthly...........  Supports the        SSA
 Initiative Working Group.         initiative                              development of      representatives
                                   supporting HSPD-                        the improved NAR/
                                   7, NIPP.                                SARs/metrics, the
                                                                           new Critical
                                                                           Infrastructure
                                                                           Risk Management
                                                                           Plan (CIRMP), and
                                                                           the National Risk
                                                                           Profile (NRP).
North American Electric           Supports NIPP and   Ad hoc............  Provides insight    DHS, NERC
 Reliability Corp (NERC) Pilot     HSPD-7 reporting                        into measuring
 Program.                          requirements.                           and evaluating
                                                                           resilience within
                                                                           the electric
                                                                           industry.
Sector Annual Report/National     Supports NIPP and   Annually..........  Meetings are        DHS, SSA
 Annual Report (SAR/NAR)           HSPD-7 reporting                        conducted at the    representatives
 technical assistance sessions     requirements.                           beginning of the
 (for each sector-specific                                                 SAR/NAR reporting
 agency).                                                                  cycle in order to
                                                                           discuss sector
                                                                           writing,
                                                                           development, and
                                                                           metrics guidance
                                                                           as it applies.
SLTTGCC and RCCC technical        Supports NIPP and   Annually..........  Meetings are        DHS, SLTTGCC, RCCC
 assistance sessions.              HSPD-7 reporting                        conducted to        representatives
                                   requirements.                           discuss SLTT
                                                                           writing,
                                                                           development, and
                                                                           metrics guidance.
Federal Senior Leadership         HSPD-7, NIPP......  Quarterly.........  Cross-sector        SSA leadership or
 Council meetings.                                                         coordination.       their
                                                                                               representatives
CIKR Cross-Sector Council         HSPD-7, NIPP......  Quarterly.........  Cross-sector        SCC leadership
 meetings.                                                                 coordination.
Agriculture and food sector.....  HSPD-7, NIPP......  Each quarterly at   Various sector      SCC: Trade
SCC meetings                                           minimum.            products (Annual    Associations and
GCC meetings                                                               report, sector      Owner/Operators
Joint SCC, GCC CIPAC                                                       roadmaps, etc.).    GCC: government
                                                                                               representatives
Banking and finance sector......  HSPD-7, NIPP......  Each quarterly at   Various sector      SCC: trade
SCC meetings                                           minimum.            products (Annual    associations and
GCC meetings                                                               report, sector      owner/operators
Joint SCC, GCC CIPAC                                                       roadmaps, etc.).    GCC: government
                                                                                               representatives
Chemical sector.................  HSPD-7, NIPP......  Each quarterly at   Various sector      SCC: trade
SCC meetings                                           minimum.            products (Annual    associations and
GCC meetings                                                               report, sector      owner/operators
Joint SCC, GCC CIPAC                                                       roadmaps, etc.).    GCC: government
                                                                                               representatives
Commercial facilities sector....  HSPD-7, NIPP......  Each quarterly at   Various sector      SCC: trade
SCC meetings                                           minimum.            products (Annual    associations and
GCC meetings                                                               report, sector      owner/operators
Joint SCC, GCC CIPAC                                                       roadmaps, etc.).    GCC: government
                                                                                               representatives
Communications sector...........  HSPD-7, NIPP......  Each quarterly at   Various sector      SCC: trade
SCC meetings                                           minimum.            products (Annual    associations and
GCC meetings                                                               report, sector      owner/operators
Joint SCC, GCC CIPAC                                                       roadmaps, etc.).    GCC: government
                                                                                               representatives
Critical Manufacturing sector...  HSPD-7, NIPP......  Each quarterly at   Various sector      SCC: trade
SCC meetings                                           minimum.            products (Annual    associations and
GCC meetings                                                               report, sector      owner/operators
Joint SCC, GCC CIPAC                                                       roadmaps, etc.).    GCC: government
                                                                                               representatives
Dam, Locks, and Levees sector...  HSPD-7, NIPP......  Each quarterly at   Various sector      SCC: trade
SCC meetings                                           minimum.            products (Annual    associations and
GCC meetings                                                               report, sector      owner/operators
Joint SCC, GCC CIPAC                                                       roadmaps, etc.).    GCC: government
                                                                                               representatives
Defense Industrial Base sector..  HSPD-7, NIPP......  Each quarterly at   Various sector      SCC: trade
SCC meetings                                           minimum.            products (Annual    associations and
GCC meetings                                                               report, sector      owner/operators
Joint SCC, GCC CIPAC                                                       roadmaps, etc.).    GCC: government
                                                                                               representatives
Emergency Services sector.......  HSPD-7, NIPP......  Each quarterly at   Various sector      SCC: trade
SCC meetings                                           minimum.            products (Annual    associations and
GCC meetings                                                               report, sector      owner/operators
Joint SCC, GCC CIPAC                                                       roadmaps, etc.).    GCC: government
                                                                                               representatives
Energy sector...................  HSPD-7, NIPP......  Each quarterly at   Various sector      SCC: trade
SCC meetings                                           minimum.            products (Annual    associations and
GCC meetings                                                               report, sector      owner/operators
Joint SCC, GCC CIPAC                                                       roadmaps, etc.).    GCC: government
                                                                                               representatives
Healthcare and Public Health      HSPD-7, NIPP......  Each quarterly at   Various sector      SCC: trade
 sector.                                               minimum.            products (Annual    associations and
SCC meetings                                                               report, sector      owner/operators
GCC meetings                                                               roadmaps, etc.).    GCC: government
Joint SCC, GCC CIPAC                                                                           representatives
Information Technology sector...  HSPD-7, NIPP......  Each quarterly at   Various sector      SCC: trade
SCC meetings                                           minimum.            products (Annual    associations and
GCC meetings                                                               report, sector      owner/operators
Joint SCC, GCC CIPAC                                                       roadmaps, etc.).    GCC: government
                                                                                               representatives
Nuclear Reactors, Materials, and  HSPD-7, NIPP......  Each quarterly at   Various sector      SCC: trade
 Waste sector.                                         minimum.            products (Annual    associations and
SCC meetings                                                               report, sector      owner/operators
GCC meetings                                                               roadmaps, etc.).    GCC: government
Joint SCC, GCC CIPAC                                                                           representatives
Postal and shipping sector......  HSPD-7, NIPP......  Each quarterly at   Various sector      SCC: trade
SCC meetings                                           minimum.            products (Annual    associations and
GCC meetings                                                               report, sector      owner/operators
Joint SCC, GCC CIPAC                                                       roadmaps, etc.).    GCC: government
                                                                                               representatives
Transportation systems sector...  HSPD-7, NIPP......  Each quarterly at   Various sector      SCC: trade
SCC meetings (Sub-SCCs for                             minimum.            products (Annual    associations and
 Aviation, Maritime, Rail,                                                 report, sector      owner/operators
 Highway and Motor Carrier)                                                roadmaps, etc.).    GCC: government
GCC meetings                                                                                   representatives
Joint SCC, GCC CIPAC
Water sector....................  HSPD-7, NIPP......  Each quarterly at   Various sector      SCC: trade
SCC meetings                                           minimum.            products (Annual    associations and
GCC meetings                                                               report, sector      owner/operators
Joint SCC, GCC CIPAC                                                       roadmaps, etc.).    GCC: government
                                                                                               representatives
National monuments and icons      HSPD-7, NIPP......  Each quarterly at   Various sector      Government
 sector GCC.                                           minimum.            products (Annual    representatives
                                                                           report, sector
                                                                           roadmaps, etc.).
Government facilities sector GCC  HSPD-7, NIPP......  Each quarterly at   Various sector      Government
                                                       minimum.            products (Annual    representatives
                                                                           report, sector
                                                                           roadmaps, etc.).
State, local, tribal, and         NIPP, NIPP........  Biannual..........  Various products    Representatives
 territorial government                                                    (Annual report,     from State,
 coordinating council meetings.                                            etc.).              local, tribal,
                                                                                               and territorial
                                                                                               governments
Regional Consortium Coordinating  NIPP, NIPP........  Ad hoc............  Various products    Members of
 Council meetings.                                                         (Annual report,     regional
                                                                           etc.).              consortiums with
                                                                                               missions related
                                                                                               to critical
                                                                                               infrastructure
                                                                                               protection and
                                                                                               resilience
National Council of Information   NIPP..............  Monthly...........  ..................  Information
 Sharing and Analysis Centers                                                                  Sharing and
 (NCI) meetings.                                                                               Analysis Centers
National Infrastructure Advisory  NIAC Charter        Quarterly.........  19 reports since    Critical
 Council (NIAC) meetings.          (Presidential).                         inception.          infrastructure
                                                                                               stakeholders
----------------------------------------------------------------------------------------------------------------

    Regarding the fiscal year 2012 budget, information sharing and 
coordination activities for the National Protection and Programs 
Directorate's Office of Infrastructure Protection (IP) planned for 
fiscal year 2012 are designed to improve the effectiveness and 
coordination of the councils and expand the participation in 
information-sharing activities by critical infrastructure stakeholders. 
One key aspect is enhancing the critical infrastructure information 
sharing environment and the use of the Homeland Security Information 
Network-Critical Sectors.
    NPPD/IP routinely coordinates with the Federal Emergency Management 
Agency's Private Sector Division and others, especially related to 
training and education activities that are appropriate for the full 
private-sector community. In addition, NPPD/IP, in coordination with 
the Department of Homeland Security's Private Sector Office and the 
Office of Intelligence and Analysis, began a private-sector 
information-sharing improvement initiative in the spring of 2010. The 
initiative focuses on adopting a ``One DHS'' private-sector 
information-sharing approach and seeks to:
  --Enhance strategic communications coordination;
  --Strengthen regionally focused information-sharing efforts; and
  --Enhance information sharing and accountability.
    Through this initiative, DHS will work to increase coordination 
with interagency private-sector information-sharing efforts, evaluate 
and enhance existing processes and methods of information sharing with 
critical infrastructure owners and operators, and improve cross-sector 
information visibility and collaboration within the Critical 
Infrastructure Key Resources Information Sharing Environment. All DHS 
components with private-sector information-sharing activities are 
participating in this initiative.
             federal protective service workforce analysis
    Question. Recent events demonstrate that Federal employees are at 
greater risk. The Federal Protective Service (FPS) is charged with 
protecting employees on Federal property from those who threaten harm 
to the workforce. Yet, FPS has struggled with providing optimal 
service. Balancing its workforce needs against risk is critical to 
ensuring FPS evolves into a premier agency. Senate Report 111-222, 
accompanying the Department of Homeland Security Appropriations Bill, 
2011 directs the National Protection and Programs Directorate to 
provide a workforce staffing model to the subcommittee and to the 
General Accountability Office (GAO) within 45 days. To date, the 
staffing model as not been provided. Please provide a copy of the 
staffing model to the subcommittee and to GAO.
    Answer. The National Protection and Programs Directorate prepared a 
Federal Protective Service staffing plan which is currently being 
finalized.
                      us-visit--carryover balances
    Question. A portion of the fiscal year 2012 budget request assumes 
that a significant level of carryover balances of prior year funds will 
be available to hire staff and perform other activities.
    What impact will there be on US-VISIT if the assumed carryover 
balances are not available for these intended purposes? What changes to 
the program or to US-VISIT operations will have to be made?
    Answer. In this fiscally constrained environment, some difficult 
choices had to be made--one of which was to use the $25.642 million as 
an offset to provide funding for other departmental priorities. Looking 
towards fiscal year 2012, a realignment of funds will be necessary in 
order to enhance the collection and use of biographic exit data and the 
review of potential overstay records--both of which will increase our 
current capabilities and lay a strong foundation for other exit 
measures in the future. The President's budget proposes the realignment 
of $24.358 million in carryover balance in order to hire temporary 
staff to eliminate the existing overstay backlog, as a prerequisite for 
any future biometric exit capability. If the carryover balances were 
not available for this purpose, US-VISIT will not be able to clear the 
existing backlog.
      federal emergency management agency (fema)--disaster relief
    Question. The Disaster Relief Fund (DRF) provides financial support 
for both response and recovery in States that are overwhelmed by the 
devastation of a disaster. For fiscal year 2011, we are facing a $1.6 
billion gap in the DRF. If the President does not request and the 
Congress does not approve supplemental funding, the account will run 
out of money in June, just as we are entering the hurricane season. For 
fiscal year 2012, the problem is even worse because we are facing a $3 
billion gap between the President's request and the known costs of past 
disasters. These shortfalls are specifically the result of past major 
disasters, such as Hurricanes Katrina, Rita, Gustav, and Ike, the 
Midwest floods of 2008, and the Tennessee floods of 2010.
    In fiscal year 2010, there was a similar shortfall. FEMA had to 
stop providing assistance for rebuilding and recovery projects to 
ensure it had enough for immediate needs for disaster response to new 
events. For 5 months, recovery projects all over the Nation stopped. In 
this economy it was not welcome news. Plus, the delays only make the 
projects more expensive.
    Unfortunately, history is repeating itself.
    Please provide a report with quarterly estimates of funding 
requirements for the DRF for the current fiscal year, fiscal year 2012, 
and fiscal year 2013. The report should include an estimate for the 
costs of all previously designated disasters by quarter; the cost of 
future disasters based on a 5-year average, excluding catastrophic 
disasters, by quarter; and a projected date on which the DRF will reach 
a balance of $500 million.
    When will the President submit an emergency supplemental request 
for the known shortfalls?
    In lieu of a supplemental request, the House responded to this 
shortfall by cutting $1.6 billion out of the base Homeland Security 
budget in H.R. 1. They cut the Coast Guard. They cut FEMA. They cut 
grants to State and local first responders and emergency managers. Do 
you believe the House approach to funding the shortfall is the right 
approach?
    If we do not receive an emergency supplemental request, what 
specific cuts will the President propose below his requests for fiscal 
year 2011 and fiscal year 2012 to pay for this shortfall? Or is it your 
policy that FEMA should do what it did last year and simply stop making 
recovery payments?
    Answer. The $1.8 billion requested for the DRF, per standard annual 
practice, reflects the 5-year rolling average of historical obligations 
for noncatastrophic events (those less than $500 million in estimated 
obligations), less estimated recoveries for fiscal year 2012. This 
methodology is one that the administration has proposed in its fiscal 
year 2010 and fiscal year 2011 budgets and represents the best use of 
available information in developing the DRF request. We also have a 
robust strategy in place to deobligate funds from past contracts and 
projects that are now complete and where we did not spend all the money 
originally obligated. Based on our experience in actively managing the 
unliquidated contract obligations in fiscal year 2010, we are taking 
the same approach for Individual Assistance and Public Assistance 
grants in fiscal year 2011, and anticipate that our projected 
recoveries may be higher than previously estimated. Regardless, we are 
committed to working with the Congress to ensure that the DRF remains 
solvent through fiscal year 2011 and fiscal year 2012.
                         proposed cuts to fema
    Question. I am very pleased to see that you have taken a hard look 
at the budget and found places to save on administrative cost such as 
travel and supplies. While I encourage you to continue to find ways to 
create efficiencies, I am concerned that some areas go beyond 
efficiencies and become deep cuts that inhibit performance.
    The fiscal year 2012 budget proposes a $68 million cut to FEMA's 
Management and Administration account (including all transfers). No 
other component in the Department was subjected to such a significant 
cut to its base operations. This proposal looks like the beginning of a 
trend of previous cycles that FEMA has been through. In tough budget 
times and when major disaster responses are a distance memory--at least 
for some inside the beltway--we trim back our readiness efforts.
    The budget proposal cites cuts to facility improvements, 
information systems, and communications systems. Deferred maintenance 
of facilities, turns into deferred maintenance of programs, turns into 
deferred capabilities. Unfortunately, this has not worked well in the 
past.
    In fact, there are a series of reports that show a disturbing cycle 
of building up an emergency management capacity after a failed disaster 
response, letting the capacity wither away when there hasn't been a 
major event for awhile, and then building the capacity back up again 
after another failed response.
    For example, in 1983, a GAO report found that FEMA suffered from a 
variety of management and program problems. Ten years later and after 
the devastation of Hurricane Andrew, the National Academy of Public 
Administration--citing the 1983 GAO report--found many of the same 
problems. Twelve years after Hurricane Andrew, a myriad of reports 
found that the very same problems crippled the response to Hurricane 
Katrina.
    Immediately after each of these disasters, FEMA improved only to 
devolve again within a 10-year period. This is a costly way to do 
business.
    This subcommittee has done its part to ensure the resources FEMA 
needs to rebuild itself once again have been provided since Hurricane 
Katrina. Since 2005, FEMA's workforce has been increased by 50 percent 
to 4,700 strong. Catastrophic planning is more integrated among the 
levels of government. Shelter facility data is better managed between 
the public and private sectors. The disaster contract acquisition 
process is now proactive, not reactive.
    But we have to maintain these improvements. And we still have 
serious work to do--FEMA is not done rebuilding itself. The national 
disaster recovery framework has not been completed; an effective risk 
and preparedness assessment system is not in place; FEMA information 
systems are not sufficient; and the human resources study is not 
complete.
    While not all of these are big expenses, each effort requires a 
strong FEMA base. I am afraid this budget marks the beginning of 
letting FEMA wither on the vine again--just as it did before Hurricane 
Katrina.
    Please provide a complete breakdown of the cuts by FEMA component, 
an explanation of the impact, and a distinction between which cuts are 
onetime costs from fiscal year 2010 and which cuts will delay programs 
and by how long. Why are you satisfied that FEMA can sustain such cuts 
and not only maintain its recent improvements but also keep pace with 
evolving risks?
    Answer. The fiscal year 2012 President's budget provides the 
resources required to support the Agency's ability to fulfill its 
emergency management mission. In light of the current fiscal climate 
and through pursuit of identified efficiencies, FEMA cut administrative 
costs and professional services contracts by streamlining current 
business processes, harnessing the use of innovative technologies, and 
eliminating nonmission-critical spending in order to preserve essential 
operational activities.
    For example, the proposed decrease of $1.6 million in fiscal year 
2012 to FEMA's Office of the Chief Component Human Capital Officer 
(OCCHCO) programs in the Management and Administration (M&A) account 
will not adversely affect the regional offices' abilities to handle the 
expected workloads with regard to hazard mitigation or grants 
management activities, nor does the decrease directly affect any 
staffing levels in the agency.
    Specifically, $900,000 of the decrease represents the elimination 
of funding for the Building Engagement, Strengths, and Talent (BEST) 
contract. FEMA found that the data garnered from the BEST surveys and 
analysis is available from other agency workforce development data 
sources.
    The balance of the budget cuts are split equally between the 
following three areas:
  --Finding general operational efficiencies within less costly general 
        operational requirements, such as enhanced use of video 
        teleconferencing vs. travel expenditures;
  --Leveraging training cost savings by deconflicting separate but 
        similar agency training offered in the separate FEMA 
        Qualification System training programs; and
  --By shifting contract support costs, which directly support the 
        disaster workforce, to the DRF appropriation.
    The proposed funding in the fiscal year 2012 budget request 
supports robust oversight of emergency management operations; national-
level exercises to test FEMA's ability to respond to a catastrophic 
cyber attack; the development of catastrophic plans focused on response 
to biological events and earthquakes; and emergency preparedness, 
coordination, and planning at the local level.
    The following chart provides the requested information. Unless 
otherwise noted, all cuts are reoccurring.

                            FISCAL YEAR 2012 MANAGEMENT AND ADMINISTRATION REDUCTIONS
                                             [Dollars in Thousands]
----------------------------------------------------------------------------------------------------------------
                                                  Fiscal year
                                                    2011 to
               Directorate/office                 fiscal year                   Impact statement
                                                      2012
                                                   reductions
----------------------------------------------------------------------------------------------------------------
Office of Response and Recovery (ORR)--Front
 Office:
    Disaster Management Support Environment           (2,690)  FEMA will move as much of the activity as
     (DMSE).                                                    possible to other sources of funding, leveraging
                                                                the assistance of DHS S&T, and sharing the
                                                                burden across applicable appropriations.
Response:
    Travel......................................      (2,645)  While mission-critical travel will not be
                                                                affected, this cut will reduce general and
                                                                conference attendance by leveraging Web
                                                                conferencing and other technology tools.
    Contracts...................................      (5,562)  In-source several Directorate-wide contracts and
                                                                convert onsite contractor support positions to
                                                                FTEs.
Recovery:
    Travel......................................        (812)  Eliminate nonmission-critical travel; maximize
                                                                use of conference calls and Web-based training
                                                                and meetings.
    Contracts...................................      (6,578)  Reduce selected projects funding through
                                                                efficiencies.
    Equipment...................................        (454)  $453,800 reductions to Quality Assurance
                                                                Recording System (QARS) because procurement is
                                                                complete.
    Salary......................................      (2,437)  Reduce overtime and level of awards, specifically
                                                                funding for merit promotions and regional
                                                                overtime.
Logistics:
    Contracts...................................      (2,360)  No anticipated impact due to significant progress
                                                                made in enhancing logistics capability.
    Salary......................................      (1,626)  Institute systemwide salary cap, limiting
                                                                overtime, awards, etc.
Mitigation:
    Contracts...................................      (2,524)  While this will not impact operations, this cut
                                                                will reduce research, assessment, technology,
                                                                and support contracts.
    Grants/cooperative agreements...............        (826)  Reduce dam safety and earthquake assistance
                                                                funding.
    Salary......................................      (1,624)  Institute systemwide salary cap, limiting
                                                                overtime, awards, etc.
National continuity programs:
    Travel......................................        (760)  Reduce general and conference travel.
    Contracts...................................     (13,740)  Nonrecur funding for one-time costs for IPAWS and
                                                                classified program; reduce program support to
                                                                discussion--based exercises.
Office of the Administrator:
    Travel......................................      (1,816)  Reduce general and conference travel by
                                                                leveraging Web conferencing and other technology
                                                                tools to continue outreach activities and
                                                                sustain training with State and local partners.
    Contracts...................................      (2,046)  Reduce program support contract and professional
                                                                services, specifically for OCFO by leveraging
                                                                existing in-house capabilities.
    Equipment...................................        (596)  Reduce nonmission-critical equipment purchases.
    Salary......................................        (236)  Institute system wide salary cap, limiting
                                                                overtime, awards, etc.
Mission Support Bureau:
    Facilities enhancement......................     (23,300)  Nonrecur one-time increase.
    Business systems investment.................      (5,000)  Reduce investment--operate in maintenance mode.
    Contractual in-sourcing.....................      (7,503)  Convert contracts to permanent positions/in-
                                                                source.
    Travel......................................      (1,428)  Reduce general and conference travel by
                                                                leveraging Web conferencing and other technology
                                                                tools to continue outreach activities and
                                                                sustain training with State and local partners.
    Contracts...................................      (5,808)  Reduce program office support and contract
                                                                services by leveraging existing in-house
                                                                capabilities.
    Equipment...................................      (4,106)  Reduce non mission-critical equipment purchases;
                                                                institute telecommunications efficiencies.
Office of National Capital Region Coordination:
    Contracts...................................      (1,200)  Nonrecur funding for the completion of knowledge
                                                                management system (a la Wikipedia) for risk and
                                                                reduce contracts.
    Salary......................................        (302)  Institute system-wide salary cap, limiting
                                                                overtime, awards, etc.
----------------------------------------------------------------------------------------------------------------
Note: Annual national level exercises may be funded differently depending upon the exercise. Integrated Public
  Alert and Warning System (IPAWS) retrofitting would be delayed.

                             fema staffing
    Question. What method is used to calculate FEMA full time 
equivalent (FTE) usage? Does it vary from the simple calculation of 
number of hours worked divided by an FTE? Is there a unique calculation 
for FTE usage funded from disaster relief?
    Answer. FEMA FTE usage is based upon actuals (for fiscal year 2010) 
and projections (for fiscal year 2011 and 2012) of hours worked divided 
by the number of hours for one FTE. There is no unique calculation for 
FTE usage funded from the DRF.
              categories of expenditure for grant programs
    Question. For the State Homeland Security Grant Program, the Urban 
Area Security Initiative, the Port Security Grant Program, and the 
Public Transportation Security Assistance Program please provide the 
amount spent in each capability category such as communications, 
planning, Chemical, Biological, Radiological, Nuclear, Explosive 
(CBRNE) detection, intelligence and information sharing, and volunteer 
management and donations for fiscal years 2005-2009.
    Answer. The State Homeland Security Program (SHSP), Urban Areas 
Security Initiative (UASI), Transit Security Grant Program (TSGP), TSGP 
Supplemental, and TSGP ferry grant funding are comprised of 38 
principal capabilities that provided more than $6.5 billion in funding 
from fiscal year 2006-2009.
    The table below provides the information requested to the extent 
possible under the Grant Reporting Tool:

         SELECT GRANT PROGRAMS TARGET CAPABILITY FUNDING REPORT
------------------------------------------------------------------------
                                                       Fiscal year  2006-
                   Capabilities \1\                      2009  Funding
                                                             amount
------------------------------------------------------------------------
Animal disease emergency support.....................     $20,743,442.08
CBRNE detection......................................     386,704,474.13
Citizen evacuation and shelter-in-place..............      31,075,070.88
Communications.......................................   1,367,698,117.53
Community preparedness and participation.............     185,274,333.67
Counter-terror investigation and law enforcement.....     304,083,757.85
Critical infrastructure protection...................   1,116,113,358.21
Critical resource logistics and distribution.........      75,601,714.40
Economic and community recovery......................      10,568,637.65
Emergency operations center management...............     191,436,101.57
Emergency public information and warning.............      41,524,731.18
Emergency public safety and security.................     248,819,560.09
Emergency triage and pre-hospital treatment..........      25,344,823.98
Environmental health.................................       1,764,190.73
Epidemiological surveillance and investigation.......      11,453,350.84
Explosive device response operations.................     138,614,977.97
Fatality management..................................      13,842,672.26
Fire incident response support.......................     133,775,284.91
Food and agriculture safety and defense..............      18,742,044.82
Information gathering and recognition of indicators        68,173,961.12
 and warnings........................................
Intelligence analysis and production.................      98,482,865.34
Intelligence and information sharing and                  282,124,151.92
 dissemination.......................................
Isolation and quarantine.............................       3,479,732.45
Laboratory testing...................................       4,893,098.88
Mass care (sheltering, feeding, and related services)      46,925,998.01
Mass prophylaxis.....................................      28,444,288.70
Medical supplies management and distribution.........      25,236,254.98
Medical surge........................................      92,422,098.42
Onsite incident management...........................     169,964,547.36
Planning.............................................     898,629,834.82
Responder safety and health..........................      54,272,195.33
Restoration of lifelines.............................       6,585,975.25
Risk management......................................      33,036,019.11
Search and rescue (land-based).......................      70,162,612.74
Structural damage assessment.........................       1,039,802.34
Volunteer management and donations...................       4,143,404.68
Weapons of mass destruction and hazardous materials       307,023,005.21
 response and decontamination........................
                                                      ------------------
      Grand Total....................................  6,518,220,491.41
------------------------------------------------------------------------
\1\ This table includes FEMA SHSP and UASI.

       grants to state and local governments for first responders
    Question. In this Nation we have set up a system whereby, the 
smallest level of government is responsible for responding to a 
disaster until it is overwhelmed and then it must work with other 
communities, States, the private sector, and the Federal Government 
depending on the size of the disaster. No doubt, State and local first 
responders will be the first on the scene during an incident. When 
there is a catastrophic event, the whole Nation will have to respond. 
Because of this, few disagree that each level of government has to 
contribute resources to prepare for, respond to, mitigate against, and 
recover from such events. However, many disagree on how much should be 
contributed and from what entity. This disagreement has been further 
highlighted as resources at all levels become more limited. Each year 
the President's budget is submitted with the same proposal purporting 
to streamline grant programs. Each time that proposal has been rejected 
due to a lack of understanding of how it will actually be implemented, 
its inconsistency with the underlying authorization law, and concerns 
from stakeholders. Further, the Department has yet to submit a metric 
to demonstrate how the grants are best targeted to needed capabilities. 
Since our emergency management environment is continually evolving, the 
issue of Federal grants to support State and local preparedness is also 
dynamic. For this reason, the report accompanying the Department of 
Homeland Security Appropriations Act, 2010 created a preparedness task 
force which made specific recommendations related to funding grants and 
measuring their performance. Further, the specific authorized funding 
levels for many of the grant programs authorized in the 9/11 Act will 
end in fiscal year 2012. The next step is for the executive branch to 
provide leadership for an innovative approach to grant programs that 
can be supported by stakeholders. Yet there is very little evidence 
that a commitment to this effort is real by FEMA or the Department. 
Secretary Napolitano, this issue is not only one of citizen safety and 
security but it is also an economic imperative to make the Nation more 
resilient through better preparedness and more efficient recovery.
    Will the Department propose legislation to reform the grant 
programs?
    What innovative approaches can you introduce which will also be 
supported by stakeholders, to ensure our State and local partners in 
homeland security and emergency management are sustaining the right 
capabilities for our known and anticipated risks?
    Who specifically in your agency is responsible to lead the issue of 
preparedness and Federal grants and what products will you require of 
them in fiscal year 2011 and fiscal year 2012 to ensure policy and 
requested funds are meeting the Nation's needs? What timeframe will you 
hold them to on these products?
    Answer. In its last two budgets, the administration has proposed 
consolidating grant programs where activities are allowable under 
multiple grants. Specifically, the fiscal year 2011 and 2012 budgets 
propose to consolidate a number of individual grant programs (including 
driver's license security/real ID, interoperable emergency 
communications, emergency operations centers, and buses) and make them 
part of larger/broader grant programs such as UASI and SHSP. This 
consolidation will reduce the number of separate grant programs, which 
provides the Secretary flexibility to direct funding to the most urgent 
priorities and reduces the number of applications a State will need to 
submit and that FEMA will need to process.
    FEMA agrees with recommendation #14 in the Local, State, Tribal, 
and Federal Preparedness Task Force's report to the Congress, which 
calls for ``Threat and Hazard Identification and Risk Assessment 
(THIRA) processes at all levels of government to establish a foundation 
to justify preparedness improvements.'' The detailed recommendation 
came directly from the stakeholder community.
    FEMA's Deputy Administrator for Protection and National 
Preparedness (PNP), Timothy Manning, is responsible for the Agency's 
preparedness and Federal grant responsibilities. Within FEMA/PNP, the 
Grant Programs Directorate (GPD) is responsible for the administration 
of preparedness grants; and the National Preparedness Directorate (NPD) 
is responsible for preparedness activities, including individual and 
community preparedness, planning guidance, technical assistance, 
training, exercises, preparedness doctrine and policy, and preparedness 
assessments.
    FEMA has taken the recommendations from the Local, State, Tribal, 
and Federal Preparedness Task Force report into consideration while 
working to improve coordination and consolidation of FEMA's grant 
programs, including coordinating interagency grant programs and more 
closely linking capability assessments to grant activities. FEMA has 
also contracted with the National Association of Public Administration 
(NAPA) to conduct a study to develop a core set of performance measures 
that can be used to track performance of the SHSP and UASI grants.
               national domestic preparedness consortium
    Question. The President's budget request proposes deep cuts, 56 
percent, to first responder training through the National Domestic 
Preparedness Consortium (NDPC). It proposes to cut funding for four 
members of the NDPC who train emergency personnel from all over the 
country to respond to weapons of mass destruction, including chemical, 
biological, radiological, nuclear, and explosives attacks. Further, it 
completely eliminates funding for two members: one that provides 
training for response to natural disasters and one that provides 
training specific to transit related incidents. I do not understand 
these cuts, especially when the NDPC uses a cost-effective model that 
sends instructors to the community receiving training when possible 
reducing the travel, accommodations, and backfill expenses of first 
responders. What is the Department's justification for cutting funding 
to this highly regarded training for first responders? Further, in 
light of the fact that the United States was struck by more than 106 
natural disasters last year and there have been more than 1,300 
attacks, killing or injuring more than 18,000 people worldwide on 
trains and subways over the last 7 years worldwide why is training 
funding eliminated for natural disaster response training and transit 
response training when these are clearly known risks?
    Answer. The fiscal year 2012 President's budget is consistent with 
the fiscal year 2010 and fiscal year 2011 proposals, and the resources 
requested are sufficient to meet training needs. The two recipients 
whose funding was eliminated represent congressional earmarks. In 
addition, States are assuming increased responsibility for awareness 
level, refresher, and sustainment training, allowing our institutional 
partners to focus resources on more advanced, specialized training 
consistent with their respective expertise. Further, States are 
permitted to support hazard-specific training efforts with SHSP and 
UASI grant programs funds, both subject to proposed fiscal year 2012 
increases overall.
                     urban area security initiative
    Question. The House fiscal year 2011 continuing resolution includes 
a provision that limits the number of UASI grant recipients to 25. Some 
argue that the list should be even shorter and only support the cities 
in the top tier of risk. The 9/11 Act requires the FEMA Administrator 
to complete an annual risk assessment of the 100 most populous urban 
areas and to determine grant awards based on that risk review. Last 
year 64 urban areas received funding based on your risk assessment.
    What specifically led you to determine that risk is more widespread 
than some others believe? What is your position on the House amendment 
to reduce the number of urban areas from 64 to 25? How will the House 
amendment impact how risk is addressed in the Nation?
    Answer. Historically, al Qaeda has focused on prominent political, 
economic, and infrastructure targets to produce mass casualties, 
visually dramatic destruction, significant economic aftershocks, and 
fear among the population. The UASI program was authorized and 
implemented to reduce the vulnerabilities of our key metropolitan areas 
to these types of terrorist threats. While mostly outside the scope of 
the UASI program, recent events suggest a trend in which terrorists 
seek to conduct smaller, more achievable attacks against easily 
accessible targets. Within the past year, attempted attacks and plots 
in the United States progressed to an advanced stage largely because of 
these groups' ability to use operatives that have access to and 
familiarity with the United States as well as their use of new and 
varied attack patterns.
    DHS and FEMA leadership have awarded grants to UASI-eligible cities 
using an allocation methodology that was a continuation of prior 
approaches to awarding these types of grants. To determine the UASI-
eligible cities, DHS and FEMA apply a risk formula that incorporates 
threat, vulnerability, and consequence. The administration is committed 
to working with the Congress, as it seeks to improve upon current risk-
informed approaches.
    The fiscal year 2011 Homeland Security full-year appropriations 
bill did not limit the number of eligible UASI cities to 25. As 
directed in section 101 of the 9/11 Act, which amends title XX, 
sections 2003 and 2007 of the Homeland Security Act, FEMA will continue 
to assess on an annual basis the relative risk of the 100 most populous 
metropolitan statistical areas.
                   emergency food and shelter program
    Question. I understand the Emergency Food and Shelter Program uses 
a very specific formula to distribute funding based on unemployment 
data and poverty figures. While there are signs that the economy is 
improving, the recovery has not yet reached those who are the hurting 
the most the unemployed and the poor. What economic data was used as 
the basis for the proposed reduction to $100 million?
    Answer. The fiscal year 2012 President's budget for the Emergency 
Food and Shelter (EFS) Program at the $100 million level is consistent 
with the level requested in the President's budget for fiscal year 2010 
and fiscal year 2011.
    FEMA awards the total funds appropriated by the Congress to the 
National Board for the EFS Program, as required by the McKinney-Vento 
Homeless Assistance Act. The National Board then allocates the funding 
to approximately 2,500 local jurisdictions in all States and 
territories using a formula based on the latest 12-month statistical 
data on national unemployment and poverty provided by the U.S. Bureau 
of Labor Statistics.
            national flood insurance program and flood maps
    Question. Annual flood losses in the United States total more than 
$2.4 billion. More than 5.5 million people currently hold flood 
insurance policies in more than 20,500 communities across the United 
States.
    The Nation's flood maps, managed by FEMA, help us assess the risk a 
community faces and determine how to insure against that risk. 
Unfortunately, the process used to develop these maps is cumbersome and 
lacks an ability to apply common sense solutions to a community's 
unique factors. I understand that we have to insure against floods, but 
in this day and time, it also has to be affordable.
    Recognizing that the Congress, through the Banking Committee which 
has jurisdiction over this matter, is considering significant reform to 
the National Flood Insurance Program, FEMA began a critical review of 
the program. The review is projected to be completed as late as June of 
2012. I just don't think people can wait that long for reform. The 
National Committee on Levee Safety, which was established by the 
Congress and includes representatives from FEMA and the Corps of 
Engineers, issued recommendations for reforms back in January 2009. 
Some have called for stopping the mapping process altogether and others 
want to move forward but include measures that improve local capacity 
and map accuracy. Twenty-seven Senators, including myself, and 49 House 
Members, wrote to you last month to express concerns about the program 
and to propose specific reforms.
    Are you satisfied that the Nation is moving as quickly as possible 
on this matter? What can be done to expedite the executive branch's 
proposal for reform?
    Answer. Currently, FEMA is executing the National Flood Insurance 
Program (NFIP) Reform work plan, and is evaluating changes to the 
program. This process was designed to engage program stakeholders from 
a variety of perspectives, and to date has included hundreds of 
stakeholders in a series of public meetings and generated thousands of 
public comments on reform possibilities.
    The original NFIP reform work plan envisioned an 18-month process, 
to ensure thorough and transparent engagement with a wide variety of 
program stakeholders. Based on feedback from the Congress, FEMA has 
accelerated this schedule, and hopes to report findings before the end 
of this 18 months timeframe. This will allow for consideration of 
program reforms by decisionmakers prior to the expiration of the 
current NFIP authorization in September 2011.
        flood hazard map risk analysis (fhmra) and modernization
    Question. To date, $1.65 billion has been provided to digitize 
flood maps, and in many cases, improve the data used to create maps. 
How many maps, by State, still need to have significantly improved 
engineering data/validated data added to the maps? Please provide a 
comparison of the number of maps that will be produced if the budget 
request of $103 million is provided for FHMRA compared to the fiscal 
year 2010 level.
    Answer. FEMA tracks the flood hazard inventory by stream and 
coastal miles. Our total modernized inventory is comprised of about 
900,000 miles. The national need stands at 59 percent of stream miles 
(currently 41-percent valid). This means about 530,000 miles of the 
inventory needs updating to reach 100 percent valid. The goal in the 
Risk MAP multi-year plan was to reach 80 percent valid. This equates to 
350,000 miles. As a percentage of the modernized map inventory of about 
100,000 maps, about 59,000 maps need updating to reach 100 percent, 
39,000 maps need updating to reach 80 percent valid.
    At the fiscal year 2010 funding level, FEMA would begin updating 
9,000-12,000 maps. Under the proposed funding level for fiscal year 
2012, FEMA estimates 6,000 to 8,400 maps less per year will be 
produced. FEMA will adapt its project sequencing process in an aim to 
keep pace with the eroding reliability of the flood hazard analyses and 
maps.
    The data presented below is from a data collection done on January 
28, 2011, and shows the percentage of miles by State that are currently 
invalid. This information is improving regularly. The national need 
stands at 59 percent of stream miles (currently 41-percent valid).

                  FEMA NATIONAL FLOOD HAZARD INVENTORY
   [Percentage of stream and coastal miles by State currently needing
                                updates]
------------------------------------------------------------------------
                                                           Percentage of
                                                           miles needing
                                                           significantly
                          State                              improved
                                                            engineering
                                                          data/validated
                                                               data
------------------------------------------------------------------------
Alabama.................................................              42
Alaska..................................................            \1\
Arizona.................................................              99
Arkansas................................................              69
California..............................................              93
Colorado................................................              70
Connecticut.............................................              98
District of Columbia....................................              12
Delaware................................................              58
Florida.................................................              88
Georgia.................................................              39
Hawaii..................................................              99
Idaho...................................................              99
Illinois................................................              93
Indiana.................................................              85
Iowa....................................................              13
Kansas..................................................              30
Kentucky................................................              14
Louisiana...............................................              86
Maine...................................................              99
Maryland................................................              37
Massachusetts...........................................              98
Michigan................................................              30
Minnesota...............................................              37
Mississippi.............................................              51
Missouri................................................              47
Montana.................................................              81
Nebraska................................................              10
Nevada..................................................              92
New Hampshire...........................................              96
New Jersey..............................................              73
New Mexico..............................................              43
New York................................................              38
North Carolina..........................................              57
North Dakota............................................              72
Ohio....................................................              39
Oklahoma................................................              60
Oregon..................................................              95
Pennsylvania............................................              38
Rhode Island............................................              98
South Carolina..........................................              37
South Dakota............................................              92
Tennessee...............................................              23
Texas...................................................              83
Utah....................................................              94
Vermont.................................................              94
Virginia................................................              79
Washington..............................................              95
West Virginia...........................................              75
Wisconsin...............................................              83
Wyoming.................................................             99
------------------------------------------------------------------------
\1\ Not yet available.

   united states citizenship and immigration services--international 
                            adoptions--haiti
    Question. The Help HAITI Act, which was enacted in December 2010, 
responded to the need for the families of the 1,400 Haitian orphans who 
were granted humanitarian parole in the aftermath of the January, 2010, 
earthquake, to immediately apply to adjust the immigration status from 
parolee to legal permanent resident. Prior to the enactment of the Help 
HAITI Act, these orphans, upon finalizing their adoptions by American 
families in U.S. State courts, would have had to wait for 2 or more 
years to adjust their immigration status to legal permanent resident. 
During this 2-year period, these vulnerable children would have 
remained in limbo, leaving them with fewer legal protections, 
potentially ineligible for critical resources, and at risk of being 
returned to Haiti.
    Several Members, including myself, sent you a letter asking for the 
swift implementation of the Help HAITI law, to ensure that families are 
able to move towards naturalization as soon as possible. You responded 
to our letter on February 7, 2011, and noted that many of the 
suggestions we had made to streamline the process for the adoptive 
families have already been implemented by the Department. I appreciate 
what has been done to date in this regard.
    Can you please identify the specific steps you have taken towards 
the implementation of the Help HAITI Act? Are there additional steps 
that the Congress needs to take legislatively to assist these families 
with these adoptions?
    As you know, I am deeply concerned about how the Congress can work 
with your Department--and other Departments involved in the 
international adoption process--to safely and efficiently improve this 
process so that adoptive parents can be joined with children eligible 
for adoption. I hope you will commit to working with me on this issue.
    Answer. The following is a timeline of steps U.S. Citizenship and 
Immigration Services (USCIS) took to implement this law:
  --Sent a letter to each of the parents/sponsors of paroled Haitian 
        children to advise them of the passage of the act. The letter 
        also informed them that additional information would be sent to 
        them and that the USCIS Web site would be updated with 
        information about filing under the act. (12/16/2010)
  --Implemented an interim policy for implementation of the act. (12/
        21/2010)
  --USCIS Web site announcement posted about the act's implementation. 
        (1/3/2011)
  --Filing instructions posted on the USCIS Web site. (1/4/2011)
  --A follow-up letter was sent out to the parents/sponsors of paroled 
        Haitian children with instructions on how to apply under the 
        act. (1/5/2011)
  --Teleconference held for families of paroled Haitian children and 
        other external stakeholders. (2/9/2011)
  --USCIS systems updated to produce the Green Cards reflecting the 
        newly established class of admission code HH-6. (2/27/2011)
    Through March 14, 2011, approximately 30 individuals had filed 
applications to adjust status under the act. The act established a cap 
of 1,400 through December 9, 2013. USCIS is closely monitoring the 
number of applicants and approvals. USCIS will contact at a later date 
the parents/sponsors of the children that have not yet filed to remind 
them of the act.
    As the provisions of the act will permit all children authorized 
parole under the Special Humanitarian Parole Program to obtain lawful 
permanent status in the United States, the Department does not believe 
additional steps or legislation is needed.
              international adoptions--cambodia and nepal
    Question. USCIS has played a central role in the processing of 
orphan visas for the nearly approximately 200,000 children adopted by 
United States citizens over the last decade. I know that this role is 
not one that is taken lightly and appreciate the work that you and your 
Department have done to make the adoption of children from other 
countries both efficient and ethical. That being said, I remain 
concerned that USCIS has felt there was no alternative in at least two 
countries, almost 10 years ago in Cambodia and most recently in Nepal, 
than to suspend orphan visa processing altogether. To me, suspending 
adoptions in response to allegations of fraud is like shutting down the 
international banking system because of a bank robbery. We need to find 
a better more targeted way of using the law to preventing abuse and 
then actively prosecuting those who abuse the law.
    Please provide the subcommittee with examples of ways we might work 
together to provide the Department with alternative measures to protect 
children, their birth families, and their potential adoptive families?
    Answer. The Department believes that the best way to respond to 
concerns about abuse in the intercountry adoption context is through 
implementing better safeguards and protections in the process. I share 
your concerns about the total suspension adoption processing in certain 
countries. Where possible, the better approach is to identify and seek 
to address specific problems in adoption programs without suspending 
them completely. The Hague Adoption Convention, which entered into 
force for the United States in 2008, implements procedures for 
intercountry adoption processing that include many important safeguards 
helping guarantee the transparency and integrity of the adoptions 
process.
    The Department supports a U.S. Government approach of working 
proactively with countries of origin that have not yet signed or 
ratified the Hague Adoption Convention to assist them in developing the 
appropriate child welfare infrastructure needed for Hague 
implementation. In the meantime, DHS also supports making changes to 
U.S. non-Hague adoption immigration processing policy and procedures 
that include some of the protections of Hague policy and processing, 
particularly those that enhance transparency and integrity in 
intercountry adoption.
    In August 2010, the Department of State (DOS) identified a serious 
concern in the processing of adoption cases from Nepal involving 
children presented as abandoned--namely that the documentation provided 
by the Nepali police validating the abandonments of the children was 
unreliable and not credible. DOS and USCIS conducted a joint 
investigation which resulted in the suspension of processing of new 
abandonment cases for Nepali children. Since then, DOS and USCIS have 
been processing the 64 abandonment cases that were already in progress 
as of the suspension date, all but 6 of which have required detailed 
Requests for Additional Evidence because the initial documentation 
provided with the adoption petitions failed to establish that the 
children could be defined as orphans under U.S. law. This suspension 
affected only abandonment cases in Nepal, and the program remains open 
for cases involving relinquished children. The processing of the 64 
abandonment cases is ongoing.
    The Department will continue to look for ways to strengthen 
international adoption policies and operational practices to the 
benefit of children and families, and looks forward to working with 
closely with the Subcommittee on this issue.
                                e-verify
    Question. What activities did funds provided to E-Verify for 
Monitoring and Compliance support in fiscal year 2010? What metrics are 
in place to track the success of the Monitoring and Compliance division 
in ensuring employer compliance with system rules?
    What steps can a worker currently take to challenge an erroneous 
final nonconfirmation? Are there any forms of redress, reconsideration, 
or protections in place for workers who lose their job as a result of 
an erroneous final nonconfirmation? What is the estimated cost of 
making E-Verify mandatory nationally?
    A recent Government Accountability Office report called USCIS's 
prior cost estimate ``minimally credible''. What steps are being taken 
to further improve the accuracy of cost assessments? What fiscal impact 
would making E-Verify mandatory have on small businesses?
    Bloomberg Government reported that if E-Verify had been mandatory 
for all employers in 2010, it would have cost businesses $2.7 billion-
$2.6 billion of which would have been borne by the small businesses 
that drive our economy. Does USCIS concur in that estimate? If not, 
please explain why?
    Answer. In fiscal year 2010, the E-Verify Monitoring and Compliance 
(M&C) program continued to expand in terms of capacity, compliance and 
initiatives to enhance the integrity of the E-Verify system. Hiring and 
recruitment were underway for an additional 44 M&C staff. As of the 
beginning of March 2011, 13 were on board and 20 are in clearance. To 
increase M&C staff's capacity to process more cases, an enhancement was 
made to the Compliance Tracking and Management System, which helped to 
streamline processing and decrease manual data entry. System 
requirements for an enhanced data analytics tool were completed in 
fiscal year 2010 in anticipation of fiscal year 2011 procurement, 
allowing more detailed and full analysis of employer behavior. In terms 
of compliance activities, M&C contacted approximately 15,000 employers 
related to noncompliance.
    M&C also started tracking additional employer actions. These 
actions include monitoring for:
  --Duplicate Social Security numbers (two reports);
  --Verifying employees hired before November 7, 1986 (employers must 
        complete the Form I-9 before using E-Verify, and employers may 
        not use the Form I-9 for employees hired before November 7, 
        1986);
  --Nonuse of E-Verify;
  --Terminating employees following a Tentative Nonconfirmation (TNC);
  --Verifying an employee more than 3 days after he or she was hired; 
        and
  --Verifying existing employees.
    M&C also executed a Memorandum of Understanding related to sharing 
of information and monitoring employer actions referred to it by the 
Department of Justice Civil Rights Division's Office of Special Counsel 
for Immigration-Related Unfair Employment Practices.
    More than 45,000 employers who have signed new agreements with E-
Verify have been vetted through Dun & Bradstreet to ensure that 
companies enrolling in E-Verify are legal and active corporate 
entities. This further strengthens the integrity of the system by 
verifying the legitimacy of employers using the system. USCIS plans to 
ensure all of the 250,000 employers are vetted in the coming year.
    E-Verify system enhancements have also included new closure codes 
to be used by employers to ensure resources are devoted to cases that 
may point to possible misuse of the system. For example, this change 
helps M&C analysts have more insight as to whether an employee run 
through E-Verify was terminated as a result of an E-Verify finding or 
if they quit voluntarily.
    An important enhancement to E-Verify was the addition of passport 
data and photos as part of our continuing efforts to address identity 
fraud and employee use of falsified documents.
    Regarding metrics, M&C monitors employers who were subject to 
compliance action. Fiscal year 2010 data indicate that 90 percent of 
employers corrected past processes and are now in compliance with E-
Verify program rules and policies for which they received compliance 
assistance.
    USCIS is committed to ensuring that workers who receive a final 
nonconfirmation in error are treated equitably. Even if an employee 
receives a final nonconfirmation, the employer may retain the employee 
provided that it notifies DHS. Section c.6 of the E-Verify Memorandum 
of Understanding signed by the employer states, ``The employer must 
notify DHS if it continues to employ any employee after receiving a 
final nonconfirmation, and is subject to a civil penalty between $550 
and $1,100 for each failure to notify DHS of continued employment 
following a final nonconfirmation.'' The employer may notify DHS by 
selecting the following option when closing out the case in the E-
Verify system:
  --The employee continues to work for the employer after receiving a 
        final nonconfirmation result. E-Verify cannot verify that this 
        employee is authorized to work in the United States. The 
        employee had contested the tentative nonconfirmation, but was 
        unable to resolve it. The employer chooses to exercise its 
        legal right to allow the employee to continue to work.
    Employees who believe that they received a final nonconfirmation in 
error have called either the E-Verify employee hotline or the Office of 
Special Counsel (OSC) for Unfair Immigration-Related Employment 
Practices. USCIS and OSC have a coordinated process for intervening on 
the employees' behalf. Both telephone numbers are found on employee 
tentative nonconfirmation notices and referral letters.
    E-Verify staff will assist the small number of employees who 
receive a final nonconfirmation in error and intervene on their behalf. 
Specifically, USCIS and OSC have helped employees return to their jobs 
after they were terminated for receiving a final nonconfirmation by 
contacting their employers and explaining to them that the final 
nonconfirmation was issued in error. In a minority of overturned final 
nonconfirmation cases, OSC was also able to get back pay for employees 
in addition to getting them reinstated.
    To help employees avoid the adverse consequences associated with 
erroneous final nonconfirmations, USCIS will begin a phased deployment 
of Self Check in March, 2011. Self Check provides individuals with the 
ability to confirm their own employment eligibility status. For those 
individuals who will be working for an E-Verify employer, Self Check 
will enable them to identify any potential data mismatches before 
employment begins and the employer runs an E-Verify check. E-Verify 
Self Check is not for employer use. Employers may not require workers 
to use Self Check or show Self Check results.
    The estimated cost of making E-Verify mandatory would depend on the 
details of legislation making the system mandatory, fully considering 
all relevant factors and cost drivers.
    The recent GAO findings were based solely on cost estimates related 
to the Verification Information System's (VIS--the IT system that 
supports E-Verify) Life Cycle Cost Estimates (LCCE). Significant 
revisions have been made since the review by GAO. In addition to 
performing sensitivity and risk analyses of the data, an independent 
reviewer (i.e., the MITRE Corporation) analyzed the revisions to 
determine whether the new estimates possessed the four characteristics 
identified by GAO as being reliable cost estimates:
  --Comprehensive.--According to MITRE's analysis, the current version 
        of the estimate now breaks each enhancement project into 
        smaller elements using the phases of the Systems Engineering 
        Life Cycle (SELC) as a model. The estimate now incorporates 
        historical cost data, but still does not include some external 
        program costs for activities such as Operation and Maintenance 
        (O&M) and security costs which are funded by the USCIS Office 
        of Information Technology (OIT). There is ongoing effort 
        related to this evaluation to include these costs.
  --Well Documented.--Methods used to develop the estimate are now 
        clearly documented and presented in a manner as to be recreated 
        by someone unfamiliar with the estimate. The current version of 
        the estimate now contains an accompanying workbook detailing 
        the data and calculations used in deriving all estimates and a 
        risk register was created that identifies specific program 
        risks.
  --Accurate.--The current LCCE has been updated to reflect 
        programmatic changes as of the second quarter of fiscal year 
        2011, including actual Social Security Administration (SSA) 
        cost projections.
  --Credible.--The estimate now contains both sensitivity and risk 
        analysis sections consistent with best practices outlined by 
        GAO. The MITRE review also found that an underestimation of the 
        cost risk. This issue has been addressed and a more realistic 
        method of correlation estimation has been used.
    Regarding the fiscal impact on small businesses of making E-Verify 
mandatory, at this time, USCIS does not have data and analysis that 
would specify the potential impact. USCIS will consider conducting 
analysis on this matter in the future.
            federal law enforcement training center (fletc)
    Question. At the February 17, 2011 Homeland Security and 
Governmental Affairs hearing, the Secretary said FLETC recently piloted 
a test curriculum on homegrown violent extremism with participation 
from local police and sheriff departments. Please provide more 
information about this pilot program. How will this change or expand 
FLETC's current missions and curricula focus? What is the plan to 
continue pilot testing, rolling out the program? Who will the training 
focus on? State and local? Rural, urban, Federal law enforcement?
    Answer. In February 2010, I tasked the Homeland Security Advisory 
Council (HSAC) to work with State and local law enforcement as well as 
relevant community groups to develop recommendations on how the 
Department can better support community-based efforts to combat violent 
extremism domestically. To this end, HSAC established a Countering 
Violent Extremism (CVE) working group consisting of law enforcement, 
community leaders, State and local government officials, youth leaders, 
academic leaders, and other subject matter experts to provide a series 
of recommendations.
    In response to these recommendations, DHS has been working with 
Federal partners as well as State and local law enforcement 
organizations to develop guidance for the development of CVE training.
    A proof of concept session, based on the newly drafted curriculum 
guidance, was hosted at FLETC in Glynco, Georgia from February 8-10 and 
included State, local, and tribal law enforcement officials from around 
the country. Participants received preexisting FLETC CVE related 
training, after which they discussed the training and provided 
feedback. A training needs assessment was conducted during the session 
to identify the appropriate scope and direction of the CVE training. 
Findings were compared against nationally recognized and emergent best 
practices for similar topics. The participants identified four crucial 
topical areas:
  --Community-oriented policing;
  --Cultural awareness;
  --Information sharing, including suspicious activity reporting and 
        intelligence-related information processes; and
  --Civil rights and privacy.
    In addition, the participants identified the need for at least two 
versions of the CVE training: an executive level course, targeting 
command level law enforcement leadership; and a line officers course, 
targeting patrol officers and investigators.
    As a result of the curriculum development session, the FLETC will 
develop the Countering Violent Extremism Training Program (CVETP), in 
collaboration with State and local police stakeholders and subject 
matter experts. The training will focus on State, local, and tribal law 
enforcement officers who serve in urban and/or rural environments. In 
addition, CVE training will be incorporated into existing training 
programs for Federal officers and agents conducted at the FLETC.
    Next steps in rolling out the program include the Design Phase, 
which involves a Curriculum Development Conference (CDC) to finalize 
training topics, write performance objectives and outline the training 
schedule; the Development Phase, which will encompass resource 
identification, lesson plan and training materials development, and 
determination of instructional methodologies; and the pilot program, 
which will test the validity of the established CVETP goals and 
objectives. Delivery of the pilot program is expected within 120 days 
following the CDC.
    Following delivery of the pilot program, the CVETP will begin the 
Evaluation Phase to determine program content and criterion validity. 
Participant feedback will be collected, instructors will be evaluated, 
and any adjustments to the curriculum identified as a result of the 
delivery of the pilot will be incorporated into the CVETP prior to full 
implementation. Using a combination of delivery mechanisms, 400-600 
students are expected to be trained during fiscal year 2011 and 2,400-
3,600 in fiscal year 2012. By fiscal year 2013, instructor-led content 
will be converted to a digital format to allow interactive delivery 
using an electronic learning portal. As a result, an unlimited number 
of law enforcement students can potentially be trained using available 
technologies.
             science and technology--laboratory facilities
    Question. Provide the distribution of the $276.5 million request 
for laboratory facilities, by facility and purpose.
    Answer. The table below provides the distribution of the $276.5 
million request for laboratory facilities, by facility and purpose.
------------------------------------------------------------------------
                                                            Fiscal year
                                                               2012
                                                            President's
                                                          budget request
------------------------------------------------------------------------
Construction:
    Infrastructure upgrades \1\.........................           $18.2
    National Bio and Agro-Defense Facility (NBAF).......           150.0
Operations:
    Chemical Security Analysis Center (CSAC)............             0.8
    National Urban Security Technology Laboratory                    2.3
     (NUSTL)............................................
    Plum Island Animal Disease Center (PIADC)...........            40.8
    Transportation Security Laboratory (TSL)............            13.4
    National Biodefense and Analysis and Countermeasures            30.9
     Center (NBACC).....................................
Laboratory salaries and benefits........................            20.1
                                                         ---------------
      Total.............................................          276.5
------------------------------------------------------------------------
\1\ In fiscal year 2012, S&T plans infrastructure upgrades at TSL.

        aviation security research--automated target recognition
    Question. Provide an assessment by the Science and Technology 
Directorate of the Automated Target Resolution (ATR) technology that is 
being tested as a software upgrade to Advanced Imaging Technology 
units? Based on S&T's assessment of this technology, will it be ready 
for deployment in fiscal year 2011? What is the schedule for 
certification?
    Answer. The Science and Technology Directorate's (S&T) Automated 
Target Recognition (ATR) project develops advanced software 
capabilities for AIT units to detect explosives and concealed weapons. 
This project also will introduce new standalone or adjunct imaging 
technologies, such as computed tomography, to continue the improvement 
of detection performance and the detection of novel explosives. This is 
critical to improve detection, lower false alarm rates, and reduce 
privacy concerns. S&T is currently evaluating advanced threat 
recognition software to guide further enhancements to reach full-scale 
development and deployment.
    One millimeter-wave based ATR system recently completed 
qualification testing at the DHS Transportation Security Laboratory. 
Based on these results, the TSA granted authority to pilot the system 
for passenger screening purposes at three aviation checkpoint test 
sites (Hartsfield-Jackson Atlanta International Airport, Ronald Reagan 
Washington National Airport, and Las Vegas-McCarran International 
Airport). S&T has approved the system's test and evaluation master plan 
addendum and the operational test plan. TSA has concluded operational 
testing and evaluation and the results are currently being compiled and 
reviewed. The final operational test report is scheduled for May 2011. 
Once all reports are received, S&T will complete a letter of assessment 
for the testing.
   domestic nuclear detection office--radiation portal monitor (rpm) 
                                program
    Question. Provide a status update of RPM requirements by vector 
including total RPMs required by vector, systems deployed, and the 
percentage completed. Indicate gaps where solutions do not exist. The 
request includes $37.4 million for RPM acquisitions. How will this 
money, in addition to unobligated balances, reduce the gap in RPMs 
necessary at each vector? Provide a plan for RPM unobligated balances 
and the $37.4 million requested for fiscal year 2012. Distinguish 
between current generation and ASP deployments. How is the Helium-3 
shortage impacting this program? Has a solution been identified?
    Answer. The response to this question is designated as For Official 
Use Only (FOUO). The Department will submit the response under separate 
cover.
               human portable radiation detection systems
    Question. For Human Portable Radiation Detection Systems (HPRDS), 
provide a chart showing the notional fiscal year 2012 acquisition plan 
by technology, the quantity, and by DHS component. What is the total 
number of HPRDS needed by each component?
    Answer. The chart below provides the notional fiscal year 2012 
acquisition plan by technology, the quantity, and by DHS component.

----------------------------------------------------------------------------------------------------------------
                                                                                                   Total (in
                       Fiscal year 2012                             Cost          Quantity        millions of
                                                                                                    dollars)
----------------------------------------------------------------------------------------------------------------
CBP:
    (LaBr) next generation handhelds.........................         $30,000             340              10.0
    (HPGe) next generation advanced handheld (upgrade).......         100,000               2               0.20
USCG:
    (LaBr) next generation handhelds.........................          30,000             100               3.00
    Personal radiation detectors.............................           2,800             700               1.94
DNDO:
TSA-VIPR Procurement \1\:
    Recapitalization.........................................  ..............  ..............               1.00
MDDP Procurement:
    Radio-Isotope Identification Devices (RIID) handhelds....          23,000              51               1.17
    Personal radiation detectors.............................           2,800              72               0.20
    Backpacks................................................          34,000              33               1.12
    Communication equipment..................................  ..............  ..............               0.37
\3\ He Procurement...........................................  ..............  ..............               1.00
                                                              --------------------------------------------------
      Total..................................................  ..............  ..............              20.00 
----------------------------------------------------------------------------------------------------------------
\1\ Equipment replacement is due to damage. If substantive damage does not occur, new next gen handhelds will be
  procured.

    Based on present requests, the following is the estimated number of 
HPRDS needed by component and type of equipment for fiscal year 2011-
2017:

------------------------------------------------------------------------
                                                            Fiscal year
                                                             2011-2017
------------------------------------------------------------------------
CBP:
    Next generation advanced handhelds..................              20
    Next generation advanced handheld (upgrades)........               2
    Next generation handhelds...........................           3,200
    Personal radiation detectors........................           4,400
    HPT \1\.............................................             150
TSA:
    Backpacks...........................................              80
    Next generation handhelds...........................             160
    Personal radiation detectors........................             300
    HPT \1\.............................................             150
USCG:
    Next generation advanced handheld (upgrades)........               8
    Next generation handhelds...........................           1,000
    Personal radiation detectors........................           4,000
    Backpacks...........................................             250
    HPT \1\.............................................           1,600
DNDO (MDDP): Upgrade equipment (# of teams)                           3
------------------------------------------------------------------------
\1\ Note: Human Portable Tripwire (HPT).--The current-generation of
  human portable systems is predominantly composed of Personal Radiation
  Detectors (PRDs). The tripwire role is intended to increase the
  opportunity and likelihood of detecting rad/nuc material through
  constant, nondeliberate rad/nuc scans. HPT detection systems used to
  perform passive monitoring should be considered standard operational
  equipment capable of being worn by operators at all times. These
  systems should also be easy to use and cost-effective so they can be
  easily deployed to a large number of operators, increasing the
  opportunity for detection. These units will likely occur between
  fiscal year 2011-2017, subsequent to the completion of HPT development
  efforts.

       small boat stand-off detection system/on-dock rail program
    Question. According to the request, DNDO will complete an 
Alternatives of Analysis (AoA) for the Small Boat Stand-Off Detection 
system and the On-Dock Rail program in fiscal year 2011. When will the 
AoA be completed? If completed, provide a summary of the AoA findings.
    Answer. The Small Vessel Stand-Off Detection (SVSD) Alternative 
Analysis (AA) is scheduled for completion in December 2011. Due to 
funding delays associated with the continuing resolutions for fiscal 
year 2011, this project was delayed by 3 months.
    As described in DNDO's CJ, the On-Dock Rail (ODR) Alternatives 
Analysis (AA) is planned for completion in fiscal year 2012 and is 
currently scheduled to be completed on March 2012.
                  radiation detection straddle carrier
    Question. According to the request, DNDO will complete an 
Operational Assessment of a Radiation Detection Straddle Carrier at the 
Port of Tacoma, Washington in fiscal year 2011. Has this assessment 
been completed? What did DNDO conclude from this assessment?
    Answer. DNDO is poised to begin this assessment immediately, 
pending settlement of final support details with operational users. 
Once begun, the assessment will last about 6 weeks. DNDO will provide 
the results of this assessment when completed.
         radiation detection for air cargo and checked baggage
    Question. Describe the work DNDO is conducting with TSA or on 
behalf of TSA to detect illicit nuclear material in air cargo and 
baggage.
    Answer. In close collaboration with the DHS Science and Technology 
(S&T) Directorate's Transportation Security Laboratory, DNDO is 
evaluating whether Computed Tomography (CT) x ray systems, currently 
deployed throughout aviation pathways to detect explosives, can also be 
used to detect rad/nuc materials in baggage and small cargo. The 
program will begin with a baseline system evaluation to determine the 
basic technical feasibility of supporting our rad/nuc mission. The 
initial tests, currently underway, will focus on determining if the 
existing, certified CT systems may be able to be leveraged to also 
detect rad/nuc materials and test objects of interest. Following 
analysis of test data and determination of feasibility, DNDO, S&T, and 
Transportation Security Administration (TSA) will discuss options for 
potential next steps.
               research and development project summaries
    Question. For each individual project funded under DNDO's Research, 
Development, and Operations appropriation, submit quad charts that 
include a project description, the technology readiness level, planned 
demos and deliverables, and a timeline for transition.
    Answer. Research and development project summaries follow.
                   dndo--systems engineering program
Program Description/Objectives
    Program Description.--This program provides assistance to maintain 
the high quality and consistency of the application of systems 
engineering principles across the multiple DNDO programs, and in 
implementing both the DHS acquisition directive 102-1 and DNDO's 
solutions development process. This includes program management, 
financial administration, customer service and quality assurance tasks, 
as well as an on-site liaison to facilitate customer service and 
coordination for the Systems Engineering Support Program contract.
    Objectives:
  --Institutionalize a systems engineering mindset across DNDO programs 
        and mission areas.
  --Assist DNDO program managers and mission area managers in 
        compliance with systems engineering requirements found in DHS 
        Acquisition Directive 102-01.
  --Provide engineering support for Aviation Ports of Entry (APOEs).
Fiscal Year 2012 Planned Accomplishments/Milestones
    Key Deliverables:
  --Leadership and administration will satisfy the commitments of the 
        systems engineering support contract.
  --Development of alternatives analysis and operational requirements 
        document for limited deployment of existing technologies to 
        APOEs.
  --Conduct analysis of alternatives, characterization testing, and 
        modeling and simulation activities for development of systems 
        for other APOE operational environments. 
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    RD&O--Systems Engineering and Architecture PPA.--Systems 
engineering program, $5,400,000.
    Technology Readiness Level.--N/A--Not a systems development effort.
    Timeline for Transition.--N/A--Not a systems development effort.
    GNDA Alignment:
  --GNDA performance goals 2.1, 2.2, 3.1, 3.2, 4.1, 4.2, 5.1, 5.2, 5.3, 
        and 9.3.
  --This task supports all GNDA detection development and deployment 
        goals.
                   dndo--rad/nuc detection standards
Program Description
    Program Description.--Support for the development and maintenance 
of domestic and international consensus standards as well as 
Government-unique standards for radiological and nuclear (rad/nuc) 
detection systems. DNDO was directed by the Safe Port Act of 2006 to 
collaborate with NIST and develop Technical Capability Standards (TCS) 
for nonintrusive imaging and radiation detection equipment to be 
published by the Secretary of Homeland Security as Government-unique 
standards. TCS focus on the capability to detect special nuclear 
material. DNDO and NIST lead an inter-agency standards working group 
that aims to produce a suite of TCS for various detection systems.
    Objectives:
  --Aid U.S. Government leadership in the development of national and 
        international standards relating to rad/nuc detection.
  --Develop Government-unique TCS for nonintrusive imaging and rad/nuc 
        detection systems.
  --Develop and maintain national consensus standards for rad/nuc 
        detection systems.
Fiscal Year 2012 Planned Accomplishments/Milestones
    Key Deliverables.--Guidance on required rad/nuc detection 
capability for users and development programs. Informed by classified 
threat information not available to entire consensus standard 
community.
    Schedule Goals:
  --Develop and revise rad/nuc consensus standards as appropriate.
  --Draft two technical capability standards annually until all 
        required standards are published (estimate approximately 12 
        needed).
  --Goal is to complete each TCS in 2 years. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    RD&O--Systems Engineering and Architecture PPA.--Rad/Nuc detection 
standards, $1,840,000.
    Technology Readiness Level.--N/A--Not a systems development effort.
    Timeline for Transition.--N/A--Not a systems development effort.
    GNDA Alignment.--GNDA performance goals 1.3, 3.1, 3.2, 4.1, 4.2, 
5.1, 5.2, and 9.3.
      dndo--information sharing, mission critical messaging (mcm)
Program Description/Objectives
    Program Description.--The DNDO Information Sharing Program 
establishes and maintains the necessary enterprise and data 
architectures that enable programs in DNDO, DHS, and our Federal, 
State, local, and commercial partners to effectively share rad/nuc 
information for the purpose of preventing terrorism and enhancing 
National Security. Mission Critical Messaging (MCM) will connect 
Federal, State, local, and tribal radiological and nuclear detection 
systems to share information for the purpose of increasing the 
effectiveness of counter terrorism capabilities and facilitate the 
development of a rad/nuc information sharing environment. MCM will 
leverage existing information sharing standards, commercially available 
technology, and DNDO's JACCIS to connect elements of the GNDA together 
to share situational awareness and enable a managed coordinated 
response.
Fiscal Year 2012 Planned Accomplishments/Milestones
    Key Deliverables:
  --Create and update cost-effective, compliant enterprise 
        architecture, data management, and systems engineering 
        artifacts.
  --Update and maintain the National Information Exchange Model (NIEM) 
        chemical, biological, radiological, and nuclear domain, in 
        conjunction with the domain co-steward.
  --Update and maintain Information Exchange Package Documentation 
        (IEPD) N.25 standard for rad/nuc information exchange.
  --Stand-up the Mission Critical Messaging Project: Plan, analyze, and 
        develop the project approach.
  --Establish a test interface between the DNDO Joint Analysis Center 
        (JAC) and at least one Federal, State, local or tribal entity.
    Objectives:
  --Provide architecture guidance and support to the DNDO programs that 
        support GNDA definition and implementation.
  --Improve rad/nuc threat situational awareness among Federal, State, 
        local, and tribal partners.
  --Enhance system interoperability to enable faster mission-critical 
        integration.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    RD&O--Systems Engineering and Architecture PPA.--Information 
sharing, MCM, $5,160,000.
    Technology Readiness Level.--TRL will be assessed as part of SDP 
stage 2a.
    Timeline for Transition.--Stage 2a scheduled for fiscal year 2012.
    GNDA Alignment.--GNDA performance goals 4.2, 5.2, 6.3, 7.1, and 
7.2.
    dndo--gnda development: annual planning, modeling, and analysis
Program Description/Objectives
    Program Description.--Strategic planning and evolving risk 
evaluations contribute to an a Joint Inter-agency Annual Review and 
Annual Report on the GNDA that provides:
  --Status of current detection architecture capabilities.
  --Strategic direction for further GNDA enhancements.
    Objectives.--The strategic planning, modeling and risk analyses are 
intended to:
  --Reduce the technical and programmatic risk of new efforts.
  --Enhance the integration and interoperability of new efforts within 
        the GNDA.
    Fiscal Year 2012 Planned Accomplishments/Milestones:
  --Annual GNDA development study plan.
  --Update GNDA ``baseline'' architecture.
  --Implement Capabilities-Based Assessment (CBA) process:
    --Study plan;
    --Inter-agency working group meetings; and
    --Gaps and solutions.
  --Risk-based architecture gaps and solutions prioritization.
  --Joint Annual Review and Annual Report.
  --Update GNDA strategic plan as required. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    RD&O--Systems Engineering and Architecture PPA.--Annual planning, 
modeling, and analysis, $5,100,000.
    Technology Readiness Level.--N/A--Not a systems development effort.
    Timeline for Transition.--N/A--Not a systems development effort.
    GNDA Alignment.--GNDA performance goals 1 through 10.
              dndo--gnda development: international domain
Program Description/Objectives
    Program Description.--The goal of the international layer is to 
improve the ability to detect nuclear and other radioactive materials 
by increasing the national and regional-level detection capability 
efforts and encouraging the development and implementation of PRND 
capabilities in other countries. Emphasis is placed on detection 
efforts in all pathways (air, land, maritime, commercial, and private 
transportation). International engagement fosters national-level 
detection architectures in other countries/regions that compliment and 
reinforce the detection capabilities of the United States.
    Objectives:
  --Foster bilateral and multi-lateral relationships to enhance 
        national and regional-level architecture development and PRND 
        capabilities.
  --Build on USG and international assistance efforts to create a 
        multi-layered rad/nuc detection capability.
  --Leverage international engagement efforts to further enhance the 
        domestic implementation of more robust rad/nuc detection 
        architectures that contribute to an expanded GNDA.
    Fiscal Year 2012 Planned Accomplishments/Milestones:
  --Conduct two ``Global Initiative to Combat Nuclear Terrorism 
        Implementation Workshops'' to follow on Model Guidelines 
        Document (MGD) development and implementation.
  --Conduct one regional GNDA workshop.
  --Conduct three regional architectural analyses.
  --Continue bilateral and multilateral engagements with key foreign 
        partners on nuclear detection architectures, to include the 
        International Atomic Energy Agency, and Global Initiative to 
        Combat Nuclear Terrorism and other partners.
International GNDA Studies
    Work on international geographical architectural analyses to 
recommend improvements in our national or regional-level detection 
capacity in foreign countries is expanding.
    International engagements are prioritized and conducted in both 
bilateral and multi-lateral fora through agreements and arrangements 
(e.g. S&T Agreements, UNSCR 1540, GICNT) and with existing institutions 
(e.g., IAEA, World Customs Organization, Interpol, International Civil 
Aviation Organization, International Maritime Organization, etc) as a 
means to bolster the GNDA.
    RD&O--Systems Engineering and Architecture PPA.--GNDA development--
international, $3,530,000.
    Technology Readiness Level.--N/A--Not a systems development effort.
    Timeline for Transition.--N/A--Not a systems development effort.
    GNDA Alignment.--GNDA performance goals 1.1, 1.2, 1.3, and 1.4.
               dndo--gnda development: land border domain
Program Description/Objectives
    Program Description.--DNDO develops time-phased strategies and 
plans for improving the probability of preventing and deterring rad/nuc 
attacks through the land border pathway. In general, studies will be 
commissioned to identify and characterize trade-offs, risks, and costs 
before deciding on specific implementation paths. DNDO works with our 
front-line end-user components to assess and implement solutions to 
mitigate these threats.
    Objectives:
  --Continue to support analyses of detection strategies between the 
        Ports of Entry (POEs) and remaining vulnerabilities at POEs.
  --Continue to support modeling and risk assessments focused on 
        characterizing the threat and identifying opportunities for 
        detection and interdiction at the border.
Fiscal Year 2012 Planned Accomplishments/Milestones
    Land Border GNDA Requirements Development Studies:
  --Complete the Land Border Optimum POE Strategy study.
  --Document gaps and priorities based on the Land Border Optimum POE 
        Strategy study and the Probability of Encounter study.
    Land Border Pathways:
  --Develop supporting documentation (e.g., mission needs statement) 
        for at least one concept, including giving consideration to 
        those concepts for which analysis plans were developed in 
        fiscal year 2011.
  --Develop a final report describing radiation detector types, 
        operational procedures, and policy provisions that might be 
        suitable for improving the land border elements of the GNDA.
Land Border GNDA Studies
    The Land Border Pathways is an iterative program that leverages 
existing and emerging technologies and findings from laboratory and 
field evaluations against capability gaps and mission requirements 
generated from studies and direct input from user representatives.
    Objective.--Continue to support the CBP Office of Border Patrol 
(OBP) with improvements to its rad/nuc detection capabilities, both in 
developing the next generation of detectors as well as procuring 
detectors for OBP, as funds are available.
    RD&O--Systems Engineering and Architecture PPA.--GNDA development--
Land border pathways, $3,330,000.
    Technology Readiness Level.--N/A--Not a systems development effort.
    Timeline for Transition.--N/A--Not a systems development effort.
    GNDA Alignment.--GNDA performance goals 2 and 3.
                dndo--gnda development: aviation domain
Program Description/Objectives
    Program Description.--This effort determines the bounding 
requirements for critical Aviation mission area projects to optimize 
mobility, agility, and adversary cost; to develop holistic airport 
solutions; and to address International General Aviation (IGA) and 
domestic general aviation scanning.
    Objectives:
  --Examine the intersection of International Commercial Aviation (ICA) 
        Pax/Bag, ICA Air Cargo, and IGA pathways, including the 
        commonality of systems and processes that can be leveraged and 
        shared.
  --Reduce long-term burdens of system acquisition, maintenance, and 
        operation by seeking cumulative benefits gained from enhanced 
        efficiencies across national and global operations.
    Fiscal Year 2012 Planned Accomplishments/Milestones:
  --Begin regional, cross-border aircraft vulnerability mitigation 
        analysis of Northern Border and Caribbean aviation traffic.
  --Assess feasibility of developing software that will assist 
        operations centers in detecting flight anomalies that pose 
        direct-to-target threats.
  --Begin development of IGA security gap solutions (for inbound IGA).
  --Complete DHS-AMD-102-1 activities to document capability gaps for 
        domestic APOEs, and document solution options.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    RD&O--Systems Engineering and Architecture PPA.--GNDA development--
Aviation domain, $2,470,000.
    Technology Readiness Level.--N/A--Not a systems development effort.
    Timeline for Transition.--N/A--Not a systems development effort.
    GNDA Alignment.--GNDA performance goals 2.1, 2.2, and 5.1.
                dndo--gnda development: maritime domain
Program Description/Objectives
    Maritime GNDA Requirements Development Program Description.--
Conduct architectural studies and Capability-Based Assessments (CBAs) 
to ascertain gaps and define the interagency PRND capabilities needed 
to strengthen maritime pathways against rad/nuc threats (materials, 
weapons, and conveyances) and formulate recommendations to mitigate 
waterway/seaport vulnerabilities to achieve the maximum risk reduction 
within the constraints of the available budget.
    Objectives:
  --Determine gaps and vulnerabilities.
  --Formulate recommendations and plans to deny entry of unauthorized 
        rad/nuc materials and weapons into the United States at 
        seaports, waterways and between POEs.
  --Develop a well-coordinated network to integrate the GNDA with the 
        national plan to achieve Maritime Domain Awareness (MDA) and 
        understand interrelationships within the multi-layered 
        structure of GNDA.
    Fiscal Year 2012 Planned Accomplishments/Milestones:
  --Continue MDA CBAs that design and integrate maritime PRND data and 
        information into the MDA enterprise-wide network; recommend 
        options that improve small vessel surveillance, detection, 
        analysis, and awareness of incidents and activities.
  --Initiate CBA of the cruise line industry (cruise ships and terminal 
        operations).
  --Continue maritime modeling and operations analysis framework that 
        integrates a wide range of threats and countermeasures; conduct 
        tradeoff studies to support future planning decisions; and 
        integrate estimates of detection/interdiction probabilities and 
        consequences of attack.
    Maritime Capability Development Program Description.--This program 
builds on lessons learned from the West Coast Maritime Pilot (WCMP) to 
develop or enhance State, local, and tribal PRND capabilities. 
Programmatic support includes CONOPS and SOP development, training 
program assistance, exercise and drill support, and assistance with 
equipment selection decisions.
    Objectives:
  --Assist Federal, State, local, and tribal government stakeholders 
        and area maritime security committees on operational protocols, 
        training, and exercises that support small vessel PRND 
        capabilities.
  --Assess geographic port configurations to maximize interdiction.
  --Improve scanning of small maritime craft by planning to increase 
        detection systems for maritime forces.
  --Increase port security grant requests for PRND programs.
    RD&O--Systems Engineering and Architecture PPA.--GNDA development--
Maritime domain, maritime PA, $3,350,000.
    Technology Readiness Level.--N/A--Not a systems development effort.
    Timeline for Transition.--N/A--Not a systems development effort.
    GNDA Alignment.--GNDA performance goals 2 through 10.
                dndo--gnda development: interior domain
Program Description/Objectives
    Program Description.--Guided by the GNDA, DNDO supports the 
assessment and mitigation of threats in the land borders, aviation, 
maritime and interior mission areas through the development of specific 
architecture studies, CONOPS analyses, detector modeling studies, and 
enterprise architecture support that are specific to each mission area. 
These studies typically focus on specific programs and directly support 
DNDO pilot and Research and Development (R&D) initiatives. These 
preliminary studies are intended to reduce the technical and 
programmatic risk of new efforts and enhance their integration and 
interoperability with the overall GNDA.
    Objectives:
  --Determine gaps and vulnerabilities and formulate recommendations 
        and plans to mitigate them.
  --Develop a well-defined and carefully coordinated network of 
        interrelationships by studying the multi-layered structure of 
        the rad/nuc detection architecture.
    Fiscal Year 2012 Planned Accomplishments/Milestones:
  --Conduct three foundational analyses on the application of PRND 
        capabilities, including whether or where to employ 100 percent 
        or randomized screening concepts at strategic locations. Three 
        studies related to the domestic layer are expected to be 
        completed by the end of fiscal year 2012.
  --Continue work on detection modeling, data fusion, and analysis to 
        enhance detection capabilities in support of various fixed and 
        mobile operational detection programs and in the support of 
        ``surge'' operations.
    Interior Studies:
  --DNDO will focus efforts to develop capabilities to detect threats 
        with limited or imperfect intelligence.
  --These capabilities rely on the multiple State and local law 
        enforcement agencies that are available to perform rad/nuc 
        detection operations using mobile and human-portable sensors.
  --USG surge efforts will require interactions with relevant State and 
        local and Federal agency activities to develop coordinated 
        architectures and CONOPs.
  --Foundational architecture analyses will be performed to identify 
        and prioritize PRND capabilities and deployment and search 
        strategies based on the effectiveness of each.
    RD&O--Systems Engineering and Architecture PPA.--GNDA development--
Interior domain, $1,680,000.
    Technology Readiness Level.--N/A--Not a systems development effort.
    Timeline for Transition.--N/A--Not a systems development effort.
    GNDA Alignment.--GNDA performance goals 2 through 10.
                dndo--s&l initiatives rad/nuc challenge
Program Description/Objective
    Program Description.--The SAFE Port Act charges DNDO with enhancing 
and coordinating the nuclear detection efforts of Federal, State, and 
local officials in order to ensure a managed, coordinated adjudication 
of rad/nuc threats.
    DNDO is promoting an opportunity to emphasize the rad/nuc detection 
capabilities and operations at the State, local, and tribal levels 
through a competition among the PRND community, with industry 
demonstrations and information exchange forums.
    Objective.--Measurably advance the operational expertise and 
technical capabilities of those assets that would be involved in 
coordinated surge or intelligence informed deployments.
Fiscal Year 2012 Planned Accomplishments/Milestones
    Competition Rodeo.--Creates productive, spirited competition among 
individuals and teams at all levels of the PRND community.
    Information Exchange Forum.--Scheduled activities including 
workshops, briefings, panel meetings, and the presentation of case 
studies and other papers sponsored by members of the PRND community who 
wish to share their lessons learned, ideas, and insights.
    System/Capability Expo.--Includes exhibit booths, system, and 
CONOPS demonstrations, hands-on experiences, and showcases.
    Projected Outcomes:
  --Sharing of successes and lessons learned.
  --Shaping independent research and development programs by exposing 
        industry and academia to the Government's needs and upcoming 
        opportunities.
  --Encouraging a dialog between the equipment development community 
        and State, local, and tribal law enforcement and first 
        responders involved in PRND.
  --Fostering more effective community-wide competition and advancement 
        by establishing a greater awareness of the current state-of-
        the-art technology and CONOPS.
    RD&O--Systems Development PPA.--Rad/Nuc challenge, $2,630,000.
    Technology Readiness Level.--N/A--Not a systems development effort.
    Timeline for Transition.--N/A--Not a systems development effort.
    GNDA Alignment.--GNDA performance goals 4 and 7.
                  dndo--human portable tripwire (hpt)
Program Description/Objective
    Program Description.--Investigates the technology around small, 
wearable systems that provide passive monitoring capability to increase 
the likelihood of detecting rad/nuc material through constant, 
nondeliberate rad/nuc scans. HPT detection system should be considered 
standard operating equipment capable of being worn by key operators at 
all times, cost-effective and deployed to a large number of operators 
to increase the opportunity for detection.
    The proposed HPT concept has improved performance and added 
capabilities over Commercial Off-the-Shelf (COTS) personal radiation 
detectors currently used by law enforcement in the field. Additionally, 
it will have capabilities such as isotope identification and data 
communication. The device will also have the capability of ``wired'' 
and ``wireless'' interface to networks, laptops, satellite phones, and 
other devices as required. HPT will build on lessons learned from the 
Intelligent Personnel Radiation Locator Advanced Technology 
Demonstration, in addition to many other support COTS technologies such 
as handheld data processor devices, communications and data transfer.
    Fiscal Year 2012 Planned Accomplishments/Milestones:
  --Initiate the development of an HPT system designed to meet user 
        requirements.
  --Conduct data collection efforts against Special Nuclear Material 
        (SNM) to improve algorithm performance of HPT systems.
  --Conduct an Early Operational Assessment of the HPT system in a 
        simulated operational environment.
    Objectives.--Develop a low-cost approach to increase passive, 
nondeliberate detection, and provide spectroscopic identification and 
data transfer. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    RD&O--Systems Development PPA.--HPT, $9,060,000.
    Technology Readiness Level:
  --Basic Technology Readiness Level (TRL) is 9.
  --Application to this mission is at TRL 4.
    Timeline for Transition.--Transition to full-scale development, TRL 
7, is funding dependant, but considered feasible by 2014.
    GNDA Alignment.--GNDA performance goals 2.1, 2.2, 5.1, 6.1, and 
6.3.
        dndo--cargo imaging for shielded nuclear threats (cisnt)
Program Description/Objective
    Program Description.--Program will evaluate and develop as 
appropriate nonintrusive inspection radiography capability that can 
identify and discriminate special nuclear materials and shielded 
material contained in full-size trucks, cargo containers, and rail 
cars. In doing so, CISNT will leverage the findings from past and 
current Transformational Applied Research programs. This program was 
initiated as the Advanced Cargo Imaging program and included in the 
President's budget request for fiscal year 2011. The name change 
reflects the objectives of the program.
    Objective.--To develop a capability to identify shielded nuclear 
material in cargo to act as a companion capability with passive 
radiation portal monitors.
    Fiscal Year 2012 Planned Accomplishments/Milestones:
  --Refine operational requirements and perform an Analysis of 
        Alternatives (AOA).
  --Begin the Technology Demonstration and Characterization (TD&C) 
        process for a selected set of systems; collect data to 
        characterize the operational environment; and determine the 
        limits of technical approach.
  --Complete draft AOA for CISNT.
  --Continue to evaluate competing alternatives.
  --Develop an operational requirements document leveraging lessons 
        learned from previous related programs and TD&C.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    RD&O--Systems Development PPA.--CISNT, $13,470,000.
    Technology Readiness Level:
  --Basic TRL is 9.
  --Application to this mission is at TRL 6.
    Timeline for Transition.--Transition to full-scale development, TRL 
7, is funding dependant, but considered feasible by 2013.
    GNDA Alignment.--GNDA performance goals 2.1, 2.2, 6.1, and 6.3.
              dndo--long-range radiation detection (lrrd)
Program Description/Objective
    Program Description.--Determine if a passive long-range rad/nuc 
detection system should be developed and fielded, building upon 
technologies demonstrated by Stand-Off Radiation Detection System and 
Roadside Tracker. To avoid redundancies with preexisting programs, LRRD 
is focused on Interior needs and stakeholders.
    Objective.--Provide detectors with better sensitivity, and with 
ability to identify and localize sources.
    Fiscal Year 2012 Planned Accomplishments/Milestones:
  --Develop operational requirements document.
  --Develop concepts of operations.
  --Develop integrated logistics support plan.
  --Develop the acquisition program baseline.
  --Develop the LRRD test and evaluation master plan.
  --Finalize LRRD limited use experiment final report.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    RD&O--Systems Development PPA.--LRRD, $5,480,000.
    Technology Readiness Level.--TRL will be assessed as part of stage 
2a.
    Timeline for Transition.--Stage 2a scheduled for fiscal year 2012.
    GNDA Alignment.--GNDA performance goals 4.1 and 5.1.
                    dndo--international rail program
Program Description/Objective
    Program Description.--International Rail is referenced in Public 
Law 110-28 and Public Law 110-53. Previous efforts characterized the 
rail operating environment, identified user needs, conducted stream of 
commerce data collection efforts at a lower volume Port of Entry (POE) 
site, and conducted evaluations of architecture alternatives. Current 
efforts are focused on an additional stream of commerce 
characterization, Acquisition Management Directive 102-01 documentation 
development, and detector testing.
    Objective.--Develop implementable solution to detect and identify 
illicit rad/nuc materials entering the United States via freight rail 
cargo through the 31 POEs identified in the Trade Act of 2002.
    Fiscal Year 2012 Planned Accomplishments/Milestones:
  --Complete an analysis of alternatives for the Rail Cargo Scanning 
        project for International Rail.
  --Continue implementation of any cooperative project(s) identified as 
        working in concert with Second Line of Defense.
  --Document--in concert with CBP--lessons learned from operational 
        experiences with rad/nuc detection system(s) utilizing passive 
        and active detection at rail crossings.
  --Document the performance of candidate international rail systems. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    RD&O--Systems Development PPA.--International rail, $3,120,000.
    Technology Readiness Level.--No specific technology has been 
identified for this mission; TRL is undetermined.
    Timeline for Transition.--Identification of appropriate technology 
and its transition to full-scale development, TRL 7, is projected to 
occur by 2015.
    GNDA Alignment.--GNDA performance goals 2.1, 2.2, and 9.3.
                       dndo--on-dock rail program
Program Description/Objective
    Program Description.--The On Dock Rail Program analyzes alternative 
solutions for scanning the 2 percent of intermodal cargo containers 
arriving in the United States via ship that are directly transferred to 
rail cars at the ports. These containers are currently being scanned by 
mobile radiation portal monitors, which involves a time-consuming 
process of unstacking and restacking the containers. The other 98 
percent of ship cargo is transferred directly to trucks which are 
subsequently scanned at the exit gates by radiation portal monitors.
    Objective.--To develop a capability to effectively and efficiently 
scan containerized cargo that is transferred directly from ship to rail 
at sea ports of entry, without an adverse impact to the flow of 
commerce.
    Fiscal Year 2012 Planned Accomplishments/Milestones:
  --Collect straddle portal prototype stream-of-commerce data.
  --Complete alternatives analysis.
  --Perform the system engineering review.
  --Transition from requirements and alternatives analysis to solution 
        development. 
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    RD&O--Systems Development PPA.--ODR, $10,280,000.
    Technology Readiness Level:
  --Basic TRL is 7.
  --Application to this mission is TRL 7.
    Timeline for Transition.--Transition to full-scale development is 
projected to occur in 2012.
    GNDA Alignment.--GNDA performance goals 2.1, 2.2, 6.1, and 6.3.
          dndo--small vessel standoff detection program (svsd)
Program Description/Objectives
    Program Description.--Seeks to develop and field a capability to 
provide standoff boat-to-boat, aerial, and fixed-site rad/nuc detection 
systems in U.S. port areas and maritime regions. This program will 
address the need of Federal, State, and local maritime officers to 
conduct PRND screening missions against the small vessel threat without 
the need to board each encountered vessel.
    Objectives:
  --Initially develop a capability for scanning small vessels from 
        maritime law enforcement vessels on the water.
  --Follow-on projects will address aerial and land-based deployment of 
        sensors to complement the boat-to-boat system.
    Fiscal Year 2012 Planned Accomplishments/Milestones:
  --Complete Acquisition Management Directive (AMD) 102-01 activities 
        to receive milestone 2B approval for boat-to-boat systems. 
        Systems delivered to USCG and CBP Office of Air and Marine for 
        operational evaluation.
  --Complete AMD 102-01 activities to receive milestone 1 approval for 
        aerial-mounted systems.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    RD&O--Systems Development PPA.--SVSD, $6,610,000.
    Technology Readiness Level.--TRL will be assessed as part of stage 
2a.
    Timeline for Transition.--Stage 2a scheduled for fiscal year 2014.
    GNDA Alignment.--GNDA performance goals 3.2 and 5.1.
   dndo--non-helium 3 (\3\ he) neutron detection alternatives program
Program Description/Objective
    Program Description.--Addresses the impact of the shortage of 
Helium-3 (\3\ He) upon the cost and availability of rad/nuc detection 
systems. Current efforts are focused on the Neutron Detector 
Replacement Project (NDRP), qualifying near-term technologies as 
suitable to replace \3\ He for Neutron Detection Modules (NDM) in 
various applications, including Radiation Portal Monitor Systems (RPMS) 
and backpack systems.
    Objective.--To develop cost-effective alternatives to \3\ He for 
broad-based neutron detection applications.
    Fiscal Year 2012 Planned Accomplishments/Milestones:
  --Conduct market research and release a Request for Information (RFI) 
        on backpack systems under development for commercial 
        application using non-\3\ He-based neutron detectors.
  --Conduct testing of products responding to the RFI and release 
        results of tests to vendors to accelerate non-\3\ HE based 
        neutron detection technology for backpack systems. 
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    RD&O--Systems Development PPA.--Neutron detector replacement, 
$5,180,000.
    Technology Readiness Level.--Several TRL 6 and 7 approaches are 
available.
    Timeline for Transition.--Transition of selected approaches to 
full-scale development is funding dependant.
    GNDA Alignment.--GNDA performance goals 2.1, 3.1, 5.1, and 6.1.
           dndo--aviation multi-pathway scanning integration
Program Description/Objective
    Program Description.--The first component of the program is the 
holistic airport deployments effort, which examines International Air 
Cargo (IAC) and International General Aviation (IGA) pathways at 
domestic air POEs. The second component involves evaluating the 
feasibility of using Computed Tomography (CT) and Advanced Technology 
(AT) x ray systems, currently deployed throughout aviation pathways to 
detect explosives, to detect rad/nuc materials in baggage and small 
cargo.
    Objective.--Identify options for the aviation pathway to leverage 
existing capabilities, and to improve deterrence against aviation 
threats.
    Fiscal Year 2012 Planned Accomplishments/Milestones:
  --Complete analysis for the deployment of RPMs to a limited number of 
        APOEs for targeted air cargo scanning.
  --Initiate Analysis of Alternatives (AoA) process for APOEs, 
        addressing the full scope of APOE operations.
  --Initiate modeling/simulation activities to support AoA process.
  --Initiate characterization testing of detection systems to support 
        AoA process and modeling/simulation activities.
  --Pending feasibility results of baseline CT/AT tests, continue 
        partnering with S&T and TSA on path forward. 
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        

    RD&O--Systems Development PPA.--Aviation multi-pathway scanning 
integration, $9,660,000.
    Technology Readiness Level.--TRL will be assessed as part of stage 
2a.
    Timeline for Transition.--Stage 2a scheduled after fiscal year 
2016.
    GNDA Alignment.--GNDA performance goals 1.2, 2.1, 2.2, 3.1, 4.1, 
5.1, and 9.3.
                      dndo--algorithm improvement
Program Description/Objectives
    Program Description.--Improves overall mission performance of 
algorithms employed in rad/nuc detection and reporting systems. The 
current effort focuses on developing, deploying and maintaining the DHS 
isotope ID reach-back analysis tool, which enables field agents to 
quickly and easily engage on-call scientific experts to identify 
isotopes that cannot be identified on location. Current efforts also 
include energy windowing and injection studies. Future efforts are 
planned to drive the creation of more robust algorithms by challenging 
industry partners to identify specific isotopes against known spectra 
and have the ability to score their performance.
    Objectives:
  --To cost effectively ensure that rad/nuc detection algorithms are 
        improved to remain current with emerging technologies and 
        concepts of operations.
  --Provide an infrastructure that makes gamma spectra benchmarks 
        available to develop new (or upgrade) isotope identification 
        algorithms while allowing the Government to score algorithms 
        objectively.
    Fiscal Year 2012 Planned Accomplishments/Milestones
  --Define benchmarks to measure algorithm performance.
  --With High-Purity Germanium (HPGe) and Sodium Iodide (NaI) 
        detectors, collect and validate source spectra for open and 
        closed benchmark data sets to develop new algorithms and score 
        existing ones.
  --Promulgate benchmarks throughout Government, assess existing 
        algorithms, and target improvements.
  --Define algorithm replay tool interface requirements, reference 
        electronic packages, isotopes of interest, and algorithm 
        scoring criteria.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    RD&O--Systems Development PPA.--Algorithm improvement, $4,200,000.
    Technology Readiness Level.--Basic TRL is 9.
    Timeline for Transition.--Initial solutions are deployed. Spiral 
advancements continue.
    GNDA Alignment.--GNDA performance goals 2.1, 3.1, 5.1, and 6.1.
                  dndo--test and evaluation operations
Program Description/Objectives
    Program Description.--Provide operational capabilities needed to 
plan and execute the DNDO test and evaluation program. Capability 
includes working with subject matter experts from national laboratories 
to ensure scientifically defensible test designs and engineering 
support to plan and execute tests, including formal test milestone 
reviews, oversight of field test activities, and analysis support to 
evaluate performance and write test high-quality reports.
    Objectives:
  --Develop timely and credible test and evaluation campaigns in 
        support of internal and external (international, Federal, 
        State, local, and other entities) customers' rad/nuc detection 
        requirements.
  --Develop repeatable, evolutionary, and controlled processes for 
        planning and conducting tests.
    Fiscal Year 2012 Planned Accomplishments/Milestones
  --Maintain the expertise and resources necessary to plan and execute 
        up to 15 individual test campaigns.
  --Document formal test milestone reviews.
  --Issue test reports within 90 days of completion of data validation.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    RD&O--Assessments PPA.--T&E operations, $8,390,000.
    Technology Readiness Level.--N/A--Not a systems development effort.
    Timeline for Transition.--N/A--Not a systems development effort.
    GNDA Alignment.--GNDA performance goal 9.3 (also supports 3.1, 3.2, 
and 5.1).
                dndo--test and evaluation infrastructure
Program Description/Objectives
    Program Description.--Provide development, operation, and 
maintenance of the infrastructure required to execute DNDO test and 
evaluation efforts including facilities, technical support staff, test 
equipment, data collection technology, and design and fabrication of 
special nuclear material (SNM) test objects. DNDO test facilities 
include the Rad/Nuc Countermeasures Test and Evaluation Complex 
(RNCTEC) at the Nevada National Security Site (N2S2), the Rail Test 
Center (RTC) at the Port of Tacoma, and other limited-term 
infrastructure needs at test locations across the national laboratory 
complex.
    Objectives:
  --Establish and develop an integrated T&E infrastructure of 
        facilities, equipment, test objects, processes, and personnel 
        to meet U.S. Government rad/nuc T&E needs.
  --Engage the multi-agency rad/nuc community for future test 
        instrumentation and infrastructure needs.
  --Design and fabricate appropriate special nuclear material (SNM) and 
        radiological sources and materials for realistic threat-based 
        testing.
    Fiscal Year 2012 Planned Accomplishments/Milestones:
  --O&M of RNCTEC and RTC.
  --Continue physical security upgrades, including procurement and 
        deployment of sensors, vehicle barriers, and perimeter fencing 
        to RNCTEC to reduce costs for force protection in preparation 
        for testing activities using category I and II SNM sources.
  --Complete fabrication SNM test sources:
    --Two additional sizes (#3 and #4) of HEU spheres;
    --Two reactor grade Pu sealed sources; and
    --Four additional sizes of weapons grade Pu sealed sources. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    RD&O--Assessments PPA.--T&E infrastructure, $9,500,000.
    Technology Readiness Level.--N/A--Not a systems development effort.
    Timeline for Transition.--N/A--Not a systems development effort.
    GNDA Alignment.--GNDA performance goal 9.3.
            dndo--t&e data management and algorithm test bed
Program Description/Objectives
    Program Description.--Provides for the collection, analysis, 
reporting, and archiving of test data collected during DNDO test 
campaigns, as well as the collection of similar test reports by other 
agencies. Includes maintaining and enhancing two data management 
systems: Archive and Retrieval Management System (ARMS) and Report 
Analysis and Archive System (RAAS).
    The Algorithm Test Bed (ATB) provides the capability to evaluate 
the baseline performance of detector algorithms, and compare new and 
existing detector algorithms against standardized sets of both modeled 
and measured threats in a virtual environment.
    Objectives:
  --Develop an independent and peer-reviewed framework for evaluating 
        performance of detection and identification algorithms for all 
        handheld, mobile, and fixed systems against realistic 
        operational threats.
  --Develop, operate and maintain the ARMS and the RAAS.
    Fiscal Year 2012 Planned Accomplishments/Milestones:
  --Continue to perform ATB studies that allow programs to make 
        informed program-wide decisions for increased performance and 
        deployment of detection systems.
  --Accept spectroscopic algorithms from developers and assess using 
        the generic algorithm test bed.
  --Review, evaluate, and add 150 radiation and radiograph reports to 
        expand the content of RAAS.
  --Continue information sharing of test data, analysis, studies, and 
        tools to expand the content and capabilities of ARMS across the 
        DNDO user community and with peer organizations. 
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    RD&O--Assessments PPA.--T&E data management and algorithm test bed, 
$4,200,000.
    Technology Readiness Level.--N/A--Not a systems development effort.
    Timeline for Transition.--N/A--Not a systems development effort.
    GNDA Alignment.--GNDA performance goals 3.1, 3.2, 5.1, and 9.3.
                dndo--test and evaluation directed test
Program Description/Objectives
    Program Description.--Planning and execution of test campaigns to 
characterize currently available equipment in operationally relevant 
environments and CONOPS to inform State and local entities in the 
development of effective Preventive Radiological/Nuclear Detection 
(PRND) programs at the State, local, and tribal level.
    Objectives:
  --Provide comprehensive performance data on rad/nuc detection 
        systems, based on operationally relevant threats and scenarios, 
        to State, local, and tribal users.
  --Provide opportunities for State, local, and tribal users to learn 
        from hands-on operation of rad/nuc detections systems against 
        actual SNM threat sources in operationally relevant conditions 
        and scenarios.
    Fiscal Year 2012 Planned Accomplishments/Milestones:
  --Complete test and final report for Gryphon test campaign to inform 
        Federal, State, and local operational entities of the 
        performance of aerial detection systems.
  --Complete testing and produce joint EU/US ITRAP+10 report.
  --Initiate the next directed test dependent on highest priority 
        determined in fiscal year 2011. 
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    RD&O--Assessments PPA.--T&E directed test, $4,810,000.
    Technology Readiness Level.--N/A--Not a systems development effort.
    Timeline for Transition.--N/A--Not a systems development effort.
    GNDA Alignment.--GNDA performance goals 4.1 and 9.3.

   dndo--graduated rad/nuc detector evaluation and reporting (grader 
                             <SUP>SM</SUP>)

Program Description/Objectives
    Program Description.--Provide a vendor-driven framework to 
independently test commercially available radiation detection and 
identification products against standards to help Federal, State, and 
local stakeholders make informed PRND equipment procurements.
    Objectives:
  --Standardize instrument testing and test results reporting to assure 
        valid comparisons.
  --Inform State, local, and tribal entities on performance of COTS 
        systems in making FEMA grant purchases of rad/nuc detection 
        systems.
  --Encourage vendors to develop better radiation detection and 
        identification products.
    Fiscal Year 2012 Planned Accomplishments/Milestones:
  --Initiate Phase II of GRaDER and begin testing against Technical 
        Capability Standards.
  --Continue Phase I of the GRaDER program for manufacturer-financed 
        testing of COTS rad/nuc detection systems by National Voluntary 
        Laboratory Accredited Program accredited laboratories.
  --Maintain the GRaDER Evaluated Equipment List on the FEMA Responder 
        Knowledge Base.
  --Begin implementing the GRaDER postmarket surveillance program to 
        verify continued compliance for previously tested COTS 
        instruments.
    RD&O--Assessments PPA.--GRaDER, $820,000.
    Technology Readiness Level.--N/A--Not a systems development effort.
    Timeline for Transition.--N/A--Not a systems development effort.
    GNDA Alignment.--GNDA performance goals 4.1 and 9.3.
                       dndo--prnd pilot programs
Program Description/Objectives
    Program Description.--Provide a defensible and repeatable framework 
to evaluate operational utility of mature rad/nuc detection technology 
in new operational environments. Assists users to establish venue 
specific CONOPs and procedures, command and control, and technical 
reachback protocols. Provides an initial set of appropriate rad/nuc 
detection systems to establish an initial operating capability.
    Objectives.--Develop and execute a repeatable and defensible pilot 
program that provides technical and operational assessments resulting 
in the transition of new and improved operational capabilities for 
preventative rad/nuc detection to Federal, State, local, and tribal 
users.
    Fiscal Year 2012 Planned Accomplishments/Milestones.--In 
coordination with stakeholders, conduct a series of exercises including 
drills, functional exercises, and full-scale exercises to train, test 
and evaluate CONOPS. Training and equipment deployed during the pilot 
will be provided to the stakeholders.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    RD&O--Assessments PPA.--PRND pilot programs, $3,930,000.
    Technology Readiness Level.--N/A--Not a systems development effort.
    Timeline for Transition.--N/A--Not a systems development effort.
    GNDA Alignment.--GNDA performance goals 2.1, 3.1, 4.1, 5.1, and 
9.3.
                   dndo--red team and net assessments
Program Description/Objective
    Red Team Program Description.--Conducts adversarial-based 
assessments from an outside perspective without using any ``inside'' 
information of current or planned capabilities. Executes overt and 
covert tests to intentionally introduce radioactive sources against 
known defenses to assess the performance of fielded technology, 
training, and protocols.
    Net Assessments Program Description.--Assesses the effectiveness of 
planned and deployed elements of the GNDA and supporting programs.
    Objective.--Identify vulnerabilities and best practices in deployed 
PRND systems and DNDO programs to include technologies, procedures, 
training, and communication pathways.
Fiscal Year 2012 Planned Accomplishments/Milestones
    Fiscal Year 2012 Focus.--Under IAW Director DNDO Guidance, RTNA 
will work to increase support to State and local PRND programs.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    RD&O--Assessments PPA.--RTNA, $11,460,000.
    Technology Readiness Level.--N/A--Not a systems development effort.
    Timeline for Transition.--N/A--Not a systems development effort.
    GNDA Alignment.--GNDA performance goals 2.1, 3.1, 3.2, 4.1, 7.3, 
and 9.2.
                   dndo--joint analysis center (jac)
Program Description/Objective
    Program Description.--Interagency coordination mechanism and 
central monitoring point for the Global Nuclear Detection Architecture, 
maintains situational awareness for the GNDA--to include status of 
radiological and nuclear (rad/nuc) detection assets, visibility into 
the status of rad/nuc alarms, and awareness of rad/nuc-related 
incidents and events.
    Secondary Reachback (SRB).--Accurate and actionable assessments of 
illicit nuclear trafficking events and trends, the credibility of 
nuclear threat communications and other nuclear terrorism indicators. 
The project serves DNDO's entire community of interest and also 
provides deep dive on topics of interest for internal use.
    Objective.--To provide integrated and centralized alarm 
adjudication, data collection, and information sharing services.
    Fiscal Year 2012 Planned Accomplishments/Milestones:
  --Sustained capability.
  --Service metrics (as applicable).
  --Responsiveness to adjudication, responsiveness to RFI, proactive 
        event situational awareness, rapid situational awareness of 
        given incidents.
  --Support the radiation detection community with rapid spectral data 
        analysis and reports.
  --Prepare up to 10 technical reports that inform PRND community on 
        detector performance, detection phenomena trends, triggers that 
        may indicate threat material is present and operational aspects 
        of detector performance. 
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    RD&O--Operations Support PPA.--JAC Ops, NAP, and SRB, $15,850,000.
    Technology Readiness Level.--This is an analytical capability in 
place, TRL 8.
    Timeline for Transition.--Sustained capability.
    GNDA Alignment.--GNDA performance goals 4.1, 4.2, 5.2, 6.1, 6.2, 
6.3, 6.4, 7.1, 7.2, 10.1, 10.2, and 10.3.
          dndo--jac collaborative information system (jaccis)
Program Description/Objectives
    Program Description.--To maintain threat-space awareness and 
execute the operational analysis and reporting function of the Global 
Nuclear Detection Architecture.
    Goals.--Analyze, process, and synthesize information collected 
through all detection mechanisms and related intelligence.
    Objectives:
  --Assist State, local, and tribal governments in analyzing and 
        reporting on any unauthorized nuclear and radiological 
        materials in their jurisdictions.
  --Process and synthesize information collected through detection 
        mechanisms.
  --Receive information from, and disseminate information to relevant 
        authorities.
    Fiscal Year 2012 Planned Accomplishments/Milestones:
  --Complete development.
  --Testing (OT).
  --System migration (SPAWAR to DC2).
  --Test bed migration to DC-2.

------------------------------------------------------------------------
                                                 Baseline
   Key performance parameters    ---------------------------------------
                                       Threshold           Objective
------------------------------------------------------------------------
#1 Simultaneous users...........  15 users..........  75 users
#2 Number of Detector Systems     1.................  2
 Connected.
#3 Number of Situation Awareness  1.................  2
 Display Systems Connected.
#4 Mean Time Between Operational  4,000 hours         20,000 hours
 Failure (MTBF) (Minimum of 1      (approximately      (approximately
 year of monitoring to verify      5.6 months).        2.3 years)
 threshold. To be annually
 assessed.).
#5 Operational Availability.....  99%...............  99.9%
------------------------------------------------------------------------

    RD&O--Operations support PPA.--JACCIS, $5,030,000.
    Technology Readiness Level:
  --All COTs software, DHS Technology Reference Model (TRM) approved 
        TRL8.
  --Basic TRL is 8.
    Timeline for Transition:
  --JACCIS program delivered to user in second quarter fiscal year 
        2011.
  --IOC--fiscal year 2011 third quarter.
  --Formal operational testing is planned for first quarter fiscal year 
        2012.
    GNDA Alignment:
  --GNDA performance objectives 1, 2, 3, and 4.
  --GNDA performance goals 4.1, 4.2, 5.2, 7.1, 7.2, and 8.1.
               dndo--prnd training and exercises program
Program Description/Objectives
    Program Description.--The Training and Exercises Program develops 
and implements rad/nuc training and exercise execution for Federal, 
State, and local law enforcement and public safety professionals to 
increase PRND operational capabilities.
    Objectives.--The program's main objectives are:
  --Increase operational capabilities for Federal, State, and local 
        users.
  --Develop and exercise protocols and standards for effective use of 
        radiation detection equipment and associated alarm resolution 
        and reporting processes.
  --Develop training curricula for emerging detection technologies.
  --Foster organic capabilities by assisting Federal, State, and local 
        agencies in institutionalizing training courses in their 
        academies.
  --Support national security special events, DHS special events, and 
        elevated threat conditions, as required.
    Fiscal Year 2012 Planned Accomplishments/Milestones:
  --Computer Based Training (CBT) for PRD and RIIDs in July 11.
  --Complete curricula for sbile systems (PRDs, RIIDs, backpacks, 
        vehicle model) and fixed systems by end of calendar year 2012.
  --Annually:
    --Directly and indirectly train 5,000 participants in RN detection 
            operations.
    --Assist States in establishing PRND exercise programs.
    --Participate in the Federal national level exercise.
    --Provide domestic State and local exercise support as requested. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    RD&O--Operations Support PPA.--PRND training and exercises, 
$8,100,000.
    Technology Readiness Level.--These are current services, TRL 8.
    Timeline for Transition.--Services currently in-place, improving 
and expanding over time.
    GNDA Alignment.--GNDA performance objectives 1, 2, 3, and 4.
              dndo--interior capability development (icd)
Program Description/Objectives
    Program Description.--The interior capability development program 
utilizes various levels of engagement and program assistance to develop 
PRND capability among State, local, and tribal jurisdictions. Our goal 
is to provide program assistance and engagements that work with all 
other jurisdictions.
    The SLSWG supports the development of DNDO programs and products 
and serves as the principle collaboration opportunity for members of 
the PRND community to share best practices and lessons learned.
    Objectives.--To catalyze and increase PRND capability nationwide, 
thereby increasing probability of encountering and detecting rad/nuc 
materials.
    Fiscal Year 2012 Planned Accomplishments/Milestones.--The National 
Capitol Region is on the verge of purchasing approximately $3.5 million 
worth of PRND equipment using HSPG funds and standing up a regional 
data sharing network for alarm adjudication and tracking. Through 
facilitated workshops, subject matter expertise, and lessons learned 
from other programs across the Nation, DNDO is enabling the NCR to 
execute a program that meets the specific jurisdictional needs that is 
also interoperable with other Federal, State, and local PRND programs. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    RD&O--Operations Support PPA.--Interior capability development, 
$5,120,000.
    Technology Readiness Level.--This is a current program development 
service.
    Timeline for Transition.--Currently engage in ICD activities in 
Florida, Georgia, South Carolina, Virginia, North Carolina, Tennessee, 
Kentucky, Texas, Arizona, New Mexico, California, and Washington, and 
reaching out to other States and cities interested in developing PRND 
capabilities.
    GNDA Alignment.--GNDA performance objectives 4.1, 4.2, and 7.1.
            dndo--mobile detection deployment program (mddp)
Program Description/Objectives
    Program Description.--In conjunction with DOE/Radiological 
Assistance Program (RAP), provide Mobile Detection Deployment Program 
(MDDP) assets as a national nuclear detection ``surge'' capability to 
provide increased security in periods of heightened alert or if 
specific threats are identified. There are currently five MDDP response 
systems collocated with DOE RAP teams.
    Objectives.--To develop specialized capabilities to augment State 
and local operations, and to foster and develop comprehensive, 
integrated, and regional approaches to PRND programs, including surge 
and intelligence informed events.
    Fiscal Year 2012 Planned Accomplishments/Milestones.--Upgrade three 
small mddp systems and add additional equipment. Additional funds 
requested to upgrade RIIDS as part of fiscal year 2012 S&L options.
    Relevant R&D Programs:
  --Human-portable systems (including tripwire).
  --Long-range radiation detection program.
  --PRND target capability and NIMS resource typing.
  --\3\ He alternative development. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    RD&O--Operations Support PPA.--MDDP (sustainment), $2,740,000.
    Technology Readiness Level.--MDDP is a current operational support 
capability, TRL 8.
    Timeline for Transition.--Five MDDUs will be operational and 
stationed across the Nation by the end of fiscal year 2011.
    GNDA Alignment.--GNDA performance objectives 5.1 and 5.2.
                  dndo--ntnfc--technology advancement
Program Description/Objectives
    Program Description.--National Technical Nuclear Forensics Center 
(NTNFC) leads the development of the USG capability to rapidly, 
accurately, and credibly identify the origin and history of rad/nuc 
materials obtained or intercepted before a detonation.
    Objectives.--Our Focus:
  --Advancing and validating lab analysis methods.
  --Identifying discriminating signatures.
  --Creating foundational standard reference materials.
  --Developing tools to interpret and link lab measurements.
  --Developing predictive models.
          fiscal year 2012 planned accomplishments/milestones
  --Develop standard reference materials that will aid in the 
        validation of analytical methodologies, including the standard 
        for trace actinides in bulk SNM.
  --Continue development of benchmark analytical methodologies for 
        determining trace actinides in bulk SNM.
  --Continue to develop and validate predictive models and techniques 
        to improve understanding of how lab-scale uranium processing 
        capability for signature development and modeling purposes 
        becomes operational.
    GNDA Alignment.--GNDA performance goals--Aligns to national 
strategic 5-year plan for improving the nuclear forensics attribution 
capabilities of the United States (signed by the President April 30, 
2010).
Methodology Benchmarking
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    RD&O--NTNFC PPA
  --Technology advancement, $14,670,000.
  --Operational readiness, $4,360,000. (Not a systems development 
        effort.)
  --Expertise development, $5,740,000. (Not a systems development 
        effort.)
    Technology Readiness Level.--All activities within the methodology 
development and signature development areas of Technology Advancement 
fall within TRL 3-7. Most of the activities fall within TRL 4-6, with 
transition to DOE or other interagency partners upon completion.
    Timeline for Transition:
  --One analytical method is scheduled for transition to operational 
        use per year over the next 5 years.
  --Uranium processing for signature development is scheduled for 
        operational implementation in fiscal year 2012.
  --Plutonium processing for signature development is scheduled for 
        operational implementation in fiscal year 2016.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg
                 transportation security administration
    Question. There have been at least six security breaches at Newark 
Airport in the last 2 months. I understand that the Transportation 
Security Administration (TSA) is almost 70 employees short of its 
allocated number for Newark Airport. What is DHS doing to fully staff 
Newark Airport? Based on these incidents, what steps has TSA taken to 
improve training for transportation security officers and managers?
    Answer. In close partnership with the Federal Security Director and 
staff at Newark Airport (EWR) the Transportation Security 
Administration (TSA) has initiated a robust and comprehensive effort to 
address EWR staffing vacancies, and EWR is currently scheduled to reach 
near-100 percent staffing by May 1. In the interim, TSA has been 
providing additional resources as needed. For example, TSA deployed 
additional Supervisory Training Instructors to train new--hires, 
additional AIT-certified Transportation Security officers (TSOs) to 
conduct daily operations while EWR TSOs are being trained, and 
additional staff resources to assist in Human Resources and Training 
operations.
    Following a breach, a complete review of the incident is conducted 
and each action is broken down in detail to ascertain the reasons 
behind the breach. Every TSA individual involved in the activity and 
their response is included in this review. TSA employees identified as 
not having followed standard operating procedures or whose actions are 
the result of inattention to duty are immediately removed from their 
position, and can only return to their positions if retraining and 
recertification for their positions is determined sufficient and is 
satisfactorily accomplished.
    Question. The Transportation Security Administration (TSA) recently 
participated in a program at Newark Airport to help autistic children 
and their families prepare for air travel. The program included a 
flight simulation for the families as well as a well-attended voluntary 
training to increase autism awareness among Transportation Security 
officers (TSOs) and airline personnel. Currently, I understand that TSA 
provides 3 hours of disability-related training for new hires. Does TSA 
have any plans to improve coverage of autism and other types of 
neurodevelopmental disorders and cognitive disabilities in the new-hire 
and ongoing training for TSOs? What steps will be taken to improve the 
travel experience for passengers with autism and other types of 
neurodevelopmental disorders or cognitive disabilities?
    Answer. The Transportation Security Administration (TSA) is in the 
process of updating all of its training with regard to persons with 
disabilities. In addition, TSA is working with Autism Explores and 
other similar programs to develop core training on autism for our 
screening personnel. This training focuses on the skills to screen 
those with disabilities with compassion, respect, and sensitivity while 
maintaining transportation security. TSA is also working with the 
Administration on Developmental Disabilities to ensure that information 
about TSA's screening procedures is accessible to people with cognitive 
disabilities.
                              mass transit
    Question. The Department's assessment of the Nation's passenger 
rail and mass transit systems--completed in October 2010--found that a 
significant security risk exists. Yet, surface transportation security 
continues to make up a very small percentage of the TSA's overall 
budget. Why doesn't the budget request for TSA reflect the risk to rail 
and transit?
    Answer. In the aviation sector, the Federal Government has the 
primary role to provide security. This is accomplished primarily by 
funneling traffic at security checkpoints and by screening the 
passengers and baggage. In the surface modes, the primary 
responsibility of providing security rests with the local responders 
and the system operators, who are supported by TSA.
    The President's fiscal year 2012 budget includes funding to enhance 
TSA's surface transportation efforts. The budget supports programs that 
are designed to assist the industry and State and local governments and 
transportation authorities to identify their vulnerabilities and 
provide guidance and tools to help close critical security gaps in 
high-risk systems. Specifically, the fiscal year 2012 request includes 
$109 million to support 37 VIPR teams, including 15 teams dedicated to 
surface transportation security. The request also includes $300 million 
for the Transit Security Grant Program to support State and local 
surface transportation efforts.
                   transportation security laboratory
    Question. The Transportation Security Laboratory (TSL) in Atlantic 
City, New Jersey creates technology to mitigate impacts of potential 
terrorist attacks against our transportation system, but it is 
currently operating beyond its maximum designed capacity. While the 
budget requests $18 million for facility renovations, the TSL needs 
additional funds to complete the renovations. Will you commit to 
providing all of the funds necessary to upgrade this facility and help 
TSA meet its safety mandates?
    Answer. The Science and Technology Directorate (S&T) has a long-
term plan for completing necessary upgrades to the Transportation 
Security Laboratory (TSL). S&T's 5-year plan for TSL upgrades began in 
fiscal year 2010 and will continue through fiscal year 2014, pending 
available appropriations. The high priority upgrades are targeted for 
completion first. The 5-year program will provide TSL with the critical 
infrastructure needed to ensure its role as a leader in transportation 
security, and to meet its mission of researching, developing, 
engineering, testing, and evaluating solutions to detect and mitigate 
the explosives threat and weapons used against our Nation's 
transportation systems.
                          port security grants
    Question. House Republicans have proposed cutting port security 
grants by two-thirds. The Port of New York/New Jersey is the largest 
port on the east coast and the second-largest port in the country. It 
is directly linked to what the FBI deemed the most dangerous area in 
America for a terrorist attack. Yet it would lose $33 million in 
security funding under the House bill. What would be the impact on the 
New Jersey-New York region and our Nation's economy if there were to be 
a terrorist attack on one of our largest ports?
    Answer. Various studies indicate that the economic impact of a 
major terrorist attack on one of the Nation's largest ports could total 
in the tens of billions of dollars--though the impact would depend on 
the degree and severity of a terrorist attack. The goal of the Port 
Security Grant Program is to mitigate port security risks and address 
the gaps and vulnerabilities that may expose our ports to terrorist 
attack. Toward that end, the program has been highly successful; all 
large ports have made substantial progress toward addressing the risks 
identified in their port-wide risk management plans. Under significant 
budgetary constraints, DHS must prioritize funding allocation to those 
areas where it is most needed.
    In 2007, our Nation's largest ports areas having the most risk 
developed port-wide risk management plans with PSGP dollars. These 
plans were developed to support the area maritime security plans and 
facility security plans. Through these plans, security vulnerabilities 
were identified and prioritized lists of projects to reduce these 
vulnerabilities were developed (spend plan). More than $1 billion in 
PSGP funding has been allocated to planning and executing projects from 
these plans, with many more security risk mitigation projects yet to 
start and urgently dependent on future year funding. While the majority 
of PSGP funding goes to the largest port areas the program is equally 
vital to the smaller port areas and facilities to offset their 
associated security costs as well.
    Below are examples of security activities and security risk 
mitigation projects that will be in jeopardy if funding is reduced:
  --CBRNE response vehicles, the most common being small boats and the 
        associated equipment, such as Forward Looking Infrared Radar 
        (FLIR).
  --Increasing the security of facilities by improving access control 
        systems, monitoring and recording devices such as CCTV, 
        fencing, bollards, and other perimeter security measures.
  --Providing new capabilities for maritime law enforcement, including 
        K-9 explosives detection teams, maritime security training, and 
        patrol vessel tactical operations.
  --Specialized maritime training and exercises such as dive training, 
        suicide bomber, and active shooter training, and CBRNE 
        response.
  --Interoperable communications projects, including infrastructure 
        upgrades, and mobile, portable, and base communications.
  --Creating and enhancing interagency operations centers.
                         state and local grants
    Question. The State and local grant programs put funding where it 
is most critical--on the front lines in the hands of first responders. 
I was pleased to see an increase in both of these programs in the 
President's request, but I was concerned that the House proposal for 
fiscal year 2011 would make cuts to both the Urban Area Security 
Initiative and the State Homeland Security Grant Program. What kinds of 
homeland security programs would receive less funding if those cuts 
were to take place?
    Answer. There are two issues related to a potential reduction in 
funding for the Urban Areas Security Initiative (UASI) and the State 
Homeland Security Program (SHSP) grants. First, because there are 
statutory minimum allocations in the SHSP grants, funding for the 
highest-risk States could be reduced. Furthermore, any reduction in 
funding for these programs will result in the reduction or elimination 
of funding that historically goes toward planning, intelligence 
analysts, equipment (such as interoperable communications equipment), 
first responder training, and exercises.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats
                         aviation security fees
    Question. The budget proposes a new general appropriations bill 
provision to amend current law to allow aviation passenger security 
fees to be increased above the current statutory maximums. The fiscal 
year 2012 budget assumes the enactment of this provision and a fee 
increase of $1.50 per enplanement beginning the third quarter of the 
fiscal year generating an additional $589,940,000 in offsetting 
collections. Even if the requested authority was granted to you by the 
start of the new fiscal year, how realistic is it that a rulemaking 
could be executed and completed in time to enable an additional 
$589,940,000 in fee collections to be generated in fiscal year 2012?
    If the requested authority to allow you to increase the fee amount 
is not provided, what impact will this have on your fiscal year 2012 
request? What specific reductions would you propose from the levels 
requested to make up for this nearly $590 million budget shortfall?
    Answer. The fiscal year 2012 budget request proposes the fee 
increase in the third quarter of fiscal year 2012 to provide sufficient 
time for the rulemaking process, assuming the Congress passes this 
proposal prior to end of fiscal year 2011.
    Despite the Congress's original intent that the security fee covers 
nearly all costs related to passenger and property screening, the fee 
currently offsets less than one-third of the total cost of aviation 
security. At the same time, costs of security have continued to 
increase. In 2000, it cost less than $1 to screen each passenger. In 
fiscal year 2010, the average cost for the Transportation Security 
Administration (TSA) to screen a passenger and baggage has increased to 
nearly $9, in part to airline imposed checked baggage fees that have 
resulted in TSA screening 56 million additional carry-on bags at 
airport checkpoints annually.
    I fully appreciate the constraints of the current fiscal 
environment, and it is precisely because of the current economic 
situation that I feel nothing should be left off the table to fund the 
Department's critical frontline operations. While airlines have 
increased fees across the board--from checked baggage and extra leg 
room to refreshments, we have never adjusted how we fund security 
measures to protect the traveling public.
    I ask for your support of the administration's proposal to ensure 
that we are able to continue the significant progress we have made in 
enhancing aviation security while fulfilling the Congress's intent to 
do so in a fiscally responsible manner that does not penalize American 
taxpayers. I look forward to working with you on this matter in the 
coming months.
                          grants effectiveness
    Question. What steps has the Department taken and planning to 
implement the recommendations made by the local, State, tribal, and 
Federal preparedness task force regarding developing measurements of 
the effectiveness of grants?
    Answer. FEMA agrees with recommendation #14 in the Local, State, 
Tribal, and Federal Preparedness Task Force's report to the Congress, 
which calls for ``Threat and Hazard Identification and Risk Assessment 
(THIRA) processes at all levels of government to establish a foundation 
to justify preparedness improvements.'' The detailed recommendation 
came directly from the stakeholder community.
    FEMA has taken the recommendations from the local, State, tribal, 
and Federal preparedness task force report into consideration while 
working to improve coordination and consolidation of FEMA's grant 
programs, including coordinating interagency grant programs and more 
closely linking capability assessments to grant activities. FEMA has 
also contracted with the National Association of Public Administration 
(NAPA) to conduct a study to develop a core set of performance measures 
that can be used to track performance of the SHSP and UASI grants.
         visa waiver program/biometric air exit implementation
    Question. When does the administration plan to make a decision on 
implementing biometric air exit, or will it be officially proposing to 
repeal the biometric air exit requirement currently in statute?
    Answer. Since the Congress enacted the statute that included a 
mandate for biometric air exit, DHS has implemented several automated 
systems based on biographic data that much more effectively capture 
arrival and exit information as compared to the processes in use at the 
time.
    Additionally, DHS has conducted a number of pilots and studies 
since 2003 to assess options on how to meet the biometric exit mandate. 
The pilots have demonstrated that while the technology exists to 
collect biometrics--the costs associated with the operational 
facilities and staffing needs necessary to achieve effective compliance 
with biometric air exit requirements using currently available 
technology and processes are quite high, particularly when compared to 
any potential security gains. DHS does not invest money into solutions 
where the benefits are not commensurate with the costs incurred.
    Accordingly, DHS will explore new biometric exit solutions that can 
be implemented in a cost-effective way, while simultaneously 
implementing enhancements to existing biographic exit systems. These 
enhancements will focus on strengthening Customs and Border 
Protection's (CBP) Advance Passenger Information System (APIS) 
information collection and carrier compliance auditing; enhancing US-
VISIT's automated matching of arrival and departure records, review of 
records of potential overstays, and posting of ``lookouts'' for those 
who have overstayed.
    Question. On December 8, 2010, President Obama met with Polish 
President Komorowski. During a press availability after the meeting, 
the Visa Waiver Program (VWP) came up. President Obama said: ``I am 
well aware that this is a source of irritation between two great 
friends and allies, and we should resolve it. The challenge I have 
right now is, is that there is a congressional law that prevents my 
administration from taking unilateral executive action. So we're going 
to have to work with the Congress to make some modifications 
potentially on the law. In the meantime, what I indicated to President 
Komorowski is that I am going to make this a priority. And I want to 
solve this issue before very long. My expectation is, is that this 
problem will be solved during my presidency.'' How does the 
administration plan to fulfill the commitment President Obama made to 
the President of Poland in December 2010--to resolve the issues 
preventing Poland's entry into the Visa Waiver Program--with the fiscal 
year 2012 budget proposal of no funding for biometric air exit?
    Answer. As the President stated, the administration supports the 
inclusion of Poland in the Visa Waiver Program. However, as the 
President also indicated, the administration cannot take unilateral 
action on including Poland in the Visa Waiver Program due to the 
current rate of visa refusals from Poland pursuant to section 217 of 
the Immigration and Nationality Act. In addition, Poland has not yet 
met the other important requirements for designation in the Visa Waiver 
Program, such as concluding agreements to share criminal and terrorism 
screening data with the United States and entering into an agreement on 
reporting lost and stolen passports to Interpol.
 recapitalization of the u.s. customs and border protection (cbp) air 
                            and marine fleet
    Question. At the level of funding requested for fiscal year 2012 
which funds two UH-60 helicopter conversions, CBP will still have to 
take as many as nine UH-60 helicopters out of service by 2014 due to 
age. What is the Department doing to mitigate this situation? Will 
other assets be redeployed?
    Answer. CBP is continuing to pursue the aged aircraft engineering 
analyses, physical inspections, and service life risk assessments 
initiated in late fiscal year 2009 to determine how to keep the 
aircraft flying safely beyond current projections. Through this 
initiative, each aircraft is evaluated to determine if additional 
maintenance can extend the service life the aircraft beyond current 
projections. CBP is also considering an expansion of the mandatory 720-
flight-hour inspection to include the inspection or replacement of 
selected high stress components and structural components to keep the 
aircraft in service longer. If an aircraft is not operational, it will 
be placed in controlled storage until it can be inducted into the Army 
conversion line, and the remaining assets will be reallocated to the 
agency's highest-priority missions.
    Question. What number of UH-60s would need to be converted from A 
to L in fiscal year 2012 and fiscal year 2013 to eliminate the need to 
take out of service nine UH-60 helicopters due to age in 2014?
    Answer. CBP will continue its aged aircraft engineering analyses, 
physical inspections, and service life risk assessments to determine 
how to keep the aircraft flying safely beyond current projections. At 
CBPs request, the U.S. Army recently provided updated costs and 
possible induction schedules to mitigate the impact of the projected 
groundings. Based on the Army estimates, it is possible to induct up to 
three aircraft per year without a negative impact to the factory 
production schedule.
    Question. What are the results of the investigations conducted by 
CBP into the age-related problems of the UH-60s? Are there revised 
estimates as to the cost of converting two UH-60s from A to L?
    Answer. The Army has recently provided updated costs and possible 
induction schedules to mitigate the impact of the aged-aircraft 
situation. The costs are based on the age of CBP's UH-60 Black Hawks 
and actual experience gained during the conversion of the first two 
aircraft over the past 2 years. The quantity of aircraft per year shows 
how CBPs assets might fit into the planned factory production schedule 
without an impact on the Army's helicopter program. This accelerated 
schedule is expected to reduce the number of age-related groundings of 
CBP aircraft.
                     tactical border infrastructure
    Question. In January of this year, the decision was made not to 
extend the Boeing contract for SBInet. Yet, the budget requests funds 
for three additional deployments of integrated towers with cameras and 
radars for fiscal year 2012. Are the contracts in place today to 
acquire these systems and deploy them?
    Answer. The Integrated Fixed Tower (IFT) systems are not 
``additional deployments'' of the SBInet Block 1 system that was 
procured under the Boeing contract. Following a departmentwide review 
of the SBInet program, I directed CBP to end SBInet as originally 
conceived and implement a new border security technology plan that will 
utilize existing, proven technology tailored to the distinct terrain 
and population density of each border region. Where appropriate, this 
technology plan will include elements of the former SBInet program that 
have proven successful, such as stationary radar and infrared and 
optical sensor towers. The Department does not intend to use the 
existing Boeing contract for procurement of any of the technology 
systems included in the new Southwest Border technology plan. In the 
future, the Department will conduct full and open competition of the 
elements in the new border security plan, including any expansion of 
the integrated fixed towers.
    Question. If no contracts are in place now, is there a high level 
of risk that CBP will not be able to execute three deployments in 
fiscal year 2012?
    Answer. There are certainly normal risks associated with awarding 
any contract, but we do not believe there is a high risk to being able 
to award the new Integrated Fixed Tower system contract during fiscal 
year 2012. Program planning is under way and CBP has already engaged 
industry and has conducted a significant amount of market research. 
There are multiple companies who have an integrated tower system 
already designed, developed, and in use today.
                     dhs headquarters consolidation
    Question. What is the GSA cost associated with the Federal 
Emergency Management Agency (FEMA) building at St. Elizabeths? What is 
the DHS fiscal year 2012 cost being deferred? Show original project 
phases and funding estimates and how these will change with the 
deferral of the FEMA project. What is the impact of deferring the FEMA 
building? Provide the total current estimate of the St. Elizabeths DHS 
headquarters consolidation project. Is it still $3.4 billion or has the 
estimate been revised?
    Answer. The GSA costs for the FEMA building excluding parking and 
infrastructure on the East Campus is approximately $215 million, which 
includes design and Management and Inspection (M&I).
    The Department deferred $108 million of the DHS costs associated 
directly with FEMA headquarters on the East Campus in order to fund 
frontline operations within the current budget environment.
    The current St. Elizabeths development estimate is $3.56 billion 
($1.37 billion for DHS and $2.19 billion for GSA), subject to receipt 
of fiscal year 2011 appropriations as requested. This is a revision of 
the earlier development estimated costs and is based on the GSA 
prospectus submission for fiscal year 2011.
    While the DHS estimate remains within the original programmatic 
estimate, GSA costs have increased from $2.04 billion to $2.19 billion 
due to the following:
  --Stabilization of buildings as part of the site's designation as a 
        National Historic Landmark;
  --Additional east campus infrastructure to disperse the density 
        originally planned for the west campus as requested by 
        consulting parties;
  --Malcolm X/Interstate-295 highway interchange;
  --Historic preservation measures per the programmatic agreement 
        signed with consulting parties;
  --New energy target mandates that were not required when the original 
        cost estimates were made.
    Significant delays caused by a lack of funding in fiscal year 2011 
are expected to increase St. Elizabeths project costs GSA and DHS 
continue to evaluate ongoing construction activities in light of 
resources provided in 2011 and will be able to provide new project cost 
estimates at a later date. Without full funding of the President's 
fiscal year 2012 request, the cost and schedule impacts will be even 
greater.

                                               DEVELOPMENT ESTIMATE AT THE INITIATION OF CONSTRUCTION FUNDING WITH FISCAL YEAR 2009 APPROPRIATIONS
                                                                                    [In thousands of dollars]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                  Fiscal year               Fiscal year  Fiscal year  Fiscal year  Fiscal year  Fiscal year  Fiscal year  Fiscal year
                                        Prior         2009         ARRA         2010         2011         2012         2013         2014         2015         2016        Total         Notes
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
GSA................................       64,447      346,639  ...........      447,773      277,875      312,875      288,375      298,375  ...........  ...........    2,036,359        (\1\)
DHS................................  ...........      100,278  ...........      248,116      347,575      209,734      277,860      203,839        9,754       19,405    1,416,561    (\1\ \2\)
                                    ------------------------------------------------------------------------------------------------------------------------------------------------------------
      Total........................       64,447      446,917  ...........  ...........      625,450      522,609      566,235      502,214        9,754       19,405    3,452,920        (\1\)
                                    ============================================================================================================================================================
Phase 1............................  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........        (\6\)
Phase 2A...........................  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........        (\7\)
Phase 2B...........................  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........        (\8\)
Phase 3............................  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........        (\9\)                                     REVISED DEVELOPMENT ESTIMATE BASED UPON FISCAL YEAR 2011 PROSPECTUS AND FISCAL YEAR 2012 PRESIDENT'S BUDGET SUBMISSIONGSA................................       64,447      346,639      450,000  ...........      380,296      217,706      440,101      290,561  ...........  ...........    2,189,750  (\1\ \3\ \5\
                                                                                                                                                                                              )
DHS................................  ...........      100,278      200,000  ...........      287,800      159,643      396,090      211,854        3,508       13,438    1,372,611  (\1\ \3\ \4\
                                                                                                                                                                                           \5\)
                                    ------------------------------------------------------------------------------------------------------------------------------------------------------------
      Total........................       64,447      446,917      650,000  ...........      668,096      377,349      836,191      502,415        3,508       13,438    3,562,361        (\1\)
                                    ============================================================================================================================================================
Phase 1............................  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........        (\6\)
Phase 2A...........................  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........        (\7\)
Phase 2B...........................  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........        (\8\)
Phase 3............................  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........       (\9\)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Indicates appropriations received prior fiscal year's through ARRA.
\2\ Fiscal year 2009 DHS budget request was $120 million. Received $97.578 million in USCG and $2.7 million in DHS appropriations.
\3\ Outyear estimates were adjusted based on receipt of ARRA funding.
\4\ DHS reduction from 2009 to current result of project team salaries and benefits moved to the CAO base.
\5\ Fiscal year 2012 President's request deferred FEMA by 1 year.
\6\ Indicates Phase 1 (USCG) completion schedule.
\7\ Indicates Phase 2A (DHS HQ and DHS operations centers (DOC)) facility completion schedule.
\8\ Indicates Phase 2B (FEMA) completion schedule.
\9\ Indicates Phase 3 (remaining components) completion schedule.

                   domestic nuclear detection office
    Question. The fiscal year 2012 President's budget request again 
proposes to transfer the funding for Transformational Research and 
Development from the Domestic Nuclear Detection Office (DNDO) to the 
Science and Technology (S&T) Directorate. In addition, there have been 
a number of critical assessments of DNDO over the years, including its 
management of the Advanced Spectroscopic Portal program and the Cargo 
Advanced Automated Radiography System (CAARS). Given the difficulties 
that DNDO has had in the past with project management, what steps have 
been taken to improve project management at DNDO?
    Answer. Over the last 2 years, DNDO has implemented a new process 
called the Solution Development Process (SDP) to implement Department 
of Homeland Security (DHS) Acquisition Directive (AD) 102-01. The SDP 
provides an effective strategy for program oversight by aligning 
strategic analysis, planning, and investment decisionmaking with a 
complementary process to design, develop, test, and deploy specific 
detection solutions. All of the projects within DNDO are being formally 
reviewed by DNDO senior management as part of the SDP process. The 
reviews are chaired by the DNDO Deputy Director, who also serves as the 
Component Acquisition Executive (CAE). These reviews address issues 
related to funding, staffing, scheduling, technical development, and 
risk. A formal SDP training program has been developed by DNDO so that 
all Program Managers fully understand the SDP and implement it 
correctly to ensure improved oversight and governance. The SDP, which 
is both calendar and milestone driven, comprises a series of 
development stages separated by formal stage gate decision reviews.
  --Stage 0.--Key strategic planning and gap identification.
  --Stage 1a.--DNDO-wide budgeting and needs prioritization.
  --Stage 1b.--Needs justification and capabilities development 
        planning.
  --Stage 2a.--Alternatives analysis, piloting, operational 
        requirements, and solution selection.
  --Stage 2b.--Detailed program planning and cost estimation.
  --Stage 3.--Detailed solution design, development, and testing.
  --Stage 4.--Production, deployment, and operation.
    The first two stages (stage 0 and 1a) are conducted annually when 
the gaps in the Global Nuclear Detection Architecture (GNDA) are 
reviewed and needs are identified. The remaining stages are milestone 
driven and are not completed until all of the requirements of their 
respective stage gates are met. Detailed worksheets inform efforts at 
each stage to ensure that all aspects of the program are properly 
evaluated. The SDP accommodates materiel and nonmateriel solutions.
    Additionally, DHS has implemented a departmentwide initiative to 
ensure that Program Managers are trained and certified at levels 
commensurate with the size, funding, and complexity of the programs 
they manage. This effort, intended to create a cadre of officially 
certified Program Management Professionals, is embraced by DNDO and 
enhanced thought the SDP reviews. Achieving and maintaining the 
appropriate certification is included in the DNDO Program Managers 
performance goals. The combination of increased individual skill of 
those engaged in the acquisition process along with more rigorous 
procedures and oversight, as directed by DHS AD 102-01 and DNDO's SDP, 
help to ensure that DNDO's project management capabilities continue to 
improve.
    Question. How will DNDO formalize the relationship with S&T to 
competently handle the movement of programs from Transformation 
Research and Development to Systems Development, which will remain with 
DNDO?
    Answer. In order to maintain and improve the current levels of 
integration for transformational research and development activities 
and transitions of technologies for use by operators, DNDO will work 
closely with S&T to ensure that the pipeline for technological 
advancements remains coordinated to address gaps in the Global Nuclear 
Detection Architecture and operational needs by utilizing the 
integrated project team process to integrate research projects into 
future acquisition plans and develop formal technology transition 
agreements (TTAs). TTAs define the level of maturity of the technology 
at transition, ranging from commercially available to less mature 
stages, and solidify the expectations of the technology developer and 
the component who receives the technology. This arrangement will ensure 
a smooth integration of S&T developed technologies into the DNDO 
systems development process.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                        departmental management
    Question. Your Department has been operating under a continuing 
resolution for 5 months. Yesterday, Defense Department officials 
testified to our committee that operating in such a manner has 
``brutal'' effects on the readiness of our Nation's defense. Like the 
Defense Department, your Department's ability to operate efficiently 
also has significant implications on our Nation's security interests. 
What types of effects has operating under a continuing resolution for 
so long had on your Department?
    Answer. The Department of Defense and Full-Year Continuing 
Appropriations Act enacted on April 15, 2011, provides resources to the 
Department for the rest of the fiscal year. DHS will be able to 
accomplish its mission within the funding levels provided in the 
continuing resolution.
    Question. If the Congress is unable to enact some form of a 
Homeland Security appropriations bill for fiscal year 2011, what are 
some of the specific effects operating under a year-long continuing 
resolution would have on your Department's missions?
    Answer. The Department of Defense and Full-Year Continuing 
Appropriations Act enacted on April 15, 2011, provides resources to the 
Department for the rest of the fiscal year.
                              coast guard
    Question. The President's fiscal year 2011 budget request included 
funding to complete the fifth national security cutter, yet there are 
funds requested in the fiscal year 2012 budget to finish out NSC #5. If 
there was a certainty that the Congress would appropriate these funds 
by October 1 of this year, this might be a reasonable plan. But 
understanding our current condition and recent history, would getting 
NSC #5 under contract before the end of fiscal year 2011 as previously 
planned create efficiencies and savings in the shipbuilding process?
    Answer. Coast Guard is prepared to efficiently complete a contract 
for construction of NSC #5 as soon as full funding authority is enacted 
by the Congress.
                       national security cutters
    Question. What does the timely acquisition of national security 
cutters mean to the Coast Guard's fleet in terms of the retirement of 
other vessels, operations and maintenance costs, and personnel costs? 
How have the current national security cutters improved your 
capabilities?
    Answer. The Coast Guard is committed to meeting its surface 
operational hours baseline to execute statutorily required missions in 
the deepwater environment. The Coast Guard is able to meet this 
baseline through the delivery of new assets to replace aging cutters. 
The sooner the Coast Guard can bring national security cutters (NSC), 
offshore patrol cutters (OPCs) and fast response cutters (FRCs) online, 
the sooner it can decommission its aging, legacy cutters. Furthermore, 
maintenance and repairs that are increasingly above programmed levels 
draw critical depot level maintenance funds from other assets, thereby 
impacting readiness across the fleet.
    The following specific, unique and improved, operational features 
and capabilities allow NSCs to execute required missions:
  --Long-range EEZ and border enforcement capability, with the 
        endurance to remain on station for extended periods along with 
        the speed and range to reach any area of operation.
  --Long-range, high-speed counterterrorism, counter-drug intercept 
        capability.
  --Capabilities for continued operations in a contaminated environment 
        (e.g., chemical, radiation).
  --Three dimensional capable air-search radar, providing the 
        capability to manage the air domain during regular or disaster 
        operations.
  --Three cutter boats. The stern ramp allows for extremely quick 
        launching with only one or two persons on deck to conduct the 
        launch. Fast action response teams are ready to respond to a 
        tactical situation with very little advance notice.
  --Two aircraft hangars allow the cutter to deploy with two aircraft, 
        increasing aviation capabilities for prolonged aviation 
        presence and increased redundancy for continued operations.
  --Ability to exploit information on-scene, and exchange secure data 
        to and from the national intelligence network. This capability 
        is critical in conducting homeland security missions, including 
        interdicting drug and human smuggling networks that benefit 
        from increasing sophistication of IT systems.
    As an example of the capabilities of the NSC, during her first 
patrol, utilizing advanced sensors, communications, and onboard cutter 
boats, the NSC Bertholf interdicted 12,500 kilograms of cocaine with a 
street value of nearly $400 million and detained nine suspected drug 
smugglers in the Eastern Pacific.
                  acquisition long lead time material
    Question. How would acquisition of long lead time materials for NSC 
#6 during fiscal year 2012 affect overall acquisition efficiency and 
contractor workload? Does the current plan to buy long lead time 
materials in fiscal year 2013 at the same time you buy the ship itself 
and conceivably sign a construction contract reduce or raise the 
overall price of the ship as opposed to buying long lead time materials 
in advance?
    Answer. The funding associated with the sixth NSC is not required 
until fiscal year 2013.
                            disaster relief
    Question. Over the past 20 years, more than $4 out of every $5 
appropriated by the Congress to the Disaster Relief Fund (DRF) have 
been provided through supplemental appropriations bills. Over the past 
20 years, an average of nearly $7 billion annually has been 
appropriated for disaster relief, yet you requested only $1.95 billion 
for fiscal year 2011 and $1.8 billion for fiscal year 2012. Your budget 
documents state that these requested funds are only for 
``noncatastrophic disaster activity.''
    Many experts I've talked to say that true catastrophes only occur 
once every 20-25 years. What is your definition of catastrophe? Does it 
match the definition of catastrophe as provided in the Post-Katrina 
Emergency Management Reform Act? How often do catastrophes occur in 
your mind? Are we budgeting wisely for disasters?
    Answer. A total of 22 events that qualify as catastrophes have 
occurred in 14 of the last 23 fiscal years. While no hard definition 
currently exists, FEMA currently believes that an event qualifies as a 
catastrophe if the estimated cost-threshold to the Federal Government 
is more than $500 million.
    The $1.8 billion requested for the DRF, per standard annual 
practice, reflects the 5-year rolling average of historical obligations 
for noncatastrophic events (those less than $500 million in estimated 
obligations), less estimated recoveries for fiscal year 2012. This 
methodology is one that the administration has proposed in its fiscal 
year 2010 and fiscal year 2011 budgets and represents the best use of 
available information in developing the DRF request. We also have a 
robust strategy in place to deobligate funds from past contracts and 
projects that are now complete and where we did not spend all the money 
originally obligated. Based on our experience in actively managing the 
unliquidated contract obligations in fiscal year 2010, we are taking 
the same approach for individual assistance and public assistance 
grants in fiscal year 2011, and anticipate that our projected 
recoveries may be higher than previously estimated. Regardless, we are 
committed to working with the Congress to ensure that the DRF remains 
solvent through fiscal year 2011 and fiscal year 2012.
   u.s. citizenship and immigration service data center consolidation
    Question. Your Department has received recognition for its data 
center consolidation efforts. These efforts are particularly impressive 
when considering the number of previously unaffiliated agencies your 
Department has brought together.
    What types of efficiencies will your Department gain from these 
efforts? Can you quantify current or future taxpayer savings as a 
result of these efforts?
    Answer. The following are types of efficiencies that the Department 
of Homeland Security (DHS) expects to gain from the data center 
consolidation efforts:
  --Provide operational efficiencies and economies of scale through the 
        consolidation of more than 30 locations to 2;
  --Facilitate management, sharing and dissemination of data;
  --Provide improved disaster recovery and Continuity of Operations 
        (COOP) capabilities;
  --Enhance Department's ability to quickly launch new departmentwide 
        capabilities;
  --Provide components single storefront for ordering of services;
  --Improve server (CPU) utilization (percent); rack space utilization 
        (percent); rack floor utilization (percent); power usage/square 
        foot; and power usage effectiveness;
  --Standardize IT resource acquisitions across Components, as well as 
        streamline maintenance and support contracts that will allow 
        for less complex vendor support to expedite response times in 
        the event of an emergency.
    To date, five legacy data centers have completed their migrations 
to the DHS Enterprise Data Centers of a total of 43 identified primary 
sites for a combined short term savings of $16.3 million/year. The long 
term return on investment (ROI) analysis, which factors in legacy data 
center costs, costs to migrate to the two DHS data centers, and 
projected operations and maintenance (O&M) costs, anticipates 
cumulative savings/cost avoidance from our Break Even Point in fiscal 
year 2017 through fiscal year 2030 of $4.8 billion.
                  coast guard unmanned aerial vehicles
    Question. With the successes of unmanned systems in the wars in 
Iraq and Afghanistan, why doesn't your fiscal year 2012 budget request 
contain funding to move the Coast Guard closer to using unmanned aerial 
vehicles in its operations?
    Answer. The Coast Guard continues to work with the U.S. Navy and 
Customs and Border Protection to advance application of these 
capabilities in the maritime domain. As these technologies and 
capabilities are further researched and developed for maritime 
applications, the Coast Guard is focusing capital resources toward high 
priorities within the Coast Guard Air Domain, including extending 
service life and enhancing the capability of current airframes such as 
the H-65, H-60, and C-130H as well as recapitalizing aged air assets 
(e.g. replacing the HU-25 Falcon with the HC-144A Ocean Sentry).
    Question. As the Coast Guard continues to analyze options for land-
based unmanned aerial vehicles, has it considered any fee-for-service 
maritime surveillance UAV options as demonstrated in SOUTHCOM's Project 
Cazador that could mitigate immediate risk to the Coast Guard with 
regard to acquisition, training, basing, and the like?
    Answer. Yes, the Coast Guard had representatives from the Research 
and Development and Requirement and Capabilities staffs on site during 
the 2010 Project Cazador and considers fee-for-service to be one of 
several means to conduct a land-based Unmanned Aircraft System (UAS) 
technology demonstration. The Coast Guard continues to work with 
Department of Homeland Security (DHS) partners to leverage their 
experience and investments in land-based UAS technology.
                   tsa's advanced imaging technology
    Question. Following the Christmas Day bombing attempt of 2009, your 
Department moved quickly to aggressively procure Advanced Imaging 
Technology in an attempt to keep up with current air travel threats. 
Could you update the subcommittee on the progress of that effort and 
whether these machines are providing both enhanced detection capability 
and sufficient passenger privacy?
    Answer. Advanced Imaging Technology (AIT) units detect a wide range 
of metallic and nonmetallic threats, including explosives, on 
passengers. By the end of fiscal year 2012, assuming full funding of 
the Department's fiscal year 2011 and fiscal year 2012 budget requests, 
TSA estimates that 1,275 AITs will be deployed.
    Rigorous privacy safeguards are also in place to protect the 
traveling public. All images generated by imaging technology are viewed 
in a walled-off location not visible to the public. The officer 
assisting the passenger never sees the image, and the officer viewing 
the image never interacts with the passenger. The imaging technology 
that TSA uses cannot store, export, print, or transmit images. 
Furthermore, to further enhance privacy protections in place for AIT 
screening, TSA is currently testing Automated Target Recognition 
technology, which generates a generic outline of a person and 
identifies the approximate area on the figure where an anomaly is 
detected.
                        fema's map modernization
    Question. As you know, much of my State of Mississippi and Senator 
Landrieu's State of Louisiana is protected from flood waters by levees. 
Having intimately experienced Hurricane Katrina, we take seriously the 
need of the National Flood Insurance Program to accurately reflect risk 
to the public. However, Senators from all over the Nation are hearing 
from their constituents regarding FEMA's Map Modernization efforts. Do 
you share my view there are practical changes we can make to FEMA 
policy that might mitigate some of the concerns of communities without 
adversely affecting risk identification or the solvency of the NFIP?
    Answer. Since fiscal year 2009, we have been implementing the Risk 
Mapping, Assessment, and Planning (Risk MAP) program, which not only 
addresses gaps in flood hazard data, but uses that updated data to form 
a solid foundation for risk assessment and floodplain management, and 
to provide State, local, and tribal entities with information needed to 
mitigate flood related risks. Risk MAP is introducing new products and 
services extending beyond the traditional digital flood maps produced 
in Flood Map Modernization, including visual illustration of flood 
risk, analysis of the probability of flooding, economic consequences of 
flooding, and greater public engagement tools. FEMA is increasing its 
work with officials to help use flood risk data and tools to 
effectively communicate risk to citizens, and enable communities to 
enhance their mitigation plans.
    Currently, FEMA is executing the National Flood Insurance Program 
(NFIP) Reform work plan, and is considering proposed legislative, 
regulatory, and administrative changes to the program. This process was 
designed to engage program stakeholders from a variety of perspectives, 
and to date has included hundreds of stakeholders in a series of public 
meetings and generated thousands of public comments on reform 
possibilities.
    The original NFIP reform work plan envisioned an 18-month process, 
to ensure thorough and transparent engagement with a wide variety of 
program stakeholders. Based on feedback from the Congress, FEMA has 
accelerated this schedule by 6 months, and expects to report findings 
by the end of the fiscal year. This will allow for consideration of 
program reforms by decisionmakers prior to the expiration of the 
current NFIP authorization in September 2011.
                                 ______
                                 
              Question Submitted by Senator Lisa Murkowski
              u.s. coast guard maritime coverage in alaska
    Question. In Alaska, we are very concerned with the President's 
decision to decommission another high endurance cutter in the fiscal 
year 2012 budget. Given the vast maritime environment that the Coast 
Guard is responsible for protecting in Alaska, I am concerned that the 
decommissioning of these cutters will have significantly negative 
impacts on the safety and security of the Alaskan commercial fishing 
industry. The Coast Guard is tasked with conducting operations in 
Alaska that encompasses more than 3,800,000 square miles, which is 
larger than the land mass of the continental United States, and more 
than 33,000 miles of coastline. With the Alaskan fishing industry 
producing more than 60 percent of the national fishing totals each 
year, the cumulative loss of another cutter potentially from the west 
coast could place a significant portion of the Alaskan fishing fleet 
that routinely operate in the Bering Sea and gulf of Alaska in danger 
as well as preventing the Coast Guard from effectively ensuring that 
the safety and commercial fisheries regulations are adequately 
enforced.
    Previously you testified that your Department and the Coast Guard 
were committed to a plan to recapitalize the current high endurance 
cutter fleet with new national security cutters, an effort that was 
designed to maintain current cutter coverage levels while quickly 
brining the new class of cutters online. However, the fiscal year 2012 
proposed budget does not have any funding for the long lead time items 
for the sixth national security cutter. Yet your Department supports 
the President's proposed budget to decommission another high endurance 
cutter before a suitable replacement comes online. By delaying the 
purchase of the long lead time items, it appears to me that your 
Department and the administration are not fully committed to the Coast 
Guard's recapitalization efforts. It seems unfeasible for the Coast 
Guard to be able to protect the maritime public of Alaska with the 
continued pace of their cutter decommissionings. What plan do you have 
in place to assure that there is adequate cutter coverage in Alaska?
    Answer. The Coast Guard has and will continue to serve in Alaska 
with the existing fleet of high endurance cutters (WHEC) and new 
national security cutters (NSC). The USCGC Bertholf has been certified 
ready for operations and is conducting its first 110-day patrol in 
Alaska this spring. USCGC Waesche will be ready for operations by 
November 2011. USCGC Stratton will be delivered in September 2011 and 
ready for operations in the spring of 2013. These NSCs will be 
homeported on the west coast and will provide greater operational 
availability than the aging WHEC hulls they are replacing. The Coast 
Guard will leverage these and other assets to meet Bering Sea presence 
requirements in order to execute critical living marine resources, 
other law enforcement, and search and rescue missions.

                          SUBCOMMITTEE RECESS

    Senator Landrieu. Unless there are further comments or 
questions, which I do not think there will be, this meeting is 
recessed.
    [Whereupon, at 11:50 a.m., Wednesday, March 2, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
